<html>
<title> - THE STATE OF INTEROPERABLE COMMUNICATIONS PART I, II AND III</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
               THE STATE OF INTEROPERABLE COMMUNICATIONS
                           PART I, II AND III

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                 PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

          FEBRUARY 15, 2006, MARCH 1, 2006, and APRIL 25, 2006

                               __________

                           Serial No. 109-62

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                     U.S. GOVERNMENT PRINTING OFFICE

36-399 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY



                 Dave G. Reichert, Washington, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Reichert, a Representative in Congress From 
  the State of Washington, and Chairman, Subcommittee on 
  Emergency Preparedness, Science, and Technology................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Science, and Technology.............     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    41
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    47
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    39
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    84
The Honorable Bob Etheridge, a Representative in Congress From 
  the State North Carolina.......................................     7
The Honorable Jane Harman, a Representative in Congress From the 
  State California...............................................    42
The Honorable Bobby Jindal, a Representative in Congress From the 
  State of Louisiana.............................................     6
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    78

                               Witnesses
                      Wednesday, February 15, 2006

Mr. Tim Bradley, Senior Deputy State Fire Marshal, North Carolina 
  Office of State Fire Marshal, National Volunteer Fire Council:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Ms. Diane Linderman, Director-at-Large, Public Works Management/
  Leadership, American Public Works Association:
  Oral Statement.................................................    16
  Prepared Statement.............................................    19
Mr. William Moroney, President and Chief Executive Officer, 
  United Telecom Council:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Trooper Casey L. Perry, Wisconsin State Patrol, Chairman, 
  National Troopers Coalition:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Dr. William W. Pinsky, Executive Vice President & Chief Academic 
  Officer, Ochsner Clinic Foundation, American Hospital 
  Association:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30

                        Wednesday, March 1, 2006

The Honorable Robert Drake, Mayor, Beaverton, Oregon:
  Oral Statement.................................................    50
  Prepared Statement.............................................    52
The Honorable Gino P. Menchini, Commissioner, Department of 
  Information Technology and Telecommunications, City of New 
  York, State of New York:
  Oral Statement.................................................    57
  Prepared Statement.............................................    60
Steven H. Proctor, Executive Director, Utah Communications Agency 
  Network, (USCAN):
  Oral Statement.................................................    71
  Prepared Statement.............................................    73
Mr. Charles L. Werner, Fire Chief, Charlottesville Fire 
  Department, Commonwealth of Virginia:
  Oral Statement.................................................    61
  Prepared Statement.............................................    65

                        Tuesday, April 25, 2006
                                Panel I

Dr. David G. Boyd, Director, Office of Interoperability and 
  Compatibility, Directorate of Preparedness, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................   101
  Prepared Statement.............................................   103
The Honorable Tracy A. Henke, Assistant Secretary, Office of 
  Grants and Training, Directorate of Preparedness, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    94
  Prepared Statement.............................................    96
Mr. Kenneth P. Moran, Director, Office of Homeland Security, 
  Federal Communications Commission:
  Oral Statement.................................................   113
  Prepared Statement.............................................   115
Mr. Carl Peed, Executive Director, Office of Community Oriented 
  Policing Services (COPS), U.S. Department of Justice:
  Oral Statement.................................................   118
  Prepared Statement.............................................   121

                                Panel II

Mr. James Gass, Deputy Director, National Memorial Institute for 
  the Prevention of Terrorism:
  Oral Statement.................................................   149
  Prepared Statement.............................................   151
Mr. John Morgan, Assistant Director for Science and Technology, 
  National Institute of Justice, U.S. Department of Justice:
  Oral Statement.................................................   137
  Prepared Statement.............................................   139
Mr. Dereck Orr, Program Manager, Public Safety Communications 
  Systems, National Institute of Standards and Technology:
  Oral Statement.................................................   145
  Prepared Statement.............................................   147
Mr. Bruce Walker, Chairman, Subcommittee on Government Affairs, 
  Homeland Security and Defense Business Council:
  Oral Statement.................................................   154
  Prepared Statement.............................................   156


                       THE STATE OF INTEROPERABLE



                      COMMUNICATIONS: PERSPECTIVES



                             FROM THE FIELD



                                 PART I

                              ----------                              


                      Wednesday, February 15, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                    Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Dave Reichert 
[chairman of the subcommittee] presiding.
    Present: Representatives Reichert, Dent, Jindal, Pascrell, 
Thompson, Harman, Lowey, Norton, Christensen, and Etheridge.
    Mr. Reichert. [Presiding.] Good morning. The Committee on 
Homeland Security, Subcommittee on Emergency Preparedness, 
Science and Technology will come to order.
    The subcommittee will hear testimony today on perspectives 
from the field on the state of interoperable communications.
    I would first like to welcome our witnesses and thank them 
for taking time out of their busy schedules to be with us 
today. Thank you very much.
    I would also like to ask unanimous consent to allow Mr. 
Jindal to be a part of our panel this morning and be allowed to 
question the witnesses.
    Without objection.
    Good morning. Let me first welcome our distinguished panel 
and thank you all for being here to share your thoughts on the 
issue of great personal and professional importance to me: The 
problem of achieving and maintaining interoperable emergency 
communications.
    I would like to be really, very, very blunt here: It is 
intolerable to me that our nation's law enforcement, fire 
service and emergency medical personnel still confront many of 
the same emergency communications problems that I did as a 
rookie cop more than 34 years ago.
    It is intolerable to me that even with the rapid pace of 
technological and innovation and the vast amounts of money 
dedicated to improving emergency communication, our nation's 
first responders still experience difficulty communicating with 
one another on demand, in real time when needed.
    Until the events of September 11, 2001, many people just 
simply assumed that first responders from different disciplines 
and jurisdictions could communicate with one another. 
Unfortunately, that was not the case then. And as demonstrated 
by the inadequate response to Hurricane Katrina, it is not the 
case even now.
    The inability of police, fire, emergency medical services, 
public works, utilities and health case workers to communicate 
with one another effectively, may have even led to the loss of 
many lives in New Orleans and the Gulf states. The status quo 
is unacceptable.
    Our local police, fire and emergency medical service 
professions are our nation's first line of prevention, 
preparedness, response and recovery. And effective 
communication is absolutely essential to their mounting a well-
coordinated response, whether manmade or natural. Indeed, first 
responders and federal, state and local officials cannot 
establish meaningful command and control in the absence of a 
functioning communication system.
    Without the ability to receive timely reports from the 
field, the incident commander may have difficulty establishing 
situational awareness. Without the ability to issue 
instructions to first responders in the field, the operations 
chief cannot direct resources and personnel to areas where they 
are most needed. And without the ability to call for help, 
citizens cannot reliably seed medical and other emergency 
assistance. In other words, effective communication is 
essential for the right people to make the right decisions at 
the right time.
    The message is worth repeating: To mount an effective 
emergency response requires timely and accurate information so 
that the right people may make the right decisions at the right 
time.
    As I previously said, I have firsthand understanding and 
experience and an appreciation for this problem. Suffice it to 
say, I have faced the perils of life and death decision-making 
in my law enforcement career, and as sheriff of King County in 
Seattle, I have provided the safest possible environment for 
those that served in my office.
    But, sadly, inadequate emergency communications sometimes 
stood in my way. For example, the regional radio communications 
system in King County, in the Seattle area, which served all 49 
governments in the county, suffered terrible interference.
    The proliferation of cell phone towers overpowered and 
disrupted the deputies' ability to receive their radio signals, 
thus jeopardizing their safety. As sheriff, I took immediate 
remedial action to redress that particular situation. But now 
as a Member of Congress and chairman of this subcommittee, I 
have a forum through which I intend to solve this larger 
communication problem across our country.
    While the recently enacted Deficit Reduction Act included a 
necessary initial step of freeing up much needed spectrum and 
established a $1 billion interoperable grant program, 
interoperable communications is about much more than just 
spectrum and money. It was about the need for strong 
leadership, effective communication, adequate planning and a 
management system that worked.
    Today is the first in a series of hearings that will be 
scheduled in the future to highlight the issues and 
perspectives of the various experts which you are all here as 
members of and I know serve on the front lines. Sort of where 
the rubber meets the road, kind of, is what we need to hear.
    In the successive hearings, the subcommittee will hear the 
perspectives of state and local officials, federal officials 
who administer interoperable grant programs and other 
activities and experts in the field of emergency communications 
technology.
    And, again, I want to thank the witnesses for their 
testimony today.
    The Chair now recognizes the ranking minority member of the 
subcommittee, the gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman, and thank you for 
holding this series of hearings. And as you know, I must 
apologize, I have three things going on at the same time, but 
the Ranking Member is here and obviously will carry on as will 
other members.
    It goes without saying that this an issue of utmost 
urgency. My profound hope is that this subcommittee, with the 
leadership of my friend, Chairman Reichert, will have as its 
legacy a lasting solution for the communications problem.
    Indeed, I am heartened by the chairman's commitment to hold 
these hearings in anticipation of bipartisan legislation, which 
we have already started to look at, that will improve the 
communication capabilities of emergency responders. I can 
assure all of you who are testifying today, we mean business.
    When the 9/11 Commission released its final report, it 
found that the inability of our first responders to talk with 
each other and their commanders resulted in a loss of life. The 
9/11 Commission identified the need for more spectrum as 
crucial to assist emergency responders in communicating during 
an emergency such as a terrorist attack or a hurricane.
    But the 9/11 Commission in this regard, at least, 
identified a problem that has been in existence for decades, 
and it identified a problem that many policy makers have known 
about for some time.
    In 1996, Congress, asked a blue ribbon committee, the 
Public Safety Wireless Advisory Committee, to examine the 
issues of interoperable communications. It concluded 10 years 
ago that public safety agencies did not have sufficient radio 
spectrum to do their jobs.
    This is nothing new to you. You are the front lines, we 
thank you for your service, and here we are again.
    The committee is supposed to have congested channels on 
radio frequencies cleared on the fifth anniversary date of the 
release of the report. Five years later, on September 11, 2001, 
the spectrum identified was still not available for public 
safety use in most of the nation.
    In 2002, the National Task Force on Interoperability 
convened several meetings with various national associations 
representing public safety officials to discuss the challenges 
of interoperable communications. They explicitly identified the 
key challenges that must be addressed if we are to move 
forward.
    For example, incompatible and aging equipment, limited 
funding from the federal government, fragmented planning, in 
general, lack of coordination and cooperation from all 
different stakeholders, as well as, of course, insufficient 
radio spectrum. And I might add, Trooper Perry, I did read 
through all of your testimony, by the way, and again apologize 
for having to leave soon. But I did read yours, and I want to 
just quote something that you did say in your presentation: 
``The lack of common standards among vendors continues to 
present difficulties of interconnection.''
    Now, I am certainly not an expert on interoperability, but 
it is pretty logical here, if vendors of equipment and software 
received tax-supported dollars from state, counties and 
municipal governments, they must be held accountable so that 
their products will create optimal technologies compatible with 
other vendors' systems. That is pretty logical to us, but it is 
not happening.
    So they have known about the problems, and many have 
explored the possible remedies that we should undertake. Yet 
here we sit after 9/11, after Hurricane Katrina wondering why 
no real progress has been made, not only in this area but in 
other areas.
    And I think it is fair to add that I believe the current 
administration has provided very little leadership. The 
President's fiscal year 2007 budget requests no funds for 
grants to enhance interoperability. I want that to set in this 
morning. Nada. Zero.
    The President's fiscal year 2007 budget proposed to 
eliminate the COPS Interoperability Grant Program, which is 
charged with awarding technology grants to law enforcement 
agencies for the purpose of enhancing interoperability and 
information sharing. The President zeroes out this program 
after it was significantly cut in fiscal year 2006 budget. It 
was funded at $10 million, down from $99 million in the fiscal 
year 2005 budget.
    The administration justifies its proposed elimination of 
COPS interoperability grants on the ground that the program is 
redundant with the efforts of the Department of Homeland 
Security. The Department does not have a dedicated 
interoperability grant program, however.
    Now, who are we kidding here?
    We stand behind the executives whenever they get their 
pictures taken, and you guys and gals are there all the time, 
and it is time--if the gig is up, the gig is up. If we mean 
business, let's do something about it. If we do not mean 
business, then we will have charades, time for more charades. I 
do not think this chairman wants a charade. I am convinced that 
he does not.
    This has nothing to do with partisan politics either. This 
administration does not get it. I do not know what party they 
belong to, to be very honest with you.
    The President's budget proposes a modest $3.5 million 
increase for the Office of Interoperability and Compatibility 
in the 2007 budget. This increase is far less than what is 
necessary to remedy the weaknesses that were evident with the 
glaring failure of emergency communication in Katrina and Rita.
    This slight increase is far from what SAFECOM, with only 
four to seven full-time employees, needs to accelerate the 
standards and the development of interoperable communications 
equipment.
    We are long past the point where we in Washington pay lip 
service to the problem. I know my chairman feels the same way.
    Finally, I would like to add that as we move forward and 
work toward achieving interoperability, we must realize that we 
are facing basic operability issues as well. Past domestic and 
international instances, whether manmade or natural disasters, 
have shown that our nation's communications systems are closely 
tied together.
    We have seen that one storm can overload or completely 
damage our landline-based communications systems. Wireless 
networks, land-based radio communications systems 
simultaneously. We need to continue to work together to 
determine how we can be prepared if an event takes all our 
terrestrial communications systems out at once.
    Indeed, we have some very serious responsibilities before 
us and look forward to working closely with Chairman Reichert 
to help propose serious solutions to these serious problems.
    And I might add, Mr. Chairman, that I am glad to see that 
we are going to have the FCC before us, and all hell is going 
to break out, I am going to tell you that, when they get here. 
As you well know, we have a history.
    So I want to commend you for the floor hearings you put 
together. This is no easy task, and it is not going to be 
pleasant, it is not going to be a day at the beach, but we are 
going to get something accomplished. Thank you.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you. Thank you, Mr. Pascrell. It is a 
good thing there is a sheriff in the house. We do not want all 
hell to break loose.
    [Laughter.]
    The Chair now recognizes the ranking minority member of the 
full committee, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Chairman Reichert and 
Ranking Member Pascrell. I want to associate myself with your 
comments. I agree with them wholeheartedly.
    But, also, as you know, this is the first of four hearings 
that we will hold on this issue, on the challenges of achieving 
interoperability during times of emergency.
    As a former volunteer firefighter, I can personally attest 
to the important communications that first responders need 
during emergencies. It can mean the difference between life and 
death. It is deeply unsettling that even after the devastating 
Oklahoma bombing, the 9/11 attacks, the London and Madrid 
bombings and the catastrophic devastation of Hurricanes Katrina 
and Rita that interoperability communications remains a rainbow 
at the end of the storm. Everyone claims to see it in the 
horizon, but no one has been able to find a magical 
interoperable pot of gold at the other end.
    The 9/11 communications report made it clear that 
interoperable communications is critical, yet the colossal 
communications challenges during Hurricane Katrina was a 
stinging indictment of Congress' to lead on a very critical 
issue.
    I look forward to the testimony of the witnesses here 
today. I am also looking forward to the subsequent hearings on 
the roles of state and local government, the role of federal 
agencies in the state and impact of technology in the area of 
interoperable emergency communications.
    The ultimate goal is to produce clear legislation that 
expedites and facilitates the delivery of emergency 
communications systems to those who need it most. It is not 
enough to make lofty speeches that fail to give clear 
directives. It is not enough to support our first responders 
and yet shortchange them by improperly funding the critical 
programs that funds the emergency communication systems they 
need.
    I, therefore, welcome the spirit of bipartisan, Mr. 
Chairman, in ultimately coming up with a piece of legislation 
that can fix this problem so that once and for all those 
individuals who are tasked with the responsibility of helping 
in time of need can in fact do their job and communicate with 
each other.
    Thank you, and I look forward to the testimony today.
    I yield back the balance of my time.
    Mr. Reichert. Other members of the committee are reminded 
that opening statements may be submitted for the record.
    We are pleased to have a distinguished panel of witnesses 
with us today. First, we have Trooper Casey L. Perry of the 
Wisconsin State Patrol and chairman of the National Troopers 
Coalition. We also have with us today Mr. Tim Bradley, senior 
deputy state fire marshal for the North Carolina Office of 
State Fire Marshal and a member of the National Volunteer Fire 
Council; Ms. Diane Linderman, director-at-large of American 
Public Works Association; Mr. William Moroney, president and 
chief executive officer of the United States Telecom Council; 
and Dr. William Pinsky, executive vice president and chief 
academic officer of the Ochsner Clinic Foundation and a member 
of the American Hospital Association's Committee on Health 
Preparedness.
    Let me remind the witnesses that their entire witness 
statement will appear in the record. We ask that due to the 
number of witnesses on our panel today that you strive to limit 
your comments to no more than 5 minutes.
    The Chair now recognizes Trooper Perry.
    First, before we go to the first witness, I would ask Mr. 
Jindal to introduce the gentleman from Louisiana.
    Mr. Jindal. Thank you, Mr. Chairman. I want to thank you 
and the other members for allowing me to come and sit with my 
colleagues on the subcommittee. I also want to thank you for 
holding this hearing. You are obviously uniquely qualified to 
talk about the issue of interoperability.
    I certainly share my colleagues' frustrations. Having been 
through Hurricanes Katrina and Rita, we saw firsthand in 
Louisiana the difficulties caused by the lack of interoperable 
communications, this even after the fact the federal government 
spent billions of dollars toward interoperable communications. 
My colleagues have pointed out this has been a challenge not 
only since 9/11 but well before that.
    It is my privilege to introduce not only a distinguished 
member of this panel before us but also an individual who was 
on the ground during Hurricane Katrina. Dr. Pinsky serves at 
the Ochsner Clinic Foundation or the hospital operated by the 
Ochsner Clinic Foundation.
    I went of tell you a little bit about Ochsner and why it is 
so important we are hearing from Dr. Pinsky today. Ochsner's is 
one of only three hospitals in the greater New Orleans area 
that was able to stay open continuously through Hurricane 
Katrina. Despite the lack of power, despite being surrounded by 
flooded waters, they were able to keep their doors open and to 
provide critical services for the people of the greater New 
Orleans area.
    They are also one of three graduate medical education 
programs in the area and the only one that continues to operate 
at full capacity. So they were serving a critical role, and 
since the hurricane they have not closed their doors for one 
minute, and I think they need to be recognized and applauded 
for this heroic effort.
    Dr. William Pinsky is the executive vice president, the 
chief academic officer of the foundation. He is responsible for 
all of the professional medical education and research 
programs. He received his medical degree from St. Louis 
University in 1973 following his training in pediatrics and 
pediatric cardiology at the Baylor College of Medicine.
    Dr. Pinsky pursued a career in academic pediatric 
cardiology, served on the faculties at Baylor, the Baylor 
College of Medicine, the University of Nebraska, Tulane 
University and Wayne State University.
    We are very pleased to have him here.
    I will add, not only am I proud of the work they have done, 
my son is actually a patient at Ochsner, so I can say firsthand 
they do an excellent job for our community.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Jindal.
    Mr. Etheridge, you have an introduction to make.
    Mr. Etheridge. Thank you, Mr. Chairman, and I am pleased to 
say a word for my friend, Tim Bradley, and welcome him to this 
subcommittee hearing today.
    Tim is a senior deputy fire marshal for the state of North 
Carolina. He also serves as the state fire training director, 
which, as you know, is important as well. He is well-qualified 
to talk about state interoperable communications from the 
perspective of the first responder. Let me just say why.
    He began his career with the Mebane Volunteer Fire 
Department, including 7 years as chief. He continues to serve 
as volunteer assistant chief even today. During his 32 years of 
public service, he has been a certified fire rescue instructor, 
fire arson investigator, life safety educator and hazardous 
material responder. So he has had a pretty good broad base, and 
so I look forward to his comments today.
    You know, good interoperable communications are critical, 
as you well know, Mr. Chairman, to success in a response, and I 
was proud to join my colleague, Representative Harman in the 
HERO Act, but I am dismayed that the administration's foot-
dragging in interoperable equipment. The President, as you have 
already heard, zeroed out the few programs that help local and 
state responders obtain communications technology, which I 
think is critical.
    And the American people have a right to expect their 
national leaders to provide all the necessary means for their 
safety and security. And we should no longer tolerate 
negligence in the need for interoperable equipment now more 
than 4 years after 9/11 terrorist attack. Our first responders 
should not have to struggle to answer that famous TV 
commercial: ``Can you hear me now?''
    Thank you, and I yield back the balance of my time.
    Mr. Reichert. Thank you, Mr. Etheridge.
    The Chair now recognizes Trooper Perry.

STATEMENT OF CASEY PERRY, CHAIRMAN, NATIONAL TROOPERS COALITION

    Mr. Perry. Good morning, Chairman Reichert, Ranking Member 
Pascrell and distinguished committee members. I am Casey Perry, 
chairman of the National Troopers Coalition, representing our 
nation's state troopers. It is both an honor and a privilege to 
be before this committee today in order to testify on state 
troopers' thoughts, ideas and concerns. I will share with you 
my experiences as users from the field who provide service and 
security to our citizens.
    To begin, I would like to thank our members of Congress for 
their support to the Department of Homeland Security. I have 
served 3 years in the United States Army and 27 years as a 
Wisconsin state trooper. Throughout my career I have 
consistently confronted obstacles in cooperation and trust 
between the various layers of government and discipline of 
emergency services.
    I am pleased to report, however, that since the creation of 
the Department of Homeland Security, we have made great strides 
in both trust-building and information sharing. During the past 
2 years, I have attended various programs and conferences 
hosted by the Department of Homeland Security, Department of 
Justice and Office of Justice Assistance.
    My experience has been as the delegates debate potential 
solutions to address the problems we face, the age-old failure 
continues between states, counties and municipal rights, as 
well as with the disciplinary of emergency medical services, 
fire, law enforcement and emergency government. Each entity 
resists losing their share of control.
    This is the underlying root of the problems we face today. 
We cannot address communication interoperability without first 
addressing the problems in the current power structure as we 
continue to waste our tax dollars.
    The government, in serving as the parental figure, has to 
hold the children and it has told the children to be nice to 
their brother and sister but has failed as a parent in gaining 
compliance.
    The parent needs to now withhold the children's allowance, 
or in this case federal grant money, until they learn to 
cooperate with each other. We need to overcome the political 
issues across our jurisdictions to build a communications 
platform that will serve each partner equally. The cost-
building of such a program is not a one-time investment. It 
will require ongoing investments.
    Therefore, federal grant monies need to come with strings 
attached. States must be held accountable in creating a 
communications network that is a dedicated channel and/or 
shared channel capability for EMS, fire, law enforcement and 
emergency government, which will serve their entire state, 
allowing each county and municipal government full access.
    States redistributing federal grant money to county and 
municipal governments must ensure the money is spent on 
compatible equipment and software to interface with the 
statewide platform.
    The lack of common standards among vendors continue to 
present difficulties in interconnection. If vendors of 
equipment and software receive tax-supported dollars from 
states, counties or municipal governments, they must be held 
accountable. So their products will create optimal technologies 
compatible with other vendors' systems.
    Being on the front line, so to speak, troopers and other 
law enforcement officers throughout our nation rely on 
communication each and every day. Agencies must provide 
equipment that will allow our law enforcement officers to 
communicate with one another along with other disciplines of 
EMS, fire, emergency government.
    As communication equipment users, we count on other law 
enforcement jurisdictions, EMS and fire several times a day 
during the regular course of our duty. If we address the issue 
of interoperability at the basic level here, on the front line, 
during these daily occurrence, we will have addressed a number 
of issues regarding the localized emergency response, services 
involving multiple intrajurisdictions, planned events, 
including athletic events, conferences and conventions and 
regional incident management of natural and manmade disasters.
    In closing, it is my assessment that currently federal tax 
dollars are not being allocated, managed or spent efficiently. 
Furthermore, there are no mechanisms in place to ensure 
accountability. Therefore, the lack of such coordination among 
our federal programs creates confusion and duplication of 
equipment and software that the end users contend with on a 
daily basis.
    I would be happy to answer any of your questions after the 
other panel members have a chance to provide testimony, and I 
will be more than happy to provide personal experiences related 
to my testimony.
    Thank you.
    [The statement of Mr. Perry follows:]

                   Prepared Statement of Casey Perry

                      Wednesday, February 15, 2006

    Good morning Chairman Reichert, Ranking Member Pascrell and 
distinguished Committee Members. I am Casey Perry, Chairman of the 
National Troopers Coalition (NTC), representing our nation's state 
troopers. It is both an honor and a privilege to appear before this 
committee today in order to testify on state troopers' thoughts, ideas, 
and I will share with you our experiences as users from the field who 
provide service and security to our citizens.
    To begin, I would like to thank our Members of Congress for their 
support of the Department of Homeland Security. I served three years in 
the U.S. Army and the past 27 years as a Wisconsin State Trooper. 
Throughout my career I have consistently confronted obstacles in 
cooperation and trust between the various layers of government and 
disciplines of emergency services. I am pleased to report, however, 
that since the creation of the Department of Homeland Security we have 
made great strides in both trust-building and information sharing.
    During the past few years I have attended various programs and 
conferences hosted by the Department of Homeland Security, Department 
of Justice, and the Office of Justice Assistance. My experience has 
been that as the delegates debate potential solutions to address the 
problems we face, the age-old barriers continue between states, 
counties, and municipal rights, as well as with the discipline areas of 
emergency medical service, fire, law enforcement, and emergency 
government. Each entity resists losing their share of control. This is 
the underlying root of the problems we face today. We cannot address 
communication interoperability without first addressing the problems in 
the current power structure or we will continue to waste our tax 
dollars. The govemment, in serving as a parental figure, has told the 
children to be nice to their brother and sister but has failed as a 
parent in gaining compliance. The parent now needs to withhold its 
children's allowance (or in this case federal grant money) until they 
learn to cooperate with each other.
    We need to overcome the political issues across our jurisdictions 
to build a communication platform that will serve each partner equally. 
The cost of building such a platform is not a one-time investment but 
one that will require an ongoing investment. Therefore, federal grant 
money needs to come with strings attached. States must be held 
accountable for creating a communications network--that is a dedicated 
channel shared channel capability for EMS, Fire, Law Enforcement, and 
Emergency Government--which will serve their entire state, allowing 
county and municipal governments full access. States redistributing 
federal grant money to county and municipal governments must ensure 
that the money is spent on compatible equipment and software to 
interface with the statewide platform.
    The lack of common standards among venders continues to present 
difficulties of interconnection. If venders of equipment and software 
receive tax-supported dollars from states, counties, or municipal 
governments, they must be held accountable so that their products will 
create optimal technologies compatible with other venders' systems.
    Being on the front line so to speak, troopers and other law 
enforcement officers throughout our nation rely on communications each 
and every day. Agencies must provide equipment that will allow our law 
enforcement officers to communicate with one another as well as the 
other disciplines of EMS, Fire, and Emergency Government.
    As communication equipment users, we count on other law enforcement 
jurisdictions, EMS, and Fire several times a day during the regular 
course of duty. If we address the issue of interoperability at the 
basic level here, on the front lines, during these daily occurrences, 
we will have addressed a number of issues regarding localized emergency 
response: services involving multiple intra-jurisdictions; planned 
events including athletic events, conferences, and conventions; and 
regional incident management of natural and man-made disasters.
    In closing, it is my assessment that currently federal tax-dollars 
are not being allocated, managed, or spent efficiently. Furthermore, 
there are no mechanisms in place to ensure accountability. Therefore, 
the lack of such coordination among our federal programs creates 
confusion and duplication of equipment and that end-users contend with 
on a daily basis.
    I would be happy to answer any of your questions or to provide 
personal experiences related to my testimony.

    Mr. Reichert. Thank you, Trooper Perry.
    The Chair now recognizes Mr. Bradley on behalf of the 
National Volunteer Fire Council.

  STATEMENT OF TIM BRADLEY, SENIOR DEPUTY STATE FIRE MARSHAL, 
   NORTH CAROLINA, ON BEHALF OF THE NATIONAL VOLUNTEER FIRE 
                            COUNCIL

    Mr. Bradley. Thank you, Congressman Etheridge, for that 
fine introduction.
    It is a pleasure to be here today.
    Interoperability became a catch word after 9/11 and has 
increased since Hurricane Katrina, but it is important to 
remember that interoperability is not just about responding to 
hurricanes or terrorist attacks; it is being prepared to handle 
any kind of event that occurs.
    It is also not about technology alone. It is about 
enhancing communications. That is the ultimate goal.
    It can be reached only if the varying parties know not only 
what the other individuals said but what the individual is 
saying and what they mean.
    Some of the necessities for enhancing coordination in 
addition to communication equipment is commonness in management 
terminology, common policies and procedures, standardized 
training and compatible equipment.
    From a state perspective, North Carolina has been working 
on a system called VIPER, or Voice Interoperability Plan for 
Emergency Responders. It is a statewide system that will be 
available to all public agencies and is targeted to be complete 
in 2010.
    The problem is that VIPER is not being used by most local 
agencies. Local government has simply not taken advantage of it 
due to cost. It is estimated that there are 75,000 individual 
radios in use by first responders in North Carolina, yet county 
to county, discipline to discipline, it is extremely 
fragmented. Few of those can talk to one another.
    Interoperability communications was identified by the 
general assembly in 1995 as a problem, yet we still, agency to 
agency, cannot communicate well in our state.
    From a federal perspective, the national preparedness goal 
for the Department of Homeland Security established 
strengthening interoperability communications as a primary goal 
and one of their seven national priorities.
    Also on the federal level, following the creation of VIPER 
and which VIPER modeled very closely, the Office of 
Interoperability Communication and the Department of Justice's 
CommTech Program brought about and announced the first ever 
statement of requirements for public safety and 
interoperability.
    SAFECOM released its first statements of requirements in 
2004, and it defines future communication requirements for 
voice and data systems, as well as preparing the nation's 
50,000 public safety agencies to develop a communication 
network. SAFECOM was designed to create interoperability 
solutions that are driven from the bottom up by the users.
    From an accessed radio spectrum of 700 megahertz, Mr. 
Chairman, that you mentioned, first off, I would like to thank 
the members of this committee. You were leaders in getting that 
band released for first responders, and I would like to offer 
my personal appreciation.
    But that band will be available for first responders in 
2009. $1 billion in proceeds from the sale of radio-to-radio 
spectrum have been earmarked to assist public safety agencies 
in the use of this interoperable communications. This is just 
the tip of the iceberg in terms of the eventual cost for 
creating a truly national system of communications.
    Cost is a concern for all fire departments, but 
particularly is acute for the volunteer fire departments like I 
served on. Many departments of this nature depend on private 
funding, private fundraising and donations. Fire departments 
that are always stretching their budgets just to survive are 
unlikely to remain operable with this kind of increase in 
technology simply because of the large amount of money required 
in expenditures.
    So the challenges we face are that most departments have 
learned to deal with their problems, but the problems are going 
to be increased. For example, if one county puts in an 800 
megahertz system, another county does not have it, ca not 
communicate with them and the issue of switching radio channels 
no longer exists from VHS to 800 megahertz.
    From a recommendation standpoint, I would simply say that 
the federal government needs to get serious about implementing 
national communications interoperability. There has been many 
positive steps that have been mentioned, but if improving 
interoperability communications capabilities is really one of 
the seven national priorities critical to achieving DHS' goals, 
then there needs to be stronger federal coordination.
    OIC is currently under the engineering and development 
section, which is under the Science and Technology Directorate 
in DHS. Interoperability really needs a higher profile within 
DHS and in the federal government, in general.
    As I mentioned earlier in my print remarks, NTIA has been 
tasked with facilitating the transition to the radio spectrum 
in the 700 megahertz band of first responders and administering 
$1 billion currently set aside for that purpose. We think DHS 
would be the logical candidate to amend this program simply 
because of their prior work in dealing with first responders.
    The federal government should continue to improve and 
encourage use of SAFECOM, not only seeing it as a 
recommendation but making it a requirement. We should consider 
establishing federal standards such as the App Code 25 SAFECOM 
to receive federal grants for communications. If we do not, 
counties, local government will continue to purchase equipment 
and still continue to be stand-alone agencies.
    Last but not least, I would just like to say that in 
addition to providing this equipment and in addition to 
providing interoperability, one, we must continue to remember 
that state training agencies need funds to train first 
responders. You cannot be interoperable simply with equipment; 
you have to have the training as well.
    Mr. Chairman, I will be happy to answer any questions after 
the panel members are through, and thank you for the 
opportunity to be here.
    [The statement of Mr. Bradley follows:]

                   Prepared Statement of Tim Bradley

                      Wednesday, February 15, 2006

Introduction
    Chairman Reichert, Ranking Member Pascrell, and distinguished 
members of the Subcommittee, my name is Tim Bradley, and I am Senior 
Deputy State Fire Marshal over the Office of State Fire Marshal in 
North Carolina, as well as volunteer Assistant Chief of the Mebane Fire 
Department and a member of the National Volunteer Fire Council, who I 
am representing here today. Thank you for the opportunity to provide 
you with my perspective on the issue of interoperability in 
communications.
    In North Carolina the responsibilities of State Fire Marshal are 
with the Insurance Commissioner. The North Carolina Office of State 
Fire Marshal employs 106 individuals who coordinate building and fire 
codes; conduct building plan review; building code interpretations; as 
well as fire and rescue training; professional qualifications and 
certifications of first responders; and inspection of fire departments 
and fire incident reporting. We also work closely with our states 
emergency management office and serve as the coordinating agency for 
fire and rescue personnel and equipment during disasters. We work 
closely with 1289 fire departments, of which 967 are volunteer, 245 a 
combination of career and volunteer, and 77 career.
    In my position I serve as State Fire Training Director and work 
closely with the National Fire Academy, International Fire Service 
Accreditation Congress, and other state training offices.
    On a local level, I serve as volunteer Assistant Chief of a 
combination department that serves a community of 10,000 in a suburban 
and rural setting, and deals with two different County communication 
centers. I am a certified firefighter, Officer, Instructor, Fire/Arson 
Investigator, Rescue Technician, and Life Safety Educator. I have been 
a volunteer firefighter for 32 years.
    I also serve as an elected member of the City Council of our small 
community.

Interoperability Overview
    Interoperability is a critical issue for the emergency services and 
affects metropolitan, urban, and rural settings. It has received 
varying levels of attention depending on which region of the country 
you live in. Interoperability became a catchword after 9/11, and again 
since Hurricane Katrina. However, interoperability isn't just about 
responding to terrorist attacks or natural disasters. Truly 
interoperable communications allow emergency responders to better 
coordinate their response to all types and all sizes of events.
    Interoperability is also not just about technology and equipment. 
While my testimony focuses on communication, enhancing coordination is 
the ultimate goal and it can only be reached if the various parties 
responding to an event know not only what the others are saying, but 
what they mean. For example, in Indiana, a tanker is a truck full of 
water, while in California it is an airplane full of fire-retardant 
agents. Outside of interoperable communications, some of the 
necessities for enhancing coordination are:
--common incident management systems and terminology
--common policy and procedures
--standardized training
--compatible equipment

State and Local Perspective
    North Carolina is working diligently on a state-wide communication 
system called VIPER, or Voice Interoperability Plan for Emergency 
Responders. This system will be available to all public agencies and is 
targeted to be completed by 2010. This does not mean all public 
agencies will all use it, and many will not due to costs of updating 
their existing equipment. Interoperable communications was identified 
in theSec.  General Assembly's Criminal Justice Information Network 
report of 1995 as a critical need for public safety agencies when 
responding to emergencies. It is estimated that there are over 75,000 
individual radios in use in NC by first responders, yet county to 
county, discipline to discipline, it is extremely fragmented. I'm sure 
it mirrors the national trend.
    It is estimated that State and local agencies in North Carolina, 
prior to the coordinated effort of VIPER, had already invested over 
$270 million in 800 MHZ technology, much of which would not be easily 
compatible with VIPER, even though VIPER is 800 MHZ. Hence the need for 
guidance and standardization. If you extrapolate that out on a national 
level, it would be astounding. If every state in the country had spent 
as much per capita as North Carolina on this technology, it would come 
out to a national bill of almost $10 billion.
    Public safety officials in North Carolina should be able to 
communicate directly with other public safety officials without having 
to relay the message through a communications center. If put in place, 
VIPER interoperable communications would benefit all public safety 
agencies when dealing with daily emergency calls or large scale 
disasters. This will make fire, rescue, and law enforcement agencies 
better able to serve the citizens of North Carolina. The problem with 
the VIPER system is that most local governments are not taking 
advantage of it due to cost. It actually may become just another 
variable in a myriad of systems.

Federal Perspective
    The overarching National Preparedness Goal for the Department of 
Homeland Security (DHS) is ``to engage Federal, State, local, and 
tribal entities, their private and non-governmental partners, and the 
general public to achieve and sustain risk-based target levels of 
capability to prevent, protect against, respond to, and recover from 
major events in order to minimize the impact on lives, property, and 
the economy.'' When DHS established the goal in March 2005, one of the 
seven National Priorities identified as being critical to achieving 
success was strengthening interoperable communications capabilities.

SAFECOM
    The creation of VIPER in North Carolina was followed very closely 
by the establishment of the SAFECOM program. SAFECOM is self-described 
as, ``. . .a communications program within the Office for 
Interoperability and Compatibility (OIC) that provides research, 
development, testing and evaluation, guidance and assistance for local, 
tribal, state, and federal public safety agencies working to improve 
public safety response through more effective and efficient 
interoperable wireless communications.''
    OIC and the Department of Justice's CommTech program partnered to 
formulate the first ever Statement of Requirements (SoR) for public 
safety communications and interoperability. SAFECOM released the SoR in 
April 2004. The SoR provides the Nation's 50,000 public safety agencies 
with a document defining future communications requirements for both 
voice and data communications.
    The foundation of the SAFECOM Program and the driving force behind 
it has been the support of the local and state public safety 
practitioners. As a practitioner-driven program, SAFECOM is a program 
designed by public safety creating interoperability solutions that are 
driven from the bottom-up.

Access to Radio Spectrum in the 700 MHz Band
    As I'm sure the Committee is aware, legislation was recently 
enacted that establishes February 17, 2009 as the date when parts of 
the 700 MHz band of radio spectrum, currently being used to transmit 
television signals, will be made available to first responders for 
communications. NVFC worked alongside other first responder groups for 
years to get a hard date set for the transition to take place. Many of 
our biggest supporters on this issue are members of this Committee and 
I'd like to take this opportunity to thank you for your leadership.
    Now that we know when the spectrum will be available our focus 
turns to how it will be utilized. My understanding is that $1 billion 
in proceeds from future sales of radio spectrum have been earmarked to 
assist public safety agencies in acquiring, deploying, or training for 
the use of interoperable communications. This is just the tip of the 
iceberg when it comes to the eventual cost of creating a truly national 
system of communications interoperability, but it is an excellent 
start. While that funding is currently slated to be administered by the 
National Telecommunications and Information Administration (NTIA) at 
the Department of Commerce instead of DHS, I think that it is worth 
mentioning in any conversation about interoperable communications and 
because it demonstrates the tremendous cost implicit in transitioning 
thousands of fire departments' communications systems.
    Cost is a concern for all fire departments, but it is particularly 
acute for thousands of volunteer departments. As noted in A Needs 
Assessment of the U.S. Fire Service, a 2002 study published by the 
National Fire Protection Association in conjunction with FEMA and the 
US Fire Administration, many volunteer departments depend on private 
fund raising to pay for operating expenses. Also, it is not uncommon 
for a volunteer department to rely on used equipment to save money. It 
is unlikely that fire departments that are already stretching their 
budgets just to remain operable would be able or inclined to invest a 
large amount of money to become interoperable.

Challenges
    You cannot make fire departments nationwide interoperable until we 
make them operable, meaning having local communication systems that 
meet their needs. Most fire departments have learned to cope with their 
current communications problems internally, but when they respond 
outside their jurisdictions on mutual aid, either within the region or 
outside of it, multiple problems exist. If one county has strict use of 
800 MHz systems, but does not use the low band and responds mutual aid 
to another county in the State that does, problems are encountered 
immediately.
    Effective communication is based upon funding availability and 
system structure design within local areas. Many metro counties and 
systems seem to be ahead of the communication curve versus the rural 
areas and their systems. In fact, the advancement of technology has, in 
some cases, actually made the disparity between systems even greater. 
This is particularly disconcerting when you consider that rural areas, 
which are primarily protected by volunteer departments, contain the 
vast majority of our highway system, traveled by hundreds of millions 
each year.

Recommendations
    The federal government needs to get serious about implementing 
national communications interoperability. There have been many positive 
steps in recent years, but if improving interoperable communications 
capabilities really is one of seven National Priorities critical to 
achieving the DHS' National Preparedness Goal there needs to be 
stronger federal coordination. OIC, which houses SAFECOM, is part of 
the Office of Systems Engineering and Development, which is under the 
Science and Technology Directorate at DHS. Interoperability needs a 
higher profile than this within DHS and in the federal government in 
general.
    As I mentioned earlier, NTIA has been tasked with facilitating the 
transition of radio spectrum in the 700 MHz band to first responders 
and administering the $1 billion currently set aside for that purpose. 
DHS would be a logical candidate to administer this program because of 
its past work through SAFECOM and OIC and its experience dealing with 
first responders and first responder grants, which NTIA lacks. NVFC 
would prefer to see responsibility for administering this program 
shifted to DHS. At the very least, NTIA should follow SAFECOM grant 
guidance.
    The federal government should continue to promote the use of 
SAFECOM's Statement of Requirements for interoperability, mandating it 
to receive federal grants for communication equipment within states. 
Grants for communication equipment should be granted based on regional 
standardization, so that grant recipients purchasing communication 
equipments don't become stand alone agencies.
    Nationally, we should consider the establishment of standards for 
communication interoperability instead of simply providing 
recommendations, so that when funds are expended for communication 
equipment by local government, it meets interoperability needs. 
Promotion of the National Incident Management System and the training 
and use requirements are a model of the attention given when programs 
are mandated rather than recommended. Do away with the ability of 
manufacturers to do their own thing in providing public communications 
and require APCO's Project 25 compliance when government agencies 
purchase equipment except, consistent with SAFECOM grant guidance, when 
a public safety agency cannot afford to do so.
    We must provide State fire training agencies with funds and 
programs to train first responders, not only in communications, but in 
all areas of interoperability. Awareness often drives technology on the 
local level, and state training routinely gets left out when grants are 
awarded. Without a common training and standardization platform, any 
advances in technology or expenditures for equipment will be confusing, 
and counter productive.
    There must be a concerted effort to educate local and state 
government officials on the needs of first responders regarding 
interoperability. Local officials must be made aware of the impact of 
poor communications, not only during disasters, but during routine 
emergency operations. Interoperability will never occur with first 
responder awareness alone. Local government officials who control 
budgets must be convinced.
    We need to reach out and explore how similar organizations 
accomplish command and control communications. These may include the 
military, UPS, Fed Ex or other agencies who manage large sums of 
information constantly. During disasters, FEMA must have a task group 
that immediately establishes communication mechanisms region wide to 
allow all incoming responders to be interoperable. This will be much 
easier if the local region has standardized protocols and equipment 
parameters.

Conclusion
    I believe we have an opportunity to blend improvements in 
technology with needs of interoperability. The critical issue is that 
we must move rapidly to prevent that same technology from becoming 
another stumbling block.
    It has been an honor and privilege to speak with you, I'll be happy 
to answer any questions you have.
[GRAPHIC] [TIFF OMITTED] 36399.001


    Mr. Reichert. Thank you, Mr. Bradley.
    The Chair now recognizes Ms. Diane Linderman.

 STATEMENT OF DIANE LINDERMAN, DIRECTOR-AT-LARGE, PUBLIC WORKS 
                   MANAGEMENT AND LEADERSHIP

    Ms. Linderman. Good morning, Chairman Reichert, Ranking 
Member Thompson and distinguished members of the panel.
    My name is Diane Linderman, and I am the director of Urban 
Infrastructure and Development for VHB, Incorporated, in 
Richmond, Virginia, and formerly the Public Works director for 
the city of Richmond.
    I am also director-at-large for leadership and management 
of the American Public Works Association, or APWA. I am here 
today on behalf of APWA's 27,000 members and our nearly 2,000 
public agency members.
    Public works officials are first responders. We work 
alongside police, fire and emergency service professionals to 
ensure that water is flowing through the fire hoses, traffic 
lights are operating and traffic is moving, barricades are up, 
debris is removed and the public is safe. We are often the last 
to leave the scene, as we manage the lengthy clean-up and 
restoration of any disaster site.
    I appreciate the opportunity to speak today about 
interoperable communications and the indispensable role it 
plays in achieving an effective, coordinated emergency 
response. APWA has been, and will continue to be, an advocate 
for the development of policies which coordinate incident 
response across multidisciplinary agencies in a way that saves 
lives and restores communities' properties and critical 
lifelines.
    My own experience as the director of Public Works in the 
city of Richmond when Hurricane Isabelle struck in September of 
2003 demonstrates how vital interoperable communications is 
during an emergency. During the response and recovery, 
agencies, such as Public Works, Recreation and Parks, fire and 
law enforcement, were able to communicate. Regional system 
redundancies kept the system operating during and after the 
storm. The ability of fire and police to talk to the men and 
women clearing the streets of debris was necessary to 
effectively respond to calls for service, minimizing the impact 
on the health and safety of Richmond citizens.
    The national discussion on interoperability has been 
centered on the need for people in different departments, 
different levels of government and mutual aid forces to be able 
to communicate.
    Two issues stand out as fundamental. First, there continues 
to be a critical need for communication among responder groups 
to communicate effectively between other relief units and 
determine where resources are needed most. We cannot 
overemphasize the importance of having the ability to maintain 
uninterrupted communications. All of the compatible 
communications in the world will not help if the power and 
phone lines are down or backup power is not available.
    In the aftermath of last year's catastrophic storms, 
stories of communication problems became an increasing subject 
of concern. For example, as response communications broke down 
during Hurricane Katrina, our understanding was that the most 
reliable communication backbone was e-mail, turning personal 
BlackBerry wireless devices into critical communication 
lifelines.
    When an F4 tornado struck Missouri in 2003, the first 
problem encountered was the total loss of wireless and land-
based phones when winds downed power cables, antennas and 
telecom lines. Using their personal radios, public works 
officials responded by relaying limited messages to City Hall 
until one of the main repeaters was lost, forcing messages to 
be relayed through a nearby fire station radio instead.
    As we develop solutions to these problems, greater emphasis 
should go towards making these systems more resilient during 
extreme conditions. To neglect this preparation is to invite 
further disaster in the midst of a catastrophe.
    Reliable communications capabilities between all responders 
is critical to the efficiency and effectiveness of all response 
and recovery activities. In many cases, police have gone to 800 
megahertz frequency radios, which they have received through 
federal grants, leaving public works with older high-band 
equipment. In such cases, public works can communicate through 
a dispatch center but cannot talk directly with police, fire or 
rescue personnel in the field.
    In cases where public safety agencies are on digital and 
public works agencies are on analog, the ability to communicate 
is limited.
    Additionally, the costs of obtaining digital radios is 
significant, and public works departments often do not have the 
resources to obtain them. Increased resources are needed to 
help local jurisdictions achieve interoperable communications.
    The second fundamental issue of governance is non-
technical. That is deciding who needs to communicate with whom, 
how and under what circumstances. Not every agency needs to 
have access to all information all of the time, but figuring 
out who does and when and obtaining agreement on the issue has 
been given very little consideration to this point.
    Governance is an important tool to improve interoperability 
for public safety and emergency preparedness. That implies 
broadening the understanding of the barriers to effective 
interoperability at all levels, removing or overcoming the silo 
mentalities and turfism that exists among response agencies; 
demonstrating a willingness to collaborate with agencies with 
which emergency response is inevitable and recognizing that 
serving the needs of public safety is paramount.
    Collaborative efforts like those that exist in the greater 
Richmond area through the Capital Region Communications 
Steering Committee can and do work. The Steering Committee was 
formed by a simple and short agreement signed by the three 
localities' executives in 1998. The Steering Committee sets 
policies and operational protocols while maintaining autonomy 
of operation by each locality. It is effective and a model to 
be emulated.
    APWA recognizes the vital role interoperable communications 
plays in effective emergency response. It is more than simply a 
communications technology issue. It includes equipment as well 
as training, response team structure and operations. We see the 
need for increased funding for the equipment and training 
necessary to improve interoperable communications.
    Mr. Chairman, thank you for the opportunity to testify this 
morning, and we look forward to being of assistance to you and 
your committee, and I will answer any questions later.
    [The statement of Ms. Linderman follows:]

                Prepared Staement of Diane Linderman, PE

                      Wednesday, February 15, 2006

    Good morning, Chairman Reichert, Ranking Member Pascrell, and 
distinguished members of the panel. My name is Diane Linderman, and I 
am Director of Urban Infrastructure and Development for Vanasse Hangan 
Brustlin, Inc., in Richmond, VA and formerly Public Works Director for 
the City of Richmond, VA. I am also Director-at-Large for Public Works 
Leadership and Management of the American Public Works Association, or 
APWA.
    I am here today on behalf of the 27,000 public works officials who 
are members of APWA including our nearly 2,000 public agency members. 
APWA is an organization dedicated to providing public works 
infrastructure and lifeline services to millions of people in rural and 
urban communities, both small and large.
    I appreciate the opportunity to speak today about interoperable 
communications and the indispensable role it plays in achieving an 
effective, coordinated emergency response. APWA has been and will 
continue to be an advocate for the development of policies which 
coordinate incident response across multi-disciplinary agencies in a 
way that saves lives and restores communities, property and critical 
lifelines.
    Let me take a moment to describe who public works officials are and 
what we do, and then I will go into more detail about the role APWA 
members play in preparation, response and recovery during catastrophes, 
and how interoperable communications is key to supporting these 
functions.
    APWA's membership includes public works directors, city engineers, 
directors and senior managers of all areas of infrastructure, city 
managers, water and waste water treatment professionals among many 
others. Public works officials manage the very essence of our nation's 
communities: we manage the design, planning, and operation of critical 
infrastructures, including roads, bridges and water systems, and are on 
the front lines in the face of natural disasters, terrorist attacks and 
other public emergencies. We run the gamut of city services, with one 
overriding commonality: we are the nuts and bolts of local government. 
Public safety is our priority at all times.
    Public works officials are first responders: we work alongside 
police, fire, and emergency service professionals to ensure that water 
is flowing through fire hoses; traffic lights are operating and traffic 
is moving; barricades are up; debris is removed; and the public is 
safe. Additionally, we are often the last to leave the scene as we 
manage the lengthy cleanup and restoration of any disaster site.
    Public works officials know what it takes to make infrastructure 
less susceptible to damage from disasters as well as how to rebuild 
infrastructure after a disaster. We know how to get the roads and water 
mains in working order, how to restore power, how to rebuild or 
reinforce public buildings damaged by natural or man-made disaster, how 
to identify equipment needs, and how to assist other first responders 
in dealing with immediate threats.
    Experience demonstrates how vital interoperable communications is 
during a catastrophe. During the terrorist attack on the Pentagon in 
September 2001, responders from local jurisdictions were able to 
communicate with each other but federal and military agencies could not 
communicate with the local responders nor could they communicate with 
each other due to the disparate communications systems and had no means 
to bridge the gap.
    In another example, the I-95 Sniper attack of October 2002 in 
Hanover County, VA, immediately north of Henrico County and the 
Richmond metropolitan area, required a joint response by local and 
federal agencies. Hanover County uses an analog 800 MHz system which is 
incompatible with the Capital Region's digital, trunked 800 MHz system. 
Virginia State Police and federal responders' systems employ other 
frequencies, so interoperability was initially absent. Quick thinking 
on the part of Capital Region system managers solved the dilemma by 
gathering available portable radios from Henrico, Chesterfield and 
Richmond and reassigning them as needed to the Sniper Task Force while 
in the area.
    With Hurricane Katrina, response communications were almost non 
existent. The few communications that were operational were not 
interoperable. One team of responders told us they had radio 
communications (base, mobile, and repeaters) but could not talk to many 
other responders due to lack of interoperability. This was true for 
many other responding teams. All had their own systems but were 
operating on various bands and frequencies. They were able to reprogram 
some systems to common frequencies but the ones that were operating on 
different bands caused a lot of communications problems. This not only 
leads to a response that is uncoordinated and inefficient but also 
created real safety issues to both the responders and to the public.
    My own experience as Director of Public Works in the City of 
Richmond when Hurricane Isabel struck in September 2003 also 
demonstrates how vital interoperable communications is during an 
emergency. During the response and recovery, agencies such as public 
works, recreation and parks, fire and law enforcement were all able to 
communicate. Regional system redundancies kept the system operating 
during and after the storm. The ability of fire and police to talk to 
the men and women clearing the streets of debris was necessary to 
effectively respond to call for service, minimizing the impact on 
health and safety of Richmond's citizens.
    The national discussion on interoperability has been centered on 
the need for people in different departments, different levels of 
government within a state, or mutual aid forces to be able to 
communicate. The focus of this point has been on the compatibility of 
technology and frequency management. Two issues stand out as 
fundamental. First, there continues to be a critical need for 
interoperable communications among responder groups to allow people to 
communicate effectively with other relief units, and determine where 
resources are needed most. We cannot over emphasize the importance of 
having the ability to maintain uninterrupted communications. All the 
compatible communications in the world will not help if the towers and 
phone lines are down or back-up power is not available.
    Again, citing experience from Hurricane Katrina, the most reliable 
communication backbone was e-mail, turning personal BlackBerry wireless 
devices into a critical communications lifeline. Aside from email and 
the occasional satellite phone, there was no form of reliable 
communication between New Orleans and the outside world apart from 
BlackBerry devices. In many instances, hand written notes were used to 
communicate among responders. More attention is needed to understand 
how communications systems will hold up under extreme conditions. To 
neglect this preparation is to invite further disaster in the midst of 
a catastrophe.
    The other fundamental issue related to communications 
interoperability is completely non-technological: that is, deciding who 
needs to communicate with whom, how (by voice, by data, and so forth) 
and under what circumstances. Solving the question of compatibility is 
relatively easy compared to establishing a set of protocols for an 
integrated federal, state and local communications interoperability 
matrix. Not every agency needs to have access to all information all 
the time, but figuring out who does and when, and obtaining agreement 
on this issue has been given very little attention to this point.
    Reliable communication capability between all responders is 
critical to the efficiency and effectiveness of all response and 
recovery activities. Radio communication is a major issue and concern 
during emergencies and disasters. In many cases, police have gone to 
800 MHz frequency radios which they have received through Department of 
Homeland Security grants. Public works is often left with older High 
Band. In such cases, public works can communicate through a dispatch 
center, but cannot talk directly with police, fire or rescue personnel 
in the field. Increased resources are needed to help local 
jurisdictions achieve interoperable communications. In cases where 
public safety agencies are on digital and public works agencies are on 
analog, the ability to communicate is limited. Additionally, the cost 
of obtaining digital radios is significant and public works departments 
often do not have the resources to obtain them.
    As first responders, we urge that funding for radio communications 
grants be targeted specifically to public works departments. Currently, 
because of the insufficient funding towards improving interoperable 
communications, states in some cases are not pushing adequate funds 
down to local jurisdictions because of the cost of implementing their 
systems. In Illinois, the state's STARCOM radio system is costing 
millions to implement and will provide every community with one radio. 
However, additional radios will cost local agencies between $6,000 and 
$7,000 each. One community in Illinois just received a new VHF 150 MHz 
channel for a city-wide communications band, but public works will have 
to re-radio their fleet to accomplish that, at a cost of about 
$100,000. With local budgets oversubscribed, many communities cannot 
afford these kinds of costs.
    Interoperable capability also needs to include strengthening our 
existing phone/cell/radio systems. In Missouri where an F4 tornado 
struck in 2003, the first problem was the loss of all cell phone and 
land lines when the wind disrupted the power and phone lines and 
damaged antennas. Public Works was able somewhat to relay messages to 
city hall through their radios. However, one of the main repeaters had 
been lost, so the messages had to be relayed through a nearby fire 
station radio. The public works department had assistance from other 
area cities and counties through face-to-face communications only, 
because the radios were not on the same frequencies.
    In addition to resources, governance is an important tool to 
improve interoperability for public safety and emergency preparedness. 
That implies broadening the understanding of the barriers to effective 
interoperability at all levels; removing or overcoming the silo 
mentalities and `turfism' that exists among response agencies; 
demonstrating a willingness to collaborate with agencies with which 
emergency response is inevitable; and recognizing that serving the 
needs of public safety is paramount. Joint training and disaster 
reaction drills with team partners in law enforcement, fire and related 
agencies is critically important. Good working relationships are key to 
establishing who is in charge and who is responsible for what.
    Collaborative efforts like those that exist in the greater Richmond 
area through the Capital Region Communications Steering Committee 
(CRCSC) can and do work. To address the months of wrangling between 
neighboring jurisdictions who in the past often failed to reach desired 
mutually beneficial objectives, the CRCSC was formed by a simple and 
short MOU signed by the three localities' executives in 1998. The CRCSC 
sets policies and operational protocols while maintaining autonomy of 
operation by each locality. It is effective and, in our opinion, a 
model to be emulated.
    In addition, the Department of Homeland Security's Science and 
Technology Directorate's Office for Interoperability and Compatibility 
has the SAFECOM Program. It is a communications program that provides 
research, development, testing and evaluation, guidance and assistance 
for local, tribal, state, and federal public safety agencies. Through 
more effective and efficient interoperable wireless communications, 
SAFECOM is working to improve the public safety response in a 
meaningful way.
    APWA has an Emergency Management Technical Committee within our 
organization that has consistently supported, provided comments for and 
helped to implement HSPD-8, the National Response Plan (NRP) and the 
National Incident Management System (NIMS). We continue to support an 
emphasis on cross-discipline communication, interoperable 
communications and training for our members, public officials and all 
first responder groups.
    Public works personnel have been available to interoperable 
communications groups over the past four years. As we have in the past, 
we are again serving on the President's HSPD-8 working group, with a 
goal to ``establish policies to strengthen the preparedness of the 
United States to prevent and respond to threatened or actual domestic 
terrorist attacks, major disasters, and other emergencies.''
    APWA recognizes the vital role interoperable communications plays 
in effective emergency response. Interoperable communications is more 
than simply a communications technology issue. It includes equipment as 
well as training, response team structure and operations. As first 
responders, we see the need for increased funding for the equipment and 
training necessary to improve interoperable communications so that we 
can be better prepared for the challenges we will all face in the 
future. Through cooperation, training and additional resources, we 
believe that we can achieve better response and recovery capabilities 
for the communities we serve.
    Mr. Chairman, thank you again for the opportunity to testify this 
morning. We look forward to being of assistance to you and the 
subcommittee. I will be happy to answer any questions you may have.

    Mr. Reichert. Thank you, Ms. Linderman.
    The Chair now recognizes Mr. Moroney.

STATEMENT OF WILLIAM R. MORONEY, PRESIDENT AND CHIEF EXECUTIVE 
                OFFICER, UNITED TELECOM COUNCIL

    Mr. Moroney. Thank you, Mr. Chairman, members of the 
subcommittee. My name is Bill Moroney, and it has been my honor 
for the last 8 years to serve as the president and CEO of the 
United Telecom Council.
    For nearly 60 years, UTC has been the voice of electric, 
gas and water utilities on telecommunications matters. UTC's 
several hundred members range from large investor-owned 
utilities to municipalities, to coops operating in big cities, 
smaller towns and rural areas throughout the country.
    These utilities own, maintain and operate private mission-
critical communications systems, including ultra-reliable two-
way radio networks. And these systems are vital to their safe 
and efficient operation. I appreciate the opportunity to appear 
before you today and discuss some issues of vital concern to 
all emergency responders.
    I would like to make three important points today. One, 
power and water utilities require reliable interoperable 
communications to provide services considered necessary for 
normal life.
    Two, effective and interoperable communications are needed, 
both among utilities responding to emergencies and between them 
and public responders, something we do not generally have 
today.
    And, three, government oversight of emergency preparedness 
and interoperability that mandates inclusion of the entire 
emergency response community in policy and planning.
    The job of an electronic company lineman is nearly always 
listed among the 10 most dangerous jobs in the nation. 
Communications networks, especially our private radio systems, 
are considered safety equipment to utility crews just as they 
are to police officers and firefighters. Safe operations and 
rapid restoration of service in emergencies are not possible 
with these systems.
    It is understood that police and fire personnel are among 
the first responders to an emergency, but utility workers, who 
also immediately race to disaster-stricken areas, are all too 
often overlooked as vital to any emergency response planning, 
even though the most important step back to normal life 
following any disaster is the restoration of electric power and 
supplies of safe drinking water to homes and businesses.
    We use the term, ``emergency responders,'' to encompass a 
broader community than traditional first responders. We 
recognize a distinct difference between police and 
firefighters, traditional public safety and the rest of the 
emergency response community.
    We use the term to include all of us who are on the ground 
responding within minutes and hours to disasters of all kinds.
    Utilities support emergency response by building highly 
robust communications systems. Simply put, these systems are 
designed to keep working when the power is out. That is a fact 
that makes us excellent partners as the nation looks for 
interoperability solutions.
    Recently, the communications systems--our land mobile radio 
systems, microwave and fiber optic networks--owned by the most 
Gulf coast utilities, large and small, continued to function or 
were back up within hours during and after Hurricanes Katrina, 
Rita and Wilma. This is in contrast to nearly all other 
communications networks in the area. This is just one finding 
from a recent UTC research study that has been provided to the 
subcommittee and attached to part of my statement.
    Tens of thousands of utility field crews from around the 
United States and Canada responded to the hurricane-stricken 
areas in both 2004 and 2005. They do the same after ice storms 
in the North or other disasters, and just this week crews from 
other utilities could be seen around the Washington area 
helping restore power after this weekend's snowstorm.
    While local utilities generally get excellent performance 
from their communications systems, one of the major problems 
for coordinating such large-scale restoration efforts is the 
fact that utility communications systems themselves are not 
often interoperable with other utility systems. Our members 
operate on several different frequency bands, using different 
technologies like everybody else here today.
    Therefore, our need for interoperability emergency is 
twofold: We need communications among crews from different 
utilities, and we need much better coordination between 
utilities and the traditional public safety community.
    Unlike public safety, critical infrastructure industries 
have not dedicated spectrum for our use. The spectrum we use is 
shared with incompatible users like pizza delivery companies 
and taxi companies and is becoming increasingly congested and 
is subject to harmful interference.
    So how does the federal government help us get to real 
interoperability? Utilities should be designated as an 
emergency responders along with everybody else who is racing 
toward the problem and should be included in the preparedness 
and response planning.
    And with a small nationwide spectrum allocation of 6 to 10 
megahertz, utilities could build a next-generation voice and 
data network that would not only make utilities more efficient 
during disaster recovery but could also be made available to 
all emergency responders as needed. More details on this 
proposal are attached to my written statement as well. And we 
believe that congressional leadership is needed here.
    Utilities build the most robust communications 
infrastructure in our country. This combined with our strong 
habit of emergency planning and response operations we believe 
makes us excellent partners in the drive toward 
interoperability.
    UTC and its hundreds of members stand ready to help in any 
national efforts to make the United States both more prepared 
for a disaster and more equipped to recover from it quickly, 
but, Mr. Chairman, we need your help.
    Thank you very much for the opportunity to speak with you. 
I will be glad to answer your questions later.
    [The statement of Mr. Moroney follows:]

                Prepared Statement of William R. Moroney

                      Wednesday, February 15, 2006

    Mr. Chairman and honorable members of the Subcommittee:
    I am William R. Moroney, President and Chief Executive Officer of 
the United Telecom Council (UTC). I thank you for the opportunity to 
appear before you today to discuss issues of vital concern to all 
emergency responders.
    For nearly 60 years, UTC has been the voice of electrical, gas and 
water utilities in matters relating to their voice and data 
telecommunications. UTC's several hundred critical infrastructure 
members range in size from multi-state organizations such as National 
Grid and Exelon, to municipally owned utilities and co-ops operating in 
cities, towns and rural areas throughout the country. All of these 
companies own, maintain and operate private, mission-critical 
communications systems. Most importantly for purposes of this hearing, 
these include two-way land mobile radio systems on which we all rely 
for both routine and emergency communications.

Critical Infrastructure Communications Affect Homeland Security
    All critical infrastructure industries are becoming increasingly 
dependent on information management and private internal communications 
systems to control and maintain their operations. A 2002 study by the 
National Telecommunications and Information Administration (NTIA), 
entitled, ``Current and Future Use of Spectrum by the Energy, Water and 
Railroad Industries,'' makes very clear the extent of this dependency 
to meet essential operational, management and control functions.\1\ 
Communications systems, especially radio systems, are considered safety 
equipment just as they are by public safety personnel. Safe operations 
and rapid restoration in emergencies are not possible without these 
systems.
---------------------------------------------------------------------------
    \1\ A copy of the Executive Summary of the NTIA Study is included 
as Attachment A to this document. The full study can be found at http:/
/www.ntia.doc.gov/osmhome/reports/sp0149/sp0149.pdf.
---------------------------------------------------------------------------
    All parties concerned with homeland security agree that one of the 
most important considerations is the availability of reliable, 
interoperable communications for ``emergency responders,'' a term we 
use to encompass a broader community than traditional first responders. 
It's meant to include all those who are on the ground responding within 
hours to disasters of all kinds. Another fact brought to attention by 
recent events, especially the disastrous hurricanes of the past two 
years, is that the most important step back to ``normalcy'' is the 
restoration of electric power and a supply of safe drinking water to 
homes and businesses.
    In this regard, there are three important issues which need to be 
addressed: 1) The critical players that require such communications 
include not only the first responders from the public safety community, 
but also the critical infrastructure enterprises such as power and 
water utilities that provide services considered necessary for normal 
life; 2) We must ensure effective and interoperable communications both 
among critical infrastructure entities responding to emergencies, and 
between them and public safety responders; and 3) Government oversight 
of emergency preparedness and interoperability must mandate inclusion 
of the entire emergency response community in federal policy and 
planning to overcome local biases and coordinate what are now only 
piecemeal efforts.

Emergency Responder Communications
    It is understood that the local and state police and fire personnel 
are among the first responders to an emergency, as well as emergency 
medical personnel. But critical infrastructure employees--the utility 
workers who immediately head to disaster-stricken areas and get to 
work--are often overlooked as vital to any emergency response. Along 
with protecting life, the first order of business following a manmade 
or natural disaster is the restoration of essential public services, 
including water (to fight fires and ensure clean and safe supplies), 
gas and electricity (to restore heat, light, computer-based networks of 
all kinds, commercial communications, and more). These are the first 
services that must be brought back on line, so these workers are among 
the first personnel on the scene.
    The job of an electric lineman is nearly always listed among the 
ten most dangerous in the nation--and reliable communications is key to 
safety, especially in the chaos that follows a disaster. One element of 
reliability for critical infrastructure industries, beyond that for 
traditional public safety: our radios must work, wherever our crews go, 
when the power is out. During any kind of manmade or natural disaster, 
you will see police, fire, utility and other emergency personnel on the 
scene at the same time. Any discussion of emergency interoperability 
must include critical infrastructure industries such as electric, gas 
and water utilities if the United States is to have an effective 
system.
    Some examples: as soon as the magnitude of the 9/11 disaster became 
apparent, more than 1900 Consolidated Edison emergency workers were 
dispatched to Ground Zero to assist critical service restoration 
efforts and provide emergency communications capabilities to others on 
the scene. ConEd's two-way land mobile radio system was among the only 
communications available and was widely used during the first few hours 
following the collapse of the Twin Towers. More recently, the 
communications systems--land mobile, microwave and fiber--of Gulf Coast 
utility companies, large and small, continued to function or were back 
up within hours during and after hurricanes Katrina, Rita and Wilma, in 
contrast to nearly all other communications networks. This performance 
is documented in UTC's November 2005 study, Hurricanes of 2005: 
Performance of Gulf Coast Critical Infrastructure Communications 
Networks. The findings of the study, as outlined in its Executive 
Summary, are included with this statement as Attachment B.\2\ Among 
them is the highlighted need for better interoperability to get the 
work done safely and as fast as possible.
---------------------------------------------------------------------------
    \2\ The full text of the study will be provided to the Subcommittee 
as supplemental material, or may be found at http://www.utc.org
---------------------------------------------------------------------------
    Moreover, utility emergency response is usually a nationwide, and 
even international, response. Tens of thousands of field crews from 
around the U.S. and Canada responded to hurricane-stricken areas in 
both 2004 and 2005; they do the same after ice storms in the North or 
any other disaster. This week, crews from other utilities could be seen 
around the Washington area helping to restore power after this 
weekend's snowstorm. While local utilities generally get excellent 
performance from their communications systems, one of the major 
problems for coordinating such large-scale efforts is the fact that 
utility communications themselves are not interoperable. Our entities 
operate on several different land mobile frequency bands, using 
different technologies. Therefore, critical infrastructure's need for 
interoperability in emergency response is two-fold: we need 
communications among crews from different utilities, and we need much 
better coordination between utilities and local public safety agencies 
to facilitate restoration.

Local Efforts Toward Interoperability
    Congress recognized the importance of our systems in 1997, when you 
included utilities, pipelines and other critical infrastructure among 
``public safety radio services:'' those private systems that provide 
support to such vital systems that entities operating them should have 
access to spectrum without obtaining it via auction. Since then, 
critical infrastructure has not sought access to existing public safety 
spectrum. However, the FCC has not made an allocation to non-public 
safety private wireless since 1985, and critical infrastructure 
industries, unlike Public Safety, have no dedicated spectrum for their 
use. Therefore, UTC and its members have looked for opportunities to 
bolster interoperability among all emergency responders by other means, 
while continuing to seek a dedicated spectrum allocation. The most 
effective means on a local basis has been through shared radio systems 
shared among multiple agencies including utilities and traditional 
public safety, and there are dozens of these throughout the country.\3\ 
Many of them have been built by utilities, because we often can get the 
system funded and into operation faster than public safety agencies. 
And--we build our systems so they work when the power is out.
---------------------------------------------------------------------------
    \3\ While most shared systems include a municipal utility, UTC is 
aware of a pending statewide system in Missouri that is designed to 
include various public safety agencies and investor-owned utilities. 
Such a system, if encouraged by state leadership, could become a model 
of cooperation for other areas.
---------------------------------------------------------------------------
    Just a few examples of shared systems: Gainesville, Florida, where 
Gainesville Regional Utilities has built and maintains a non-profit, 
shared 800 MHz system. Local public safety agencies use this system as 
low-cost subscribers. There are many municipalities, as throughout the 
Philadelphia metro area, where local utilities and public safety 
agencies share a common radio system owned by the local government.
    In Mississippi, Alabama, Georgia and the Florida Gulf Coast, 
Southern Company has built a commercial 800 MHz system to utility 
standards, making it attractive to thousands of public safety users, as 
well. The Southern system was among the utility systems that remained 
operational post-Katrina, when all other cellular systems were down. A 
system like Southern's is the only form of commercial system 
appropriate for mission-critical communications, since utilities must 
have complete coverage of their service territories, as well as 
guaranteed reliability at all times. No consumer-oriented commercial 
wireless provider can afford to offer service to this standard, nor do 
commercial systems continue to function during power outages of any 
duration.\4\ Utility communications must function ultra-reliably, and 
never more so than when the power is out. Since commercial 
communications networks cannot meet this standard, they generally are 
not relied upon for emergency or mission-critical communications.
---------------------------------------------------------------------------
    \4\ The Subcommittee should take notice that programs promoting 
commercial wireless providers for Wireless Priority Access Service are 
completely useless to critical infrastructure. Even if not overloaded 
with traffic during a disaster, whether manmade or natural, cellsites 
do not have long-term backup power. A system that simply doesn't work 
during power outages--regardless of our low priority to start--is 
useless to critical service restoration personnel and should be 
considered useless for public safety personnel, as well.
---------------------------------------------------------------------------
    The shared systems outlined above are only local or company-
specific attempts to solve interoperability problems, and the United 
States needs a nationwide solution so that all emergency responders can 
communicate with each other. We offer our expertise to help reach this 
vital goal.

Critical Infrastructure Could Build an Interoperable Network
    Unlike traditional public safety, the critical infrastructure 
industries have no designated spectrum for their own use, and we suffer 
from increasing congestion and interference on the bands we share with 
millions of other non-public safety private wireless users. We have 
requested a small, exclusive allocation of six to ten megahertz on a 
band below 1 GHz, on which we propose to construct a nationwide system. 
This system would be interoperable among the many critical 
infrastructure entities that always respond to regional emergencies, 
and would be made available to traditional public safety, federal 
agencies and others through additional equipment, or as part of a 
network of networks (see Attachment C, below).
    While it is understood that spectrum is a scarce resource, homeland 
security initiatives should consider an exclusive allocation of 
spectrum to critical infrastructure for the establishment of a 
nationwide emergency communications network. This would achieve three 
objectives: 1) economies of scale would drive down the cost of 
equipment; 2) efficient spectrum use would dictate the use of this 
spectrum on a day-to-day basis for critical infrastructure operations 
support, while entities would be responsible for maintaining the 
emergency network; and 3) emergency response capability would be served 
by all response agencies having immediate access to fully operational 
communications equipment, priority access and a fully interoperable 
network when the need arose.

Federal Coordination is Necessary
    One of the questions posed for this hearing concerned the 
appropriate role of the Federal government in interoperability efforts. 
To begin with, UTC does not believe that this government is prepared 
to, or should, fund a stand-alone emergency system for just a portion 
of the emergency response community. Not only would this be ruinously 
expensive, it would be an extremely inefficient use of scarce spectrum, 
would duplicate existing systems and would not appreciably help 
emergency response as it occurs in real life. Instead, Federal 
coordination is needed to ensure that all segments of the emergency 
response community are included in planning efforts, whether national, 
state or regional, and to encourage coordination among national 
representatives to develop policies and procedures that will help 
entities work together. For example, non-local utility crews often are 
stopped by law enforcement from getting into damaged areas to restore 
power; a simple, standard procedure could eliminate this problem. The 
Federal government should designate critical infrastructure industries 
such as utilities as ``emergency responders,'' and mandate their 
inclusion in preparedness and response planning. Congressional 
leadership also is needed to establish the spectrum allocation outlined 
above--while UTC has great respect for the Federal Communications 
Commission and its personnel, the agency's focus on commercial 
communications services has made it less than well-equipped to 
understand or act on the needs of non-commercial licensees.
    UTC and its hundreds of members stand ready to help in national 
efforts to make the United States both more prepared for disaster, and 
more equipped to recover from it quickly. Critical infrastructure 
entities build the most robust communications infrastructure found in 
the U.S., as proven by its performance, and our strong habit of 
emergency planning and operations makes us excellent partners in the 
drive toward efficient emergency response and recovery. We urge you to 
include us in interoperability development and implementation.

                              Attachment B

                          Hurricanes of 2005:

                   Performance of Gulf Coast Critical

                 Infrastructure Communications Networks

                             November 2005

             A Research Study by the United Telecom Council

1.0 Executive Summary
    The hurricane season of 2005 resulted in immense damage and tragic 
loss of life to Florida and the Gulf Coast of the United States. Storms 
Katrina, Rita and Wilma also pointed out the weaknesses in many of our 
critical infrastructures, including telecommunications networks, some 
of which are still recovering months later. However, in sharp contrast 
to many commercial wireless, landline telephone and other 
telecommunications networks, the private, internal networks (radio, 
microwave and fiber) of electric, gas and water utilities for the most 
part continued to function throughout and immediately after the storms. 
In some cases, it was utility communications networks that provided the 
only reliable communications among emergency responders and other 
officials during the first few days after the storms.
    The reliable performance of these internal systems was neither 
unexpected nor unusual; utility communications systems are constructed 
specifically to withstand major disasters. The United Telecom Council 
(UTC), the international trade association representing the 
telecommunications interests of critical infrastructure industries,\5\ 
has conducted informal polling of its members after such emergencies as 
a major Northeast ice storm in 1998; the huge electric blackout of 
August 2003; and the hurricanes of 2004, with similar results.
---------------------------------------------------------------------------
    \5\ UTC's membership consists primarily of publicly-held, municipal 
and cooperative electric, gas and water utilities and gas pipelines, 
and Federal power authorities. Through affiliated association members, 
UTC reaches out to other Critical Infrastructure
    Industries (CII) as defined by the FCC in Section 90.7 of its Rules 
(47 CFR Sec. 90.7), including petroleum and oil pipeline companies and 
railroads.
---------------------------------------------------------------------------
    However, given the magnitude of this year's disasters and resulting 
national discussions concerning the survivability of communications 
networks, UTC felt it imperative to undertake a formal survey of Gulf 
Coast electric, gas and water utilities of all sizes, to generate data 
that would quantify our anecdotal information.

Overall findings:
        <bullet> All by one of impacted CII entities responding 
        reported that their communications networks generally survived 
        the hurricanes and continued to operate well throughout 
        restoration efforts (the single exception was a utility that 
        relied on commercial wireless service;
        <bullet> Private land mobile radio (LMR) networks provided 
        critical communications among crews; however, the huge number 
        of responding entities from around the country taxed capacity 
        or could not operate on local systems, pointing up the need for 
        CII interoperability;
        <bullet> Utility fiber and microwave systems survived and 
        generally continued to function; however, this was due in part 
        to built-in redundancies, robustness and recovery mechanisms 
        that would be cost-prohibitive for a for-profit network 
        designed to serve the general public. Therefore, CII entities 
        will continue to require private networks to meet mission-
        critical needs for the foreseeable future, along with the 
        ability to expand them as needed to meet system growth 
        requirements.
        <bullet> Unfortunately, there was little or no formal 
        coordination with state or local agencies or public safety 
        organizations during or after the storms. Given the 
        opportunities for improved response communications offered by 
        robust CII systems, and the presence of CII personnel ``on the 
        ground'' in nearly every disaster scenario, this lack 
        emphasizes that CII MUST be included in emergency response 
        planning at the Federal level.
        <bullet> We believe these findings should be of significant 
        importance to Congress and to Federal agencies charged with 
        communications-related Homeland Security responsibilities, such 
        as the Federal Communications Commission and the Department of 
        Homeland Security. UTC and its members look forward to 
        discussing these findings and their implications with 
        policymakers and others.
    [Note: the full text of the report is being provided to the 
Subcommittee as supplemental material]

                              Attachment C

                    U.S. Emergency Wireless Network_

                     A Responder Build-out Proposal

    All parties concerned with homeland security agree: one of the 
primary needs in any emergency situation is reliable communications, 
interoperable among all responding entities. Due to its long-standing 
regulatory framework and division of jurisdiction over radio-frequency 
(RF) spectrum, the United States currently has no such capability. 
Whether manmade or natural, emergencies leave traditional public safety 
agencies, utilities and other responding critical infrastructure 
entities, and relevant federal agencies unable to communicate 
effectively either among themselves or with other responders, at the 
time it is needed most. This serious gap in capability, witnessed after 
the September 11, 2001 terrorist attacks and natural disasters such as 
the hurricane season of 2004 and 2005's Hurricane Katrina, must be 
addressed.
    The United Telecom Council (UTC), the voice of critical 
infrastructure (CI) telecommunications since 1948, is among the many 
parties seeking a solution to this difficult problem. In addition, UTC 
is increasingly concerned that critical infrastructure industries have 
no spectrum dedicated for their exclusive use on any frequency band, as 
noted in the 2002 National Telecommunications and Information 
Administration (Commerce) study of current and future spectrum use by 
the energy, water and railroad industries. CI wireless voice systems 
currently operate in bands shared with many incompatible uses. Mission-
critical telemetry and SCADA systems are often found on bands where 
they have only secondary status and may be required to cease 
operations, and all CI communications face increasing congestion and 
harmful interference. Moreover, different utilities do not use the same 
spectrum for the same operations because of varying frequency 
availability across the Nation, thus hampering cooperative efforts in 
times of emergency. However, in spite of these difficulties, utility 
telecommunications systems--because they are built to support 
restoration, preserve personnel safety and underlie the reliability of 
electric, gas and water service--generally prove to be the most robust 
in times of emergency.

Proposal
    UTC proposes to solve all these problems simultaneously, by a means 
we believe would: 1) cost less; 2) use spectrum more efficiently; and 
3) meet the needs of emergency responders more closely than other 
proposals. Utilities and other CI entities traditionally work closely 
with traditional public safety agencies: they respond to the same 
emergencies, but utilities generally have more emergency-reliable 
wireless communications due to construction methods. In fact, CI 
entities increasingly help to build traditional public safety radio 
systems and/or share frequencies with public safety agencies. Congress 
and the FCC recognized the close working relationships among these 
entities when they re-classified utilities, pipelines and other CI 
entities as ``public safety radio services'' along with more 
traditional public safety organizations such as police and fire 
departments.
    To promote faster, more reliable and interoperable emergency 
response, as well as to meet the urgent communications needs of CI 
entities for the next decade or more, UTC proposes an innovative use of 
scarce RF spectrum:
    To meet everyday needs for reliable wireless voice and data 
communications, UTC urges a small CI nationwide spectrum allocation of 
6-10 MHz in a frequency band below 1 GHz;
    CI entities would construct infrastructure nationwide, implementing 
an integrated voice and data technology platform providing an 
interoperable communications system. Utilities and other CI entities 
would migrate to this system over time (an estimated 7-10 years, based 
on equipment life cycles). Migration and build-out could be 
accomplished more quickly with partial Federal funding. Additional, 
fully operational equipment would be kept on hand by local CI entities 
using the system. In emergency situations, all traditional public 
safety, federal and other agencies would have immediate access to this 
equipment. A system of emergency priority access to frequencies also 
would be implemented to ensure reliable access for emergency 
responders.
    An alternative interoperable system would consist of a ``network of 
networks,'' in which CI entities, traditional public safety agencies 
and other emergency responders would designate existing frequencies to 
an interoperable network during emergencies, all entities retaining 
control over their existing networks. With nationwide designated 
spectrum, CI entities could build and maintain the technology platform 
necessary to make this system possible.
    Either method of interoperability would ensure that scarce spectrum 
resources are used efficiently, while providing the widespread access 
to joint communications needed urgently to meet U.S. emergency response 
needs. Given the long-time expertise in infrastructure build-out by CI 
entities, coupled with their deep understanding of emergency 
communications needs, UTC believes this proposal would provide for the 
type of nationwide emergency communications system most needed, built 
by the best-qualified entities.
    UTC is anxious to discuss its efforts in this direction and means 
by which this proposal may be implemented, and looks forward to working 
with your office to develop it further.

    Mr. Reichert. Thank you, Mr. Moroney.
    Dr. William Pinsky is now recognized.

STATEMENT OF WILLIAM PINSKY, EXECUTIVE VICE PRESIDENT AND CHIEF 
   ACADEMIC OFFICER, OCHSNER CLINIC FOUNDATION, NEW ORLEANS, 
                           LOUISIANA

    Mr. Pinsky. Good morning, Mr. Chairman, distinguished 
committee members.
    As Representative Jindal introduced me, I am Dr. William 
Pinsky, a pediatric cardiologist and the executive vice 
president and chief academic officer of the Ochsner Clinic 
Foundation in New Orleans, Louisiana.
    On behalf of the American Hospital Association's 4,800 
hospitals, health systems and other health care organization 
members and our 33,000 individual members, I appreciate the 
opportunity to appear before you today.
    Ochsner, which has 478 acute-care beds in the main 
hospitals, and 24 clinics throughout the New Orleans area and 4 
clinics and a hospital in Baton Rouge, is not a not-for-profit 
comprehensive integrated health care system, the largest non-
governmental employer in Louisiana and a center of excellence 
in research, patient care and education.
    Throughout Katrina's onslaught and its devastating 
aftermath, we remained open, caring for patients.
    This morning, I would like to tell you how we prepared for 
the storm, what we did to ensure our communications systems 
worked, how we kept our doors open and answer questions you may 
have about our experience.
    Hospitals routinely plan and train to deal with disasters, 
both natural and manmade. Our plan, revised after every 
disaster or near-miss event, was updated less than 3 months 
before Hurricane Katrina struck.
    On Friday, August 27, when we were notified that the storm 
would likely hit the area, we immediately initiated the first 
phase of our plan: Notifying essential personnel and securing 
previously stockpiled supplies. Staff began discharging 
appropriate patients and moving those unable to leave the 
facility into areas thought to be the most secure. We then 
settled in and waited.
    We sustained structural damage, but overall the news was 
positive. Our emergency generators functioned, our internal 
communications system and internet were fully operable. We had 
adequate supplies, we believed we would ride out the next few 
days until help arrived.
    It was not easy, but we faired well in the beginning. On 
day 2, an emergency generator failed, forcing us to go without 
air conditioning. As a result, we shut down our internet server 
to prevent heat damage, losing our electronic medical records 
system. Luckily, we were able to repair the generator the next 
day and restore full operations.
    We had made extensive plans for securing and relieving 
essential personnel, going to great lengths to keep staff 
apprised of the situation, setting up a telephone tree as well 
as a dedicated Web page with information. And we found 
ourselves in some difficulty in reaching our relief staff.
    We were eventually able to locate the staff and brought 
them to Baton Rouge and then conveyed them into New Orleans by 
bus convoy. Those same convoys were our lifeline to supplies as 
well, enabling us to continue functioning.
    With the situation in our main facility in hand, we sought 
to offer our assistance to others. However, we had great 
difficulty contacting the proper authorities, finding it hard 
to even locate state and federal officials to offer our 
assistance.
    According to our regional emergency plan, we were to report 
to the Jefferson Parish Office of Emergency Preparedness. When 
our attempts to reach them failed, we explored other channels. 
Eventually, we were able to contact the Orleans Parish office. 
From them we learned of their communication difficulties with 
evacuating downtown hospitals. It was virtually impossible to 
coordinate air evacuations due to the various agencies 
involved, both military and civilian, and the lack of ability 
to communicate.
    Police communications systems were ineffective because of 
infrastructure damage and the volume they were trying to 
handle. The National Guard system was able to facilitate 
communications among Guard units but had difficulty 
communicating with local authorities.
    Communication improved on day 4 when the United States 
Public Health Service arrived. They were able to facilitate 
requests through the previously blocked channels. However, they 
did not have many of the assets we required.
    Prior to their arrival, we were not able to alert 
authorities that we were functioning and could receive 
patients. We even went as far as using large trash bags on the 
garage of our roof to spell out the word, ``open,'' to attract 
the attention of helicopters overhead.
    In light of the events, we are revising our disaster 
policy, and I am very interested in improving our ability to 
communicate with authorities and others in future emergencies.
    In conclusion, we survived Hurricane Katrina as well as 
could be hoped for because of the communication difficulties 
with the outside world, we became self-sufficient, securing our 
own methods of sustaining our facility. We were able to do this 
primarily because our facility in Baton Rouge could be used as 
an off-site command post and because our own communications 
system remained operational through built-in redundancy. 
However, we could have done much more to assist the authorities 
and the local community if a fully interoperable communications 
system had been in place.
    Communication with local, state and federal authorities is 
crucial for ensuring that hospitals can fulfill their mission 
during disasters.
    We look forward to working with the committee and the staff 
toward a shared goal of improving the disaster preparedness for 
America's hospitals and communities.
    Thank you.
    [The statement of Mr. Pinsky follows:]

             Prepared Statement of William W. Pinsky, M.D.

                      Wednesday, February 15, 1006

    Good morning, Mr. Chairman. I am William W. Pinsky, M.D., executive 
vice president and chief academic officer of Ochsner Clinic Foundation 
(OCF), in New Orleans, La. On behalf of the American Hospital 
Association's 4,800 hospitals, health systems and other health care 
organization members, and our 33,000 individual members, I appreciate 
the opportunity to speak to you and your colleagues about the 
importance of interoperable communications during a disaster.
    For nearly 60 years, OCF has cared for residents in the greater New 
Orleans and Baton Rouge communities. Our main campus, including the 478 
acute-care bed hospital and clinic, is located in Jefferson Parish, 
less than a mile from the Orleans Parish line and only a 15 minute 
drive to downtown New Orleans. In addition, we have 24 clinics 
throughout the New Orleans area and a sub-acute nursing facility/
inpatient psychiatry/inpatient rehabilitation hospital two miles from 
our main campus. In Baton Rouge, we have three clinics, 70 physicians 
and 50 percent ownership of an acute care hospital. Recognized as a 
center for excellence in research, patient care and education, OCF is a 
not-for-profit, comprehensive, integrated health care system, and the 
largest non-governmental employer in Louisiana. With more than 7,400 
employees--including more than 600 physicians in nearly 70 medical 
specialties--OCF is also one of the largest non-university-based 
physician-training centers in the country, annually hosting over 350 
residents and fellows, 450 medical students and 400 allied health 
students.
    When Hurricane Katrina hit the Gulf Coast, no one could have truly 
imagined the intense devastation it would leave in its wake. The wind 
and the rain wreaked havoc across Alabama, Mississippi and Louisiana. 
Knowing that the storm was headed their way, hospitals began sending 
home patients deemed well enough to be discharged. Those in critical 
condition or requiring special assistance, such as ventilator-assisted 
breathing, remained in the hospital. When hospital staff emergency 
teams arrived for work during the weekend before the storm hit, they 
expected it might be only a few days before they were able to return 
home. However, when the levees in New Orleans broke, the situation 
changed dramatically. We, and our colleagues in the New Orleans 
metropolitan area, faced a dire situation beyond our imagination.
    Throughout the onslaught of Hurricane Katrina, and during its 
devastating aftermath, OCF remained open, caring for patients. This 
morning, I'd like to tell you how my hospital prepared for the storm; 
what our facilities did to ensure our communication systems worked and 
our doors remained open to provide critical health care services to our 
community; and answer any questions you and your colleagues might have 
about our experience.

Planning for Disaster
    Hospitals routinely plan and train to deal with disaster, whether 
it's the derailment of a train carrying hazardous substances, a 
multiple-vehicle accident on a nearby interstate, a plane crash, or a 
natural disaster such as a hurricane or earthquake. As hospitals plan 
for disasters and the prospect of going without public services such as 
electricity and water, we prepare to be on our own for at least 72 
hours, in the event it takes that long for assistance to arrive from 
the state or federal government. Our plan, which we revise after every 
disaster or ``near-miss'' event, had been revised most recently on June 
1, 2005, less than three months before Hurricane Katrina struck.
    On Friday, August 27, our entire executive leadership team had 
assembled in New Orleans for the first day of a two-day leadership 
retreat. Late in the afternoon, we were notified that the storm had 
turned to the West and likely would strike the area. We immediately 
initiated the first phase of our disaster plan, which included 
notifying essential personnel and securing previously stockpiled 
supplies.
    Under the most recent disaster plan, two teams of essential 
personnel, Teams A and B, were created to ensure continuity of care and 
relief for employees on duty at the time disaster strikes. Each team 
was to include staff members from all departments, e.g. security, 
housekeeping, dietary, nursing, physicians, house staff, IT, media 
relations, research, etc. Team members had been identified and 
committed by June 1.
    From previous experience, we realized the importance of not only 
adequately stocking essential supplies on-site, but also creating a 
back-up system to ensure additional supplies could be secured in times 
of an emergency. On Friday, we activated our supply chain and began to 
secure the additional supplies we had stockpiled off-site. Important 
supplies included: 400 flashlights; 100 head lamps; 2,000 batteries; 
4,000 glow sticks, including 2,000 with lanyards; 600 SpectraLink 
wireless telephones with 1,800 batteries; 450 oscillating fans, one per 
patient; 250 box fans for work and sleeping areas; 20 55-gallon drums 
of water on each floor for commode flushing; 3000 gallons of water for 
drinking (we also have a deep water well on campus with a 10,000 gallon 
holding tank for additional water in an emergency); 60,000 gallons of 
diesel fuel; 10 pallets of sandbags; eight pallets of plastic bags; 100 
blue tarps; 20 dehumidifiers; five pallets of plywood; and 50 
additional shop vacuums. We also increased our food supply. At this 
time, we inspected our power sources. Our emergency generators are all 
located above our facility's second floor and our transformers were 
located on the ground level, behind 10-foot floodwalls.
    On Saturday, August 28, executive leadership met with the vice 
presidents, directors, and managers and agreed to order Team A on-site 
by Sunday afternoon. Staff then began discharging the appropriate 
patients and moving those that would be unable to leave the facility. 
The families of the remaining patients were given ``boarding rules''--
one family member per patient would be allowed to stay. Similarly, 
staff was discouraged from bringing family members to work unless they 
absolutely could not make other arrangements. All patient and personnel 
families were pre-registered and given ``special'' parking passes to 
access our parking garage. During previous storms, we experienced 
problems with people in the community attempting to use our garage to 
protect their cars and boats. Under the revised plan, we stationed 
armed guards at the entrances to the garage to ensure that hospital 
staff, patients and their families could access the garage, and that 
all entrances were kept clear.
    On Sunday, ``sleeping'' assignments were made. Due to concerns 
about the predicted high winds, patients were removed from the highest 
floors of the hospital. Patients were also moved into hallways and 
rooms without windows to protect them in the event of flying glass. 
Because OCF is a research facility, we house numerous research animals, 
which were evacuated to facilities in northern Louisiana. After 
evacuations were complete, we settled in to wait and see what Hurricane 
Katrina would bring.

Weathering the Storm
    Ochsner's main campus survived the actual hurricane quite well. We 
sustained some roof and structural damage to our main facility, but 
overall the news was positive. Our generators functioned properly, the 
Internet was up and running, and our internal communications system was 
fully operable. Employees lost cellular phone and beeper capabilities 
due to damage to local cell towers; however, we had planned for such an 
event, and staff members were armed with SpectraLink wireless 
telephones. As a result, communication critical to patient care was 
uninterrupted. Our land-based telephones also remained in working order 
due to redundancy in our carrier network. Our medical record system is 
entirely electronic, and with power and the Internet operable, we did 
not have concerns about the availability of critical patient 
information. We had adequate supplies and believed we would be able to 
ride out the next few days.
    However, as the situation in and around New Orleans rapidly 
deteriorated with the breach of the levees, conditions inside the 
hospital also took a turn for the worse. On the second day, one of our 
generators failed due to a mechanical problem, and we were forced to do 
without air conditioning. As a result, our Internet servers were shut 
down to prevent them from being damaged by the heat. Unfortunately, 
server shutdown meant the electronic medical record system was 
inoperable. We attempted to send our helicopter out to secure the 
needed parts for the generator, but all non-governmental aircraft were 
temporarily grounded. We were, however, able to locate the necessary 
parts the next day to get the generator up and running again.
    Conditions in our immediate area continued to worsen. Our main 
facility is located a few miles from the I-10/Causeway where large 
numbers of people attempting to make their way out of New Orleans after 
the storm congregated. Many of those gathered turned to the hospital 
for assistance on their way. However, we are a hospital, not a shelter. 
We tried to point people in the right direction to get the help they 
needed, and also dispatched medical personnel to the site to care for 
individuals in need, transferring those needing hospitalization back to 
our campus. Conditions in our neighborhood further destabilized as 
floodwaters began to rise; looting of nearby businesses began. At that 
point, we felt compelled to ask the National Guard to assist us in 
securing the safety of our patients and staff, and placed OCF on 
lockdown.
    Operations inside the hospital similarly were beginning to show 
signs of strain. Although we had made extensive plans for securing and 
relieving essential personnel with the Team A and B designations, and 
had gone to great lengths to keep staff apprised of the situation--
setting up a telephone tree as well a dedicated Web page with 
information--we had difficulty securing relief staff. Many had 
evacuated with their families to Baton Rouge and beyond. Fortunately, 
we were able to locate a good portion of staff members there and bring 
them in by bus convoy. As the floodwaters continued to rise, the same 
convoys were used to evacuate exhausted staff and their families, as 
well as patients who could be moved and their family members, to our 
facilities in Baton Rouge. These same convoys were our lifelines for 
supplies as well, enabling us to continue functioning.
    At their height, the floodwaters rose as far as the doors on one 
side of the hospital, but we maintained the ability to leave and enter 
the building from other entrances and faced no real danger. Instead, we 
realized that rumor and speculation were a larger threat to the 
internal stabilization of the hospital than the floodwaters, and 
created an internal communication system to keep staff and patients 
informed of the conditions within the hospital and the city at large. 
The leadership team met twice daily to be updated and then fanned out 
across the facility, sharing the news they had just heard and answering 
questions. This open and honest communication policy went a long way 
toward assuaging staff and patient fears, and keeping the hospital in a 
calm state.
    Toward the end of the crisis, we began to run low on food. However, 
we had an ample supply of water and were able to make do until relief 
shipments could be brought in. We also ran low on insulin, but because 
our telephones had been unaffected, we were able to secure 10,000 doses 
donated from sanofi-aventis pharmaceutical company.

Reaching Beyond Our Walls
    With the situation in OCF's main facility well in-hand, our 
leadership team sought to inform local officials and offer assistance 
to other health care facilities hit harder by the storm. Since our 
land-based telephone system was operable, we believed this would be 
easy. However, we had great difficulty trying to contact other 
hospitals and local agencies that were not as fortunate in the quality 
of their communications systems. We even found it difficult to locate 
the proper state and federal officials to offer our assistance.
    According to our regional emergency plan, we report to the 
Jefferson Parish Office of Emergency Preparedness (OEP). However, the 
OEP system was overwhelmed and communication was impossible. When our 
attempts to reach the Jefferson OEP failed, we attempted to reach the 
Baton Rouge OEP. This was also challenging, as it appeared that the 
bandwidth of their system could not accommodate the high volume of 
incoming requests and was overloaded. We eventually successfully 
contacted the Orleans Parish OEP following the levee break, requesting 
both information, as well as assets. During this exchange, we became 
aware of their communications difficulties with the downtown hospitals 
that were in the midst of evacuating.
    It was virtually impossible to coordinate air evacuation due to the 
various agencies involved--both military and civilian--and their lack 
of ability to communicate. We sent a vice president through the 
floodwaters downtown to the Orleans OEP with a hand radio to try and 
assist their coordination efforts, but were unsuccessful in reaching 
them. We instead found a widespread lack of coordination: police 
communication systems that were ineffective due to infrastructure 
damage and volume, and a National Guard system that was able to 
facilitate communications amongst guard units, but had difficulty 
communicating with local authorities. Of external communications, 
satellite systems were unreliable, and cell service, for a while, was 
virtually eliminated. Text messaging and Internet were the most 
reliable methods of communication.
    Communication improved on day four when the United States Public 
Health Service (USPHS) arrived, and interagency daily meetings at OCF's 
main facility began. In addition to the USPHS, these meetings included 
``all'' hospitals and representatives from the Jefferson and Orleans 
OEP health care divisions. The USPHS was able facilitate requests 
through the previously frustrating channels. They were particularly 
helpful with things like fuel and security; however, they did not have 
access to many of the assets we required. Prior to the USPHS's arrival, 
we were so frustrated in our inability to notify authorities that we 
were open and able to accept patients, that we used large trash bags to 
spell ``OPEN'' on our garage roof (see attachment A), hoping to attract 
the attention of the armada of helicopters flying overhead.

Assessing the Damage
    Compared to our neighboring facilities, OCF weathered Hurricane 
Katrina well, and most aspects of our disaster plan worked as we had 
hoped. We sustained some structural damage on our main campus and lost 
three facilities. Our remaining facilities are stressed to their 
maximum. We currently are operating at 112 percent of inpatient 
capacity, and more than 50 percent of our staff has been displaced.
    We are also revising all of our disaster policies in light of the 
events that transpired in Hurricane Katrina's wake. In particular, we 
are examining our family policy. Although we tried to limit the number 
of family members patients and staff could have at the hospital, we 
still found ourselves with more relatives than was optimal. We did our 
best to accommodate as many people as we could, and even set up a 
temporary kennel in the parking garage for pets. However, this added a 
great deal of complexity to our operations and was not accounted for 
when calculating the amount of supplies needed.
    We are paying close attention to our generators and transformers. 
In the future, we will be sure to stock replacement parts for the 
generators onsite, so repairs can be made in a timely manner. We are 
also contemplating relocating the transformers to higher ground, 
despite the presence of a floodwall.
    Our data storage system has also drawn scrutiny. As noted, we have 
a fully electronic medical record system. At the time Hurricane Katrina 
struck, we backed up those records at a location away from our main 
campus--in downtown New Orleans. Though neither location was 
jeopardized, we have secured a new location to house back-up copies of 
our electronic records. I cannot emphasize enough how important our 
electronic records were. The system allowed us to instantaneously have 
the medical records available for our displaced patients who found 
their way to Baton Rouge.
    We are very interested in ensuring that communication with the 
appropriate authorities and our colleagues across the area is 
maintained in the event of future emergencies. We weathered Hurricane 
Katrina and her aftermath as well as could be hoped for at our main 
facility. Because of the communication difficulties with the outside 
world, we knew we had to be self-sufficient, securing our own methods 
of sustaining our facilities. We were able to do this primarily because 
our facility in Baton Rouge could be used as an off-site command post, 
and our own communication systems remained operational. However, we 
could have done much more to assist the authorities and the local 
community if a fully interoperable communication system had been in 
place.

    Conclusion
    Mr. Chairman, the mission of every hospital in every community in 
America is to provide the best care possible to people in need. At no 
time is that more important than during a crisis, whether it be natural 
or man-made.
    Hospitals across the country are doing their best to prepare for 
disasters that could strike at any moment. Many have become completely 
self-sustaining, capable of withstanding the most unimaginable crisis. 
But we cannot provide and help coordinate the care the community needs 
if we are islands unto ourselves. Communication with local, state and 
federal authorities is crucial for ensuring that hospitals can fulfill 
their mission to serve the health of the community during future 
disasters.
    We look forward to working with this committee and staff to forge 
ahead toward to a shared goal of improving the disaster preparedness of 
America's hospitals and communities.

    Mr. Reichert. Thank you, Doctor.
    Thank all the witnesses for your testimony, and now we have 
all the opening comments and presentations out of the way. We 
want to get to the bottom line.
    First, I would like to just say a couple of things. 
September 11 and Katrina and Rita really shed a huge spotlight 
on this interoperability question. A few months ago, right 
before the break, we held a hearing on the topic of 
operability. We ca not become inoperable if we are not operable 
first. And so as we performed our jobs as first responders pre-
September 11 and pre-Katrina, we experienced it in our own 
communities individual events that highlighted our inability to 
communicate with each other.
    And then we tried to handle that within our community. I 
know that happened in Seattle in King Counties. Things would 
happen, we could not communicate, we tried to improve the radio 
system. We moved some towers, we moved some cell towers, et 
cetera. We tried to work with the companies providing the 
radios, and all of those things were going on in our own 
individual communities.
    September 11 and Katrina highlighted this as a national 
problem.
    Now, we need to look for leadership from the federal 
government, I believe, and, as I think most of you pointed out, 
from Congress in helping lead the way in setting some 
standards.
    Some things have happened since September 11 in the federal 
government. There was recently enacted the Intelligence Reform 
and Terrorism Prevention Act, which does a number of things 
that we think are good, but, boy, we have a long way to go. It 
directs the secretary of Homeland Security to coordinate all 
existing programs. It establishes a national approach to 
achieving interoperable communications. It provides for 
technical assistance. It requires the states to develop a 5-
year interoperability plan. All of those things are in the law, 
but they are not happening.
    And the questions we have today is, why aren't they 
happening? And part of that, I think we are going to hear, is 
leadership is going to play a huge role. It is the turf wars 
that Ms. Linderman talked about. It is cooperation that needs 
to take place and relationship-building.
    Lots of money has been spent. $2 billion already allocated, 
already out there in the pipeline on interoperability. $1 
billion additional money has been allocated for 
interoperability grants this year, and more money is even 
authorized or placed in the budget, the upcoming budget that we 
are going to be discussing, $29 million more for 
interoperability. So things are happening in those arenas.
    I would like to ask just very simply what the current state 
is. We have heard some of the issues, some of the problems.
    I would like to hear from Trooper Perry. In Wisconsin, what 
is the current state of interoperability or the lack of 
interoperability?
    Mr. Perry. As every state, I am sure we share similar 
problems. Currently, our state has been working with a mobile 
data communications network to assist officers through writing 
their reports, crash reports, electronic citations, warnings, 
the gamut. With this communications tool, it is the in-car 
laptop computers. They are prevalent throughout the nation. We 
should be able to send a message to any other law enforcement 
in our state. We ca not.
    And the reason being is we have 72 counties and not all 72 
counties will play together and get on one statewide system. 
And it not only affects law enforcement, for instance, 
electronic reporting of a crash report. If it is not done 
electronically, it has to be done manually by someone else. 
Electronic citations, we send them in to what we call CCAP, 
Circuit Court Automated Program. That is the key; it is all 
automated. By sending it electronically, clerks in the Clerk of 
Court offices do not have to type the information manually from 
paper citations.
    The area that I live, Green Bay, and the counties that I 
work, Brown, Outagamie, Winnebago and Calumet, those four 
counties decided that they had a better way of doing things and 
they would create their own mobile data system. So they are not 
operable with the other counties, they are not operable with 
all the law enforcement within those counties.
    They cannot print electronic citations, electronic crash 
reports, because they spent their money on getting their system 
up, what powers communications for their plant form. Now they 
have no money to write the software. Now they have to go back 
and get more money from state and federal tax dollars so they 
can write programs so they can begin the process of electronic 
citations, for instance, when it was available, and it still is 
available, if the political leaders would get on board and say, 
``Look, it is time to play with the other communities 
throughout the state.''
    We also see it in communications. If it was not for the 
industry private sector, often officers throughout this nation 
would not have communications. Police officers, deputy sheriffs 
and troopers throughout this nation are not all issued a cell 
phone. I use my cell phone religiously. I carry it with me. 
That is the first thing I put in my shirt pocket after putting 
my protective vest. Those are the two most important things I 
have each day beyond any of the other equipment I carry on the 
belt.
    The last car fire I was at was on a freeway. Our portable 
radios are so out of date, our technicians cannot purchase 
rechargeable batteries from the vendor. They actually go to 
Radio Shack and build a rechargeable unit for us. Last fall, 
they were behind in car swaps and putting in new equipment and 
IT radios to run the mobile data communications network. They 
did not have time to build those batteries, so during a 3-month 
period my portable batteries would run out within 1 to 2 hours. 
So with having issued two to three of them, I was out during my 
shift.
    Not only was officer safety compromised, but at this car 
fire on the freeway where I have to shut down the highway using 
city of Kaukauna police officers, Outagamie sheriffs deputies, 
state troopers, I also have to call fire. It would have been 
extremely embarrassing, and I know would have had the political 
fallout from my own Department had I dialed 911, but that is 
what I should have done and maybe I would have gotten some 
action.
    Instead, I had to call my dispatcher, get through her and 
then ask her to call fire, ask her to continue to stay on the 
line so we could coordinate getting the traffic off the freeway 
and around the community so that we could take care of the 
fire, put it out, have a tow truck respond, tow it off so we 
could open the freeway once again.
    Mr. Reichert. Thank you. This is the kind of information 
that we are looking for, the people that are actually out there 
doing the street, and I appreciate you being here today, 
Trooper.
    One of the things--and what you have described is something 
that is happening in the area of the country that I come from 
too, so it is not a surprise to me that you described your 
state of affairs the way that you did.
    I am going to ask a real quick follow-up question. You 
know, we changed the definition of ``first responders.'' Now it 
includes all of you at the table. We know that we have to take 
a broader look at that.
    I am just interested to hear quickly from Dr. Pinsky and 
Ms. Linderman. Are you able to include yourselves, your 
associations, in the discussion with first responders, and are 
you having some success in the areas of the country that you 
come from in building those partnerships, including your groups 
in the discussion around being interoperable?
    Mr. Pinsky. I can probably answer that from a couple 
different directions. Number one, we are now working much more 
closely through the local hospital association, the 
Metropolitan Health Council, as well as the Louisiana Hospital 
Association with our fellow hospitals to be sure that we can 
establish communication among ourselves.
    Because we found that Katrina that we were unable to 
communicate with each other. Our Internet function stayed up 
because we had multiple ports. We have a very large wide area 
network. The other hospitals did not have that redundancy, so 
we could not communicate directly to them.
    We have also had conversations now, we have had meetings 
now with the local first responders to improve upon the 
situation that we had. Our biggest difficulty in New Orleans 
right now is that we have not recovered from Katrina yet, and 
so we are still dealing with all of those issues, at the same 
time trying to prepare for the new hurricane season in 3.5 
months.
    Mr. Reichert. Thank you.
    Ms. Linderman. As Trooper Perry talked about Wisconsin, I 
was reflecting on our membership, and the situation across this 
country is different in every community. Richmond has the 
advantage of having the leadership within the region to, with 
local tax money, implement regional communications system that 
would work. But there are many communities and members in our 
organization that did not have that leadership at their local 
level.
    So it is going to vary all over the board depending on who 
is helping to make the decisions, who is pulling together the 
different agencies to be able to communicate.
    There are still challenges as you go up through the 
government strata. In local government, there can be decisions 
made that force communications among agencies, but as you get 
into the state and federal level and interoperability between 
those different levels of government, I think there is still a 
challenge.
    Certainly, APWA is trying to help our members to be more 
knowledgeable and educated so that they can take a stronger 
stand in their local governments or in their state governments 
in order to make interoperability happen.
    Mr. Reichert. And, Mr. Moroney, I did not want to ignore 
you on this one, but, certainly, you have a comment. Please.
    Mr. Moroney. I think that when we look at what is being 
done in the market, I struck by your comments about how a 
billion dollars is being spent. Ours is an industry that spends 
$1 billion a year just building wireless systems, upgrading 
existing wireless systems, and they are all over the block. 
Because nowhere in our country is there a single place that 
they can work, that they can build a wireless system that is 
interoperable with other parts of the country.
    In terms of your question about how is it going in terms of 
working with the other communities, I think it is not going as 
well as it could. In some areas, you find great models. I look 
to the state of Missouri that is proposing a statewide 
interoperable communications system and all emergency first 
responders are included in that.
    I look at the state of Mississippi during Hurricane Katrina 
and one of our members, the Southern Company, had a 
communications system that was used by a number of local first 
responders as well. And it was a system that stayed up and 
running following the hurricane.
    So it is very spotty, and I think it was Trooper Perry who 
said, ``You all have told the rest of government what it needs 
to do, and maybe now it is time to take their allowance away or 
something.''
    Mr. Reichert. Thank you.
    The Chair recognizes Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. I think it 
is quite clear that we still have a problem. All of the 
witnesses have, in their own words, shared their horror stories 
around the problem.
    What we have had is a difference on how we approach it. My 
own state, Mississippi, has indicated that it will cost us $300 
million to design a system statewide. So a billion dollars does 
not go very far when you are investing $300 million in one 
state alone. So we are talking about a significant investment.
    Another one of our challenges associated with investment is 
to what extent are we using the latest technology to allow the 
notion of interoperability to be satisfied? My experience is 
that many times the vendors are selling their products to 
individual departments as the savior for what happens. So, in 
essence, you are putting up towers, you are buying radios, but 
you have not solved the problem of interoperability, because 
you now have new equipment for the police department but what 
does that do for the fire department, what does that do for the 
public works department?
    So the notion is to acknowledge it has to come into play at 
some point to facilitate this communication.
    Mr. Chairman, I think what we will have to do, taken this 
testimony, is to see how we can provide the leadership, so 
rather than becoming the purveyor of radios, how do we deal 
with the technology so that people can communicate? And that is 
a real challenge.
    To what extent, and I guess Mr. Moroney, you can help me 
with this piece, do you see technology providing the 
breakthrough for interoperability?
    Mr. Moroney. I think technology is one answer, part of the 
answer. One of the problems we all face with technology is we 
are all either public institutions or we are regulated 
commercial companies, like utilities, in which all of our costs 
get passed through the citizens. And so we are still looking at 
building radio systems, interoperable or not, that are going to 
last for 10 years. Technology is changing so rapidly that 6 
months after we agree on a technology there is a better one out 
there.
    One of the things that we need to be able to look at is, 
how can we better fund the adoption and use of new 
technologies?
    Another part of the answer is not just technology, it is 
when I look at every plan that I have heard mentioned here 
today about communications. When your state looks at building a 
system for $300 million, they are talking about a big part of 
that cost is the infrastructure necessary to support it--the 
towers, the fiber back hall, the computer systems that will 
manage the voice and data traffic--and it is going to be built 
right alongside another set of infrastructure.
    If we could look where we have seen success with shared 
systems is where a whole group of emergency responders 
collectively invest in building the same infrastructure, and 
then the cost of providing additional handsets, the cost of 
providing additional laptop computers and additional 
communications becomes much more reduced when you have that 
huge infrastructure cost shared by all the participants.
    So it is a combination of technology. If you shared the 
infrastructure and invested in adapting new technologies to 
that infrastructure, we could take advantage of newer 
technologies more rapidly.
    Mr. Thompson. Well, you know, one of the things that I 
think we have to do is mandate the cooperation and coordination 
between entities. So many times we have cities who are on radio 
systems and counties or parishes who are on another, and they 
are somehow helping the same citizens but they ca not 
communicate. And we have to break down some road barriers to 
facilitate the communications.
    Now, I think that is where Congress can play a significant 
role by saying, ``If you agree to take the money, then you 
agree to communicate and cooperate with each other in a time of 
need.'' And as I see what is occurring, I see what you are 
saying, but we have to provide the additional leadership to 
facilitate the cooperation and communication, and that is where 
I see this bipartisan legislative effort, which will get us 
there hopefully, and that is why your testimony adds 
significantly to what we will ultimately come up with.
    I yield back.
    Mr. Reichert. Thank you, Mr. Thompson.
    The Chair recognizes Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    To Trooper Perry, I want to address my question to you. In 
the state of Pennsylvania where I live, we have 67 counties, 
2,500 municipalities and 501 school districts. Suffice it to 
say, we have turf issues, very serious turf issues, and I was 
struck by your testimony where you said, ``The parent needs to 
withhold its children's allowance, or in this case federal 
grant money, until they learn to cooperate with each other.''
    I think Ranking Member Thompson kind of alluded to those 
issues, and maybe as a federal government we can play a role. I 
am not so sure a mandate will help, but, certainly, withholding 
money will get some people's attention.
    You also mentioned we need to overcome the political issues 
across jurisdictions, that states must be--the federal grant 
money needs to come with strings attached. You get into the 
issue, too, of states redistributing federal grant money to 
county and municipal governments, must be sure that that money 
is spent on compatible equipment and software when we are faced 
with a statewide platform.
    I would also note, too, that I recently met with my 
regional counterterrorism task force in southeastern 
Pennsylvania, which is Philadelphia and four surrounding 
counties, a region of about 4 million people. And I was 
impressed by the fact that they were largely interoperable, and 
that is the question, all but for about four or five 
municipalities, which in that part of the world was pretty 
good. So I was pleased by that.
    Then you also talked about the lack of common standards 
among vendors. It continues to present difficulties for 
interconnection, and your bottom-line assessment was that 
federal tax dollars are not being allocated, managed or spent 
efficiently.
    So I guess my question to you is, knowing that we have 
spent all this money on interoperability, is this really more a 
problem of--is this a money problem or a coordination and 
accountability problem when you get right down to it? That is 
my main question.
    And, finally, I think you also illustrated the problem 
quite well with your disclosure requirement statement, and I am 
just curious, your program was to receive $211,000 and to date 
the NTC has not drawn down any of that funding. And I take that 
this grant was approved in 2003. Can I ask why that money has 
not been drawn down?
    Mr. Perry. Yes, sir. In putting together this study, we 
decided that it would be better appropriately for our 
organization to create another corporation that we could serve 
for research and training. And we are waiting for approval for 
that final one.
    Mr. Dent. So you are ready to spend the money but you can 
not get an approval?
    Mr. Perry. No. The money is approved. We were internally 
adding another corporation to our branch of the Troopers' 
Coalition so we could better serve that under education, 
training, and that is why we wanted that grant money to go into 
that corporation so that we could do this appropriately.
    Mr. Dent. Okay. Because, again, in a state like mine, much 
of our terrorism preparedness grants have not been drawn down, 
for whatever reason, one of which I just met with a large fire 
department in my district, municipal fire department, city of 
Allentown, where they cannot draw money down, and they ca not 
get purchase orders processed. That is at the state emergency 
management agency so that they can draw down funds or they are 
desperate, they need it right now. So I am glad to hear that is 
not the case with your grant.
    Could you just please address this question of, is this 
really an issue of money or is it more of an issue of 
accountability and coordination?
    Mr. Perry. I think that it is money and accountability 
coordination. More funds have to be allocated for this because 
of the amount of technology that is constantly changing and 
putting that infrastructure throughout the state that the users 
can then operate off. But when we come into the accountability, 
politics does play a role. The money from the federal 
government goes to the state, and sometimes the money going 
into the county or the municipality sometimes there is politics 
involved here. That is where the problem comes in.
    Sometimes you will have the squeaky wheel gets the grease, 
so to speak, and if one region is very political and has the 
ear of the person in charge of redistributing the state grant 
money, that is where that money is going to go, whether it is 
going to be compatible to the state's system or not.
    Mr. Dent. And should we be looking at--and maybe Mr. 
Moroney or somebody else could comment on this--I remember the 
Philadelphia region doing a reasonably good job on 
interoperability, interoperable within southeastern 
Pennsylvania where also part of that region includes portions 
of southern New Jersey and the state of Delaware.
    And maybe we need to look at this more on a regional basis. 
The same thing can be said in the New York metropolitan area: 
You deal with New York and New Jersey and Connecticut.
    Anybody have any thoughts on that issue?
    Mr. Moroney. It would be wonderful if we could come up with 
one totally interoperable, totally shareable communication 
system used by all emergency responders nationwide. I think 
practically anybody here at the table could tell you what it 
ought to look like and what it ought to do. I have no idea how 
we would get from here to there. So your suggestion that 
regional approach is this is going to be a series of steps that 
are taken.
    But I think some of the steps are not just looking at it 
from a regional point of view of where there is the political 
will to do it. It is going back to providing the incentives 
necessary to get it done. And maybe it is not so much 
withholding the allowance, it is putting a carrot out there.
    And there are a number of ideas. Our suggestion of saying 
to the utility industry to allocate a certain amount of 
spectrum, not spectrum that is currently being or already been 
allocated to traditional public safety, is a carrot, and you 
say, ``Here, if you use this spectrum to build communication 
systems, you must build a system that is then shareable by all 
emergency responders in an emergency or you must do this with 
it. If you do not do that, you ca not have it.'' That is the 
kind of a carrot that would provide an incentive, because there 
is already a financial incentive for our companies to move 
toward that.
    And I think the same is true for kinds of incentives for 
political entities to support traditional public safety.
    Mr. Dent. Thank you.
    Mr. Reichert. The Chair recognizes Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman, and thank you 
for holding this hearing.
    I want to thank the panelists particularly for your 
recommendations. It has not been a question that interoperable 
communications is a necessity, but the recommendations are very 
important, and I think that we can in this committee move in a 
bipartisan way to respond to some of what we have heard here 
this morning.
    I want to direct my question, at least if I get more than 
one out, I will move around, but first to Dr. Pinsky. And I 
ought to commend Ochsner and their good work. As I was reading 
the testimony last night, I was going, ``Wow, they really did a 
good job,'' until I got to whatever page that was and you tried 
to communicate outside. Everything was just flowing perfectly.
    But I am not sure whether that was because of citywide 
planning and maybe some statewide planning and exercising or in 
spite of it. So I have three questions, and I am going to ask 
them all at once so I can get them out.
    Prior to Katrina, were you a part of the planning and the 
exercising of the city's Emergency and Homeland Security 
Preparedness Council or whatever it is called there?
    And was there exercising with other hospitals, the public 
health system and private physicians?
    I would like to know from the American Hospital Association 
perspective if you feel that there is enough involvement of 
hospitals and public health and planning.
    The electronic medical records, do you consider that an 
integral part of interoperable communication when we talk about 
homeland security? I am always curious also as to how much in 
hospital preparedness funding did Ochsner get from the 
Department?
    Mr. Pinsky. Okay. I will start with the second question 
first, which was in regards to the electronic medical records. 
We have an electronic medical record with all of our patients' 
data on that. If there was ever any question of whether 
investment in electronic medical records was worth it, this 
answered it.
    With so many of the patients being--virtually the whole 
city being displaced, a large number of those patients, 
individuals ending up in the Baton Rouge area where we have 
facilities, we were able to make patient information available 
immediately. Or if the patient had relocated to Houston or 
somewhere else, a physician in the other city could call us and 
we could make available the information immediately.
    It was very important, and I suppose that is another form 
of interoperable--
    Mrs. Christensen. I think so.
    Mr. Pinsky. --communication.
    As an adjunct to that, because we are an academic 
institution, we have a large number of patients who were part 
of clinical trials and research. In fact, many of our cancer 
patients, many of our heart patients depend on these trials for 
their regular care. Because of the electronic medical record in 
our databases, we were able to have that data available as well 
and be able to set up communications for these people to 
contact us.
    That is the part that many times is overlooked when we talk 
about the delivery of health care.
    The funding of our electronic medical records, the funding 
of our own internal emergency preparedness comes from our own 
budget. We, like many hospitals, have a significant number of 
Medicare patients. We probably had prior to Katrina about 50 
percent of our discharges in the hospital were Medicare 
patients. On top of that, we have a significant amount of 
Medicaid patients. And now post-Katrina, the number of 
uninsured patients has quadrupled.
    So when we talk about our hospital, and I think hospitals 
as well, ability to fund their activities, obviously our 
payment sources are critical. So every change, every tweak that 
goes into the Medicare plan or goes into Medicaid plan hurts us 
in terms of ability to be able to, a, keep our doors open and, 
b, be able to fund these other activities.
    Mrs. Christensen. Participating in the planning.
    Mr. Pinsky. Prior to Katrina, even though our planning was 
very intense internally, it was not integrated into the rest of 
the area. We did meet with the Jefferson Parish emergency 
office and had updates and had the data that they had produced 
in terms of the modeling of the effects of the hurricane but 
not in terms of going through a mock hurricane disaster, city 
or region-wide.
    I can tell you that the American Hospital Association feels 
this is very important for us to be doing, and that is why I 
mentioned earlier our involvement with the other hospitals, 
particularly locally in terms of the city, which is the 
Metropolitan Council, and then statewide is going to help 
facilitate for us going forward.
    Mr. Reichert. The Chair recognizes Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Congressman Etheridge is no longer here, but I do 
appreciate his reference to H.R. 1646, the so-called HERO Act, 
which adds a critical dimension to this problem. And just for 
the record, I want to remind our committee and our witnesses of 
what this bipartisan bill has been after for the several years 
since its introduction.
    What it has been after is to keep the promise Congress made 
10 years ago to free up analog spectrum for emergency 
communications by the end of this calendar year, 2006.
    The promise, as many of the promises he made, contained a 
loophole. That loophole was that this would only happen if 85 
percent of the broadcast channels had transitioned to digital 
broadcast, and since that has not happened, the promise is not 
happening.
    But I think a lot of what has been discussed today could be 
substantially alleviated if there were national dedicated 
spectrum for emergency communications. And I think the 
resistance for this idea, which comes from the broadcast 
community, is enormously shortsighted, because those folks live 
on the same pieces of real estate that the rest of us do, and 
they, their families, their children and their uncles and aunts 
and other friends are at the same place that the rest of us are 
in the event of a manmade or natural disaster.
    So I want to call one more time for Congress to review this 
issue. It is true that we acted last year, not in this 
committee but the full Congress acted, to transition analog 
spectrum by February 2009. Everyone should get it that that is 
3 years from now, and I do not think the next Katrina or the 
next al-Qa'ida assault is going to say, ``Ooh, let's wait until 
February of 2009.''
    So I think we are doing the wrong thing. This subject is 
not in this committee's jurisdiction, but this issue is in this 
committee's jurisdiction, and on behalf of the many members of 
this committee who are co-sponsoring this bipartisan 
legislation, I would like to send a message out and about that 
we should not back off. The broadcasters should back off.
    At any rate, I do not assume I have any disagreement from 
the panel, but I thought that that rant might be useful.
    I want to say, Dr. Pinsky, that you performed a great 
service to the communities you serve during Katrina. I think we 
either should have you or a clone of you in charge of FEMA and 
our national strategy. Clearly, there is a lot of room for 
improvement, and you bring a learning curve that is very 
valuable. So on behalf of the constituents of the 36th district 
in California, I thank you for what you did.
    I just want to make a general comment and get your 
reactions. And that is that in addition to spectrum, the other 
big pieces, at least that we can contribute, are a national 
strategy, which we do not have, and standards, which this 
committee is working on and can work on within our 
jurisdiction.
    I just want to ask you folks whether you agree with me, at 
least from the federal perspective, that spectrum, strategy and 
standards are the three S's at arriving at a true national 
interoperability capability and that Congress should move 
faster?
    Ms. Linderman. I would agree that those are certainly very 
important for us, but the challenge is going to be figuring 
out--many communities have made investments in their systems 
and how you do not throw that away with the bathwater. We have 
to figure out how to make that work.
    The standards, I would suggest in the development of 
standards that there is a representation, certainly, from local 
governments, state governments and federal governments, to make 
sure that those standards can be implemented successfully.
    Ms. Harman. I agree. And part of the problem is in the 
vacuum localities have done whatever they could do to at least 
make certain that they can talk to each other. That is not true 
in every locality, and, clearly, there was a massive breakdown 
in New York and at the Pentagon on 9/11. We all understand 
that.
    And so I salute you for your efforts. We do not want to 
throw out the baby with the bathwater. On the other hand, we do 
want to provide more guidance quickly so we do not have 
interoperable capabilities in various parts of America that are 
not interoperable with each other.
    I see my light has turned red, but I am sure the chairman 
will give me permission to hear from the others in response to 
my question.
    Mr. Reichert. Absolutely. In fact, if you have an 
additional question, feel free to ask.
    Mr. Bradley. I would just like to say that those are 
certainly the three critical issues, and one of the most 
critical to me would be that the standards are complete before 
the spectrum is available. If not, there will be a lot of work 
done on the spectrums by people who are interested in getting 
on it immediately. It will not meet the rest of the individuals 
when they come on board. So I think the standardization needs 
to be done very rapidly before the spectrum is done.
    Mr. Moroney. I could not agree more. I would just suggest 
or remind that one of the things that I think is critical in 
either the strategy or the standards is that those 
interoperable systems be built in a manner that they can 
survive a disaster. Terrorist attacks or hurricanes tend to 
take out the power, and the best interoperable system that no 
longer has power supporting it ceases to function, and 
interoperability is not the issue.
    And as I said in my testimony, utilities do build systems 
this way, and so including them and their systems and how they 
build them in a strategy we think is essential to interoperable 
systems that continue to interoperate during emergencies.
    Mr. Perry. I agree also on the standards. It has to be a 
priority. I also want to reemphasize that not only is the big 
picture the next disaster important, first responders face this 
interoperability compatibility issue daily. This is where we 
need immediate help is on the day-to-day activities of all the 
first responders. Thank you.
    Ms. Harman. Thank you, Mr. Chairman. I think these are 
folks we should be consulting as we move forward on this issue. 
I think their testimony was enormously valuable.
    Mr. Reichert. Thank you.
    Ms. Harman. Thank you for accommodating my extra time.
    Mr. Reichert. You are welcome.
    Ms. Christensen, do you have additional questions?
    Mrs. Christensen. I did have a question based on something 
that Mr. Bradley had in his testimony regarding the 
administering of the spectrum by NTIA and your concern that it 
perhaps would be better under the Department of Homeland 
Security.
    So I wonder if you would comment on that and if anyone else 
had an opinion?
    Mr. Bradley. The administering of the grants is a critical 
issue and dealing with the first responders I think DHS has a 
better relationship, has better experience in the past in 
dealing with grants or doling out grants to first responders 
agencies.
    There is a myriad of first responders agencies. They often 
are confusing to those who have not dealt with them, the 
structure, the relationships between them. And of course the 
consensus or the standardization of getting all of them working 
together is important, so I think we believe that DHS is the 
appropriate agency to administer.
    If it is not administered by DHS and is transferred or kept 
in NTIA, then we think that it ought to follow the guidelines 
in the SAFECOM report or the SAFECOM requirements for the 
distribution of funds for communications.
    Mr. Reichert. I have a couple of additional questions.
    First is for Mr. Bradley. Has the fire profession, 
volunteer and full-time, undertaken a national operable 
communications needs assessment that you know of?
    Mr. Bradley. Not to my knowledge, Mr. Chairman, other than 
working through or following the guidelines of SAFECOM.
    Mr. Reichert. I guess I want to take a moment here just to 
kind of sum up what we have kind of heard. And I also want to 
take a moment to reinforce the statement that Mr. Pascrell 
made. We are going to get this done, and, as I said in my 
opening statement, this is a subject that is near and dear to 
my heart after 34 years of doing the job that Trooper Perry has 
done for many years.
    You know, we can share life and death stories about the 
failure of our ability to communicate with each other, and some 
are so dramatic that we wonder why. And in my own career, I 
think back, why haven't we done something yet? And as I said 
earlier, September 11 and Katrina pointed out the severe 
weaknesses in our ability to communicate across this country.
    There are a few things I think that are key in our success 
as we move forward, and today what we want to ensure is that we 
continue to have dialogue with all of the people here this 
morning who have testified.
    You are the experts in the field. You are the ones using 
the systems or not using systems that are not available right 
now and see the weaknesses. We need to know about those. We 
want to keep in touch with you.
    But some of the things that I have heard today really are 
leadership management. It is about accountability, and I like 
to kind of equate that to really having some performance 
measures in place so that when money is allocated and the 
people do start to build a program, to build an interoperable 
system or first an operable system, that much like COPS office 
operates, and I know because I have over my years had a great 
partnership with the COPS office. They have a system of 
accountability and performance measures already in place that I 
hope the Department of Homeland Security would view as one that 
they may be able to adopt.
    The most important thing I think that needs to happen here, 
and I think I have heard it from all the witnesses and from the 
members of our committee, is that there is no priority higher 
right now in the protection of our country and our ability to 
respond to emergencies, both natural and manmade and 
interoperability. And right now this administration and the 
Department of Homeland Security has not made interoperability a 
high priority, and we intend to change that.
    And this committee, as you can see, this is not a partisan 
issue, this is an issue that we all come together on. So we are 
with you, and we are going to make this happen.
    I want to thank you all for your testimony, and our 
committee hearing stands adjourned. Thank you.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]


                       THE STATE OF INTEROPERABLE



     COMMUNICATIONS: PERSPECTIVES FROM STATE AND LOCAL GOVERNMENTS



                                PART II

                              ----------                              


                        Wednesday, March 1, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                    Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 311, Cannon House Office Building, Hon. Dave Reichert 
[chairman of the subcommittee] presiding.
    Present: Representatives Reichert, Dicks, Harman, Lowey, 
Norton, Etheridge, and DeFazio.
    Mr. Reichert. [Presiding.] The Committee on Homeland 
Security, Subcommittee on Emergency Preparedness, Science and 
Technology will come to order.
    The subcommittee will hear testimony today from state and 
local governments on the state of interoperable communication.
    I would first like to welcome our witnesses and thank them 
for being here today, and thank you for taking time from your 
busy schedules.
    And before we get into opening statements, Mr. DeFazio from 
Oregon has asked unanimous consent to introduce the Honorable 
mayor from Beaverton.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for allowing 
me to move ahead.
    This is an issue of tremendous concern for me, and I know 
the committee will do a good job today. Unfortunately, we also 
have a hearing on a critical regional issue, our Bonneville 
Power Administration, which I have to go to.
    But I was particularly anxious to introduce Mayor Drake, 
the mayor of Beaverton, Oregon, today, because not only has he 
been a great mayor for that city for more than a decade now--
Rob, we have been doing this for a long time--but he has 
extraordinary expertise in public safety issues. And he will be 
a great witness to represent the local perspective on the need 
for interoperability and what the federal government can do 
better to partners.
    Chair of the regional emergency management group since 
1993, he is a member of the Public Safety and Crime Prevention 
Steering Committee with the National League of Cities, and he 
represents National League of Cities on the Department of 
Homeland Security's Project SAFECOM Executive Committee.
    So I think that his input, and I know the other witnesses, 
will be extraordinarily valuable.
    And, again, I thank you, Mr. Chairman, and I hope that 
today's hearing marks further progress on interoperability, 
which we need so critically.
    Thank you.
    Mr. Reichert. Thank you.
    Let me welcome you again, and on behalf of the members of 
the subcommittee, we are glad that you are here to share your 
experience and knowledge with us. Your leadership in trying to 
solve the problem of emergency communications in your 
perspective jurisdictions distinguishes you, and we look 
forward to hearing from you today.
    The purpose of this hearing's second series on 
interoperability is to understand the state of public safety 
interoperable communication from the perspective of state and 
local governments. Public safety interoperability begins with 
you, our state and local partners.
    You own the majority of our nation's public safety 
communication systems. Your fellow citizens must live with the 
consequences of your successes or failures. And you are in the 
trenches day in and day out trying to solve this problem. That 
is why your perspective is so valuable to us.
    Public safety is among the most basic and critical of the 
services coordinated, regulated and funded by state and local 
governments. Yet when our nation's first responders lack the 
ability to relay mission-critical information to each other on 
demand and in real time, everyone's safety may be needlessly 
compromised.
    Unfortunately, in many jurisdictions, public safety 
agencies still operate and maintain largely independent 
emergency communication systems. Such stovepipe communication 
systems generally lack the capacity to support interoperability 
with the surrounding federal, state and local agencies. But 
interoperability, by definition, requires coordination among 
and partnership between all levels of government.
    It is clear that the problem of public safety 
communications cannot be solved by any one jurisdiction alone. 
That is precisely why federal, state and local officials have 
begun to establish state interoperability executive committees 
and regional interoperability committees, councils and/or 
workshops.
    Such high-level coordinating and rulemaking bodies play a 
vital role in helping state and local officials improve public 
safety communications. And they provide badly needed venues for 
planning, policy development and fostering interagency 
relationships.
    In mid-February, this subcommittee received testimony on 
interoperable communication from first responders. From each 
and every witness we heard the same thing. We heard about the 
need for consistent leadership, not for billions of dollars in 
additional funding, but for policy makers and government to 
simply work together.
    The members of this subcommittee have heard that message 
loud and clear, and as its chairman and a cop of over 33 years, 
I intend to make sure that Congress does its part to help 
federal, state and local officials implement a unified approach 
to the problem of emergency communications.
    I want to thank the witnesses again for their testimony.
    And the Chair will now recognize--would recognize my friend 
from New Jersey, but he is not here, tied up on other business. 
I will recognize Ms. Harman from California.
    I would like to acknowledge the bipartisan spirit of this 
subcommittee. Today's hearing marks the first time that any 
subcommittee of the Committee of Homeland Security has 
distributed to members a bipartisan briefing memo drafted 
jointly by both staffs. It is an important precedent that I 
would like to continue in the future with Mr. Pascrell's 
consent, of course, and assistance.
    And I know we often talk about working together, but I hope 
that this sets an example and shows my intention to work 
cooperatively on issues of national importance. Quite frankly, 
how can we expect state and local governments and emergency 
providers and others to work together to solve the problem of 
interoperability if we do not practice what we preach?
    I look forward to continuing to work on a bipartisan basis 
with my colleagues and so now yield to Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. I applaud the remarks 
that you just made. I often say that the terrorists are not 
going to check our party registration before they blow us up. 
And so it is absolutely imperative that we work together to fix 
at the federal level what I think are two huge gaps in our 
homeland security. One is, the lack of a national integrated 
strategy. We are doing better but we have a long way to go.
    And the second is, the lack of true interoperability. I see 
these witnesses nodding and I see our colleagues nodding. The 
folks in this room, on this committee, have been dedicated to 
fixing this problem for a long time, and we have not, at our 
level, gotten very far.
    So that is why I want to congratulate the dedicated public 
servants in front of us who are doing everything they can at 
the local level to make certain that when they have both 
natural and manmade disasters, they have the ability to talk to 
each other.
    Just speaking for my region of California, the largest 
county in the United States, Los Angeles County, my local first 
responders and law enforcement personnel have figured out some 
bridging technologies that give them the ability to drive a 
flatbed to the site of a problem, and on that flatbed are a 
series of ACU-1000s, which are a device to grade a number of 
frequencies.
    Now, that is great if the flatbed can get there. But in the 
case of a fire where the roads are out and the heat is too 
high, I mean, we still literally have people having to drive 
around the entire fire, swap radios and so forth, and we are 
are obviously in a dreadful mess in those situations.
    So I do not think we need another Katrina or a catastrophic 
terrorist attack to tell us how serious this problem is. I 
think what we need is more action at this level.
    Some of you, I assume all of you, know that I have 
coauthored the HERO Act with Congressman Weldon, who is another 
member of this committee, which would require that Congress 
keep its promise for dedicated spectrum by the end of this 
year. Sadly, HERO has not become law. The promise Congress is 
now making is to move that date to sometime in 2009. I think 
that is inadequate. But the good news is what you are all doing 
and also the fact that there are new technologies out there--I 
just heard about one--that may be able to get this job done 
without the need for dedicated spectrum. And if that pans out, 
we may be able to solve this problem faster.
    Let me just conclude, Mr. Chairman, by saying that the 
Homeland Security Department itself, sadly, is no longer 
funding the COPS Interoperability Grants Program on the 
grounds--or the government is not, on the grounds that the 
program is redundant with what Homeland Security is doing. But 
Homeland Security does not have a dedicated Interoperability 
Grant Program. So that is unsatisfactory.
    And I think if there is a short-term future, we are going 
to hear it from our witnesses, and I just want you to know that 
on a bipartisan basis the members of this committee want to 
help you achieve something in our national interest.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Ms. Harman.
    Other members of the committee are reminded that opening 
statements may be submitted for the record, and we are pleased 
to have with us today a distinguished panel of witnesses.
    The first is the Honorable Rob Drake, mayor of the city of 
Beaverton, Oregon, and member of the National League of Cities, 
Public Safety and Crime Prevention Steering Committee. Next is 
the Honorable Gino Menchini, commissioner of the New York City 
Department of Information Technology and Telecommunications. 
And Chief Charles Werner, fire chief of the city of 
Charlottesville, Virginia, and member of the Virginia Statewide 
Interoperability Executive Committee. And Mr. Steve Proctor, 
executive director of the Utah Communications Agency, former 
national president of the Association of Public Safety 
Communications.
    Let me remind the witnesses that their entire written 
statement will appear in the record. We ask that due to the 
number of witnesses on our panel today, that you strive to 
limit your oral testimony to 5 minutes.
    And the Chair now recognizes the Honorable Mayor Rob Drake.

STATEMENT OF ROB DRAKE, MAYOR OF BEAVERTON, OREGON, MEMBER, AND 
 CRIME PREVENTION STEERING COMMITTEE, NATIONAL LEAGUE OF CITIES

    Mr. Drake. Thank you and good afternoon, Mr. Chairman, 
Ranking Member Pascrell and distinguished members of the 
subcommittee. My name is Rob Drake, and I am the mayor of the 
city of Beaverton, Oregon.
    Today, I am testifying on behalf of the National League of 
Cities where I serve as a member of the Public Safety and Crime 
Prevention Steering Committee. I also represent NLC on the 
Department of Homeland Security's Project SAFECOM Executive 
Committee.
    Interestingly, today marks the third anniversary of 
Department of Homeland Services, and NLC's wish is for the 
Department to make greater strides on interoperability. For 
many communities and regions around the country, the challenge 
of interoperable communications represents an immediate threat 
to the viability of their public safety operations.
    In my hometown of Beaverton, which is part of the greater 
Portland metropolitan area, we approach interoperable 
communications from a regional perspective because public 
safety is an issue that does not respect political or 
geographic boundaries.
    I have served as chair of the Portland Area Regional 
Emergency Management Group, REMG, since 1993. REMG is the 
vehicle by which the public and private sectors in the 
Portland-Vancouver region work together to organize, plan and 
define regional needs and develop common policies and 
procedures to follow in the event of a disaster. The group is 
dedicated to providing a long-term model for regional 
coordination and planning, driven by operational necessity, not 
by financial incentives.
    This is a voluntary group, formed through intergovernmental 
agreements between special districts, city, county and regional 
agencies in the five-county, bi-state, Portland-Vancouver 
metropolitan area. It includes the American Red Cross and 
steady participation from utility providers and local and 
global businesses.
    Some key initiatives for REMG include identification and 
publication of regional emergency transportation routes; 
development of the greater Portland-Vancouver area emergency 
alert system, EAS Operation Plan, in coordination with 
broadcasters across the region; development of a regional 
disaster debris management plan in cooperation with Metro, 
Portland's regional government and local solid waste program 
managers; voluntary agreement between local governments to 
address emergency management issues for the benefit of the 
entire region, regardless of resources or participation in the 
group; staff deployment from participating agencies without 
compensation to work with the regional partners; and, finally, 
involvement of policy-level representatives from each signatory 
agency who provides structure to the group and assists in 
developing sound policies and procedures for use in disaster 
situations.
    REMG works effectively because its signatories agencies 
believe in the value of a regional plan, which ensures the 
integration of all individual plans under the umbrella of one 
common plan.
    There are many advantages to coordinated emergency 
response. First, it develops proactive relationships between 
likely co-responders. Second, it brings together from across 
our region a collective knowledge for the benefit of the entire 
region.
    Third, it reduces duplicate efforts, which helps identify 
and allocate finite resources, maximizes resource utilization 
and ensures communication of a consistent message to our 
public. Congress should support mechanisms that encourage 
coordinated planning on a regional level.
    The challenge of integrating levels of service provision is 
daunting. I have helped guide regional cooperation among local 
officials for the last 13 years. It has taken very hard work 
and commitment to keep this on track.
    I would recommend the following to strengthen the federal 
role on interoperable communications.
    One, elevate the visibility of Project SAFECOM. Project 
SAFECOM at Department of Homeland Security is a great example 
of a federal agency incorporating the input of local 
governments to improve interoperable communication plans and 
guidelines. Elevate the visibility of Project SAFECOM and its 
mission, because interoperable communication influence hometown 
security directly.
    Two, build on the spine of existing communication networks. 
The federal government should design programs that benefit 
first responders at the local level but within a national 
scheme. Build on the spine of communication networks that 
promote enhanced public safety and disaster response 
capabilities across multiple jurisdictions.
    Three, funding flexibility. NLC urges Congress to allow 
more flexibility in the use of federal public safety funds for 
upgrade technology communication systems and training. The 
federal government should provide funding directly to local 
governments for homeland security, emergency preparedness and 
response because we are the initial focal point of all disaster 
mitigation and recovery activities.
    The fourth point, federal government should commit to date 
certain for return of analog spectrum. While NLC acknowledges 
the political challenges that led to a date certain return of 
analog spectrum by February of 2009, NLC reminds Congress that 
more lives than necessary may be lost between now and then 
because of the lack of spectrum. NLC urges Congress to lead 
efforts to accelerate, if possible, efforts to resolve 
interoperability problems that affect emergency communications 
and data systems throughout the nation. No one should lose his 
or her life because public safety officials cannot communicate 
with another.
    Thank you, and I would be happy to answer any questions.
    [The statement of Mr. Drake follows:]

                Prepared Statement of Hon. Robert Drake

                        Wednesday, March 1, 2006

    Good afternoon, Chairman Reichert, Ranking Member Pascrell, and 
distinguished members of the subcommittee. My name is Rob Drake and I 
am Mayor of the City of Beaverton, Oregon. I have served as mayor since 
1993. We are a city of 83,500 citizens and touch Portland on its west 
side. I am testifying today on behalf of the National League of Cities 
(``NLC''), where I serve as a member of its Public Safety and Crime 
Prevention Steering Committee. I also represent NLC on the Department 
of Homeland Security's Project SAFECOM Executive Committee.
    NLC is the country's largest and oldest organization serving 
municipal government, with more than 1,800 direct member cities and 49 
state municipal leagues, which collectively represents more than 18,000 
United States communities. Its mission is to strengthen and promote 
cities as centers of opportunity, leadership, and governance, and to 
serve as a national resource and advocate for the municipal governments 
it represents.
    NLC appreciates the opportunity to present a municipal perspective 
on the state of interoperable communications. Let me begin with a brief 
summary of NLC's initial recommendations to Congress:
        (1) Elevate the visibility of the SAFECOM program for 
        interoperable communications within the Department of Homeland 
        Security.
        (2) Build on the ``spine'' of existing communications networks 
        to promote enhanced regional public safety and disaster 
        response capabilities.
        (3) Provide state and local governments with federal funding 
        flexibility.
        (4) Accelerate efforts necessary to implement the ``date 
        certain'' return of analog spectrum required to improve public 
        safety communications.
    These recommendations represent a starting point for action. Action 
is necessary now because no one knows when or where the next natural or 
man-made crisis may strike that demands a rapid response and seamless 
communications among and between first responders and others engaged in 
public safety. For many communities and regions across the country, the 
challenge of interoperable communications represents an immediate 
threat to the viability of their public safety operations.
    In my hometown of Beaverton, which is part of the greater Portland 
metropolitan area, we approach interoperable public safety 
communications from a regional perspective because public safety is an 
issue that does not respect artificial political or geographic 
boundaries.

I. Interoperability in Beaverton, Oregon
    I have served as Chair of the Portland-area Regional Emergency 
Management Group (REMG) since 1993. This is a voluntary group formed 
through intergovernmental agreement between special districts, city, 
county and regional agencies in the five-county, bi-state Portland/
Vancouver Metropolitan area. It includes the American Red Cross and 
steady participation from utility providers and local and global 
businesses such as Portland General Electric, Northwest Natural Gas, 
Bonneville Power Administration, PacifiCorp, and Intel.
    Subsequent to the formation of REMG, the Department of Homeland 
Security Urban Area Security Initiative (UASI) designated the Portland/
Vancouver Metropolitan area as one of the key regions nationwide at 
risk from potential disasters--natural or man-made. The UASI funds 
provide resources for the equipment, planning, and training needs of 
these designated regions.
    REMG is the vehicle by which the public and private sectors in the 
Portland/Vancouver region work together to organize, plan and define 
regional needs and develop common policies and procedures to follow in 
the event of a disaster. The group is dedicated to providing a long-
term model for regional coordination and planning driven by operational 
necessity, not by financial incentives. The REMG consists of two 
committees:
        <bullet> Technical Committee (REMTEC)--Comprised of emergency 
        management professionals from the signatory agencies.
        <bullet> Policy Advisory Committee (REMPAC)--Comprised of 
        elected officials from all the signatory agencies.
    The key initiatives for REMG include:
        <bullet> Identification and publication of regional emergency 
        transportation routes in cooperation with transportation 
        officials from the region.
        <bullet> Development of the Great Portland/Vancouver Area 
        Emergency Alert System (EAS) Operation Plan in coordination 
        with broadcasters across the region.
        <bullet> Development of a regional disaster debris management 
        plan in cooperation with ``Metro,'' Portland's regional 
        government, and local solid waste program managers.
        <bullet> Voluntary agreement between local governments to 
        address emergency management issues for the benefit of the 
        entire region, regardless of resources or participation in the 
        group.
        <bullet> Staff deployment from participating agencies, without 
        compensation, to work with the regional partners for the 
        benefit of the entire region.
        <bullet> Involvement of policy level representatives from each 
        signatory agency who provide structure to the group and assist 
        in developing sound policies and procedures for use in disaster 
        situations.
        <bullet> Emphasis on policy level coordination, resource 
        management, and joint training and information management.
    REMG works effectively because its signatory agencies believe in 
the value of a regional plan. A separate functional policy level allows 
technical experts such as emergency management professionals to focus 
solely on achievements at the field level. These officials also provide 
accountability and oversight for the group. REMG provides a place for 
business, government, and disaster relief organizations to have a voice 
and collaborate in disaster planning. REMG does face challenges 
including its ineligibility to receive federal grant funding directly, 
and its lack of statutory authority. However, a regional plan ensures 
the integration of all individual plans within a common plan.
    There are many advantages to coordinated emergency response. First, 
it develops proactive partnerships between likely co-responders. A 
diverse group of partners provides the opportunity to capitalize on the 
strengths of each for policies and procedures, knowledge and funding. 
Second, it brings together from across our region a collective 
knowledge for the benefit of the entire region. This is more powerful 
than each entity working alone and in competition for available 
resources. Third, it reduces duplicate efforts, helps identify and 
allocate finite resources, maximizes resource utilization, and ensures 
communication of a consistent message to the public.
    As stated in ``A Failure of Initiative,'' a final report of the 
Select Bipartisan Committee to Investigate the Preparation for and 
Response to Hurricane Katrina:
``The failure of initiative was also a failure of agility. Response 
plans at all levels of government lacked flexibility and adaptability. 
Inflexible procedure often delayed response. Officials at all levels 
seemed to be waiting for the disaster that fit their plans, rather than 
planning and building scalable capacities to meet whatever Mother 
Nature threw at them.'' Executive Summary at 2 (February 15, 2006).
    While direct funding for local projects helps day-to-day, mission-
critical capabilities for any given agency, it does not always 
guarantee a benefit or ensure coordination when major incidents like 
large weather disasters or an earthquake involving multiple 
jurisdictions and disciplines strike. To remedy this situation, 
Congress should support mechanisms that encourage, streamline and 
improve coordinated planning on a regional level. There is a need to 
transcend traditional barriers associated with jurisdictional 
boundaries or ``turf issues.''
    For instance, regional jurisdictions and disciplines must train 
together on the plans within the Incident Command System (ICS) 
environment. Our nation needs a multi-jurisdictional, multi-
disciplinary approach to public safety planning inclusive of all levels 
of government and parties affected--urban and rural. The challenge for 
our national emergency preparedness system is to integrate local, 
state, and federal government resources and ensure that federal money 
provides incentives to develop integrated systems.

II. NLC Position on Interoperability
    Since 1995, NLC has been a national leader in support of clearing 
radio spectrum for public safety use. This was the year when domestic 
terrorists bombed the Alfred P. Murrah Federal Building in Oklahoma 
City, Oklahoma. In the intervening years, our nation has experienced 
dramatic natural disasters such as Hurricanes Katrina and Rita, and 
terrorist attacks on the Pentagon and World Trade Centers. NLC's policy 
states that ``[t]he federal government must allocate sufficient 
telecommunications spectrum to cities for public safety use in order to 
enhance inter-operable communications among public safety and service 
agencies, and to ensure the ability of local governments to meet their 
responsibilities for public safety and emergency services. ational 
Municipal Policy at Sec. 7.04 A. (2006).
    Last December 2005, NLC adopted a resolution during its annual 
governance meeting that re-affirmed its long-standing position that 
interference-free broadcast spectrum and reliable and interoperable 
wireless communications are essential to the public safety role of 
local officials. NLC Resolution #2006-46. The resolution expresses that 
``past federal public safety frequencies and channels have been 
scattered and inadequate, resulting in a fragmented public safety 
spectrum.'' Id. The federal government ``must lead the efforts to 
resolve interoperability problems that affect emergency communications 
and data systems throughout the nation.'' Id.
    Since the Oklahoma City bombing in 1995, NLC worked to ensure that 
city leaders have the resources and the best possible capabilities to 
prevent serious attacks in their communities and to respond when a 
catastrophic event occurs. In 1997, NLC coordinated with key Senate 
leaders and then-U.S. Attorney General Janet Reno to obtain new 
wireless telecommunications capacity exclusively for state and local 
public safety use. In addition, NLC supported a requirement in the 
Balanced Budget Act of 1997 that the FCC reallocate 24 megahertz of 
spectrum in the upper portion of the 700 MHz band (channels 60-69) for 
public safety use.
    In 1998, NLC co-authored with the Department of Justice a guidebook 
entitled, Public Safety and Radio Spectrum Guide, to help city leaders 
enhance their public safety communications capacity. The following 
year, NLC spotlighted the need for vigilant legislative and regulatory 
action to clear the radio spectrum for public safety communication 
needs. Oklahoma City Councilwoman Ann Simank, a member of NLC's Public 
Safety and Crime Prevention Steering Committee, described the chaotic 
scene of the bombing site in testimony before the House Government 
Reform Subcommittee on Oversight, Investigations, and Emergency 
Management:
    ``That morning we learned first-hand the extreme importance of 
interoperable voice communications. Under the best of circumstances, 
when terrorism or natural disasters strike, you are working in chaos. 
But when you can't communicate, your hands are tied.''
    Two years later, the events of September 11, 2001, and the 
shortcomings of public safety communication systems that day served as 
a deadly reminder of Councilwoman Simank's testimony. Our first 
responders must have timely information and resources to lead the way 
in emergency response. Unfortunately, because emergency responders do 
not share common broadcast frequencies, lives are at risk. The 9/11 
Commission's Final Report specifically stated that the inability of 
these first responders to talk with each other and their commanders 
resulted in loss of life that day. The 9/11 Commission identified the 
need for more spectrum as crucial to assist police, firefighters, and 
emergency responders in communicating during an emergency such as a 
terrorist attack or a hurricane.
    The radio spectrum is a finite, non-renewable natural resource 
owned by the people and managed by its elected officials. Having the 
capability to transmit vital information to different emergency 
response personnel among all levels of government without interference 
and delay is key to disaster preparedness and emergency response. Only 
the federal government can remedy the current availability shortage of 
broadcast spectrum for public safety needs across the nation.

III. Recommendations to Congress to Improve InteroperabilitySec. Sec. 
    Whether at the local, county, regional, state, or federal level, as 
elected officials we have one common link. We generally represent the 
same constituents and they remind us of shortfalls when large disasters 
such as Hurricane Katrina befall us.
    The challenge of integrating levels of service provision is 
daunting. I have helped guide regional cooperation among local 
officials for the last 13 years and it has taken skill and commitment 
to keep us on task. We began the REMG in 1993, but our work became even 
more focused after a major windstorm hit the Portland/Vancouver area in 
late 1995. Our collective response was weak with poor communication and 
cooperation between agencies and the utility providers. In post-event 
evaluations, we recognized that we failed in many ways and committed to 
improving communication, response and planning. All of this happened 
long before the tragic events of 9/11. We seek partnership and 
financial assistance from Congress to implement local and regional 
plans. Moving beyond our own boundaries to a collective response is 
desirable, but funding becomes the big obstacle at each turn.
    I would recommend the following to strengthen the federal role in 
interoperable communications:

    (1) Elevate the Visibility of Project SAFECOM.
    NLC policy calls for the federal government to establish a 
comprehensive spectrum management master plan that includes input from 
all stakeholders, including local government. National Municipal Policy 
at Sec. 7.04 C. Project SAFECOM at the Department of Homeland Security 
is a great example of a federal agency incorporating the input of local 
governments to improve interoperable communications plans and 
guidelines. Elevate the visibility of Project SAFECOM and its mission 
because interoperable communications capacity influences hometown 
security directly.
    While we have built a functional and interoperable radio 
communication system in the Portland/Vancouver area, this is not the 
case on a national basis. The federal government should encourage 
regional planning for public safety communication needs and address the 
current shortage of spectrum channels with a long-term plan that 
ensures available broadcast channels to meet future public safety needs 
across the nation. If federal reallocation of radio spectrum forces a 
municipality to change radio frequencies, channels, or both to preserve 
its public safety and emergency communications services, then in 
consideration there should be prompt and fair compensation paid for 
transfer costs, such as new equipment and additional personnel and 
training.

    (2) Build on the ``spine'' of existing communications networks.
    NLC recommends that Congress encourage states to facilitate local 
and regional interoperable communications efforts that build on the 
``spine'' of communications networks that promote enhanced public 
safety and disaster response capabilities across multiple jurisdictions 
and areas. The federal government should design programs that benefit 
first responders at the local level, but within a national scheme. 
Congress should support the construction and maintenance of emergency 
preparedness plans and communications infrastructure systems that 
operate not only within the internal system for day-to-day mission-
critical tasks, but are also ``interoperable'' between disciplines when 
major emergencies escalate.
    Related, the federal government should commit to link all emergency 
warning systems and supply all areas with appropriate equipment so that 
we leave no area unprotected. National Municipal Policy at Sec. 6.02 
E.2. (2006). Emergency alert systems should be used to ensure that any 
emergency declared by the President, homeland security, or through 
National Weather Services alerts are timely and accurate and provide 
direction on recommended protective measures local governments should 
take when the threat level is increased. Reimbursements to local 
governments for any costs associated with heightened alerts are 
necessary.
    NLC urges the federal government to ensure that all areas of the 
country have access to modernized 911 technologies for emergency use. 
Currently, cities and towns that do not have timely emergency response 
services usually have not implemented a 911 system or their systems are 
antiquated. NLC also urges the federal government, in particular the 
Department of Justice and the Federal Communications Commission, to 
continue its efforts to improve the wireless 911 or E-911 services by 
working in partnership with state and local land use authorities, 
public safety officials, and the telecommunications industry. In 
addition, the telecommunications industry must fully develop and fund 
wireless emergency locater services, tracking systems, and lead efforts 
to resolve interoperability problems that affect emergency 
communications systems throughout the nation. These efforts must 
continue to respect the premise of local autonomy, avoid burdensome 
mandates, and reflect the need for greater funding in underserved 
jurisdictions.
    The federal government must also involve cities as it develops 
standards for the delivery of emergency information on cable systems. 
National Municipal Policy at Sec. 7.04 A. (2006).

    (3) Funding Flexibility.Sec. 
    NLC urges Congress to allow more flexibility in the use of federal 
public safety funds for upgraded technology communication systems and 
training. Many municipalities face great difficulty in purchasing 
necessary public safety equipment because of budget constraints or 
their inability to qualify for available funds. New duties placed on 
law enforcement related to homeland security have shrunk budgets 
further. NLC urges the federal government to assist all municipalities 
in advancing their public safety capabilities without imposing 
inflexible compliance guidelines.
    Local governments are the first level of government to respond to 
most disasters and emergencies. The federal government should provide 
funding directly to local governments for homeland security, emergency 
preparedness, and response because we are the initial focal point of 
all disaster mitigation and recovery activities. The structure of 
federal and state technical and financial assistance should allow local 
officials maximum flexibility in meeting identified needs. Regarding 
the homeland security funding formula, NLC supports the federal 
government continuing to fund risk-based threats in highly populated 
and high-threat areas. NLC also supports a minimum level of funding for 
state grants sufficient to allow jurisdictions to prepare for possible 
terrorist-based threats, with flexibility to use the funds for dual-use 
(risk and all-hazards) pursuant to their state homeland security plans. 
National Municipal Policy at Sec. 6.03 A. (2006).
    (4) Federal Commitment to ``Date Certain'' for Return of Analog 
Spectrum.
    While NLC acknowledges the political challenges that led to a 
``date certain'' return of analog spectrum by February 19, 2009, NLC 
reminds Congress that more lives than necessary may be lost between now 
and then because of a lack of spectrum. No one should lose his or her 
life because public safety officials cannot communicate with one 
another. NLC urges Congress to lead the efforts to accelerate, if 
possible, efforts to resolve interoperability problems that affect 
emergency communications and data systems throughout the nation. 
Reliable and interoperable wireless communications are essential to 
public safety's mission to protect life and property.

* * *
    Thank you for the opportunity to present the views of 
municipalities on the important work of building interoperable 
communications networks.

ATTACHMENT ONE
NLC RESOLUTION #2006-46
IN SUPPORT OF INTEROPERABLE PUBLIC SAFETY
COMMUNICATIONS SYSTEMS AND FUNDING
WHEREAS, interference-free broadcast spectrum and reliable and 
interoperable wireless communications are essential to the public 
safety role of local officials;
WHEREAS, the federal government has a responsibility in providing 
adequate telecommunications spectrum to enhance interoperable 
communications among public safety and emergency services;
WHEREAS, past federal public safety frequencies and channels have been 
scattered and inadequate, resulting in a fragmented public safety 
spectrum;
WHEREAS, the federal government must provide funding to purchase the 
necessary equipment and training; and
WHEREAS, federal funding of interoperable public safety equipment 
continues not to meet the new needs and requirements of the post 
September 11th environment.
NOW, THEREFORE, BE IT RESOLVED that the federal government must lead 
the efforts to resolve interoperability problems that affect emergency 
communications and data systems throughout the nation;
BE IT FURTHER RESOLVED that the federal government must remedy the 
current shortage of broadcast spectrum availability for public safety 
needs across the nation;
BE IT FURTHER RESOLVED that the federal government must provide 
adequate funding for interoperable equipment to better facilitate 
coordinated and effective emergency response in cites and across 
jurisdictions; and
BE IT FURTHER RESOLVED that the National League of Cities (NLC) insist 
that Congress adhere to the December 31, 2006 compliance date for 
vacation of television channels currently blocking radio spectrum 
required for public safety radio communications systems.Sec. 

    Mr. Reichert. Thank you, Mayor Drake.
    The Chair recognizes Mr. Menchini.

 STATEMENT OF HON. OGINO MENCHINI, COMMISSIONER, DEPARTMENT OF 
  INFORMATION TECHNOLOGY AND TELECOMMUNICATIONS, NEW YORK CITY

    Mr. Menchini. Thank you, Mr. Chairman, and thank you, 
distinguished members of the subcommittee.
    Good afternoon. My name is Gino Menchini. I am getting over 
a cold, so please bear with my voice. But I am commissioner of 
the New York City Department of Information Technology and 
Telecommunications, and the city's chief information officer. 
Accompanying me today is Inspector Charles Dowd, commanding 
officer of the New York City Police Department's Communications 
Division.
    I am privileged to have the opportunity to testify before 
you today about public safety communications in the city of New 
York, to describe the interoperable systems we have put into 
place and to outline the city's future needs.
    Allow me to begin by saying that one of the primary 
challenges in designing interoperable radio systems is 
anticipating the many different circumstances in which 
interoperable communications will be required. This type of 
contingency planning is fundamental because, contrary to 
popular belief, interoperability cannot be achieved by simply 
putting thousands of emergency responders onto the same radio 
channel.
    I see you are nodding because I think Los Angeles has a 
similar situation that New York City does.
    The shortcomings of such an approach mirror limitations 
associated with telecom voice traffic, generally. For example, 
just as it would create havoc to have thousands of participants 
on a single telephone conference bridge, so too would essential 
radio communications become jumbled and lost, with too many 
responders talking at the same time, on the same channel.
    To do their jobs effectively and safely emergency 
responders must have specific channels dedicated to those 
personnel participating in particular operations. These 
personnel must not be required to contend with the traffic of 
other users communicating about something other than the 
mission at hand.
    Some believe that an alternative means of achieving 
interoperability would be for responders to scan through their 
radio channels in search of information that might be useful to 
them. This approach overlooks the fact that emergency 
responders generally must remain on their primary incident 
radio channel or else risk losing critical messages related to 
command, control and coordination.
    As I said, achieving interoperability solutions really does 
depend on our ability to specifically anticipate the types of 
situations in which interoperable communications will be 
required. Since September 11, the city has focused on defining 
these interoperability requirements and on tailoring 
interoperability initiatives to address them.
    In regard to first responder interoperability, the city has 
made the determination that the optimal approach is to bring 
all users onto a common UHF frequency band so that 
interoperability can be achieved among police officers, 
firefighters and emergency medical technicians when the 
circumstances dictate that particular users from these forces 
must communicate with each other.
    In this regard, in 2004, the FCC permanently allocated TV 
broadcast channel 16 for the use of public safety 
communications by multiple New York City agencies, including 
the police departments and fire departments, emergency medical 
services and the Office of Emergency Management, as well as 
neighboring counties. The channel 16 frequency band is used in 
various situations that require interoperable communications. 
These range from on-scene mission-specific interoperable 
communications between walkie-talkies, to communications on a 
borough or citywide basis among officials from different 
agencies, to communications on a regional basis.
    In regard to secondary responder interoperability, I want 
to outline how we have addressed these requirements for 
interoperable communications during major incidents. The city 
has implemented specialized talk groups on our citywide 800 MHz 
system for 56 state, city and regional agencies; 78 hospitals 
and healthcare facilities; and the commissioners of 44 city 
agencies.
    For multi-jurisdictional interoperability, in the aftermath 
of September 11, the city has established a regional 
Interoperability Communications Committee, known as the ICC. 
The ICC meets regularly to evaluate the current state of 
interoperable communications and to develop strategies for 
improving interoperability.
    Finally, the city has deployed several TRP-1000 radio 
interoperability systems to provide interoperability during 
incidents that require communications among city, state, 
regional and federal organizations using different radios and 
different frequency types. The ICC has established protocols 
for the deployment of TRP-1000s to support the tactical 
communications of these multijurisdictional agencies at a 
scene.
    I should emphasize that achieving interoperability is an 
ongoing process, rather than an end state that we can never 
perfectly achieve that interoperability, and it must be dynamic 
and meet the changing requirements and changing needs of our 
first responders.
    Obtaining adequate funding is, however, critical for these 
endeavors. I will describe briefly some of the interoperability 
projects the city is currently pursuing.
    For tactical interoperability communications plan, the city 
is in the process of finalizing its tactical interoperability 
communications plan, which will be submitted to the Department 
of Homeland Security by May 1. This plan will document what 
interoperable communications resources are available within our 
urban area and who controls each resource, as well as the rules 
and operational procedures for the appropriate use of each 
interoperable resource.
    The creation of this plan is a requirement of the 
Department of Homeland Security Office of Grants and Training 
2005 Urban Area Security Initiative Grant Program. The city is 
fully compliant with the Department's requirements.
    I am going to go over my time here, if that is okay. Is it? 
Thanks. I hope this is of value. And as a New Yorker, I can 
speak much quicker, but you may not be able to understand it.
    On the implementation of 700 MHz, the city certainly 
appreciates the establishment of a firm date for transfer of 
the 700 MHz spectrum, as well as the congressional allocation 
of $1 billion for interoperability contained in the budget 
reconciliation bill recently signed by the President. Clearly, 
however, $1 billion when dispersed throughout the nation is not 
sufficient to fund optimal use of the 700 MHz system, and we 
would urge you to consider expanding funding for this 
initiative.
    As you know, this spectrum was allocated to public safety 
with three main objectives: One, to provide much needed 
additional public safety voice channels, and, two, to improve 
regional Interoperability, as well as allow for transmission of 
wideband data.
    In regards to wideband data, the city is moving 
aggressively to deploy a state-of-the-art interoperable 
citywide mobile broadband data network, which will provide 
emergency responders with data access to large files, including 
maps, building layouts and massive federal and state anti-crime 
and anti-terrorism databases, as well as mug shots of 
terrorists and be able to have video-on-demand coming to and 
from scenes. These networks will provide for downloads of full-
motion video at emergency scenes and continuous biological, 
chemical, nuclear and radiological monitoring.
    The transmission capability of this network will be the 
first of its kind and will literally transform the way in which 
officials respond to emergencies. Given the substantial public 
safety and national security components of the project, the 
city is pursuing federal funding to offset its costs, which 
will be several hundred million dollars.
    With regard to funding, I would like to recommend that 
Congress consider establishing funds specifically for local 
governments. Ultimately, local governments are in the best 
position to determine their public safety needs and establish 
local first responder programs that can provide for 
interoperability based on the specific needs of the given area.
    I would also like to emphasize that some of the key 
criteria that should be applied in the allocation of funds 
should be level of risk, population concentration and 
consequences associated with damage to critical economic and 
physical infrastructure.
    Let me close by thanking you again for the opportunity to 
provide you with the overview of what the city has been doing 
to improve interoperability and our funding needs for these 
endeavors. I would be pleased to answer any questions that you 
may have.
    [The statement of Mr. Menchini follows:]

              Prepared Statement of Hon. Gino P. Menchini

                        Wednesday, March 1,2006

    Good afternoon. I am Gino Menchini, Commissioner of New York City's 
Department of Information Technology and Telecommunications, and the 
City's Chief Information Officer. Accompanying me today is Inspector 
Charles Dowd, Commanding Officer of the New York City Police 
Department's Communications Division. I am privileged to have the 
opportunity to testify before you today about public safety 
communications in the City of New York; to describe the interoperable 
systems we have put into place; and to outline the City's future needs.
    Allow me to begin by saying that one of the primary challenges in 
designing interoperable radio systems is anticipating the many 
different circumstances in which interoperable communications will be 
required. However, this type of contingency planning is fundamental 
because, contrary to popular belief, interoperability cannot be 
achieved by simply putting thousands of emergency responders onto the 
same radio channel.
    The shortcomings of such an approach mirror limitations associated 
with telecom voice traffic, generally. For example, just as it would 
create havoc to have thousands of participants on a single telephone 
conference bridge, so too would essential radio communications become 
jumbled and lost, with too many responders talking at the same time, on 
the same channel.
    To do their jobs effectively--and safely--emergency responders must 
have specific channels dedicated to those personnel participating in 
particular operations. These personnel must not be required to contend 
with the traffic of other users communicating about something other 
than the mission at hand.
    Some believe that an alternative means of achieving 
interoperability would be for responders to scan through their radio 
channels in search of information that might be useful to them. This 
approach overlooks the fact that emergency responders generally must 
remain on their primary incident radio channel, or else risk losing 
critical messages related to command, control, and coordination.
    As I said, achieving interoperability solutions really does depend 
on our ability to specifically anticipate the types of situations in 
which interoperable communications will be required. Since 9/11, the 
City has focused on defining these ``interoperability requirements,'' 
and on tailoring interoperability initiatives to address them.

First Responder Interoperability
    With respect to first responders, the City has made the 
determination that the optimal approach is to bring all users onto a 
common UHF frequency band; so that interoperability can be achieved 
among police officers, firefighters, and emergency medical technicians 
when the circumstances dictate that particular users from those forces 
must communicate with each other.
    In this regard, in 2004, the FCC permanently allocated TV broadcast 
Channel 16 for the use of public safety communications by multiple City 
agencies, including the Police and Fire Departments, emergency medical 
services, and the Office of Emergency Management, as well as 
neighboring counties. The Channel 16 frequency band is used in various 
situations that require interoperable communications. These range from 
on-scene mission specific interoperable communications between walkie-
talkies, to communications on a borough or City-wide basis among 
officials from different agencies, to communications on a regional 
basis.

Secondary Responder Interoperability
    Next, I would like to outline how we have addressed secondary 
responder requirements for interoperable communications during major 
incidents. The City has implemented specialized talk groups on our 
Citywide 800 MHz system for 56 City, State, and regional agencies; 78 
hospitals and healthcare facilities; and the commissioners of 44 City 
agencies.

Multi-Jurisdictional Interoperability
    Let me now turn to multi-jurisdictional interoperability. In the 
aftermath of 9/11, the City established a regional Interoperability 
Communications Committee (known as the ``ICC''). The ICC meets 
regularly to evaluate the current state of interoperable communications 
and to develop strategies for improving interoperability.
    Finally, the City has deployed several TRP-1000 radio 
interconnection systems to provide interoperability during incidents 
that require communications among multiple City, State, regional, and 
Federal organizations using different radios and different frequencies. 
The ICC has established protocols for the deployment of TRP-1000s to 
support the tactical communications of these multi-jurisdictional 
agencies at a scene.

Other Interoperability Initiatives
    I should emphasize that achieving interoperability is an ongoing 
process, rather than an ``end state'' that can ever be perfectly 
achieved. Obtaining adequate funding is, however, critical for these 
endeavors. I will describe below some of the interoperability projects 
the City is currently pursuing.

    Tactical Interoperability Communications Plan
    The City is in the process of finalizing its Tactical 
Interoperability Communications Plan which will be submitted to the 
Department of Homeland Security by May 1, 2006. This plan will document 
what interoperable communications resources are available within our 
urban area, and who controls each resource, as well as the rules and 
operational procedures for the appropriate use of each interoperable 
resource. The creation of this plan is a requirement of the Department 
of Homeland Security Office of Grants and Training 2005 Urban Area 
Security Initiative grant program. The City is fully compliant with the 
Department's requirements.

    Implementation of 700 MHz
    The City certainly appreciates the establishment of a firm date for 
transfer of the 700 MHz spectrum, as well as the Congressional 
allocation of $1 billion for interoperability contained in the Budget 
Reconciliation Bill recently signed by the President. Clearly, however, 
$1 billion when dispersed throughout the nation is not sufficient to 
fund optimal use of the 700 MHz spectrum, and we would urge you to 
consider expanding funding for this initiative. As you know, this 
spectrum was allocated to public safety with three main objectives: (1) 
to provide much needed additional public safety voice channels; (2) to 
improve regional interoperability; and (3) to allow for transmission of 
wideband data.

    Citywide Wireless Network
    The City is moving aggressively to deploy a state-of-the-art 
interoperable Citywide mobile broadband data network, which will 
provide emergency responders with data access to large file transfers, 
including maps, building layouts, and massive Federal and state anti-
crime and anti-terrorism databases. These networks will provide for 
downloads of full-motion video at emergency scenes, and continuous 
biological, chemical, nuclear, and radiological monitoring.
    The transmission capability of this network will be the first of 
its kind and will literally transform the way in which officials 
respond to emergencies. Given the substantial public safety and 
national security components of the project, the City is pursuing 
federal funding to offset its costs, which will be several hundred 
million dollars.
    With regard to funding, I would like to recommend that Congress 
consider establishing funds specifically for local governments. 
Ultimately, local governments are in the best position to determine 
their public safety needs and establish local first responder programs 
that can provide for interoperability based on the specific needs of 
the given area. I would also emphasize that some of the key criteria 
that should be applied in the allocation of funds should be level of 
risk, population concentration, and consequences associated with damage 
to critical economic and physical infrastructure.
    Let me close by thanking you again for the opportunity to provide 
you with this overview of what the City has been doing to improve 
interoperability and our funding needs for these endeavors. I would be 
pleased to answer any questions you may have.

    Mr. Reichert. Thank you, Mr. Menchini.
    Chief Werner?

 STATEMENT OF CHARLES WERNER, FIRE CHIEF, CHARLOTTESVILLE FIRE 
              DEPARTMENT, COMMONWEALTH OF VIRGINIA

    Chief Werner. Mr. Chairman, distinguished members of the 
committee, thank you very much, and let me commend you on your 
bipartisan commitment to working toward interoperability for 
us. We appreciate that.
    My name is Charles Werner. I am the fire chief for the city 
of Charlottesville, Virginia, and I have been in the fire 
rescue service for over 30 years.
    In addition to that, I serve on the International 
Association of Fire Chiefs Communications Committee. I am the 
Virginia fire chiefs interoperability technology chair, and I 
serve on the State Interoperability Executive Committee and was 
the first and, fortunately now I can say, past chair of that 
Interoperability Executive Committee.
    What we get to now is understanding, as we have all said--
and I am not going to get into too much detail--but citizens 
rely on us to have the communications that we need. They expect 
it, and the for the most part they thought we had it. For many 
of us, as Mr. Chairman has already mentioned, for over 30 
years, there has been a problem with this issue of operability 
and interoperability. It is nothing new. We have just had a 
highlighted focus that hopefully will move us to getting that 
taken care of.
    Radio operability is critical for public safety agencies to 
maintain the communications capability to protect safety of 
life and property, and in cases of larger, more complex 
incidents, interoperability becomes important in order for us 
to maintain the continuity of command and control. And you are 
going to hear that repeatedly.
    Interoperability has been an ongoing issue for public 
safety for decades and reinforced after these major 
catastrophes.
    Since 9/11, the need for public safety communications 
interoperability has increased as law enforcement, fire, EMS 
and emergency managers are asked to assume greater roles in 
homeland security.
    Today, I will speak to you from three vantage points. 
First, I will give you an overview from the 10,000-foot view, 
as I review Virginia's efforts from the statewide 
Interoperability Executive Committee's perspective. Second, I 
will provide you a view from ground level where I serve as a 
regional interoperability project manager for the city of 
Charlottesville, the county of Albemarle and the University of 
Virginia. And, last, I will express my experiences and 
observations at the national level, as I serve on SAFECOM's 
Executive Committee as one of public safety's practitioner 
members.
    In Virginia, it is interesting, because the methodology 
that we ended up choosing was what SAFECOM had already done. As 
a member of the SAFECOM Executive Committee, I observed the 
development and the involvement of practitioners to understand 
that really to get a firm understanding of what we need and 
where we need to go, you need to involve the people who know 
how to get there and what they need.
    And that is just what we did. We mirrored SAFECOM's 
philosophy and the methodology, which is now the model that is 
set up on the SAFECOM Web site that allows you to pull that 
stripped Virginia pieces to a methodology that can be emulated 
by any state that desires.
    What is really interesting and important about this process 
is that not only is it practitioner-driven but it is driven by 
people processes, getting the people in the positions that are 
responding to these emergencies together, across disciplines--
fire, police, EMS, emergency managers--together to talk about 
what we need.
    And what we found out was something unique: We are a lot 
more alike than we are different. And, operationally, when it 
comes to a situation that we have to deal with, together, 
collectively, it is going to take us to solve it.
    The state methodology is broken down in 10 phases.
    Phase one--and please note, this is the most important 
point here--is to establish key relationships and funding. The 
relationships are number one, because without the relationships 
then working together collectively, we are not coming up with a 
solution that is going to be universal. And developing those 
relationships will be key in everything else that happens in 
the rest of this process.
    There is a very significant thing I would like to share as 
an experience. There is a very different thing that happens 
when you work with someone you do not know and when you work 
with a friend. When you call an ask for a resource from a 
friend, that friend says, ``When and where do you want it.'' 
When you do not have that relationship, the question gets into, 
``What do you need it for, why do you need it, who gave you the 
authority to ask me for it?'' This is a key point.
    Phase two is, gather the information, what is it that we 
need. Then from that information create a project plan and a 
road map. I think that many of us have heard that without road 
map any road will lead you to where you want to go. And if we 
do not have that road map, we are all going in different 
directions.
    Phase four is, identify roles and responsibilities.
    Phase five, recruit focus group participants. Make sure 
that you have all the stakeholders involved, and that includes 
appointed and elected officials, because we ca not move this 
process forward without an understanding and support.
    Conduct focus group interviews to find out more 
specifically what is needed.
    Phase seven, analyze the data and prepare for strategic 
planning sessions. Bring the people together, now talk about 
it. And what we found in these sessions was really interesting. 
There were efforts underway in regions that people knew nothing 
about, that suddenly there were opportunities that we could 
take advantage of that we did not even know about before.
    Nine, develop statewide communications interoperability 
strategic plan.
    And then phase 10 is, guidelines for the first 90 days to 
launch what you have started. What we have seen too many times 
is that we do not follow through once we have the plan.
    In Virginia's situation, the outcome yielded the formation 
of the Interoperability Executive Committee, an advisory group, 
the hiring of a full-time interoperability coordinator, 
implemented a Supportive Program Management Office, conducted 
two statewide interoperability conferences, developed, 
implemented and updated the Statewide Interoperability 
Strategic Plan, legislated the plan would be updated annually 
and that by 2015 anything grant oriented would meet the 
requirements or the goals of that particular plan.
    Virginia's success would not have been possible if it were 
not for Governor Warner and his administration. Again, this is 
about bipartisanship and about everybody working together. And 
I would also be remiss if I did not mention George Foresman who 
is now our under secretary of emergency preparedness, who, too, 
was right side by side making these things happen.
    And, last, and importantly, on this particular issue at the 
state level, it is the funding. The funding was key to the 
element of getting Virginia launched and making things happen.
    As far as locally, a national demonstration project in 
Charlottesville is proof again that the SAFECOM model works now 
at the ground level where the boots are on the ground, where 
the rubber meets the road.
    And I have to say this, by the city manager, me being here 
today, is that in 2004, Charlottesville was chosen as the 
number one city, and it is largely because probably of our 
cooperative spirit, and this regional effort that we have done 
as the city of Charlottesville, the county of Albemarle and the 
University of Virginia, with a land mass of 744 square miles of 
both flat and mountainous terrains.
    The University of Virginia increased its student 
population, staff, and in addition to that, we have some very 
national treasures: Thomas Jefferson's home, Monticello, and 
James Monroe's home, Ashlawn.
    In 2003, a $6 million grant was given to the city of 
Charlottesville, the county of Albemarle and the University of 
Virginia because of the projects, and I want to go through it 
very quickly to tell you the scope. And I am going to go 
through some of the references here, not to endorse any 
particular project but just to give you the scope of what was 
involved.
    First, we developed a parallel and secondary logistical 
network for the use of Nextel push-to-talk technology for the 
sheer reason that the push-to-talk technology here is not 
dependent on the public telephone switch.
    In the process of implementing a robust Motorola 800 
megahertz digital analog public radio system that will bring 
together all public safety agencies in our region, including 
the jails, the airports, everything that has to do with public 
safety and will support NIMS and the National Response Plan.
    We are in the process now of creating a console integration 
between the Nextel parallel network and our public safety 
network, which allows us to bring in non-public safety agencies 
in an affordable way to create interoperability and a whole 
community approach. Because what we have learned through this 
process is that public safety alone cannot handle the 
situations, especially of extreme magnitude, that are 
necessary.
    And we are in the process of putting in place a M-A/COM 
mobile data system that will support us on the data side.
    Mr. Reichert. Chief, can you do this in 1 minutes and 20 
seconds?
    Chief Werner. One minute.
    Mr. Reichert. Okay.
    Chief Werner. Tactically, we have an incident command radio 
interface that we put in place and Edge Access to do satellite 
communications. And that equipment was sent to Hancock, 
Mississippi and was in operation there for 20 days.
    Let me just get to the 30,000-foot view really quick. What 
we have seen is SAFECOM is the agency which focuses on the 
federal oversight of interoperability, and what I envision here 
is that we need to make sure that it has made impacts and that 
it needs to be made strong and kept strong.
    Standards are important, but be careful when you do 
standards, because it does not necessarily mean it is going to 
cover all the bases. An example, a smaller public safety agency 
that does not have a trunked radio system does not need to buy 
a $4,000 P25 radio when a $500 analog radio would suffice.
    And, last, operability needs to be handled first to make 
sure the system works, because interoperability does not matter 
after that. And we need to commit to interoperability in the 
long term. This is not a short-term process.
    And, finally, recognize that full interoperability and all 
the critical live-saving capabilities it offers is a long-term 
mission. Do not sacrifice the long-term goal of full 
interoperability by focusing only on the near-term problem.
    And one last thing I want to leave you graphically. I 
brought today one of many gateways that are available. If I 
walked up and handed this to you and said, ``Here, you have 
interoperability,'' you would not have it. If one of these or 
any device similar was given to every city in the country, the 
thought process is that interoperability happens. But I want to 
leave it on the thought of it is about a people process. It is 
about the governance and the cooperation between people that we 
must continue to work on. And, again, SAFECOM is that vision to 
help us move in that direction.
    Thank you.
    [The statement of Chief Werner follows:]

                Prepared Statement of Charles L. Werner

                        Wednesday, March 1, 2006

    DEVELOPING A SPECIFIC INTEROPERABLE COMMUNICATIONS STRATEGY IS 
                          PARAMOUNT TO SUCCESS

    Thank you, Mr. Chairman, and members of the Committee for the 
opportunity to appear before you today.
    My name is Charles Werner and I am the Fire Chief for the City of 
Charlottesville, Virginia and have served in the fire-rescue service 
for over 30 years.
    I serve on the Communications Committee of the International 
Association of Fire Chiefs (IAFC). I also serve as the Virginia Fire 
Chiefs Technology/Interoperability Chair and on the Virginia Statewide 
Interoperability Executive Committee (VA SIEC--past Chair).
    Citizens rely upon their local and state police agencies, sheriffs' 
offices, fire departments and emergency medical services to come to 
their assistance wherever and whenever needed, whether it is crime in 
progress, a civil disturbance, a building fire, a forest fire, an 
automobile accident, a health emergency, a natural disaster, or, as we 
learned on 9/11, a terrorist attack. Citizens assume that those first 
responders will get the call and will have the communications tools 
they need to address emergencies quickly and efficiently.
    Radio operability is critical for public safety agencies to 
maintain the communications capability that we need to protect the 
safety of life and property. In cases of larger and more complex 
incidents interoperability becomes very important in order to maintain 
the continuity of command and control. Interoperability has been an 
ongoing public safety issue for decades and reinforced after major 
catastrophes across the United States.
    Since 9/11, the need for public safety communications 
interoperability has increased as law enforcement, fire, EMS are being 
asked to assume greater roles in roles of homeland security.
    Today, I will speak to you from three different vantage points. 
First I will give an overview from the 10,000 foot view by reviewing 
Virginia's efforts and outcomes. Second, I will provide you a view from 
ground level where I serve as the regional interoperability project 
manager for the City of Charlottesville, County of Albemarle and the 
University of Virginia. Last, I will express my experiences and 
observations at the national level as I serve on SAFECOM's Executive 
Committee as one of its public safety practitioner members.

Virginia's Interoperability Efforts_``10,000 foot aerial view''
    I have been specifically asked to explain about Virginia's 
methodology for developing a statewide interoperable strategic plan. 
Having served as Virginia's SIEC Chair during the majority of this 
process I am pleased to share what has been a very positive and 
proactive process.
    The Virginia methodology for addressing interoperability at the 
state level mirrored the process developed by Office of 
Interoperability/SAFECOM. SAFECOM worked with Virginia to customize the 
methodology and was designed to be an effective tool to help local 
governments and states to improve public safety communications across 
disciplines and jurisdictions. Virginia's efforts resulted in a 
comprehensive plan that addresses the interoperability needs and 
challenges of Virginia's public safety community as identified by 
Virginia's public safety practitioners. The key is that the initiatives 
are public safety practitioner (boots on the ground) driven at the 
state and federal levels.
    Virginia's Statewide Communications Interoperability Planning 
(SCIP) methodology has now been institutionalized as a model that can 
be accessed from the Internet (http://www.safecomprogram.gov/SAFECOM/
library/interoperabilitycasestudies/1223--statewidecommunications.htm).
    The SCIP methodology is broken down into ten essential planning 
phases that local government and states can use to create their own 
communications plan.
[GRAPHIC] [TIFF OMITTED] 36399.003

A National Demonstration Project:
Charlottesville-Albemarle-University of Virginia_``a ground level 
view''
    The Charlottesville region is living proof that the Virginia 
(SAFECOM) model works. Chosen as the #1 City in America in 2004, this 
region includes the City of Charlottesville, County of Albemarle and 
the University of Virginia with a geographic land mass of approximately 
744 square miles and includes both flat and mountainous terrain.
    The University of Virginia (UVA) also adds the element of a 
university town with a sizeable student, faculty and staff population.
    In addition to UVA, the region is home to other national treasures 
such as Thomas Jefferson's home, Monticello and James Monroe's home, 
Ashlawn.
    In 2003, the region developed a national demonstration project that 
was submitted and awarded one of the few $6M FEMA Interoperable 
Communications Equipment grants. This project is governed by all three 
jurisdictions and public safety practitioners of every discipline (Law 
Enforcement, Fire, EMS, and Emergency Management).
    An overview of what the region has done to create a robust, 
redundant and resilient interoperable system is as follows:
        <bullet> Developed a parallel and secondary public safety 
        communications network for logistical communications using 
        Nextel's PTT (because Nextel's iDEN network is the only PTT or 
        walkie-talkie service that does not rely on the public 
        telephone switch).
        <bullet> In the process of implementing a robust Motorola 800 
        MHz digital/analog public safety mission critical radio system 
        which provides communications to every public safety agency in 
        the region (20+ agencies). This will support the National 
        Incident Management System (NIMS).
        <bullet> In the process of implementing console integration 
        between the Nextel iDEN network and the Motorola 800 MHz radio 
        system to allow communication between Nextel talk groups and 
        Motorola talk groups. This enables us to reach out to non 
        public safety agencies to create an affordable way to establish 
        a ``Whole Community Approach'' and bring in other agencies such 
        as public works, health departments, schools and more.
        <bullet> In the process of implementing a M-A/COM Mobile Data 
        System that will serve all public safety agencies in the region 
        to provide information such as law enforcement vehicle and 
        criminal wants and warrants, building floor plans, emergency 
        operations plans, etc.
        <bullet> In addition to fixed infrastructure, this project also 
        addresses tactical interoperability at an incident site beyond 
        the normal day to day operations which meets the RAPIDCOM 
        recommendations (to achieve incident interoperability within 
        one hour of the incident) and supports the communications with 
        the federal agencies as outlined in the National Response Plan 
        (NRP). This tactical equipment was chosen because of its 
        effectiveness, simplicity and price:
        <bullet> Incident Commander's Radio Interface (ICRI)--tested 
        and listed by several DoD evaluations. It is a true plug and 
        play technology and is EASY.
        <bullet> Edge Access self deploying Satellite--Voice over IP 
        (VoIP) which also establishes satellite telephone service, an 
        internet connection and establishes a quarter mile hotspot 
        which can be set up in a matter of 5 minutes or less by simply 
        turning on and pushing one button. THIS IS IN MY VEHICLE TODAY 
        AND I WOULD BE GLAD TO DEMONSTRATE IT ANYTIME.
NOTE: CHARLOTTESVILLE FIRE DEPARTMENT's UNIT WITH THIS TACTICAL 
EQUIPMENT RESPONDED TO AND WAS USED IN HANCOCK, MS FOLLOWING HURRICANE 
KATRINA.
        <bullet> In the area of situational awareness, the region has 
        implemented WebEOC (same as the National Capital Region--
        Virginia, Maryland, District of Columbia) to share information 
        between jurisdictions and disciplines.
        <bullet> In the process of implementing DMIS (Disaster 
        Management Interoperability Software). This is one of the E-Gov 
        Disaster Management tools.
        <bullet> In the process of implementing the Emergency Email 
        Wireless Network to serve as interoperable communications with 
        the public through email and other wireless devices.

SAFECOM's Efforts_``a 30,000 foot aerial view''
    As one of the public safety practitioners that serve on the SAFECOM 
Executive Committee that has been directly involved at both the state 
and local level I would like to share the following observations:
    1. SAFECOM is having a real impact and is a genuinely practitioner 
driven program. It is the primary federal focus on interoperability and 
needs to be made and kept strong.
    2. Standards are very important, but be cautious about requiring a 
particular standard to meet all occasions. For example, a smaller 
public safety agency that does not have a trunked radio system does not 
need to be buying $4,000 P25 radios when $500 analog radios would 
suffice. Make sure that standards are robust and can actually meet 
practitioner needs before requiring them.
    3. Most of achieving near term interoperability is a matter of two 
things:
        a. Build an effective ``operable'' system, first, then
        b. Commit to interoperability because at the end of the day, 
        achieving a reasonable level of emergency interoperability 
        requires a willingness to cooperate among and between agencies 
        and jurisdictions more than it requires a particular 
        technology.
        [GRAPHIC] [TIFF OMITTED] 36399.004
        

    Mr. Reichert. Thank you, Chief.
    Mr. Proctor?

     STATEMENT OF STEVE PROCTOR, EXECUTIVE DIRECTOR, UTAH 
             COMMUNICATIONS AGENCY NETWORK, (USCAN)

    Mr. Proctor. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to speak before you today.
    My name is Steve Proctor. I am the executive director of 
the Utah Communications Agency Network, and I am also a 
representative of APCO, the largest public safety communication 
organization in the country, with about 17,000 members.
    I personally have 35 years of experience in this field, 
beginning as an emergency dispatcher during my college 
training. I have also been privileged to serve on many national 
committees, FCC advisory committees and currently sit on the 
SAFECOM Executive Committee.
    UCAN is a quasi-state agency that was established by our 
legislature for the sheer purpose of developing a radio system 
and serving currently 120 separate entities of government--
state, local and federal. The system currently supports 15,000 
users. It is governed by a board of directors made up of those 
users who set the rates, establish the budget, determine the 
direction and provide for the level of coverage.
    One of our directors said it best: ``We pay for the 
privilege of governing ourselves.'' And that is one of the key 
successes of this agency.
    Our system in Utah experienced the acid test, providing 
interoperable communications during the 2002 Winter Olympic 
games. Not only were we responsible for supporting public 
safety, but we supported all the Salt Lake Organizing Committee 
events at each and every venue. During those 17 days, our 
system processed 10.5 million radio calls. That is about 
400,000 calls per day.
    We are here to talk about interoperability. The experience 
I described above with reference to UCAN did not come about 
magically. It took 6 long years of political compromise, 
negotiations and wrangling before the equipment order was ever 
placed. I hope as I briefly tell you how we got here some of 
these principles will aid you in determining where we take this 
public safety community nationally toward this sometimes 
elusive goal of being able to communicate with each other.
    The first thing we did was identify the common pain that we 
all had together and that brought together all the 
stakeholders. We had a convener of stature, in this case our 
governor, who brought us all together, put us in a room and 
said, ``Figure this out. Figure it out now.''
    A committed leader was appointed to broker the effort and 
to make sure that we directed--am I to stop or go ahead? Keep 
going? A committed leader was appointed to broker the effort 
and keep everybody focused on achieving results. There was a 
set of clearly defined purposes with predictable management and 
maintenance processes established. And all this was 
memorialized in a piece of legislation passed by our 
legislature establishing the agency.
    After all those issues went through the process, then we 
talked about the money and how we were going to fund this 
effort and began to order the equipment.
    So what does all this have to do with the committee? It has 
been said that during times of emergency, people expect 
government or at all levels to provide appropriate response to 
mitigate disasters, save lives, protect, support and help the 
needy and care for the injured. A major tool in providing that 
response is a communications system with reliable and 
dependable capabilities and capacity. There is simply no room 
for error.
    The citizens we serve today expect in this world of 
miraculous technology that this is what will take place, and, 
sadly to say, that is not what takes place.
    Why is that so? The public safety market is so limited in 
demand with a focused product line, that the equipment is 
costly to procure, maintain, upgrade and install. Most public 
safety radio systems are designed to last for 10 years, with 
many of them having to last for over 30 years. The system we 
replaced was 40 years old. Because of the limited market 
presence, the cost of individual units and equipment is very, 
very high.
    There is a high degree of resistance from public safety 
entities supported by age-old political barriers that create 
roadblocks in motivating agencies to work together and share 
systems across city, county, state and federal lines. This is 
because there is a presumed loss of control.
    So what can this committee do to assist the public safety 
entities and agencies across this country to achieve this 
interoperable goal? First of all, take a leadership role and 
support the SAFECOM program. This program is DHS' effort to 
promote interoperability. They cannot do it without proper 
staff, funding, direction and mission. With appropriate 
resources, SAFECOM can and should staff up with state and local 
experienced personnel who have a background in communications 
to assist them in this process. In many instances, this has 
been done by their Executive Committee made up of state and 
local members.
    That federal government should tie future federal funding 
to performance measures, give priority attention to multi-
agency, multi-disciplined projects with long-term goals and 
reasonable chances of success. The government should reward 
innovative projects and highlight them at association events, 
such as the police, fire chiefs and communications conventions, 
sending this message that funding will be tied to cooperative 
efforts.
    Congress should establish long-term sustainable funding to 
support the public safety effort. This problem is not going to 
go away with one-time funding. It is going to take continued 
funding over a numbers of years period. Congress should push 
and sustain and provide funding to motivate the standards 
effort. As my distinguished colleagues have said before, the 
standards effort is what will allow manufacturers to build to a 
set of standards and have systems that will integrate with one 
another; therefore, driving down the cost.
    I am quite sure, as you have already listened to many of 
these points many times; however, in actuality, they are the 
keys to success. While they are an important part of the 
process, this problem will not go away with simply providing 
more frequencies and more money. What is required is true 
leadership, vision, bringing together all the players and 
resources to make better operability and interoperability 
possible.
    Thank you. I would be happy to take any questions.
    [The statement of Mr. Proctor follows:]

                Prepared Statement of Steven H. Proctor

                        Wednesday, March 1, 2006

    Good Afternoon. Thank you Mr. Chairman and members of the committee 
for the opportunity to speak before you today.
    My name is Steven Proctor. I am the Executive Director of the Utah 
Communications Agency Network (UCAN). I appear to today with the 
support of the Association of Public-Safety Communications Officials 
(APCO), the nation's oldest and largest public safety communication 
organization. I personally have 35 years of service in this field, 
beginning as a public safety dispatcher during my college training, and 
serving in various positions to my current position. I have also been 
active on the national level. I am a past-president of APCO, served on 
several FCC advisory committees, and currently sit on the SAFECOM 
Program Executive Committee.
    UCAN is a quasi-state agency set up by the Legislature for the 
purpose of establishing a statewide public safety communications 
network. We operate a public safety communications system within the 
borders of Utah serving 120 separate state, local and federal 
government agencies. The system supports 15,000 users. A board of 
directors made up of our users manages the system. That board 
represents the user base in making decision concerning system 
implementation, growth, maintenance, and expansion. They also set the 
budget, determine the rates, and contribute towards the system growth 
and enhancement. One of our directors said it best: ``we pay for the 
privilege of governing ourselves''. That is one of the keys to success 
of this agency.
    Our system, in Utah, has experienced the acid test of providing 
interoperable communications. That came four years ago when we 
supported the 2002 Winter Olympic games. Not only were we responsible 
for public safety radio traffic; we also supported the communications 
requirements of the Olympic organizing committee managing the venue 
events. During the events, our system processed 10.5 million requests 
to talk, supporting just under 16,000 radios. There were no major 
system failures, network traffic issues or inability to communicate.
    We are here to talk about interoperability. The experience I 
describe briefly above did not come without a focused effort. It took 
six years of hard work, political compromise, negotiations and 
wrangling before the system equipment order was ever signed. I hope as 
I briefly tell about how we got here some of those principles will aid 
you in assisting the public safety community to achieve this sometimes-
illusive goal of being able to communicate with each other.

How Did We Get Here?
    We identified a ``Common Problem'' which brought the stakeholders 
together. This was done without concern as to whether there would be a 
final product. It simply brought the potential users of a combined 
network together to get the issue on the table. A convener of stature 
brought us together--in this case it was our Governor.
    A committed leader was appointed to broker the effort and focus on 
keeping the effort together. All meetings were held with openness, 
transparency and with voluntary participation. The effort utilized 
committed decision makers who came to the table to make commitments.
    There was a set of clearly defined purposes and goals, a predicable 
management and maintenance process. A formal charter was developed: it 
outlined governance, outcomes, funding and levels of participation. 
Legislation was passed to memorialize and charter the effort for long-
term results.
    We recognized that this is not a problem with a one-time fix. It 
will require nurturing and management, because the problem is here to 
stay and will be come a part of a long-term organizational management 
process requiring ongoing resources.
    After all these issues, directions and organizational efforts--then 
we talked about the money, and possible funding mechanisms.
    So what does all this have to do with the Homeland Security Sub-
Committee on Emergency Preparedness, Science and Technology?
    Let me share with you the following:
    It has been said that: ``During times of emergency, people expect 
government at all levels to provide the appropriate response to 
mitigate disaster, save lives, provide support, help the needy and care 
for the injured. The major tool in providing that response is a 
communications system with reliable and dependable capabilities and 
capacity''. There is simply no room for error. The communications 
system must rise to the occasion at a moments notice--and be prepared 
to sustain the highest degree of operability for whatever the duration 
of the situation will be--whether it is a multi-car freeway accident or 
a sustained attack on our country. It will then go back to supporting 
day-to-day traffic loading until the next emergency.
    The citizens we serve expect in today's world of miraculous 
technology that this is what will take place. Sadly, in many instances 
it may not. While some areas of the county have progressed, many are 
still searching for answers.
    Why is that so?
    The public safety market is a limited demand market with a focused 
product line. The equipment is costly to procure, install, maintain and 
upgrade. Typical public safety systems have to last a minimum of 10 
years with many working well into thirty years. This makes it so 
difficult to overcome the technology curve. The system must be 
installed in protected hardened environments with redundant 
connections. It must be prepared to operate in the highest of demand. 
Because of its limited market presence, the cost of the individual 
units and the infrastructure is very high.
    A public safety system falls behind the ``other needs of 
government''. Roads, social services, police cars, fire equipment, 
staffing and training all take precedence over the expensive 
proposition of funding a public safety radio system. Many times when 
funding is set aside it comes from limited resources or one-time 
allotments. There never seems to be sustainable sources to keep the 
effort fully funded, progressing to a solution and fully maintained.
    There is a high degree of resistance from public safety agencies 
supported by age-old political barriers that create roadblocks in 
motivating agencies to work together and share a system and the 
associated costs. Cities, counties, states, and yes, federal agencies 
in some instances cannot find the common ground on which to chart the 
course and build a common communications infrastructure to support them 
all, giving the autonomy they need and the interoperability they 
desire, when it is needed. There is also reluctance between fire 
departments, police departments, and EMS providers to share resources 
and communications systems, because of the presumed loss of control.
    In multi-agency endeavors there is a reluctance of one governmental 
agency to spend its tax dollars supporting a system located across 
multiple jurisdictions because their agency should not have to pay to 
support services in another city or county. We have run into this 
problem with our own system when justifying expansion into areas to 
support state users.
    Bringing agencies together requires a unique ``governance'' 
structure for operation, implementation and maintenance of the 
communications system. Many governmental agencies cannot or will not 
participate in these unique organizations.
    So what can this Committee do to assist public safety to achieve 
this interoperable goal? Take a leadership role and support the SAFECOM 
program. This program is the DHS effort to promote interoperability. 
They cannot do it without proper staff, funding and a direction and 
mission.
    With appropriate resources, SAFECOM can and should staff up with 
state and local experienced personnel who have the background in 
communications to assist in the process. SAFECOM needs to be able to 
provide the resources to take the interoperability message nation wide. 
It should be able to host instructional seminars focused at state, 
local and federal partnerships to develop a dialogue among users and 
future partners. These forums will allow for the exchange of ideas and 
instructions to regions beginning interoperability projects. SAFECOM 
should develop resource tools for use by agencies such as case studies, 
how to guides, success stories available to those starting the 
interoperability process.
    The federal government should also tie future federal funding to 
performance measures. Give priority attention to multi-agency, multi-
discipline projects with long-term goals and reasonable chances to 
succeed with long-term results. Have the grant requests reviewed by 
peer groups who are familiar with successful projects before awards are 
made.
    The government should reward innovative projects and highlight them 
at association events (APCO, IACP, IAFC), sending the message that 
funding is tied to cooperative efforts. Future investments of federal 
dollars must equal measurable results. Any grants must have a definable 
purpose and expected outcomes.
    Congress should establish long term sustainable funding to support 
the public safety effort. This problem will not go away in a few years. 
It is a long-term commitment that will take continued to sustain and 
support.
    Congress should also push, sustain and provide funding to motivate 
the standards efforts. The quicker manufacturers have a set of 
standards to build systems to, the quicker we have a larger selection 
of user devices (handheld and mobiles), and component infrastructure 
pieces the more effective and interoperable public safety systems.
    I am quite sure these are points you have already listened to. 
However in actuality, they are the keys to success. While they are an 
important part of the process, this problem will not go away with more 
frequencies and more money. What is required is true leadership, 
vision, and bringing together of all the players and resources to make 
better operability and interoperability possible.
    Thank you. I will gladly take any questions you might have.

    Mr. Reichert. Thank you, Mr. Proctor.
    I have a few questions. There will be a vote that will be 
called, I am told, in the next 15 or so minutes, and we may 
have to recess for a brief amount of time to allow everyone to 
ask questions.
    Mr. Proctor, you summed it all up pretty well. Support 
SAFECOM, performance measures, innovative projects need to be 
identified, regional projects and partnerships need to be 
identified, long-term funding and support, and motivate people 
who are meeting all those standards and requirements that you 
laid out.
    One of the things that we are doing in this subcommittee is 
that we are going to have all of the testimony evaluated. We 
started back before Christmas looking at operability first. I 
think the chief mentioned operable, we must be operable first. 
We are taking a look at every statement, every answer that is 
given to this committee, and we are going to draft legislation 
that addresses the issues that you just talked about, all four 
of the witnesses.
    But I want to follow up just a little bit further and maybe 
get some specific answers from anyone who chooses to answer the 
first question. Do you believe that the Department of Homeland 
Security sufficiently supports SAFECOM and the Office of 
Interoperability and Compatibility, honestly? Anyone?
    Mr. Proctor. I personally believe the SAFECOM project needs 
more support. I think they are severely understaffed, I think 
they have good ideas, great direction, and many of the things 
we did before SAFECOM was even invented are the things SAFECOM 
is now using now and trying to promote. I think it is key that 
that message be taken around the country in regional seminars, 
in big cities so that people can come together, begin talking, 
learning, establishing priorities, working together. Those 
relationship that Charles talked about are critical in 
developing interoperability communications. Technology is easy; 
it is the relationships that are difficult to form.
    Mr. Reichert. Right.
    Chief?
    Chief Werner. I guess to add to that, if you look at the 
monumental task that has been laid out to accomplish and the 
expectations that are there, I would argue, if you evaluate the 
desire that you hope to accomplish and you evaluate the 
resources that are in place, that might answer the question 
that you are looking to have answered.
    Mr. Reichert. We do know that there are authorized 16--in 
the Office of Interoperability, 16 FTEs, and they now have 4 
working in that office.
    Anyone else want to answer the question about SAFECOM and 
interoperability?
    Mr. Drake. Mr. Chairman, members, thank you. The 
application would be the same as it would be on a local basis 
with the funding for this effort. You need to prioritize. I 
think my colleagues have made the case today for you to promote 
interoperability and operability. And I am the newest member of 
the SAFECOM Committee, but it did not take me long to realize 
that the committee is understaffed, the effort, while well-
intended, will not wash out in local government and will not 
wash out back in your districts and mine and back in my city.
    Talk is cheap, and if this is not funded, the collective 
effort is not given, the next disaster will come and everybody 
will be throwing up their hands and pointing, and you control 
the ability here to not have that happen. So I would suggest 
further funding.
    Mr. Reichert. In your dealings with the federal government 
and helping you build your system from the ground up, is there 
any one federal official that in your view is accountable for 
interoperability? Yes or no?
    Mr. Proctor?
    Mr. Proctor. In our process prior to the Olympics, we 
worked with six or seven different agencies for assistance 
besides the 120 agencies we have at home. So it is a multi set 
of tasks.
    Mr. Reichert. So the answer would be, no, I am taking it, 
from the panel. If there is not, should there be?
    Chief Werner. Well, to answer your question, no, I do not 
think so. And because, as you mentioned, if you take a look at 
how many agencies are involved in the interoperability at the 
federal level, I am not really sure there is an assignment that 
is specifically given and authorized to take that 
accountability. Should there be? Certainly.
    Mr. Reichert. Anyone else? No?
    Do you believe the federal government's efforts are well 
coordinated as they worked with you? Anyone on the panel?
    Mr. Menchini. Commissioner Menchini here. We really have 
been appreciative of SAFECOM's efforts, especially in the area 
of data communications, to publish statements of requirements 
that begin to provide much needed leadership to be able to get 
common infrastructure in place.
    And we have made our feelings on this known, that we really 
believe that each area needs to be very carefully considered in 
terms of its particular requirements for operability and for 
interoperability. And there is not one particular approach that 
really can be applicable across the nation.
    Mr. Reichert. Right.
    Mr. Menchini. In fact, it really has to be a grassroots 
type of an effort with, and being driven, as I have heard here 
at the table, by the requirements of the first responders based 
on their operational needs, based on the particular threats 
that they have to deal with, and interoperability and operable 
systems need to be built from the ground up. So whatever 
happens at a national level and the need for strategy is clear, 
but it does need to be based on a variety of different types of 
models. Again, large cities, I think, very much are different 
types of environments for radio communications as well as for 
first responders operations.
    Mr. Reichert. I would agree with that.
    The Chair recognizes Ms. Harman.
    Ms. Harman. Thank you all for your testimony. It is very 
interesting, and it is clear to me that you are all enormously 
qualified in your own rights, but the stories you have told us 
show that local and state agencies are ahead of the federal 
government on this issue. And I worry about that.
    I was thinking about the four S's here: Strategy, spectrum, 
standards and sustained support. It seems to me that might 
cover some of the gaps in the federal response.
    I just want to ask you a couple things, just as the 
chairman did, and ask any of you to answer.
    The first is big state, little state, big city, little 
city, sure, there are differences. I come from a big city, and 
New York City would certainly qualify as that. Maybe some of 
the Portland cities would be considered smaller, maybe, but 
their west coast cities; therefore, they are very important.
    But, seriously, should we have different approaches or is 
it rather that each approach needs to be considered as part of 
this national strategy? For example, should we have a 
catastrophic attack that perhaps is avian flu--let's pick 
something horrible--that would hit all of us, maybe one region 
at a time, but that region would have big places and little 
places.
    When we think about strategy, shouldn't we include both 
small and big in the strategy?
    Chief Werner. I think that the approach to evaluating the 
situation can be very similar, and I think that you can also 
identify outcomes that you hope to achieve as being very 
similar. I think the method or the medium to which that gets 
you there can be very uniquely different based on geographic 
region. So I think if you take a methodology and use it to help 
evaluate and give you a vision, that can be standardized and 
institutionalized. But, as my colleague here from New York has 
mentioned, there are some very unique things that have to be 
addressed in each locality.
    Mr. Drake. Congresswoman, I think a basic framework is 
essential because whether the flu hits my city, Beaverton is 
83,500, or Portland, which is about 525,000, we will share the 
same problem, and my children will react the same way to the 
flu as someone in Portland will.
    We need the flexibility to be able to respond individually, 
and the National League would always argue that, ``Give us a 
basic framework, give us general guidelines, but let us 
implement it that works best for each one of us.''
    As a past president of the League of Oregon Cities, I 
represented cities from--actually have 241 cities in Oregon, 2 
were ghost towns with no population, but the smallest actual 
city had 25. And between 25 and 525,000, there are a lot of 
cities that ranged in size, but when we would approach the 
legislature we would ask for a general framework but always 
allowed to implement it on a local basis.
    Ms. Harman. Thank you.
    Mr. Menchini. I would have to--I am sorry.
    Ms. Harman. Go ahead.
    Mr. Menchini. I would have to agree, and I think it is 
really a matter of local-based solutions based on local needs 
but a common set of requirements and a common set of 
expectations.
    Ms. Harman. Thank you.
    My second question is about spectrum. I would like to thank 
all your organizations for supporting the HERO Act. The League 
has done this, the international fire and police organizations 
have done it, I think the National Governors Association has 
done it. The problem is, Congress has not done it. And we will 
be turning over analog spectrum, as some of you mentioned, in 
2009. That is 3 years from now.
    My question to you is, in those 3 years, tell me about the 
challenges you are going to face. Some of you have described 
this, why spectrum matters, but for those who have not, here is 
an additional opportunity to rail against Congress' inaction 
here about the problems you are going to have for 3 years 
without common, dedicated emergency spectrum.
    Mr. Menchini. I can answer. In regard to New York City, we 
are faced with a challenge of addressing our broadband data 
requirements without the benefit of the 700 megahertz spectrum. 
So we are now building out--the first pilot areas are going up 
as we speak, building out a citywide broadband wireless 
network. We have had to do that with spectrum that we were 
actually leasing from the archdiocese of New York to be able to 
get the type of spectrum that we need to be able to support 
public safety data requirements. So the 700 megahertz spectrum 
cannot come soon enough.
    I think there needs to be a constant eye on the evolving 
needs of public safety and a look out even beyond the 2009 
timeframe and the availability of a 700 megahertz spectrum to 
keep the availability of spectrum in line with the needs of 
public safety responders.
    Ms. Harman. Any other responses? My time is expired, but I 
know the chairman will let you answer.
    Mr. Proctor. I would just like to echo what my colleague 
has said from New York City. We, too, are building out a 700 
megahertz data system. We are using the state licensed 700 
megahertz spectrum and appreciate it so greatly because there 
was no other place to go. And we look forward in completing our 
plan and being able to use the balance of that spectrum very 
soon to enhance our system operations.
    Ms. Harman. Anyone else?
    Mr. Drake. Yes, Congresswoman. We are all, at least I am 
the only elected, I believe, at this table, and you are all 
elected. We represent real people and real constituents, and 
there is no excuse for politic or anything else when it comes 
to public safety. We have within our power and authority, you 
certainly have within yours, to implement this sooner. The 
National League would always encourage you to deal with this 
sooner than later.
    Mr. Reichert. Thank you.
    Ms. Lowey?
    Mrs. Lowey. Thank you, Mr. Chairman.
    I want to thank all of you for your testimony, and I want 
to especially thank the chairman and the ranking member for 
their bipartisanship.
    And you should know, if you have not appeared before our 
committee before, many of us have been talking about 
interoperability for a very long time. We have introduced 
legislation, we have tried to move the Department of Homeland 
Security, and yet with 180,000, I believe, people at the 
Department of Homeland Security, whether it is four or five, I 
am not sure who has been hired or fired today, we still do not 
feel that there is a serious commitment. And I do appreciate 
the chairman having this hearing.
    Following up on the questions before, one of the questions 
I have had following up with Katrina is that a backup 
communications system really is essential and could be 
invaluable. I think it is safe to assume that in a catastrophic 
incident there could be serious damage to communications 
infrastructure. And a backup system might enable lines of 
communication to remain open, even if the major network is 
inoperable.
    Perhaps I would begin with our commissioner in New York 
City and then you could all respond. I wonder if any of the 
areas you represent have a sufficient backup system. Do you 
have a backup system? Are there any promising technologies that 
should be examined by this committee or are being examined to 
see if a backup system is feasible and can be effective? I 
would be most appreciative, beginning with the commissioner.
    Mr. Menchini. Well, I think the events last year in the 
Gulf area are really telling. In fact, in New York City, we had 
a different type of a problem 2 years ago when we had a 
blackout that also created a very similar situation where we 
lost power citywide in some areas for over 22 hours. That put 
strain on telecommunications infrastructure, on telco 
infrastructure, on cellular infrastructure, on public safety 
radio infrastructure. It is probably very similar. I mean, it 
is a shorter period of time, but it is similar, in effect, to 
what we saw in the Gulf area.
    So the ability for us to implement at an infrastructure 
level very robust, very survivable and redundant radio 
infrastructure to be able to survive power outages caused by 
blackouts or caused by natural events like hurricanes is a 
critical area that requires a lot more investment and the 
applicability of known methods.
    You just need to be able to have, in addition to a battery 
backup, the ability to be able to roll generators up, if need 
be, or have a much extended battery life for your different 
components that are out there acting as receivers and 
transmitters, for example, in a radio infrastructure 
environment.
    So we have seen something like that in New York City. We 
have taken steps to be able to do what we can to be able to 
reinforce the infrastructure. But I think there is still a lot 
more that needs to be done, and if we have learned anything as 
a result of the events in the Gulf area, having radio 
infrastructure that can survive those types of events and give 
us operability first and then interoperability is critical.
    Mrs. Lowey. Anybody else care to comment?
    Yes, sir.
    Mr. Proctor. We have done many things as we have developed 
our system. For instance, we put two paths of control 
communications in every site so that if one fails, we have a 
redundant link going in. We house fuel and generators at the 
site that will allow them to operate for 7 days without having 
to be visited. We put redundant transmitter facilities on 
different mountaintops . I do not know how familiar you are 
with the geography of Utah, but most of our facilities are 
built on mountaintops rather than on the tops of buildings. We 
have different mountaintops built into the network, so that if 
one fails, we immediately route to another one.
    And all those battery backups, uninterruptible power 
supplies are critical. Good grounding, we take a lot of 
lightening on tops of mountains. We have good grounding systems 
to ensure that the equipment is properly grounded. And good 
installation procedures to make sure it is installed properly.
    It has never failed to amaze me how many agencies will 
install $1 million worth of equipment in an old shanty on top 
of a mountain and expect it to function properly over a 20-year 
lifespan. We have tried to avoid that.
    Mrs. Lowey. Thank you.
    Chief Werner. I guess I would like to add that in the 
catastrophic situation that occurred in Katrina, which was 
really unusual as far as the amount of infrastructure that was 
affected, one thing that might also be considered because a 
total redundant system is going to become very expensive, and 
when we are trying to get operable and interoperable systems to 
begin with and thinking about getting backup systems to go in 
place, there is just not going to be enough money to do that.
    One of the things that we might want to think about is to 
have some type of tactical equipment being set up quickly, 
infrastructure, in areas that we know are prone to major 
disasters. For example, have something--I know Florida has some 
things where they drop pods right in place, get the 
transmitters in place and allow people to begin communicating 
when everything is gone. And I think that is one of the new 
things that we have not really planned for.
    If we had some of these things strategically placed that 
could be pulled in in a certain amount of time that we define 
as acceptable, that might be an alternative solution.
    Mrs. Lowey. Thank you. My time is up.
    Thank you, Mr. Chairman.
    Mr. Etheridge. Mr. Chairman, thank you, and let me 
associate myself with Ms. Lowey's comments as it relates to 
thanking the chairman for calling this hearing, because I think 
all of us see this as a critical weakness in our emergency 
response systems.
    Since the terrorist attack of 9/11, it really exposed a 
very serious problem, and Katrina laid it bare once again, the 
lack of a backup.
    The federal government promised to devote more resources to 
solve the critical problem, and while some of the funding has 
increased, recent DHS budgets have focused on border security 
and other issues that were out there that tend to get more 
attention.
    In fact, the Republican chairman of the Senate Budget 
Committee is quoted in the morning Congressional Daily as 
saying, ``The Bush administration has paid scant attention to 
homeland security.''
    So I am pleased, Mr. Chairman, that on a bipartisan basis 
we are going to address this and hopefully apply the lessons we 
learned on 9/11 as it relates to operability and 
interoperability, finally.
    In previous hearings on interoperability, many of the 
witnesses contended that there is a lack of leadership on the 
federal and state levels on this issue. However, it appears 
that in some areas of the country local first responders groups 
do not always appreciate bias and direction from officials at a 
higher level, whether that be state or otherwise. We are trying 
to develop a statewide system or a regional system.
    Would you share with us your views on this issue and how 
you think communications and cooperation between state and 
localities can be improved, which I think is critical if we are 
going to make it work.
    Chief Werner. I agree. I think it goes back again to this 
methodology of developing the relationships first and creating 
a partnership. And one thing I would urge that we have learned 
in Virginia is that it is important that you have practitioners 
involved in what those solutions are and that you listen to 
them and help develop whatever it is that you are going to put 
in place and not come across as a dictator of how it is going 
to be and you are going to accept this solution or here it is, 
take it or leave it.
    Mr. Proctor. Prior to establishing our agency and 
constructing our network, we literally took a road show around 
the state and talked to every city and county, sheriffs and 
police chiefs at conventions and asked them what they needed to 
see. How do we do this? What can we do to best serve your 
needs?
    And as we went through that process, there were a lot of 
them who pushed back and did not want to be part of it, and 
there were some who came, immediately stepped forward and 
wanted to be a leadership person in it. And we capitalized on 
those, we moved forward with those who would be a part of it, 
and it was interesting to see that the rest after the system 
came full circle they came back around and wanted to join up.
    Mr. Etheridge. Anybody else want to comment?
    Mr. Drake. Yes, Congressman. Some states are certainly 
ahead of others in terms of the cooperative effort. Oregon's 
SIEC is bottom-up and top-down and is well integrated. I think 
more and more of the states are beginning to do this. And, 
again, I think we are all learning from our experiences. We 
would welcome the leadership on a local level without being 
given a straight jacket.
    And I guess I would offer that those who are moving in the 
right direction be awarded an rewarded for their effort, and 
those that are not, one way or another, by the positive-
negative incentives, they would eventually come to the table.
    Mr. Etheridge. Do you agree?
    Let me ask one final question, because I know we are 
running out of time. Secretary Chertoff said earlier--and I 
know some of you wanted to comment on this--said the states 
were getting funds now about additional funding. Would you care 
to comment on that?
    I raised the issue with him that there a lot of those funds 
in the pipeline and they have pretty stringent requirements. 
Any of you want to comment on that?
    Mr. Menchini. I think it is also important to note what 
type of financial challenges localities and states are facing 
in regard to their radio requirements.
    Mr. Etheridge. Right.
    Mr. Menchini. One thing many of us have, aging radio 
infrastructure that we are already dealing with that need to be 
replaced. But the requirements of interoperability are bringing 
more and more public safety and first responder users onto our 
radio infrastructure is stressing those networks. The need for 
us to make them more survivable and the need for us to meet FCC 
requirements for narrow banding as well as to be able to 
implement 700 megahertz radio frequencies and to begin to move 
broadband data capabilities to our first responders is a 
tremendous set of undertakings that will have huge cost 
implications for localities.
    The needs, I think, are really snowballing, and I do not 
think any area is able to keep up without tremendous 
expenditures that will have to come from other areas of 
government.
    Chief Werner. If I may add something really quick, what I 
see is if we are looking at the state grants, I do not think 
any of us at this point know what our state grants will be now 
since the federal grant process has changed. With the 
vulnerability and risk, a device has now been put in place. The 
numbers are going to change, and if you think that the money 
that is being given now to states is going to be enough to 
achieve interoperability it is not.
    Mr. Etheridge. Thank you, Mr. Chairman. I yield back.
    Thank you.
    Mr. Reichert. Well, it is just you and me.
    [Laughter.]
    I am going to make this public announcement. I am going to 
miss this vote. We are going to wait for Mr. Dicks to come 
back. I think he had a couple of questions. I have a couple 
more questions. The votes was a vote honoring the service of 
Justice Sandra Day O'Connor. Of course, my vote certainly would 
have been a yes vote in honoring her service to this nation. We 
will make a public record when we go back to the floor of House 
later.
    I wanted to follow up on a couple of things. You talked a 
lot about--I think it was last week I was in Portland and we 
chaired a subcommittee hearing on health IT. And one of the 
witnesses there testified that there were nearly 800 vendors of 
different technologies that touched on just about every problem 
that you could think of that may be associated with just the 
health IT interoperable discussion.
    I imagine there are at least 800 or more vendors out there 
with different technologies. In your four jurisdictions how did 
you deal with the different myriad of options and choices when 
it comes to the technology decisions that you made?
    Mr. Drake. Mr. Chairman, there partly lies the whole crux 
of the issue that for many systems, both for us in the Portland 
area and I know speaking on behalf of many jurisdictions in the 
state, you are not looking to new technologies and new systems. 
You are looking for ways to bridge the gap.
    The real difficulty, I think, for us on a local basis is 
either the ability to find a patch to get us there or finding 
the barebones system. And you do not have the luxury, I do not 
care what the issue is, it could be interoperability, it could 
be anything, you ca not just start musing and think, ``What is 
it I would like to get,'' and start exploring. Part of it is 
this is America, so the vendors come to you, but it also is 
just the fact that--
    Mr. Reichert. Sorry.
    Mr. Drake. That is okay.
    Thank you, Mr. Chairman. The fact is, is that there is 
going to be a basic technology you are working with, and I 
think Mr. Menchini touched on it, that there is difficulty in 
many cities, many areas just to afford the basics. And whether 
you are just trying to get to the next technology, in many 
cases you ca not afford to buy that next system; you look for 
the patch.
    So my comment would be that there are plenty of places you 
can go in terms of expertise to find out what the right system 
is, but the real issue initially is, can you afford to even do 
that patch? And looking ahead to the next technology, in many 
cases, is very difficult.
    Mr. Reichert. I was just consulting there briefly. There 
are 38 police departments within the King County, the county 
where I was sheriff in Seattle, and there were a couple of 
smaller police departments that purchased a system, more of an 
information communications system, I suppose, and it failed. So 
they spent $1 million or $2 million in these small cities and 
it crumbled on them.
    So I guess there is this fear, I think, that at least in 
some areas where there is technology out there and there is a 
sales job and it looks good, they pay for it, and it blows up 
in their face. And that is, kind of, you know, how do you weed 
that sort of--
    Mr. Drake. Mr. Chairman, I would defer after a quick 
comment to my colleagues who have the technical expertise. But 
therein lies some of our request in that we get some basic 
framework in terms of general guidelines, and I think that 
would take care of some of that concern that you would have.
    Mr. Reichert. Thank you.
    Chief Werner. What I think is a part of the question you 
are asking is defining what it is that you want the system to 
do and then trying to encourage as many people to be a part of 
that system. And, fortunately--or unfortunately, or however it 
may be perceived--the cost of radio systems, as we know them 
today, to meet the requirements that we are hoping to achieve, 
are very expensive.
    What we did in our locality in the regional perspective is 
that all the agencies in the three jurisdictions came together 
to do one radio system, which helped to share the cost between 
the three. How do you get there? It is defining the 
specifications as specifically as you can and making sure that 
you have as best an iron clad contract that you can when you 
negotiate it. And even then you are not guaranteed that the 
system that you get will be what you thought it was going to 
be.
    Mr. Reichert. In your opinion, should the National Telecom 
Communications and Information Administration have 
responsibility for administering a $1 billion grant program for 
interoperability?
    Chief Werner. I guess I will address this first. I guess I 
would question why we bring in another agency on top of the 
myriad of other agencies that have been involved with 
interoperability? Why are we adding one more layer of someone 
who has not been involved in this particular discussion?
    Mr. Reichert. Yes. I hope you notice that some of the 
question I am asking I know the answers to already. I do not 
want you to get the idea--Mr. Dicks arrived just in time.
    Mr. Dicks?
    Mr. Dicks. Thank you, Mr. Chairman. And I want to 
compliment you for holding this hearing. I think this is very 
important, and I appreciate the excellent testimony we have had 
here today.
    What happens, Chief, in a situation where you do not have 
any cells, where you are in an area where it is blank and you 
need to be able to communicate? The reason I raise this, there 
is a company, I think, in your district in Kirkland that has 
come up with a way of using wireless and then in a dead zone 
they connect up to the iridium satellite.
    Now, would that work? I mean, does that sound plausible to 
you?
    Chief Werner. Well, it depends on the level of 
communications that you are talking about. Typically, when you 
are talking about satellite communications, it is not a good 
tactical solution because of delays, latency of transmissions, 
the amount of capacity that can be in place. As far as some 
singular command issues and communications between them, it 
probably is a good alternative.
    Moreover, I would think that if you have areas that do not 
have coverage, an alternative would be some type of 
transportable tower site that can give you communications 
within a region to a cache of radios that allows multiple 
agencies to work. I think this is probably similar to what 
Forestry has done on many occasions.
    I think that we have seen that Forestry has been one of 
those areas that has to deal with the very unique logistics of 
being in the middle of nowhere and having to communicate and 
deal with some very large incidents.
    Mr. Dicks. And how do they do that again?
    Chief Werner. Well, in some cases, they will bring their 
own portable towers that are radio--
    Mr. Dicks. Oh, that is right. That is right.
    Mr. Menchini. Actually, in New York City, we have an 
erectable system, tractor trailer-based that can be rolled to a 
hilltop in Central Park, wherever we need to be able to provide 
additional coverage and a cache of 500 radios that can be 
supported by that system. We keep that on standby, and even 
though our infrastructure can support communications, in the 
event that we need to have that type of portable capability, we 
can roll that in and deploy that very rapidly.
    Mr. Dicks. But not everybody has that, right?
    Mr. Menchini. No. We acquired after September 11.
    Mr. Dicks. Tell me about SAFECOM. I mean, I get the 
impression that they are trying to help you, but they are not 
adequately staffed, they are not adequately funded, and, 
therefore, they are not able to help all the communities that 
need to be helped.
    Yes. Mr. Proctor?
    Mr. Proctor. I believe that to be the case. I believe the 
SAFECOM Program is a good effort. I believe they are focused on 
some of the things we need to get done. I think they 
desperately to hire staff up, hopefully getting some support 
from state and local communities, as people change jobs and 
change careers, that will give them some direction from the 
ground up level to help them focus more on the interoperability 
issues.
    The Executive Committee, which I am a part of and Charles 
has been a part of and the mayor is a part of, has worked 
wonders so far in getting this thing off the ground. But they 
just physically do not have the people to march through the 
bureaucracy of government to get the message down to the lowest 
level, which are the states, cities and counties.
    And one of the programs previous to the SAFECOM Program was 
called the FSWIN Program, and it took the message out to the 
cities and counties. They held regional meetings and that was 
so critical because it brought people together. It started the 
conversation, it started the interaction, one with another, and 
it started--
    Mr. Dicks. So that is not happening now?
    Mr. Proctor. No, it is not.
    Mr. Dicks. Unless the region does it itself.
    Mr. Proctor. That is correct.
    Mr. Dicks. Mayor Drake, isn't that basically what you have 
tried to do down in the Portland area?
    Mr. Drake. Yes, Congressman, and, again, being the newest 
member of SAFECOM, I did all the brushing up I could do prior 
to joining the committee, and I was flabbergasted. I like lean 
and that is how I operate my city, but it was skeletal. And I 
think the chairman correctly stated that it is permitted to be 
staffed at a much higher level.
    Mr. Dicks. Well, and the point is, why isn't it staffed 
then? I mean, do you have any idea why they have not gotten 
more people on board? Is it a lack of will or commitment or it 
just takes time? When was SAFECOM stood up? When did they start 
this operation?
    Mr. Drake. I believe it is about 3 years old, 3.5 years 
old.
    Mr. Dicks. And not to be partisan, and I am probably one of 
the least partisan people you will meet, but this is Congress. 
This is not the only area in the Department of Homeland 
Security that has gotten off to a very slow start. So one has 
to wonder whether there is just not the effort being placed or 
the commitment of resources or the willingness to go out and 
get these things up and running. That takes leadership, as you 
all four represent leaders who have done it in your area. It 
takes some commitment from either the White House or Mr. 
Chertoff's position or whoever's in charge. Dr. David Boyd, is 
he the person?
    I mean, it takes somebody that says, ``We have got to get 
this done.'' And that is what worries me is that this thing has 
dragged on and we are not getting the resources out to the 
local communities, and it is not happening.
    Now, who is supposed to evaluate all this technology? I 
mean, everybody's out there working on coming up with 
solutions. We have got several companies in our own state of 
Washington that are coming out, one with a software solution 
and others with wireless, using satellites. I mean, who 
evaluates this? Is Homeland Security in a position, the science 
aspects of Homeland Security to do this or does it happen at 
the local level? Is it just, kind of, everybody goes out and 
presents their technology and it is utilized in some places? 
How is that working?
    Mr. Menchini. I think it is essential for that to occur at 
a local level. And, again, I think first responders, public 
safety officials in a local area are the only ones that really 
know what their needs are and really would only be able to 
determine whether or not a particular technology--and as you 
have mentioned, there are so many different technologies and 
more arriving every day. How that fits into the needs of a 
locality can only be determined by the locality itself.
    Mr. Dicks. So you think that is the best way to do it. They 
should evaluate, they should--
    Mr. Menchini. Well, let me qualify that.
    Mr. Dicks. Because you have got each situation is 
different. Maybe some things will work in one situation when 
they might not work at another place.
    Mr. Menchini. I mean, I think it depends on the locality as 
well. There are some localities, and you mentioned before, the 
chairman, what happens when monies are invented and a 
particular solution is not successful. A lot of it has to do 
with the fact that in addition to the monies that are needed to 
acquire these systems, there needs to be technical staff and 
people in that locality that understand these technologies--
and, again, they are changing very rapidly--and understand how 
to implement them.
    So there is a need for local knowledge, and where that 
local knowledge does not exist, I think there might be some 
other solutions that need to be considered. But it is not a 
one-solution-fits-all.
    Mr. Dicks. How many staff people do you all have in your 
office working on these issues? You are the staff, right?
    Mr. Proctor. We run a system that has over 500 repeaters 
located on mountaintops, over the half state of Utah. We have 
one director, four technicians and one operations manager, a 
secretary and an administrative assistant.
    Mr. Dicks. So seven or eight people you are talking about.
    Mr. Proctor. That is right. If there are issues with system 
problems or things that come up that we ca not handle, we hire 
it on a contractual level.
    One other thing I wanted to say in defense of Dr. Boyd and 
the SAFECOM Program, I think part of the issue why this has not 
organized and boiled up to the top is simply all of the changes 
that are taking place in the Department of Homeland Security 
and all that consolidation and effort that has gone on, I mean, 
these folks have had to take this program forward as fast as 
they can and get something out on the street. And they have 
been successful in doing that, using resources like the EC and 
the contractors they have to help.
    It takes time, it takes a lot of time to go through a 
hiring process to get qualified people to be a part of your 
staff. Coming from a state government level, I understand that. 
It takes about 2 to 3 months to hire somebody. And I just think 
they need to get with it and get moving forward to take care of 
that. And part of the issue is, is they have got so many things 
on their plate now--
    Mr. Dicks. And they have got to find good people too. You 
have got to have people who have some background.
    Mr. Proctor. That is exactly right. And having just 
recently gone through a hiring process for some technical 
staff, that pool of technically oriented public safety 
personnel is willowing drastically. It is drying up quickly as 
people retire. People like me who grew up in the systems go on 
to other things and retire.
    Mr. Dicks. I would assume the contractors are hiring up 
some of these people--
    Mr. Proctor. That is correct.
    Mr. Dicks. --the people that are trying to market this 
equipment.
    Mr. Proctor. That is correct. They will go to places where 
they make more money. A cell company will pay a radio 
technician a lot more than a government agency will and give 
him all the overtime that he can use.
    Mr. Dicks. Chief, how many people do you have working on 
this?
    Chief Werner. Well, if you look at the state efforts, there 
are two people, and if you look at our local efforts, we are 
talking about three people. And I guess if you take that in 
perspective and say if the state of Virginia is doing their 
effort of guidance with two people and we are doing our 
coordination with three people and Steve is using seven or 
eight people and you reflect that on the national level, would 
that give you some perspective of how short we are at the 
national level with staffing?
    Mr. Dicks. It certainly would.
    Mr. Menchini?
    Mr. Menchini. Well, when you say, ``people dedicated to 
this,'' do you mean to interoperability?
    Mr. Dicks. Yes.
    Mr. Menchini. Or to radio infrastructure as a whole?
    Mr. Dicks. Well, you know, the whole picture.
    Mr. Menchini. The whole picture is one--I mean, we worked 
very--
    Mr. Dicks. New York's got a lot of people.
    Mr. Menchini. We are large.
    Mr. Dicks. Yes.
    Mr. Menchini. We are going to be very different, I think, 
than some of the other people here at this table. Again, we 
have 40,000 police officers alone that are protecting New York 
City. And we have approached this, I mean, first of all, with--
and I have the benefit of Mayor Michael R. Bloomberg who gets 
technology and understands the role that it can play in 
supporting not only public safety but regular government 
operations.
    Commissioner Raymond Kelly from the police department, 
Commissioner Nick Scoppetta from the fire department, and Joe 
Bruno from the Office of Emergency Management. It is very much 
a team and collaborative effort.
    So I think we had direction from the top to be able to 
address our interoperable radio requirements and to work as a 
team. And as a result, the entire radio group, each of those 
departments. Have been dedicated towards the planning and 
implementation process, which has resulted in a lot of 
achievements.
    So it is not just a matter of a group dedicated to 
interoperability, but it is really incorporating the need for 
interoperability into the overall radio infrastructure 
development and rollout. We are about to implement--in fact, 
one of our next pieces in getting to where we want to be to 
support interoperability is to move our fire trucks themselves 
onto the same UHF infrastructure that our walkie-talkies are 
now on. So that I can turn from a fire truck, turn a channel 
and be on the same channel as the fire fighters going into a 
fire. That project is--actually, a contract was just awarded to 
Motorola for $75 million to build that infrastructure 
throughout New York City. We have a mob of people walking to be 
able to implement that.
    But, again, a strategy that once implemented made every 
action of our various radio people moving down a path toward 
accomplishing interoperability.
    So, again, I am a different situation, but I think it is 
key to have a vision, have the leadership and support from 
leadership and to be able to make every step and every 
investment that you make in line with where you want to be. I 
do not know if that answered your question, but--
    Mr. Dicks. Yes. That was good.
    Mr. Menchini. Okay.
    Mr. Dicks. Mayor?
    Mr. Drake. Congressman, thank you. The first request from 
the National League of Cities is to elevate SAFECOM, and I 
would guess being the newbie coming in but understanding 
politics, if you are not funding something to the level it 
should be and more so giving it the recognition it needs, there 
may be difficulty in getting people to complete the task that 
SAFECOM is supposed to complete.
    Mr. Dicks. They do not think that there is a real 
dedication.
    Mr. Drake. Well, that would be, I think, NLC's guess that 
it is not getting the visibility and recognition it deserves, 
and there are so many cities across the country that do not 
have the expertise. We do things in a collective way, not only 
in my county, I chair our county's 911 Board and in the region 
we collectively talk about the technology. But SAFECOM is there 
to give some national guidelines, but if it is not elevated to 
the level it should be, I think Dr. Boyd's hands are tied then.
    Mr. Dicks. So you are not getting guidelines? You are not 
getting a lot of input from the national level?
    Mr. Drake. Congressman, I do not think we are getting what 
we need from SAFECOM, and the NLC is asking that SAFECOM be 
given the recognition and the support that it needs to do just 
what you are asking.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Reichert. Well, Mr. Dicks and I are from the same 
state, the state of Washington, and this is my first term in 
Congress. We are in the United States Congress, and now that we 
are here together, we are going to get some things done, right?
    Mr. Dicks. That is right. And I have been here 15 terms and 
I have never been chairman, so you started off on the right 
team.
    [Laughter.]
    Mr. Reichert. Well, you can always become an R, I guess.
    [Laughter.]
    Mr. Dicks. I do not think this is the right time for that.
    [Laughter.]
    Mr. Reichert. So you can see we can have some fun even.
    We are really serious, though, about this interoperability 
effort. This is a committee, and as I think you saw from 
previous questions and the previous members' questions, that 
there is a real, real deep interest here to make things happen 
for our first responders across this country. And it is not 
just about interoperability. It is about operability first. It 
is about interoperability, not just with our fire departments, 
EMS, emergency managers and police departments, but it is also 
coordinating the ability to communicate with businesses and to 
others now that we recognize Department of Defense, et cetera.
    So all of those things are now a part of our discussion 
around interoperability. But we have got to start somewhere. 
And some of the things that you have mentioned, I mean, it all 
starts with leadership. So we recognize that leadership is the 
first thing, and Mr. Dicks spoke about leadership in the 
Department of Homeland Security. We recognize there is a 
weakness there.
    We recognize that there are some good things that SAFECOM 
has done and at the Office of Interoperability has done and 
will continue to do, but we need to be there to help them push 
this forward.
    And what I also hear loud and clear--and there were a list 
of things that I listed off earlier that Mr. Proctor touched 
on, I will not go through those again--but loud and clear, each 
system has to fit the community and the needs of the community. 
I know that, you know that, we all recognize that fact. I see 
it very much like the community-oriented policing programs that 
were started back years ago. Of course, most cops were a little 
bit nervous about community-oriented policing. As one of those 
people back them, I was too.
    But it is the way that that system was set up in a way to 
across the nation set a standard and have performance measures 
and have grants attached with the performance that police 
agencies across the nation were required to meet that were 
molded to the specific communities. And that is the key with 
interoperability.
    I want to let you know that your testimony, although now 
this room is rather bare of members of Congress, is very 
important and very key. Your presence here today is going to 
get the ball rolling. As with the other witnesses who have 
appeared before, will move this issue forward. Your role today 
will be an integral part of making interoperability a reality 
in this nation.
    So both of us who are still here would like to thank you so 
much for your testimony and taking time out of your busy 
schedule to be here.
    Chief, you have the last word.
    Chief Werner. I just would like to say thank you all for 
letting us come and speak. And one thing I would like to 
reinforce is that the one thing that has really been a good 
thing that SAFECOM has done that must be noted is the 
continuity of grant guidance when it comes to interoperable 
communications equipment. There needs to be one force that 
decides those guidance standards that go across every agency 
that has that money, so that we do not have fragmented and 
different understandings of how that money should be spent.
    Mr. Reichert. Okay.
    Yes, sir.
    Mr. Menchini. I would have one message that I would like to 
leave. One of the real challenges for us has been that we have 
had to react to the grants that are available rather than there 
being a dialogue with us as to where our needs are. It is not 
my needs, I am in a support role, but where the needs of first 
responders are and to have the grants designed to be able to 
meet those needs and to have, I think, if SAFECOM can play this 
role, that would be terrific, but to have more of a voice in 
where grants are available so that when monies do become 
available through a grant process, it is more targeted towards 
where the actual needs are.
    Mr. Reichert. But you do not want them to tell you what you 
have to buy, do you?
    Mr. Menchini. No.
    Mr. Reichert. Wouldn't you like to have some flexibility to 
decide what it is that you are going to--
    Mr. Menchini. Again, what I think we need to do is to hear 
from first responders as to what the problem is that we are 
trying to address before we get down to a particular solution. 
And then we can talk about having standards, which, again, is a 
double-edged sword by getting to a point where the solutions 
can be available from the marketplace and can address a need. 
But it should really be driven from the need, as articulated by 
the public safety first responders themselves, have grants that 
are available to meet those needs and then a process in place 
to be able fairly distribute those funds.
    Mr. Reichert. Out to the people that do the work, right?
    Mr. Menchini. That is what we do. It has worked well.
    Mr. Reichert. Yes. Absolutely.
    Mr. Proctor, did you have one more thing?
    Mr. Proctor. Just thank you very much--
    Mr. Reichert. You are welcome.
    Mr. Proctor. --for the opportunity to be here. And if any 
of us ever had to come back, all you would have to do is call. 
We would be happy to provide further testimony. We appreciate 
the highlight of interoperability that Congress is providing, 
appreciate the support you give us and hope that it will end up 
in good results out in the field with the folks--
    Mr. Reichert. So do we.
    Mr. Proctor. --who use it every day.
    Mr. Reichert. Are you free at 5 o'clock? No, I am just 
kidding.
    Members of the committee may have some additional questions 
for the witnesses, and we will ask you to respond to these in 
writing. The hearing record will be open for 10 days.
    And without objection, the committee now stands adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]


        THE STATE OF INTEROPERABLE COMMUNICATIONS: PERSPECTIVES



                   ON FEDERAL COORDINATION OF GRANTS,



                       STANDARDS, AND TECHNOLOGY



                                PART III

                              ----------                              


                        Tuesday, April 25, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                   Science, and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:13 p.m., in 
Room 311, Cannon House Office Building, Hon. David Reichert 
[chairman of the subcommittee] presiding.
    Present: Representatives Reichert, Brown-Waite, Pascrell, 
Harman, Lowey, Norton, and Christensen.
    Mr. Reichert. The Committee on Homeland Security 
Subcommittee on Emergency Preparedness, Science and Technology 
will come to order. The subcommittee will hear testimony today 
on Federal coordination of grants, standards and technology 
with respect to inter operability and emergency communications. 
I would first like to welcome our witnesses and thank them for 
taking time out of their busy schedules to be with us today. I 
thank you all.
    On behalf of the members of the subcommittee, we are glad 
that you are here today to share your experiences and your 
knowledge with us. We look forward to hearing your testimony 
today. This is the final hearing. It is part of series of 
hearings examining the state of interoperability. Last fall 
following the devastating loss of communication capabilities as 
a result of Hurricane Katrina, the Subcommittee on Emergency 
Preparedness, Science and Technology examined how the 
operability of communication was the foundation of any 
interoperable system.
    On February 15, 2006, the subcommittee held the second of 
four hearings dedicated to examining the ongoing challenges of 
achieving interoperable communications during times of 
emergency. That hearing analyzed the role and ability of State 
troopers, fire volunteers, health care facility operators, and 
managers of critical infrastructure and high risk targets to 
communicate during times of emergency. Unlike past hearings 
that focused on the challenges faced by first responders at the 
scene of an emergency, the third hearing held in March looked 
at the leadership role of State and local governments in 
achieving interoperability.
    From each witness we heard the same thing. We heard about 
the need for consistent leadership, for policy makers and 
government officials to work together more effectively, not for 
billions of dollars in additional funding.
    Today's hearing will feature two panels. The first panel 
consists of the Federal agencies principally responsible for 
helping State and local governments achieve interoperable 
emergency communication capabilities. We want to examine the 
extent to which these various Federal agencies coordinate their 
activities and grant programs.
    The second panel consists of Federal and nongovernmental 
entities with expertise in emergency communications standards 
and technology. Of particular concern is the slow pace of 
identifying standards.
    The government's foremost duty is to safeguard our Nation. 
When our police officers, firefighters, emergency medical 
service personnel, public health officials and others charged 
with safeguarding America are unable to effectively and 
efficiently interoperate by communicating and coordinating 
their emergency response, their safety and the lives of those 
they are aiding are at grave risk. Our Nation has learned the 
lesson that incompatible emergency communication systems impede 
intergovernmental coordination efforts. The Federal Government 
has a long history of addressing Federal, State and local 
government public safety issues. The important work of 
government requires many partnerships, including the active 
participation of private industry, particularly the technology 
sector, which is why we have an industry representative with us 
today.
    In summation, DHS, Department of Homeland Security, has 
obligated $2.1 billion to States and local governments thus far 
to improve interoperability through the purchase of 
communications equipment and associated projects. In addition, 
other Federal agencies within the Department of Justice and 
Commerce, along with the Federal Communications Commission, 
have made and continue to make significant human and fiscal 
investments for interoperable emergency communications.
    The question before us today is whether our Federal efforts 
and investments are synchronized and integrated to ensure that 
the right people have the right information at the right time. 
So the right decisions are made to protect America. The Chair 
now recognizes the ranking member, Mr. Pascrell, for his 
opening statement.
    Mr. Pascrell. Thank you, Mr. Chairman, for holding the 
fourth and final hearing on the challenges of achieving 
interoperable communications during times of crisis.
    It goes without saying that this is an issue of utmost 
urgency. I am truly hopeful that this subcommittee, with the 
leadership of the chairman, will have as its legacy a lasting 
solution to the communication problems that plague our 
emergency responders and have plagued them for the last 15 to 
20 years. Indeed, we are thus far engaged in a robust 
exploration on this subject. Speaking extensively to a variety 
of first responders and State and local government officials, 
we are all ready for the line, ``slowly I turned'' when we hear 
the world interoperability.
    Over the recess, I had the opportunity to attend a field 
hearing and the chairman's district in Washington State, 
Warden. What we heard from local officials and emergency 
managers there were the same things I hear daily from safety 
personnel back in Patterson, New Jersey, that is interoperable 
communication is critical to defending the homeland and 
performing everyday public safety services.
    The simple fact is this: Lives depend on solving the 
communications crisis, once and for all. We understand this and 
we are working towards comprehensive legislation that will 
truly tackle this problem. That is the purpose and product of 
our hearings hopefully.
    This hearing with its notable witnesses representing the 
principal Federal agencies responsible for coordinating 
communication and the communication systems with State and 
local jurisdictions will no doubt help us as we move forward. 
Today we must examine whether the Department of Homeland 
Security is truly acting as the Federal Government's lead 
agency in coordinating interoperable communication among 
Federal, State and local governments. We need to probe into the 
role that various agencies have in assisting the coordination 
efforts of State and local governments. And we need to identify 
the Federal Government's strategy for developing a national 
emergency communications plan.
    You know I have been pretty tough on the FCC but the other 
Federal agencies cannot get their act together in basically 
enunciating what their goals are, and the FCC cannot do very 
much for us.
    Critical issues--ll of those things are critical--nd issues 
that have been with us now for too long. It has been said 
before but it is worth stating repeatedly, when the 9/11 
Commission released its final report it found that the 
inability of our first responders to talk with other each other 
and their commanders resulted in a loss of life. That is 
unacceptable and we must all have a sense of urgency about 
this. This is not a committee assignment or a term paper.
    The 9/11 Commission also identified the need for more 
spectrum as crucial to assist emergency responders in 
communicating during an emergency such as a terrorist attack or 
hurricane, and I am convinced that the FCC is now moving in the 
right direction, Mr. Moran. I would not say that unless I 
believed it. In 1996, 10 years ago, the Congress asked a blue 
ribbon committee, the public safety wireless advisory 
committee, to examine the issue of interoperable 
communications. And it concluded, that is 10 years ago, that 
public safety agencies did not have sufficient radio spectrum 
to do their jobs, but spectrum is not the only impediment to 
success. As the Department of Homeland Security has concluded, 
barriers that hinder well coordinated interoperability of 
efforts are both technical and human. Different jurisdictions 
may use different equipment, may communicate using different 
radio frequency bands. There is limited amount of radio 
spectrum available to public safety. ``Funding to replace aging 
communications equipment is limited, and is subject to 
jurisdictional budget cycles.''
    I think that capsulized pretty well what the problem is 
here. So we have known about the problems. This is 10 years 
ago. And many have explored the possible remedies that we 
should undertake, but while some progress has been made, we are 
still far from where we need to be.
    With this in mind, the President's fiscal year 2007 budget 
requests no funds for grants to enhance interoperability. The 
President's fiscal year 2007 budget proposes to eliminate the 
COPS interoperability grant program, which is charged with 
awarding technology grants to law enforcement agencies for the 
purpose of enhancing interoperability and information and 
sharing.
    Is the administration talking out of both sides of its 
mouth? It is long past the point where we in Washington pay lip 
service to this problem without actually demanding true 
results. We are talking about human life. And we talk about 
these guys and gals, we pat them on the back, we say all nice 
things about them, but really, we are talking about protecting 
their lives, helping local agencies protect the lives of people 
that are on the line every day.
    I know my chairman feels the same way that I do, and for 
that I am grateful. I look forward to continued collaboration 
with my friend, Chairman Reichert, to help propose serious 
solutions to serious problems. I want to thank the witnesses 
for being here today and I look forward for your testimony.
    Mr. Reichert. Thank you, Mr. Pascrell. Other members of the 
committee are reminded that opening statements may be submitted 
for the record. We are pleased to have two distinguished panels 
with us today and we will now call the first panel. And with us 
today we have the honorable Tracy Henke, Assistant Secretary of 
Office and Grants and Training, Directorate of Preparedness, 
U.S. Department of Homeland Security. Dr. David Boyd, director, 
Office of Interoperability and Compatibility, Directorate of 
Science and Technology, U.S. Department of Homeland Security. 
And Mr. John Kneuer was supposed to be here, but unfortunately 
has a family emergency and could not be with us today.
    Next Mr. Kenneth Moran, director, Office of Homeland 
Security, Federal Communications Commission; and Mr. Carl Peed, 
executive director, Office of Community Oriented Policing 
Service, U.S. Department of Justice.
    Mr. Reichert. The Chair now recognizes the Honorable Tracy 
Henke to testify.

 STATEMENT OF HON. TRACY HENKE, ASSISTANT SECRETARY, OFFICE OF 
    GRANTS AND TRAINING, DIRECTORATE OF PREPAREDNESS, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Henke. Thank you, Chairman Reichert, Congressman 
Pascrell and members of the committee. I am pleased to have 
this opportunity to discuss the efforts of the Department of 
Homeland Security's Office of Grants and Training to enhance 
State and local interoperable communications. The Department 
recognizes the critical importance of interoperable 
communications in enabling our Nation's public safety personnel 
to respond quickly, safely, and effectively during an 
emergency. For this reason, the Office of Grants and Training 
is working with our partners at the Federal, State, local, 
territorial, and tribal levels to build interoperable 
communication capabilities throughout the country.
    As you may know, Mr. Chairman, strengthening interoperable 
communications capabilities is one of seven priorities set by 
the interim National Preparedness Goal. The Goal is designed to 
help State and local jurisdictions understand what they need to 
do in order to be able to respond to a terrorist attack or a 
natural disaster. At Grants and Training, we have refocused our 
funding, refocused our training, our exercises and our 
technical assistance programs to provide the resources State 
and local leaders need to meet the capabilities and 
preparedness levels set by the National Preparedness Goal, 
including interoperable communications.
    Today, 43 out of 56 States and territories are working at 
some level on a Statewide interoperable communications project 
using G&T funding or technical assistance. However, as you 
know, Mr. Chairman, we rely on the Department's Science and 
Technology Directorate to develop interoperable communications 
standards and to conduct research in this area. Grants and 
Training's focus is on providing assistance to States to help 
State and local jurisdictions purchase interoperable 
communications equipment, develop interoperable communication 
systems, but I want to stress it is more than just equipment. 
It is also helping States and local jurisdictions plan, train 
and exercise. In the past 2 years, we have awarded $2.1 billion 
in grants for this purpose and developed two major initiatives 
for which we provided technical expertise and guidance.
    Our interoperable communications technical assistance 
program is working with jurisdictions across the country to 
help them design and implement interoperable communications 
systems. Since the program was created in 2003, we have 
allocated almost $38 million to support what we call the ICTAP 
and provide assistance to nine States, four territories, and 58 
local jurisdictions throughout the Nation. Currently, we are 
working to respond to requests for assistance from another 
seven States, one territory and four localities. In addition to 
the technical assistance provided under ICTAP, we are also 
working to help major urban areas across the country develop a 
tactical, interoperable communications plan.
    As you know, the 2005 Homeland Security Grant Program 
required each of the 50 jurisdictions participating in our 
Urban Areas Security Initiative to develop a plan for providing 
incident-based critical voice communications among all first 
responder agencies. States and territories without an urban 
area specified were required to designate an area to meet this 
requirement. These plans are due to Grants and Training on May 
1st for review and approval.
    In addition, in early May, we have invited teams from all 
approximately 75 participating jurisdictions to Washington to 
help them plan full-scale exercises to validate their 
interoperable communication plans and identify gaps in 
planning, coordination and technology. The teams will use this 
information to develop an improvement plan that will document 
the specific steps the region can take to improve 
communications interoperability. At the same time, the States 
and localities as well as the Office of Grants and Training and 
the Department will use the information gained from the 
exercises and the after action reports to help determine 
interoperability investments under our Fiscal Year 2007 grant 
programs. Grants and Training works closely with SAFECOM as 
well as the Justice Department, the National Telecommunications 
and Information Administration at the Department of Commerce 
and other Federal partners to coordinate our efforts to improve 
interoperable communications among our Nation's emergency 
responders.
    However, Mr. Chairman, we recognize that there is no silver 
bullet solution or one-size-fits-all answer to resolving the 
issues of communications interoperability. Assistance must be 
tailored to the unique needs and resources of each 
jurisdiction. For this reason, the Office of Grants and 
Training will continue to work closely with our partners at the 
State and local levels, as well as on a national level to 
ensure that our Nation's first line of home defense, our State 
and local responders, have the technology, the training and the 
tools they need to effectively communicate before, during and 
after a crisis.
    Mr. Chairman, thank you, and I am happy to answer questions 
at the appropriate time.
    Mr. Reichert. Thank you.
    [The statement of Ms. Henke follows:]

               Prepared Statement of Hon. Tracy A. Henke

                             April 25, 2006

    Chairman Reichert, Congressman Pascrell, and Members of the 
Subcommittee, I am Tracy Henke, and I serve as the Assistant Secretary 
of the Office of Grants and Training (G&T) within the Preparedness 
Directorate of the Department of Homeland Security (DHS). It is my 
pleasure to appear before you today to discuss the current status of 
the Department's efforts to enhance state and local interoperable 
communications, and our coordination internal and external to the 
Department of Homeland Security.
    I wanted to thank the Members of the Committee for your ongoing 
support of the Department. I also thank you, Mr. Chairman, for your 
foresight and leadership on the issue of interoperable communications, 
which is a cornerstone of our ability to save lives and protect 
property during threatened or actual emergencies and disasters 
including terrorist events.
    Mr. Chairman, G&T is an essential element of the Department's 
capacity building efforts at the state, local, territorial, and tribal 
levels to deter, prevent, respond, and recover from emergencies and 
disasters of all kinds, including terrorism. DHS, through G&T, has 
worked with Federal agencies and state and local jurisdictions to 
develop and disseminate information to assist in making more informed 
preparedness decisions, including capability assessments, preparedness 
planning and strategies, and choices relating to training, technical 
assistance, equipment, and exercises.
    G&T and its predecessor organization has provided assistance to all 
50 States, the District of Columbia, the Commonwealth of Puerto Rico, 
and the U.S. territories. Through our programs and initiatives, more 
than 1.4 million emergency responders from more than 5,000 
jurisdictions have been trained and conducted more than 500 exercises. 
By the end of Fiscal Year (FY) 2006, states and localities will have 
received from DHS over $17.9 billion in assistance and direct support 
since September 11, 2001. This includes specifically $2.1 billion in 
grant assistance that states and local jurisdictions have obligated 
thus far to improve interoperability through the purchase of 
communications equipment and other projects.
    The Department's three primary sources of financial assistance to 
states and local communities, the State Homeland Security Program 
(SHSP), Law Enforcement Terrorism Prevention Program, and the Urban 
Area Security Initiative (UASI), require states and urban areas to 
assess their risk, capabilities, and needs, including requirements 
relating to interoperable communications. These assessments and 
strategies have given us valuable information on the current state of 
interoperable communications and how various states and localities are 
addressing this issue. While financial assistance is an important tool 
with which we support our state and local partners, the Department 
offers a wide array of support through technical assistance, training 
and exercise programs.
INTEROPERABLE COMMUNICATIONS A PRIORITY UNDER HSPD-8
    As you will recall, Mr. Chairman, on December 17, 2003, the 
President issued ``Homeland Security Presidential Directive (HSPD)-8.'' 
Through HSPD-8, the President tasked the Department of Homeland 
Security, in coordination with other Federal departments, as well as 
state and local jurisdictions, to develop a National Preparedness Goal 
to improve the delivery of Federal preparedness assistance to state and 
local jurisdictions, and strengthen the preparedness capabilities of 
Federal, state, territorial, tribal, and local governments.
    Through the work that is being conducted under HSPD-8, the 
Department has developed an Interim National Preparedness Goal that 
establishes measurable readiness priorities and targets that 
appropriately balance the potential threat and magnitude of terrorist 
attacks, major disasters, and other emergencies with the resources 
required to prevent, respond to, and recover from them.
    This effort is producing readiness metrics and elements that 
support the National Preparedness Goal, including standards for 
preparedness assessments and strategies, and a system for assessing the 
Nation's overall preparedness to respond to major events. The National 
Preparedness Goal focuses on seven national priorities, including 
``Strengthening Interoperable Communications Capabilities.'' This 
priority is meant to achieve interoperability not only in terms of 
communications, but also in the broad ability of systems and 
organizations to provide service and to accept service from one another 
across jurisdiction lines, enabling them to operate effectively 
together.
    It should be noted as well that two recent Hurricane Katrina 
reports--one from Congress and the other from the White House--both 
mention the enhancement of public safety communications 
interoperability as a critical National priority. The Department is 
working to enhance Nationwide communications interoperability through a 
number of different programs and initiatives. I would like to take this 
opportunity to discuss these initiatives with the Subcommittee.

INTEROPERABLE COMMUNICATIONS TECHNICAL ASSISTANCE PROGRAM (ICTAP)
    In the area specific to my direction, G&T administers more than 
three dozen technical assistance programs. One of our most important 
technical assistance efforts to date is the Interoperable 
Communications Technical Assistance Program (ICTAP). ICTAP is designed 
to enhance interoperable communications among local, state, and Federal 
emergency responders and public safety officials, and is associated 
with the UASI grant program. The goal of the ICTAP program is to enable 
local public safety agencies to communicate as they prevent or respond 
to a weapons of mass destruction attack. ICTAP also leverages and works 
with other Federal, state, and local interoperability efforts whenever 
possible to enhance the overall capacity for agencies and individuals 
to communicate with one another. This program enables the jurisdictions 
to understand the scope of their interoperability needs, and implement 
solutions to address those needs.
    ICTAP has received requests for assistance from 46 of the 
Department's 50 UASI partners, as well as 9 States and 5 U.S. 
Territories. In the past 4 years, $37.9 million has been made available 
for ICTAP's efforts. All requests for ICTAP assistance are coordinated 
through the states to ensure consistency with state, and, where 
applicable, the urban area homeland security strategies. ICTAP provides 
technical assistance at no cost to jurisdictions in conjunction with 
the implementation of state and UASI preparedness strategies. This 
process streamlines the relationship between the requests for 
interoperability funding and the need for technical assistance and 
training to ensure it is used effectively. In the context of ICTAP's 
work, it is essential that we neither duplicate nor contradict any 
other Federal, state or local interoperability initiatives. In 
conjunction with our Federal partners, we have striven to present a 
coordinated approach. The current listing of the states, regions and 
territories in which we are working is attached to my testimony in 
Appendix A.
    While the ICTAP program has provided significant assistance and 
support to a number of urban areas and states, it is important to note 
that there are no ``silver-bullet solutions'' that we can ``drop-off'' 
in a region that will resolve its problems. From start to finish, 
interoperability requires a great deal of work and coordination with 
the key communication stakeholders in that region.

TACTICAL INTEROPERABLE COMMUNICATION PLANS
    As part of the FY 2005 Homeland Security Grant Program (HSGP) each 
of the Department's 50 UASI partners was required to develop a Tactical 
Interoperable Communications Plan (TICP). States and territories that 
did not have a designated urban area were required through grant 
guidance to designate a multi-jurisdictional metropolitan area or 
region as a substitute. There are now a total of 75 urban areas and 
multi-jurisdictional metropolitan areas that are required to submit a 
TICP. This initiative builds on an effort led by SAFECOM and G&T in FY 
2004 called RapidCom that focused on achieving tactical-level emergency 
interoperable communications in ten major urban areas. States are 
required to submit the TICPs to G&T by May 1, 2006, for review and 
approval.
    Tactical interoperable communications is defined as the rapid 
provision of on-scene, incident based mission critical voice 
communications among first-responder agencies (EMS, fire, and law 
enforcement), as appropriate for the incident, and in support of 
incident command system as defined in the National Incident Management 
System (NIMS). Each TICP has six critical elements:
        (1) Urban Area Information--A basic description of the urban/
        metropolitan area and its efforts to address interoperable 
        communications. A list off all agencies represented in the TICP 
        including those agencies represented in the Urban Area Working 
        Group
        (2) Governance Structure--An overview of the governance 
        structure including the contact information for the members of 
        the governing body
        (3) Interoperable Equipment--A detailed listing of all 
        interoperable communication equipment available in the urban/
        metropolitan area
        (4) Policies and Procedures--Specific information on how urban/
        metropolitan areas will utilize their communications equipment 
        and adhere to proper protocol
        (5) Incident response plan--A detailed listing of functional 
        disciplines to which the TICP applies, and plans for how the 
        available interoperable communications equipment will be used 
        within the NIMS structure to support the response to the 
        incident.
        (6) Training--Information on the progress and future plans to 
        ensure that adequate staff are training as communications unit 
        leaders as defined by NIMS
    The objective is for each Urban Area to have plan that will allow 
them to achieve command level interoperability within one hour of the 
incident. Within 6 months of submitting their TICPs, G&T will provide, 
if requested, direct assistance to the 75 identified areas to validate 
the plans by conducting a full scale exercise. The exercise will be 
evaluated by a team of subject matter experts and will utilize exercise 
evaluation guidelines that are consistent with previously identified 
target capabilities to improve interoperable communications. At the 
conclusion of the exercise, an after action report (AAR) for each of 
the 75 identified areas will be created to clearly present any issues 
the public safety community must address, including recommendations to 
achieve meaningful communication interoperability. Included in the AAR, 
as an appendix, will be an improvement plan that will document specific 
steps the region can take to improve their interoperability. Meanwhile, 
the Science and Technology Directorate Office of Interoperability and 
Compatibility is in the process of conducting a Nationwide Baseline 
Survey to measure the capabilities necessary for first responder 
agencies to achieve communications interoperability. Through the TICP 
exercise, the subsequent AAR process, and Nationwide Baseline Survey, 
the Department can identify shortfalls, and work with our state and 
local partners to fill communication gaps and focus resources for where 
they are needed the most to improve communication interoperability. 
This effort should drive state's FY 2007 investments related to 
interoperability.

DHS COORDINATION
    As we are all aware, there are a number of different activities 
both within DHS, as well as in other departments that involve 
interoperable communications issues. The range of activities includes 
research, development and testing of interoperability solutions; 
defining industry standards; conducting nationwide baseline surveys; 
designing long term national interoperability strategies; and 
operational delivery of systems and training and technical assistance. 
We work hard to closely coordinate these efforts.

SAFECOM
    The Department is well aware of the importance of developing 
national interoperability policy. For guidance on these issues, G&T 
relies on SAFECOM, which is the Federal government's umbrella office 
for coordination of public safety interoperability programs, to provide 
standards and conduct research that can help our jurisdictions develop 
a better interoperable communications program. As an example, all FY 
2006 guidance for G&T grant programs that provide eligibility for 
spending on communications interoperability requires compliance with 
the SAFECOM grant guidance on interoperability. In addition, ICTAP is 
examining how to incorporate the findings from the recently developed 
SAFECOM Statement of Requirements (SoR) for Wireless Public Safety 
Communications and Interoperability. The SoR contains interoperability 
scenarios describing how SAFECOM envisions technology enhancing public 
safety. In addition, we have entered into a Memorandum of Agreement 
with SAFECOM to codify the areas in which we can work more effectively 
together. This includes continuation of grant support for SAFECOM 
projects like the Statewide Communication Interoperable Planning 
methodology, as well as coordinating other areas of mutual interest 
such as the dissemination of grant guidance and providing technical 
assistance in the field. SAFECOM has also recently allocated resources 
to support the development and subsequent exercise validation of the 
TICP. SAFECOM will soon distribute a national survey to assess the 
baseline communications capabilities of thousands of state and local 
public safety agencies. We look forward to combining these results with 
the results of the TICP process to gain a more detailed picture of 
interoperability capabilities.

NIMS Integration Center
    The NIMS is a nationwide approach for all levels of government to 
work effectively and efficiently together to prepare for and respond to 
domestic incidents. Together with SAFECOM, the NIMS Integration Center 
(NIC) is currently developing the Communications Unit Leader (COML) 
training course referenced in FY 05 HSGP Guidance for the TICP. ICTAP 
assisted the NIC in developing the core competencies for the COML that 
will be used as part of the certification requirements. When completed, 
the COML will be integrated into existing DHS training programs.

INTERAGENCY COORDINATION
Federal Interagency Coordination Council (FICC)
    G&T, is represented on the Federal Interagency Coordination Council 
(FICC) addressing interoperability. The FICC, which is chaired by 
SAFECOM, seeks to avoid duplication, promote best practices and 
coordinate Federal grants and technical assistance among the Federal 
agencies supporting public safety interoperable wireless communications 
improvements.

Coordination with the Department of Justice
    In coordinating with the Department of Justice (DOJ) on 
interoperability initiatives, the Department through G&T has ensured 
that response agencies have incorporated this work into their homeland 
security interoperability efforts. For example, ICTAP has worked 
closely with personnel from DOJ's Integrated Wireless Network, Wireless 
Management Office--25 Cities Program, National Institute of Justice- 
CommTech Program, and Community Oriented Policing Services (COPS)--
Interoperable Communications Technology Program to ensure that ongoing 
Federal efforts are closely coordinated.

Federal Partnership for Interoperable Communications (FPIC)
    We also participate in Federal Partnership for Interoperable 
Communications (FPIC) meetings. FPIC's goal is to foster partnerships 
among Federal agencies that promote the exchange of knowledge and 
resources among members of the wireless communications community. This 
participation assists in the creation and maintenance of a Federal 
roadmap to achieve wireless communications interoperability across 
Federal departments, bureaus, and agencies.

National Telecommunications and Information Administration
    The National Telecommunications and Information Administration 
(NTIA), located within the Department of Commerce, received a 
significant source of funding for interoperable communications grants 
to states and localities through the Deficit Reduction Act of 2005 
(Public Law 109-171). Under provisions of the bill, the Assistant 
Secretary of NTIA is authorized to use $1 billion from the Digital 
Television Transition and Public Safety Fund to carry out a grant 
program to assist public safety agencies in the acquisition of, 
deployment of, or training for the use of interoperable communications 
systems that utilize, or enable interoperability with systems that can 
utilize, reallocated public safety spectrum for radio communications. 
The Department of Homeland Security is working closely with NTIA to 
ensure that any grants provided under this program are consistent with 
the approach taken by G&T and the SAFECOM initiatives. Further, DHS is 
committed to working with NTIA to ensure that these funds are spent in 
a manner that will have a meaningful impact on the state of 
communications interoperability.

CONCLUSION
    In closing, thank you for convening this hearing on the vital issue 
of communications interoperability. The Department of Homeland Security 
is committed to working with Congress and our stakeholders to continue 
to address this critical area of need. It is a cornerstone effort to 
enhancing our Nation's preparedness. Mr. Chairman, let me reinforce the 
Department of Homeland Security's continuing commitment to support the 
Nation's state, local, tribal, and territorial partners to ensure that 
America's emergency responders have the ability to effectively 
communicate before, during, and after a crisis. This concludes my 
prepared statement. I am happy to respond to any questions that you and 
the members of the Committee may have. Thank you.

 Appendix A: States and UASI Sites Receiving Support Under the Interoperable Communications Technical Assistance
                                                    Programs
----------------------------------------------------------------------------------------------------------------
              Active UASI ICTAP Sites
---------------------------------------------------- Pending UASI ICTAP     ICTAP States         ICTAP U.S.
                                                            Sites                                Territories
----------------------------------------------------------------------------------------------------------------
Anaheim, CA                      Orlando, FL         Long Beach, CA      California         Guam
----------------------------------------------------------------------------------------------------------------
Atlanta, GA                      Philadelphia, PA    Alabama             Connecticut        Northern Mariana
                                                                                             Islands
----------------------------------------------------------------------------------------------------------------
Baton Rouge, LA                  Phoenix, AZ         Baltimore, MD       Hawaii             Puerto Rico
----------------------------------------------------------------------------------------------------------------
Buffalo, NY                      Pittsburg, PA       South Carolina      Idaho              Virgin Islands
----------------------------------------------------------------------------------------------------------------
Charlotte, NC                    Portland, OR        Iowa                Kentucky
----------------------------------------------------------------------------------------------------------------
Chicago, IL                      San Antonio, TX     Utah                Louisiana
----------------------------------------------------------------------------------------------------------------
Cincinnati, OH                   San Diego, CA       Montana             New York
----------------------------------------------------------------------------------------------------------------
Cleveland, OH                    San Francisco, CA   Wyoming             New Jersey
----------------------------------------------------------------------------------------------------------------
Columbus, OH                     San Jose, CA        Boston, MA          Washington
----------------------------------------------------------------------------------------------------------------
Dallas/Ft. Worth/                Santa Ana, CA       Rhode Island
  Arlington, TX
----------------------------------------------------------------------------------------------------------------
Denver, CO                       Seattle, WA         Sacramento, CA
----------------------------------------------------------------------------------------------------------------
Detroit, MI                      St. Louis, MO       American Samoa
----------------------------------------------------------------------------------------------------------------
Fresno, CA                       Tampa, FL
----------------------------------------------------------------------------------------------------------------
Honolulu, HI                     Toledo, OH
----------------------------------------------------------------------------------------------------------------
Houston, TX                      Twin Cities, MN
----------------------------------------------------------------------------------------------------------------
Indianapolis, IN                 Washington, DC
----------------------------------------------------------------------------------------------------------------
Jacksonville, FL                 Alaska
----------------------------------------------------------------------------------------------------------------
Kansas City, MO                  Arkansas
----------------------------------------------------------------------------------------------------------------
Las Vegas, NV                    Delaware
----------------------------------------------------------------------------------------------------------------
Los Angeles, CA                  Kansas
----------------------------------------------------------------------------------------------------------------
Louisville, KY                   Maine
----------------------------------------------------------------------------------------------------------------
Miami, FL                        Mississippi
----------------------------------------------------------------------------------------------------------------
Milwaukee, WI                    North Dakota
----------------------------------------------------------------------------------------------------------------
New Haven, CT                    New Hampshire
----------------------------------------------------------------------------------------------------------------
New Orleans, LA                  New Mexico
----------------------------------------------------------------------------------------------------------------
New York City, NY                South Dakota
----------------------------------------------------------------------------------------------------------------
Oakland, CA                      Tennessee
----------------------------------------------------------------------------------------------------------------
Oklahoma City, OK                Vermont
----------------------------------------------------------------------------------------------------------------
Omaha, NE                        West Virginia.....
----------------------------------------------------------------------------------------------------------------


    Mr. Reichert. The Chair recognizes Dr. Boyd.

 STATEMENT OF DAVID BOYD, DIRECTOR, OFFICE OF INTEROPERABILITY 
      AND COMPATIBILITY, DIRECTORATE OF PREPAREDNESS, DHS

    Mr. Boyd. Good afternoon, Chairman Reichert, Ranking Member 
Pascrell, and members of the subcommittee. I want to thank you 
for inviting me to speak to you today.
    As the events of September 11 and Hurricanes Katrina and 
Rita demonstrated, interoperability is not possible when the 
foundation for operations has been degraded or destroyed.
    The White House report on Hurricane Katrina said it 
plainly. ``The complete devastation of the communications 
infrastructure in the gulf region left responders without a 
reliable network to use for coordinating emergency response 
operations.'' Secretary Chertoff has made this issue a top 
priority for the Department.
    SAFECOM, the Presidential management initiative, 
established to strengthen and coordinate interoperability 
initiatives at all levels of government, has created highly 
successful tools and methodologies to achieve interoperability 
and initiated and coordinated communications research and 
development initiatives across the Federal Government. These 
tools support all the technical, policy and best practices 
elements required to achieve interoperability.
    While I am pleased to report that we have made significant 
progress on many fronts, I want to be clear that moving the 
Nation's 60,000 public safety agencies toward wireless 
interoperability is an enormous undertaking. Much remains to be 
done at all levels of government if we are to be successful. 
SAFECOM grant guidance, for example, is required by OMB to be 
included in every Federal grant program that may support 
communications investments. The guidance identifies the 
requirements that must exist before Federal funds can be spent 
on equipment procurement and brings clarity to grant recipients 
regarding how to best build, maintain, upgrade and operate 
communications systems to promote interoperability. In the 15 
years, before SAFECOM undertook the coordination of standards 
for interoperability, only one standard in the P25 suite of 
eight had been created. Under SAFECOM leadership and funding 
and with the collaboration of the National Institute of 
Standards and Technology, and the support of both industry and 
our public safety partners, we dramatically accelerated this 
process, completing at least three additional standards just 
since last October.
    Products incorporating these standards should be available 
in about a year, but I want to emphasize that standards cannot, 
by themselves, achieve interoperability. It is possible 
however, as we demonstrated in RapidCom 1, that command level 
emergency interoperability can be achieved, even in the absence 
of comprehensive standards in any community willing to commit 
to SAFECOM guidelines. In accordance with the Intelligence 
Reform and Terrorism Prevention Act of 2004, SAFECOM took its 
statewide communications interoperability planning guide, the 
SCIP, first piloted with the State of Virginia, and initiated 
two additional regional communications pilots, one in Nevada 
and one in Kentucky, to create locally-driven plans for 
improving public safety communications. At the same time, we 
worked to better integrate the urban areas of Las Vegas, Nevada 
and Louisville, Kentucky into their respective statewide plans. 
These initiatives are producing comprehensive communications 
and interoperability plans that will provide a viable framework 
for a unified multi-jurisdictional response to high consequence 
events.
    This effort has yielded essential tools and best practices 
that will be applied by localities and will States on a 
national level. In fact, the city of Louisville will put 
Kentucky's interoperability plan to the test in its 
preparations for the May 6 Kentucky Derby.
    SAFECOM also continues to work with the National Governors 
Association, the National League of Cities, the U.S. Conference 
of Mayors, the National Association of Counties, and similar 
organizations that can function as a force multiplier for 
wireless interoperability.
    The National Governors Associations Policy Academy, for 
example, worked last year with five States to introduce SAFECOM 
tools and methodologies to their interoperability planning and 
will expand this efforts to include additional sites this year. 
Several more SAFECOM tools and resources will be delivered in 
the coming months, including a request for a proposal RFP tool, 
to help agencies write proposals that ensure they get what they 
need and ensure that what they get is compatible with SAFECOM's 
national guidance, guidance to help jurisdictions test and 
evaluate plans, procedures and equipment in preparing for an 
all-hazard incident. This tabletop methodology originally 
employed in RapidCom 1 is being enhanced for use in RapidCom 2 
with the Office of Grants and Training, a national baseline 
study to provide the first ever quantitative assessment of the 
Nation's level of interoperability and continued funding and 
coordination of research and development initiatives into new 
technologies, such as software-defined radio, IP, and cognitive 
radio initiatives already underway in defense, DHS, NIST, and 
others.
    More SAFECOM activities and accomplishments can be found in 
my statement for the record and in the SAFECOM toolkits which 
we provided to each of your offices as well as on the SAFECOM 
Web site.
    The SAFECOM strategy is built on an understanding that 
achieving both operability and interoperability, among the 
Nation's public safety agencies is a national, not just a 
Federal effort. I would be happy to answer any questions you 
may have.
    Mr. Reichert. Thank you.
    [The statement of Boyd follows:]

                             For the Record

                  Prepared Statement of Dr. David Boyd

                        Tuesday, April 25, 2006

Introduction
    Good afternoon Chairman Reichert, Ranking Member Pascrell, and 
Members of the Subcommittee. Thank you for inviting me to speak to you 
today.
    When I appeared before this committee late last year, I testified 
that SAFECOM \1\ is the federal program dedicated to improving the 
connectivity of the 60,000 public safety agencies through interoperable 
wireless communications. With this program, we are working to enable 
public safety agencies to communicate across jurisdictions and 
disciplines during a disaster to ensure a coordinated response to save 
lives.
---------------------------------------------------------------------------
    \1\ SAFECOM is a communications program of the Office for 
Interoperability and Compatibility (OIC), managed by the Office of 
Systems Engineering and Development in the Science and Technology 
Directorate of the Department of Homeland Security (DHS). SAFECOM 
provides research, development, testing and evaluation, guidance, 
tools, and templates on communications-related issues to local, tribal, 
state, and federal public safety agencies.
---------------------------------------------------------------------------
    Today's testimony will focus on the state of interoperable 
communications and what S&T is doing to improve communications and 
interoperability across the nation. Specifically, the testimony will 
address S&T's interoperability initiatives and the formidable 
challenges that are inherent in moving the nation's public safety 
community towards wireless interoperability.
    In discussing interoperability, I must be clear about the 
relationship between operability and interoperability. Simply put, 
operability must be in place for interoperability to be possible. 
Operability exists when responders have a basic level of 
communications. Once that is established, interoperability--defined as 
the ability for public safety agencies to talk to one another via radio 
communications systems to exchange voice and/or data with one another 
on demand, in real time, when needed, regardless of specific spectrum 
or technology--becomes possible.
    Operability, or lack thereof, played a key role in the recent 
natural disasters of 2005. While people may assume that public safety 
agencies are already interoperable, these recent disasters tell a 
different story. Too many emergency responders still cannot talk to 
parts of their own organizations, let alone communicate with agencies 
in neighboring cities, counties, or states, during a crisis. As 
September 11, 2001 and Hurricanes Katrina and Rita demonstrated, 
interoperability is not possible when the foundation for operations has 
been degraded or destroyed. It is essential that operability remain a 
focus point.
    The White House report on Hurricane Katrina released in February 
said it plainly: ``The complete devastation of the communications 
infrastructure [in the Gulf region] left responders without a reliable 
network to use for coordinating emergency response operations.'' \2\ 
Because operability is the foundation of interoperability, Secretary 
Chertoff has made this issue one of the Department's highest 
priorities. In a recent speech he pointed out that ``in addition to 
interoperability, you have to have operability. If all of the 
communications have been blown down, if the satellite phones are 
running out of power, if all the radio towers are down, then it's not a 
question of interoperability, it's a question of ability to operate at 
all.'' \3\
---------------------------------------------------------------------------
    \2\ White House, Federal Response to Hurricane Katrina: Lesson 
Learned (2006) pg. 37.
    \3\ Remarks by Secretary Michael Chertoff to the International 
Association of Fire Fighters Legislative Conference March 21, 2006.
---------------------------------------------------------------------------
    Evidence indicates that operability cannot be ensured in austere 
conditions in many of the nation's 60,000 public safety agencies. We 
must make a concerted effort to remove the obstacles that are 
preventing these agencies from achieving basic operability. While most 
public safety agencies have some basic level of communication, 
operability remains an issue of concern, as it must be in place before 
interoperability becomes possible. Toward this end, SAFECOM has made 
significant progress in overcoming some of the most common barriers to 
operability in emergency incidents by providing guidance for achieving 
operability and by addressing issues associated with system migration 
and the coordination of communications spectrum policy. Tools which 
SAFECOM has developed that address operability include the coordinated 
grant guidance and the Statement of Requirements (SoR). SAFECOM will 
soon conduct the National Interoperability Baseline survey to determine 
the level of operability and interoperability across the nation. 
SAFECOM will also leverage the Office of Grants and Training's (G&T) 
Communications Assets Survey and Mapping tool, which inventories 
infrastructure information, to help determine the level of public 
safety operability in the nation today.
    It is important to remember that facilitating operability and 
interoperability between and among the nation's public safety agencies 
requires a national rather than a Federal effort. It requires public 
safety practitioners at all levels of government and across the nation 
to work collaboratively to develop a better appreciation of the steps 
they must take to achieve operability and interoperability and of the 
tools and resources that are available through SAFECOM that will help 
them along the way.
    To address the most urgent interoperability needs, however, SAFECOM 
is working with its Federal partners \4\ to develop and implement a 
national strategy that ensures that all public safety agencies have the 
necessary tools and resources to meet the immediate demands for 
interoperability to meet the most likely emergencies, and to support 
the migration from their existing communications capabilities to more 
interoperable systems.
---------------------------------------------------------------------------
    \4\ SAFECOM's partners are listed in Appendix A.
---------------------------------------------------------------------------
    I want to provide an overview of the components--the tools and 
initiatives--that SAFECOM is using to help local and state public 
safety agencies accelerate their communications progress now, but I 
also want to make clear that while we are making significant progress 
on a number fronts, much more remains to be done.

Impact on Interoperable Communications
Operational Support
    One major SAFECOM effort is focused on assisting local and state 
agencies in the development of interoperable communications plans. 
While SAFECOM recognizes that each locality and state may have 
different communications needs and requirements, the effective 
implementation of consistent criteria in each plan provides a common 
foundation for establishing an interoperable system. SAFECOM, 
therefore, provides guidance, tools, and coordination in support of 
these local and state needs. To this end, SAFECOM is working with G&T 
to leverage resources to provide funding and technical assistance. The 
following sections describe SAFECOM initiatives that focus on near-term 
local, statewide, and/or regional interoperable communications support.

RapidCom
    In 2004, SAFECOM, in coordination with G&T, took steps to improve 
interoperability in 10 top-threat cities through the Urban Area 
Security Initiative (UASI). RapidCom 1 helped the targeted areas 
achieve interoperable communications between incident commanders within 
one hour of an event. This effort incorporated tabletop exercises, 
planning support, tool development, training, and technology operating 
procedures to ensure better communications among top-level officials in 
each city. SAFECOM published a report on lessons learned from RapidCom 
1 to assist states and localities in their effort to implement a system 
of interoperable communications. To continue this initiative, $5 
million was appropriated to S&T's Office for Interoperability and 
Compatibility (OIC) to expand RapidCom in FY 2006.
    The Interoperability Continuum (see fig. 1), is an example of one 
of the tools that supported the RapidCom initiative. It allows public 
safety agencies to assess progress in key areas affecting 
interoperability such as governance, standard operating procedures, 
technology, training and exercises, and usage. The Interoperability 
Continuum is designed to illustrate how communications interoperability 
is a complex goal, requiring multiple simultaneous improvements in 
communications use, governance, standard operating procedures, 
technology, and training/exercises. The degree of interoperability 
depends upon the improvement of all five of these factors--no one 
factor (e.g. technology) is the solution to obtaining interoperability. 
For this reason, OIC and G&T have invested considerable resources into 
developing standards, providing technical assistance to state and local 
entities, and facilitating regional coordination and standard operating 
procedures. Communications continues to be one of the largest uses of 
G&T grant funds by states and urban areas--to date, nearly $2.2 billion 
has been spent for interoperable communications since September 11, 
2001.
[GRAPHIC] [TIFF OMITTED] 36399.002

emergency response agencies at both local and state levels have been 
directly involved in the planning efforts. As a result, state 
leadership has succeeded in designing systems that are in line with the 
diverse needs of their public safety stakeholders. The Policy Academies 
of the National Governors Association's Center for Best Practices also 
use the SCIP to help improve statewide interoperable communications in 
Georgia, Idaho, Louisiana, Nevada, and Wisconsin. These states now have 
a roadmap based on a locally-driven, bottom-up approach to planning for 
improving communications systems. The SCIP methodology is posted on 
SAFECOM's Web site.
    According to Chris Essid, Virginia's Commonwealth Interoperability 
Coordinator within the Office of the Secretary of Public Safety, 
``Virginia now has a Strategic Plan for Statewide Communications 
Interoperability that was developed by local public safety responders 
for local public safety responders.'' \6\
---------------------------------------------------------------------------
    \6\ Statewide Communications Interoperability Planning (SCIP) 
Methodology, November 2004 http://www.safecomprogram.gov/NR/rdonlyres/
9628BE4B-E7A5-4F1B-9179-2CFCF2653CA9/0/SCIPMethodology.pdf
---------------------------------------------------------------------------
    As SAFECOM works to strengthen local and state initiatives to 
develop interoperable communications plans, it has made significant 
progress in addressing a requirement of the Intelligence Reform and 
Terrorism Prevention Act of 2004 (P.L. 108-458). In its work with 
Nevada and Kentucky on the RCIP projects, SAFECOM ensured that state 
and local coordination remained a priority in the states' efforts to 
develop interoperable communications plans. Input from emergency 
responders and policy makers from all levels of government has been 
incorporated into the RCIP to provide the most comprehensive plan for 
Nevada and Kentucky.
    The impact of SAFECOM's work reaches beyond Nevada and Kentucky and 
across the nation. By leveraging the lessons learned, best practices, 
and subsequent templates, SAFECOM is able to provide jurisdictions 
nationwide with the tools to successfully initiate planning processes 
based on sound, practitioner-driven input. The guidance has also been 
promulgated through G&T. As a pre-condition for interoperability 
funding in next year's (FY2007) Homeland Security Grants, states will 
be required to submit interoperability strategies consistent with the 
SCIP methodology. Work in both Nevada and Kentucky is nearing 
completion and a final report to Congress will be delivered in June 
2006.

Coordinated Grant Guidance
    Historically, different sources of funding have brought different 
interoperability requirements. This lack of coordination has led to 
stove-piped systems, incoherent planning processes, and incompatible 
communications goals. One of SAFECOM's early successes in working with 
G&T, as well as other agencies in the Federal government (e.g., the 
Office of Community Oriented Policing Services in the Department of 
Justice) was the creation of coordinated and consistent criteria for 
agencies receiving federal funds to use in guiding their grantees. This 
criteria, or grant guidance, lists the planning requirements that must 
be followed before federal funds can be spent on equipment procurement. 
It also provides specific questions that should be addressed in grant 
applications to ensure that the potential recipients of federal funds 
have thoroughly assessed how their money will improve interoperability. 
At the direction of the Office of Management and Budget, this grant 
guidance is now required for all public safety grant programs that 
provide Federal funds for communications interoperability.
    The grant guidance maximizes the effectiveness for the significant 
resources available for public safety communications. Nearly $2.2 
billion has been allocated for public safety interoperability under 
this guidance, which also provides succinct criteria to grant 
recipients as to how to best build, maintain, upgrade, and operate 
communications systems to promote interoperability. Coordinated grant 
guidance also results in a more responsive Federal funding system for 
the creation of national communications interoperability. SAFECOM's 
grant guidance is updated at the beginning of each fiscal year to 
accommodate any changes in technologies, standards, or other conditions 
that might affect the public safety community.

Tool Development
    As depicted in the Interoperability Continuum (see fig. 1), public 
safety agencies need to integrate and coordinate many issues to achieve 
interoperable communications. The following tools help agencies move 
along the lanes of the Continuum.
    SAFECOM is developing a Request for Proposal (RFP) tool that will 
radically simplify the often cumbersome local and state procurement 
processes and ensure compatibility with SAFECOM's national strategy. 
Through SAFECOM's work with localities and states, the program has seen 
confusion among localities and states in terms of what information to 
include in an RFP. This tool will be a step-by-step, how-to guidebook 
for writing the major RFPs needed for communications interoperability 
planning and implementation. It will guide state and local public 
safety officials through the complex process for procuring 
communications systems and equipment and services for enhancing 
interoperability capabilities. Specifically, the guide will demonstrate 
best practices for identifying needs, determine the appropriate method 
of procurement, develop an RFP, write a statement of work, evaluate 
proposals, and follow federal guidance, requirements, and standards for 
communications interoperability. The RFP tool is currently under 
development and will be released in the coming months.
    While the SCIP streamlines planning, and the RFP tool enhances 
communications equipment procurements, attention must also be paid to 
providing consistent guidance regarding multi-jurisdictional exercises 
concerning plans and equipment purchases. It is critical to enable 
jurisdictions to test and evaluate the plans and procedures that they 
have developed in preparing for an all-hazard incident. Therefore, 
SAFECOM and our partners at G&T are developing consistent training 
practices and a communications-specific tabletop methodology. SAFECOM 
expects this methodology to help communications departments identify 
and discuss gaps in current capabilities and processes and to recognize 
differences in capabilities. It is intended to guide communities and 
Federal technical assistance programs in planning, designing, and 
executing communications exercises for public safety. Communities may 
modify and apply the methodology to suit specific needs, realities, and 
cultures in the local area. The content, including the lessons learned 
and recommendations presented, are based directly on input from local 
first responders who participated in exercise planning, design, and 
execution. This tabletop methodology builds on the methodology employed 
in RapidCom 1 and is being finalized now.

National Interoperability Baseline Initiative
    To date, there is no quantitative or qualitative assessment of the 
nation's level of interoperability. A baseline is crucial to assess the 
maturity of operational, governance, and technical considerations for 
interoperable communications; identify capability gaps; and direct 
Federal investments as well as future SAFECOM initiatives. Later this 
year, SAFECOM will administer a National Interoperability Baseline 
survey to 23,000 public safety agencies to measure the current state of 
interoperable communications capabilities across the nation. The 
results of the survey will provide the first quantitative assessment of 
public safety's interoperable communications capabilities.
    SAFECOM will conduct a second assessment as a follow-up to the 
National Interoperability Baseline. This assessment will continue to 
measure the state of interoperable communications capabilities across 
the nation and allow SAFECOM to pilot more tools and methods. The 
results of the survey will provide a comparable quantitative assessment 
of public safety's interoperable communications capabilities to show 
improvement compared to the original baseline.
    The RFP tool, the tabletop methodology, and the baseline will all 
help local, tribal, state, and federal public safety agencies to 
proceed along the lanes of the Interoperability Continuum toward a more 
optimal level of interoperability.

Technology Guidance
    Just as the tools and efforts described above are directly mapped 
to progress along the Interoperability Continuum, so too is the work 
SAFECOM has done to advance communications technology. While technology 
is not the only component of a system of systems approach for improving 
interoperable communications, it remains an essential piece.

Project 25 Standards
    Project 25 (P25) is a suite of eight standards that will enable any 
component of one communications system to work with components of 
another communications system. These eight technical standards are 
intended to provide public safety access to non-proprietary, open 
architecture standards. What this means to emergency responders is that 
they could take their P25-compliant portable radio and travel across 
the country in response to a disaster and communicate within another 
jurisdiction's P25 system. These standards for equipment are essential 
to achieving communications interoperability and will enable emergency 
responders using equipment from different manufacturers to communicate 
with one another.
    While SAFECOM promotes the completion and deployment of the P25 
suite of standards, it is important to note that P25 is only one set of 
standards. There are instances in which communities have achieved 
interoperability through non-P25 solutions. In fact, there are 
instances where requiring P25 might actually be irrelevant (for 
example, if the equipment being purchased has to work with non-P25 
equipment, such as the case with some analog equipment frequently used 
by the fire services), or where moving to a P25 system without adequate 
planning and coordination might damage existing interoperability. 
Additionally, we understand that, as technology changes, other 
standards might become more appropriate.
    Currently, SAFECOM is working with the National Institute of 
Standards and Technology (NIST) to support the public safety community 
and industry in their efforts to accelerate the development of the P25 
suite of standards for interoperable communications. In the fifteen 
years before SAFECOM undertook this coordination, only one standard in 
the suite of eight had been created. Since NIST and SAFECOM have 
partnered with industry and public safety to accelerate P25, 
significant progress has been made. Three standards have been completed 
including the Inter-RF Subsystem Interface, the Fixed/Base Station 
Subsystem Interface, and the Console Subsystem Interface. The public 
safety community can expect technology resulting from these three 
standards to be available next year.
    SAFECOM is continuing to work with NIST to complete the remaining 
four interfaces of the P25 suite of standards. By continuing to use the 
voluntary consensus standards process, it is likely that the remaining 
interfaces will be completed in the next few years, but it will take 
the cooperation of both industry and practitioner members of the 
standards process to make this happen.
    With input from the user community, P25 standards have been 
developed to allow for backward compatibility with existing digital and 
analog systems and to provide for interoperability in future systems. 
New and old equipment will be able to work together. This will allow 
public safety agencies to maintain interoperability with other agencies 
as they begin to replace and upgrade their current communications 
systems. For example, agencies that purchase new P25 compatible 
equipment ideally will be able to operate that equipment within its 
existing communications infrastructure.
    To ensure that P25 standards will be implemented where appropriate, 
they will be tied to SAFECOM's grant guidance. SAFECOM's investment in 
this standards activity will result in public safety being better 
enabled to swap or share communications equipment when responding to 
emergencies.
    SAFECOM is also working with G&T to link standards to interoperable 
communications planning efforts. Localities and states will be 
encouraged to use P25 equipment where it makes sense. Standards are 
already being tied to grants and will be included in the Tactical 
Interoperable Communications Plans.

P25 Compliance Assessment Program
    Public safety demands that equipment claiming to be P25 compliant--
or generally capable of its manufacturer's claims--will communicate 
with other P25 radios. Unfortunately this is not often the case. 
Initial testing shows that often one manufacturer's ``P25-compliant 
radio'' will not communicate with another manufacturers ``P25-compliant 
radio.'' SAFECOM is currently addressing this issue by developing a P25 
conformance testing program in partnership with NIST to ensure 
equipment really does meet the new P25 standards. NIST, in cooperation 
with technical representatives from the Institute for Telecommunication 
Sciences and industry representatives, has established a framework for 
the program and is moving into the first stage of testing. The safety 
of emergency responders will be enhanced when industry's claims of P25 
compliance can be measured objectively and independently. This 
initiative will also ensure federal grant dollars are being used 
appropriately to purchase equipment that is truly P25 compliant.

Statement of Requirements
    It became clear in 2003 that a comprehensive understanding of 
public safety communications requirements was needed before any 
advanced research or development was likely to succeed. As a result, in 
2004 SAFECOM produced version 1.0 of the Statement of Requirements for 
Public Safety Wireless Communications and Interoperability (SoR). 
Developed with public safety practitioner input, the SoR defines 
operational and functional requirements for public safety 
communications. Later this year, SAFECOM will release version 1.1, 
which further defines user requirements to enable industry to develop 
equipment that meets the needs of public safety and federal users. 
Additionally, SoR version 1.1 presents unified technical requirements 
for interoperable communications and enables results-oriented 
discussions between public safety, industry and policy makers. SAFECOM 
is also developing version 2.0 of the SoR which will begin to 
incorporate quantitative values for the requirements. Version 2.0 will 
quantify the requirements for the most important applications 
identified by the public safety community: mission-critical voice, and 
emerging technologies for tactical video. Version 2.0 will also help 
industry to develop equipment that meets the new public safety 
requirements. Version 2.0 will be published later this year.

Public Safety Architecture Framework
    Having established a set of requirements, SAFECOM began building a 
national architecture framework. SAFECOM is now completing the 
development of a Public Safety Architecture Framework (PSAF) that, with 
the SoR, will serve as a tool to help the nation's public safety 
community understand the technical requirements and system 
modernization plans without imposing requirements that stifle 
innovation. The PSAF will be released later this month.
    In moving public safety towards greater interoperability, the 
impact of the PSAF is likely to be substantial. Currently, public 
safety has no effective way of comparing systems and existing 
communications infrastructure, which prevents them from identifying 
paths towards interoperability. The PSAF, for the first time, will 
enable local, state, and federal agencies to analyze current systems 
and determine what is necessary to achieve interoperability with other 
systems and agencies. The PSAF also inventories and identifies 
capability gaps to help public safety agencies target areas for 
improved interoperability.

    Working with Industry
    Seamless national interoperability depends upon the development and 
implementation of solutions based on public safety's expressed needs. 
The SAFECOM program works with the public safety community and industry 
as equipment is developed and included in local and state planning 
efforts across the nation. On March 23, 2006, S&T hosted the inaugural 
SAFECOM Industry Summit in Washington, DC. The Industry Summit afforded 
SAFECOM and the public safety community a valuable opportunity to 
engage with the telecommunications industry on critical 
interoperability issues. The summit addressed public safety's role in 
the SAFECOM program, the impact of standards on new technologies, and 
how to leverage SAFECOM's technical and procedural foundations to 
optimize research, development, testing, and evaluation efforts. More 
than 300 attendees from the telecommunications industry participated in 
the event, which according to Charles Werner, Fire Chief, 
Charlottesville, Virginia ``established a firm foundation from which 
public and private partnerships may now build upon.''

Conclusion
    SAFECOM is developing high-quality tools and resources today to 
help public safety migrate towards an interoperable system-of-systems 
nationwide. Although it is difficult to predict a specific date when 
full interoperability will be achieved, SAFECOM has created the roadmap 
and is developing the tools to help agencies move along it. The 
Interoperability Continuum, the SoR, and the PSAF among others will 
enable public safety and industry to ensure further interoperability. 
As you are aware, interoperability saves lives; those of our public 
safety officials and the citizens they serve. Though many challenges 
remain, DHS is committed to ensuring that the nation's public safety 
community has the necessary tools and resources to ensure 
communications systems are interoperable when they must be. However, 
the Federal government cannot fix interoperability alone. Both public 
safety and industry must be committed to using and improving the 
available tools and models to make sound investments while addressing 
all of the critical elements of interoperability.
    In closing, I want to thank you for your past support and I ask for 
your continued support. I appreciate the opportunity to testify before 
you today. I would be pleased to answer any questions you may have.

                  Appendix A: Table of Federal Partners
------------------------------------------------------------------------
       Federal Partner          Mission Area          Coordination
------------------------------------------------------------------------
Department of Commerce        <bullet> Develo  <bullet> Coordination on
 National Institute of         pment and        the acceleration of P25
 Standards and Technology      promotion of     standards
 (NIST).                       standards and   <bullet> P25 compliance
                               technology to    testing program
                               enhance         <bullet> Ongoing
                               communications   collaboration on
                               interoperabili   industry and technology
                               ty.              development
------------------------------------------------------------------------
Department of Commerce        <bullet> The     <bullet> SAFECOM grant
 National Telecommunications   Executive        guidance
 and Information Association   Branch's        <bullet> Regular
 (NTIA).                       primary voice    coordination and
                               on domestic      collaboration on
                               and              communications
                               international    activities
                               telecommunicat  <bullet> SAFECOM
                               ions and         Emergency Response
                               information      Council representation
                               technology      <bullet> Member of the
                               issues within    Federal Partners for
                               the Department   Interoperable
                               of Commerce.     Communications (FPIC)
                              <bullet> Perfor
                               ms spectrum
                               management for
                               all Federal
                               agencies.
------------------------------------------------------------------------
Department of Defense (DoD)   <bullet> Commun  <bullet> SAFECOM
 Joint Tactical Radio System   ications         Emergency Response
 (JTRS).                       across the       Council representation
                               U.S. military.
------------------------------------------------------------------------
Department of Homeland        <bullet> Provid  <bullet> Coordination
 Security (DHS) Federal        es on the        with the National
 Emergency Management Agency   ground           Incident Management
 (FEMA).                       operational      System Integration
                               support in       Center on Communications
                               response to      Unit Leader Training
                               all-hazards      curriculum and other
                               disasters.       communications
                                                activities
------------------------------------------------------------------------
DHS/ Department of Treasury/  <bullet> Commun  <bullet> Regular
 Department of Justice (DOJ)   ications among   coordination and
 Integrated Wireless Network   federal users.   collaboration on
 (IWN).                                         communications
                                                activities
------------------------------------------------------------------------
DHS National Communications   <bullet> Consor  <bullet> Collaboration on
 System (NCS).                 tium of          DHS communications
                               Federal          activities
                               departments
                               and agencies
                               that have
                               assets,
                               resources,
                               requirements
                               and/or
                               regulatory
                               authority
                               regarding
                               national
                               security and
                               emergency
                               preparedness
                               (NS/EP)
                               communications.
                              <bullet> Respon
                               sible for the
                               Federal
                               Telecommunicat
                               ions Standards
                               Program.
------------------------------------------------------------------------
DHS Office of Grants and      <bullet> Block   <bullet> SAFECOM grant
 Training.                     grants to        guidance
                               state and       <bullet> RapidCom 1 and 2
                               locals.         <bullet> Table-top
                              <bullet> Techni   exercises
                               cal assistance  <bullet> SAFECOM
                               to state and     Emergency Response
                               locals.          Council representation
------------------------------------------------------------------------
DHS Wireless Management       <bullet> Commun  <bullet> Collaboration on
 Office (WMO).                 ications among   DHS communications
                               DHS users.       activities
                                               <bullet> Spectrum Plan
                                                Advisory Committee
                                               <bullet> Participation in
                                                working groups
                                               <bullet> SAFECOM
                                                Executive Committee (EC)
                                                and Emergency Response
                                                Council representation
                                               <bullet> Coordination on
                                                IRTPA report on
                                                telecommunications needs
------------------------------------------------------------------------
DOJ High-Risk Metropolitan    <bullet> Connec  <bullet> RapidCom
 Area Interoperability         tivity between  <bullet> Table-top
 Assistance Project (``25      federal and      exercises
 Cities'')                     local users.    <bullet> SAFECOM EC
                                                representation
------------------------------------------------------------------------
DOJ Community Oriented        <bullet> Discre  <bullet> SAFECOM grant
 Policing Services (COPS).     tionary grants   guidance
                               to state and    <bullet> Peer review and
                               locals.          grantee training
                                                programs in FY 2004
                                               <bullet> SAFECOM
                                                Emergency Response
                                                Council representation
------------------------------------------------------------------------
DOJ CommTech Program........  <bullet> Techni  <bullet> SoR development
                               cal assistance  <bullet> RapidCom 1
                               to state and    <bullet> SCIP
                               locals.         <bullet> Table-top
                              <bullet> Resear   exercises
                               ch and          <bullet> SAFECOM
                               development.     Emergency Response
                                                Council representation
------------------------------------------------------------------------
Federal Communications        <bullet> Regula  <bullet> Spectrum Needs
 Commission (FCC).             tes interstate   Assessment
                               and             <bullet> Narrowbanding
                               international    Report to Congress
                               communications  <bullet> SAFECOM
                               by radio,        Emergency Response
                               television,      Council representation
                               wire,
                               satellite and
                               cable.
                              <bullet> Respon
                               sible for all
                               spectrum
                               issues
                               associated
                               with public
                               safety.
------------------------------------------------------------------------
National Guard Bureau (NGB).  <bullet> Commun  <bullet> SAFECOM
                               ications         Emergency Response
                               across the       Council representation
                               National Guard. <bullet> SAFECOM
                                                representation on NGB
                                                Senior Advisory Board
------------------------------------------------------------------------

    Appendix B: Other S&T Directorate Efforts Regarding Standards 
Development and Interoperability
    The S&T Standards Portfolio partners with private sector American 
National Standards Institute (ANSI) and other DHS components and 
federal agencies on standards for emergency preparedness and response
    Standards Portfolio has worked with the private sector to establish 
a public-private partnership for homeland security standards 
development. The ANSI Homeland Security Standards Panel (HSSP) has a 
proactive agenda for sponsoring workshops and conferences in emergency 
preparedness. The chart below lists some of these activities. As a 
direct result of the meetings in New York City from January--March 
2004, the 9/11 Commission was informed about National Fire Protection 
Association (NFPA) 1600: Standard for Emergency Preparedness and 
Business Continuity which had been developed with strong participation 
from the Federal Emergency Management Agency (FEMA). Subsequently, 
Secretary Ridge testified before the 9/11 Commission that DHS was 
adopting NFPA 1600 (action by Standards Portfolio) and the DHS Office 
of the Private Sector co-sponsored with NFPA a series of regional 
workshops on emergency preparedness.

  ANSI-HSSP Workshop Activities on Emergency Preparedness and Training
------------------------------------------------------------------------
             Subject                    Dates              Location
------------------------------------------------------------------------
Workshop on Private Sector        January 28, 2004   NYC
 Emergency Preparedness and
 Business Continuity (with the 9/
 11 Commission).
------------------------------------------------------------------------
Workshop on Private Sector        February 27, 2004  NYC
 Emergency Preparedness and
 Business Continuity (with the 9/
 11 Commission).
------------------------------------------------------------------------
Workshop on Private Sector        March 22, 2004     NYC
 Emergency Preparedness and
 Business Continuity (with the 9/
 11 Commission).
------------------------------------------------------------------------
Workshop on Training Program      June 10, 2004      Braintree, MA
 Standardization for First
 Response to WMD Events.
------------------------------------------------------------------------
Workshop on Training Program      September 23,      Arlington, VA
 Standardization for First         2004
 Response to WMD Events.
------------------------------------------------------------------------
Workshop on Training Program      January 27, 2005   Arlington, VA
 Standardization for First
 Response to WMD Events.
------------------------------------------------------------------------
Workshop on Citizen Preparedness  December 2, 2004   Schaumburg, IL
 (in conjunction with workshop
 on emergency communications).
------------------------------------------------------------------------
ISO International Workshop        April 24-26, 2006  Florence, Italy
 Agreement (IWA) Meeting on
 Emergency Preparedness.
------------------------------------------------------------------------
Workshop on Lessons Learned from  May 2006           NYC (tentative)
 Hurricane Katrina and Role for
 Standards and Conformity
 Assessment Programs.
------------------------------------------------------------------------
Fifth ANSI-HSSP Plenary Meeting   October 2006       NYC or
 (emergency preparedness is the                       Gaithersburg, MD
 proposed theme for the event).
------------------------------------------------------------------------

Standards Portfolio: Cooperation with DHS Office of Grants and Training

    The S&T Standards Portfolio has created a framework for standards 
development, adoption and advice to DHS Office of Grants and Training 
(G&T) to guide purchases of equipment with $3.9 billion in grants to 
states and localities. Management Directives were developed and 
approved by the Under Secretary for Management which governs the 
operation of seventeen standards working groups that are shepherding 
standards for specific threats and conventional mission needs. This 
includes a key step that allows S&T technical reports and studies to be 
converted to grants guidance by G&T. This handshake between RDT&E and 
grants guidance is critical to technology transfer for all S&T mission 
elements.
    Standards and G&T are working collaboratively to develop a model 
for providing G&T with standards for equipment, standard operating 
procedures, and training for state and local entities. Our main 
contacts in G&T are with the System Support Division. Their three main 
activities are: 1) the SAVER program for test and evaluation of 
commercial-off-the-shelf equipment; 2) the Center for Domestic 
Preparedness (CDP) in Anniston, AL that trains 50,000 emergency 
responders annually on equipment and procedures for responding to 
terrorists' incidents; and 3) the Memorial Institute for the Prevention 
of Terrorism (MIPT) Responder Knowledge Base (www.RKB.mipt.org) for 
advising responders on equipment and standards.
    G&T has assigned a Standards Coordinator who attends weekly staff 
meetings with the Standards Portfolio as well as all Standards Working 
Groups and brings additional subject matter experts to working group 
meetings. Working with this coordinator and the three programs listed 
above, the Standards Portfolio is coordinating with System Assessment 
and Validation for Emergency Responders (SAVER) and CDP on developing 
standards for chemical, biological, radiological and explosives 
detectors. With this effort, we will ensure that training protocols are 
developed for new equipment as it is developed by S&T.
    We have also greatly expanded the materials available on the 
Responder Knowledge Base by supplying information on standards and 
product comparisons. Direct collaborations on standards for testing and 
evaluation include: sampling, testing and training for suspicious 
biological materials, and testing and evaluation for blast resistant 
trash receptacles. We are also working with the G&T Training and 
Exercises Division to provide standard training protocols that can be 
incorporated in G&T training and exercises programs. We are working to 
include subject matter experts from S&T as guest instructors in 
training and exercises programs in G&T, and conversely, to include G&T 
experts in all S&T Integrated Process Teams (IPT) related to standards, 
equipment and training.
The Nation's First Radiation Detector Standards
    The S&T Standards Portfolio has worked with other federal agencies 
(Department of Defense (DOD), Defense Threat Reduction Agency, 
Department of Energy) and DHS components, including the offices of 
Research & Development and Systems Engineering and Development's 
Counter-Measures Test Bed, Customs and Border Patrol, the Secret 
Service, Transportation Safety Administration, and more recently 
Domestic Nuclear Detection Office) to develop and adopt standards for 
radiation detectors for use by emergency responders. These standards 
were developed in a record 15 months by IEEE/ANSI N42. Standards 
Portfolio sponsored testing against these standards at NIST and four 
national laboratories (S&T Office of Research and Development (ORD) 
project management) and results of these tests were made available to 
DHS Grants and Training for publication on their Web site (Responder 
Knowledge Base). These results were shared with Domestic Nuclear 
Detection Office and the other federal agencies. This radiation 
detector Commercial Off-Of-The-Shelf (COTS) testing and evaluation 
study focused attention on the G&T data base, and they expanded access 
to the data base to other federal agencies due to increased interest in 
their website.

Standards for Local Response to Suspicious Powders
    The Standards Portfolio is leading an interagency effort to develop 
standards for biological detectors used by emergency responders to 
suspicious powder events. Other agencies involved include DOD, U.S. 
Department of Health and Human Services (HHS) Food and Drug 
Administration and Centers for Disease Control (CDC)/ National 
Institute for Occupational Safety and Health (NIOSH), Environmental 
Protection Agency, U.S. Department of Agriculture, and the Federal 
Bureau of Investigation (FBI) Hazardous Materials Response Unit (HMRU). 
The working group was co-chaired by Office of Science and Technology 
Policy. DHS components included in this standards working group include 
G&T Center for Domestic Preparedness and the Bio-Countermeasures 
Portfolio in S&T. This project resulted in performance standards for 
hand-held assays for Bacillus anthrax. The work also indicated a need 
for standard operating procedures, sampling standards and training 
standards for responding to suspicious powders. This is an excellent 
example of the value of gathering all the stakeholders (DHS, FBI, HHS/
CDC and HazMat teams--represented by the NFPA) to define the 
operational goals for national standards that are used by voluntary 
private sector organizations--but still meet the needs of diverse 
federal agencies.

Protective Equipment Standards for Emergency Responders
    The Standards Portfolio has led the national effort to develop 
Personal Protective and Operational Equipment for emergency responders 
and all this work is closely coordinated with DHS G&T, FEMA and the 
U.S. Fire Administration. The portfolio has worked with an interagency 
team that includes NIST, DOD (Edgewood and Natick) and HHS (CDC/NIOSH). 
Other DHS components included in the planning process are the S&T 
Emergency Preparedness and Response Portfolio, Homeland Security 
Advanced Research Projects Agency, and WMD Operations as well as Coast 
Guard R&D Center. This work has led to development and adoption of 
three NIOSH and five NFPA standards for respirators and protective 
ensembles. Work is underway with American Society for Testing and 
Materials on standards for Urban Search and Rescue (USAR) robots which 
includes a team assembled from 20 FEMA USAR task forces.

    Mr. Reichert. The Chair recognize Mr. Moran.

   STATEMENT OF KENNETH MORAN, DIRECTOR, OFFICE OF HOMELAND 
          SECURITY, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Moran. Thank you. Good afternoon, Mr. Chairman and 
distinguished members of the subcommittee. My name is Ken 
Moran, and I serve as the director of the Federal 
Communications Commission, Office of Homeland Security. In my 
testimony today, I will provide an update of the Commission's 
actions in the areas of interoperable communications and 
emergency communications preparedness since I last appeared 
before the subcommittee last October.
    Pursuant to the Intelligence Reform and Terrorism Act, the 
Commission conducted an assessment of short-term and long-term 
spectrum needs for emergency response providers and submitted a 
report to Congress regarding that assessment in December. The 
report reached the following principle conclusions: Mobile 
broadband communications implemented in combination with 
upgraded equipment and associated training and close 
coordination can offer emergency response providers emergency 
important capabilities. Emergency response providers would 
benefit from the development of an integrated interoperable 
nationwide network capable of delivering broadband services 
throughout the country.
    While commercial wireless technologies are not appropriate 
for every type of public safety communication, there is a place 
for commercial providers to assist public safety in securing 
and protecting the homeland. While the effort to address the 
short term spectrum needs of public safety is underway, 
attaining a wholesale assessment of long-term spectrum needs is 
an ongoing task. The Commission is also working to solve the 
interference problems in the 800 megahertz band by tightening 
the interference standards and by reconfiguring the band to 
separate the public safety systems from the commercial systems.
    Reconfiguration of the 800 megahertz band is currently 
taking place on a region-by-region basis. When completed, the 
reconfiguration will alleviate the interference problems in the 
800 band. Moreover, approximately 4.5 megahertz of additional 
spectrum will be made available for public safety 
communications systems. In light of the findings set forth in 
the report to Congress, last month the commission started a 
rule making to examine the operational, technical and spectrum 
requirements for meeting Federal, State, and local public 
safety communications needs through the year 2010.
    At the urging of the public safety community and in 
recognition of the need for spectrum appropriate for broadband 
communications, the Commission seeks comment on whether certain 
channels in the 700 megahertz public safety bands should be 
modified to accommodate broadband communications.
    In addition, the Commission adopted rules requiring 
providers of digital broadcast and cable TV, satellite radio, 
and direct broadcast satellite services to participate in the 
Commission's emergency alert system. The Commission also 
initiated a rule seeking comment on how the Commission can 
expedite the development of next generation alert warning 
systems that take full advantage of digital media's potential.
    In January, the Commission established an independent panel 
to review the impact of Hurricane Katrina on communication 
networks. The Katrina panel is studying the impact of Hurricane 
Katrina on all sectors of telecommunications and media, 
including public safety communication, reviewing the 
sufficiency and effectiveness of infrastructure recovery 
efforts, and making recommendations regarding ways to improve 
disaster preparedness, network reliability and communications 
among first responders. Several representatives from the public 
safety sector, including law enforcement, fire, and emergency 
medical on are on the panel. The panel will report its findings 
and its recommendations to the Commission in June.
    Finally, in March, the Commission voted to create a new 
public safety and homeland security bureau. The Commission 
proposes to take functions currently residing in seven separate 
bureaus and offices at the Commission and consolidate them into 
one bureau. By creating a unified structure to oversee and 
respond to public safety and homeland security matters, the 
Commission seeks to improve its operating efficiency and 
effectiveness in areas it deems of highest priority.
    In addition, the new structure will enable the Commission 
to better coordinate its national security, homeland security, 
public safety and emergency communications roles.
    In conclusion, the Commission is committed to working with 
its Federal, State, tribal and local partners, with industry 
and with the Congress to ensure public safety communications 
are as reliable as possible and are fully interoperable and 
that effective emergency plans and assets are at the ready to 
quickly restore these services if they ever fail. I would be 
pleased to answer questions. Thank you.
    Mr. Reichert. Thank you, Mr. Moran.
    [The statement of Mr. Moran follows:]

                 Prepared Statement of Kenneth P. Moran

                             April 25, 2006

    Good morning, Mr. Chairman and distinguished members of the 
Subcommittee. My name is Ken Moran and I serve as the Director of the 
Federal Communications Commission's Office of Homeland Security in the 
Commission's Enforcement Bureau. In that role, I am primarily 
responsible for the national security, homeland security, and emergency 
preparedness responsibilities of the Commission.
    The Commission's strategic goal for homeland security is to provide 
leadership in evaluating and strengthening the nation's communications 
infrastructure, in ensuring rapid restoration of that infrastructure in 
the event of disruption, and in ensuring that essential public health 
and safety personnel have effective communications services available 
to them at all times, and particularly in the event of an emergency. 
Interoperability is an essential aspect of ensuring effective 
communications. First responders must have the ability to communicate 
seamlessly, especially during a disaster.
    In my testimony today, I will provide an update of the Commission's 
recent activities in the area of interoperable communications and 
emergency communications preparedness. Since I last appeared before the 
Subcommittee in October, the Commission has:
        <bullet> Submitted a Report to the Congress, pursuant to the 
        Intelligence Reform and Terrorism Act, regarding the 
        development of an interoperable nationwide network and on the 
        use of commercial wireless technologies for public safety 
        communications;
        <bullet> Continued the transition of commercial wireless and 
        public safety services within the 800 MHz spectrum;
        <bullet> Initiated a rulemaking proceeding to examine 
        allocation of the 24 MHz spectrum that will be available for 
        public safety communications when the DTV transition is 
        completed;
        <bullet> Issued rules extending the reach of the emergency 
        alert system to include digital broadcast and cable TV, digital 
        audio broadcasting, satellite radio, and direct broadcast 
        satellite services;
        <bullet> Solicited comments on how the Commission can best help 
        develop a next-generation alert and warning system that takes 
        full advantage of digital media's potential;
        <bullet> Established a federal advisory committee, known as the 
        Katrina Panel on Communications Networks, that is developing 
        recommendations for improved emergency preparedness and 
        response for future disasters; and
        <bullet> Proposed the establishment of a new bureau, the Public 
        Safety and Homeland Security Bureau, which will be the unified 
        entity for carrying out the Commission's public safety, 
        homeland security, national security, and emergency 
        communications responsibilities.
    Briefly, I will provide detail on each of these activities:

                           Report to Congress

    Pursuant to the Intelligence Reform and Terrorism Act, Congress 
asked the Commission, in consultation with DHS and NTIA, to undertake a 
study and prepare a report assessing the short-term and long-term 
spectrum needs of emergency response providers. The Commission 
conducted the assessment and submitted the report to Congress in 
December, 2005. The report addressed not only the questions posed by 
Congress, but also considered the many thoughtful proposals submitted 
in the record for addressing the spectrum needs of traditional public 
safety entities and other critical emergency response providers, as 
well as some lessons learned from the impact of hurricanes Katrina, 
Rita, and Wilma on our nation's communications infrastructure. The 
report reached the following principal findings:
        <bullet> Emergency response providers would benefit from the 
        development of an integrated, interoperable nationwide network 
        capable of delivering broadband services throughout the 
        country.
        <bullet> While commercial wireless technologies are not 
        appropriate for every type of public safety communication, 
        there is a place for commercial providers to assist public 
        safety in securing and protecting the homeland.
        <bullet> While the effort to address the short-term spectrum 
        needs of public safety is underway, attaining a wholesale 
        assessment of long-term spectrum needs is an ongoing task.
        <bullet> Mobile, broadband communications, implemented in 
        combination with upgraded equipment, associated training and 
        close coordination, could offer emergency response providers 
        many important capabilities. To this end, and at the urging of 
        public safety community, the Commission will expeditiously 
        examine whether certain channels within the current allocation 
        of twenty-four megahertz of public safety spectrum in the 700 
        MHz band could be modified to accommodate broadband 
        communications.

                                800 MHz

    As you are aware, the public safety community has experienced 
interference problems in the 800 MHz band. In 2004, the Commission 
provided a two-pronged solution to the problem. First, the Commission 
adopted a plan to reconfigure the 800 MHz band to separate public 
safety and critical infrastructure industry entities from commercial 
wireless carriers, such as Nextel. Second, the Commission adopted a 
specific technical standard regarding what constitutes unacceptable 
interference to public safety and critical infrastructure providers. 
The Commission will hold commercial carriers strictly responsible for 
complying with this standard.
    Reconfiguration of the 800 MHz band is taking place on a region-by-
region basis based upon the 55 National Public Safety Planning Advisor 
Committee (NPSPAC) regions. Each of the 55 NPSPAC regions is assigned 
to one of four staggered ``prioritization'' waves. Band reconfiguration 
for non-NPSPAC channels began last year. In February, band 
reconfiguration for NPSPAC channels began.
    The reconfiguration will alleviate the interference problems that 
public safety communications systems have faced in the 800 MHz band 
from commercial wireless systems. Moreover, an average of 4.5 megahertz 
of additional spectrum in the 800 MHz band will be made available for 
public safety communications systems.

                                700 MHz

    In light of the findings set forth in the Report to Congress, last 
month the Commission started a rulemaking proceeding to examine the 
operational, technical, and spectrum requirements for meeting federal, 
state and local public safety communication needs through the year 
2010. The Commission believes that mobile broadband communications can 
offer public safety many important capabilities, including delivery of 
real-time video, images, automated dispatch, multi-media alerts and 
real-time monitoring. Accordingly, accommodating public safety's need 
for mobile, broadband communications may be critical in the long-term. 
Certain public safety entities have identified the 700 MHz band as a 
potential home for broadband operations. At the urging of the public 
safety community, and in recognition of the need for spectrum 
appropriate for broadband communications, the notice seeks comment on 
whether certain channels within the current twenty-four megahertz of 
public safety spectrum in the 700 MHz public safety band (764-776 MHz 
and 794-806 MHz), should be modified to accommodate broadband 
communications. The Commission is using this proceeding to implement 
many of the recommendations of the National Coordination Committee 
(chartered by the Commission to formulate standards for interoperable 
voice and data systems in the recently-allocated 700 MHz public safety 
band), which are designed to ensure total, mandatory voice 
interoperability between all radios used in the 700 MHz band.

                      Emergency Alert System (EAS)

    On November 3, 2005, the Commission adopted rules requiring 
providers of digital broadcast and cable TV, digital audio 
broadcasting, satellite radio, and direct broadcast satellite services 
to participate in the Commission's EAS program. With the exception of 
DBS service, all affected entities must comply with these new 
requirements by December 31, 2006. DBS services must comply no later 
than May 31, 2007.
    Also on November 3, the Commission initiated a rulemaking seeking 
comment on how the Commission can expedite the development of a next-
generation alert and warning system that takes full advantage of 
digital media's potential. Questions included what type of architecture 
would support a next-generation system and what common protocols would 
be required to allow an alert to be delivered simultaneously to 
multiple platforms such as radios, televisions and wireless devices. 
The Commission also asked how it could facilitate the effective 
integration of wireless technologies into a next generation alert and 
warning system, and whether traditional telephone companies that plan 
to provide high definition digital content to customers' homes should 
have public alert and warning responsibilities. In addition, the 
Commission asked how a next generation EAS can more effectively reach 
individuals with hearing and vision disabilities and non-English 
speaking individuals. Finally, the Commission sought comment on how the 
Commission should coordinate its efforts with FEMA and how, if at all, 
the participation of state and local authorities in the EAS system 
should be changed. The record in this proceeding closed on February 23, 
2006.

                             Katrina Panel

    In January, the Commission established the Independent Panel 
Reviewing the Impact of Hurricane Katrina on Communications Networks 
(Katrina Panel) pursuant to the Federal Advisory Committee Act. 
Specifically, the Katrina Panel is: studying the impact of Hurricane 
Katrina on all sectors of the telecommunications and media industries, 
including public safety communications; reviewing the sufficiency and 
effectiveness of the recovery effort with respect to the 
infrastructure; and making recommendations regarding ways to improve 
disaster preparedness, network reliability, and communication among 
first responders.
    The Panel's membership includes several representatives from the 
public safety sector, including law enforcement, fire fighters, and 
emergency medical services. Also serving on the Panel are 
representatives from all segments of the communications industry 
including the wireline, wireless, satellite, broadcast, and cable 
industries. The Panel established three working groups: (1) 
Infrastructure Resiliency; (2) Recovery Procedures and Coordination; 
and (3) Emergency Communications. Thus far, it has held three meetings. 
The Panel has heard testimony about the impact of Hurricane Katrina 
from representatives of public safety agencies, telecommunications 
carriers, broadcasters, satellite radio service providers, equipment 
manufacturers, consultants and consumer organizations. In addition it 
has seen presentations from federal officials and Panel members 
regarding emergency communications problems and solutions.
    The Panel will report its findings and recommendations to the 
Commission by June 15, 2006. The Commission looks forward to the 
Panel's report and plans to carefully consider all of its 
recommendations.

                             Reorganization

    On March 17, 2006, the Commission unanimously voted to create a new 
Public Safety and Homeland Security Bureau. The action is subject to 
Congressional notification. The Commission proposes to take functions 
currently residing in seven separate Bureaus and Offices at the 
Commission and consolidate them into one Bureau.
    This Bureau will provide a single central hub for the development 
of policies and rules to promote reliable communications for public 
safety, national security, and disaster management. The Bureau will be 
tasked to expend all of its resources to make sure that the Commission 
does its part to support reliable emergency communications and address 
the needs of first responders, law enforcement, and emergency response 
personnel.
    The new Bureau will be organized along three functional lines: 
Policy, Public Communications Outreach & Operations, and Communications 
Systems Analysis. It will be responsible for all Commission policy, 
outreach, and operations with respect to public safety communications, 
including 911 and Enhanced 911 (E911) requirements, Public Safety 
Answering Points (PSAPs), operability and interoperability of public 
safety communications, and matters falling under the Communications 
Assistance for Law Enforcement Act (known as CALEA). Setting the 
requirements for priority emergency communications, such as the 
Telecommunications Service Priority (TSP) and Wireless Priority Service 
programs that the National Communications System (NCS) administers, 
along with the national Emergency Alert System (EAS), network security 
and reliability, and communications infrastructure protection will also 
be a responsibility of the new Bureau. In addition, the new Bureau's 
Policy Division will handle the licensing of spectrum for public safety 
entities, a task that currently resides in the Commission's Wireless 
Telecommunications Bureau.
    The Commission's other public safety and homeland security 
responsibilities will also fall within the new Bureau's jurisdiction. 
These responsibilities include Continuity of Government Operations 
(COG); Continuity of Operations (COOP); the Commission's 24 hour a day, 
7 day a week Communications and Crisis Management Center; disaster 
management coordination and outreach; Federal Advisory Committee 
coordination (e.g., Media Security and Reliability Council (MSRC) and 
the Network Reliability and Interoperability Council (NRIC)); and 
industry information collection and attendant analytical activities.
    By creating a unified structure to oversee and respond to public 
safety and homeland security matters, the Commission seeks to improve 
its operating efficiency and effectiveness in areas it deems of highest 
priority. In addition, the new structure will enable the Commission to 
better coordinate its national security, homeland security, public 
safety, and emergency communications roles with its federal partners as 
well as with state, tribal, and local governments, and industry.

                            Other Activities

    In addition to the activities described above, the Commission 
continues to work closely with federal agencies and national public 
safety organizations, including:
        <bullet> DHS/SAFECOM/FCC-WTB Interoperability Working Group
        <bullet> SAFECOM Executive Committee and Advisory Committee 
        Working Groups
        <bullet> NTIA Ad Hoc 214 Working Group (a committee established 
        by the Interdepartmental Radio Advisory Committee (IRAC) with 
        responsibility for, among other things, reducing regulatory 
        barriers to better facilitate interoperability between federal 
        agencies and their state and local counterparts)
        <bullet> Public Safety Regional Planning Colloquiums
        <bullet> National Public Safety Telecommunications Council

                               Conclusion

    The importance of effective public safety communications cannot be 
over-stated, especially during disasters, when the American public is 
most vulnerable. The Commission is committed to working with its 
federal, state, tribal and local partners, and with the Congress to 
ensure these communications systems are as reliable as possible, are 
fully interoperable, and that effective emergency plans and assets are 
at the ready to quickly restore these services if they ever fail. I 
would be pleased to respond to your questions.

    Mr. Reichert. The Chair now recognizes Mr. Peed, and I must 
say that I am pleased to see Carl again. I worked with Carl 
when I was the sheriff in Seattle and was fortunate enough back 
at that time when the COPS office had some funding that was 
coming its way to be the benefactor of some of the money that 
was coming through the COPS office. So thank you Carl for your 
help and for your service. Good to see you again.

STATEMENT OF CARL PEED, EXECUTIVE DIRECTOR, OFFICE OF COMMUNITY 
  ORIENTED POLICING SERVICES (COPS) U.S. DEPARTMENT OF JUSTICE

    Mr. Peed. Thank you, Chairman Reichert and Ranking Member 
Pascrell, and members of the committee. Thank you for the 
opportunity to address you here today. I am pleased to appear 
before you on behalf of the Office of Community Oriented 
Policing Services, or COPS. As a 25-year veteran of law 
enforcement, I am proud to lead an organization whose mission 
is to support local efforts to reduce crime through community 
policing. This is why COPS has worked to establish and 
successfully administer our interoperability communications 
technology grant program, which is the very program that I am 
here to speak to you about today.
    Communications interoperability refers to the ability to 
share information across disciplines, in jurisdictions near 
radio and data networks on demand, in real-time, when needed 
and as authorized to do so.
    The interoperability projects, funded by the COPS office, 
represent region specific approaches to enhancing 
interoperability and improving the capacity of emergency 
service personnel to connect to broader, multi-regional 
systems. To date, COPS invested more than $242 million to 
support real-time information sharing and enhanced command and 
control capacity by first responders in 63 of the Nation's 
metropolitan areas in 37 States and one territory.
    In fiscal year 2003, COPS awarded $66.5 million to 14 
communities to develop interoperable communications networks. 
In 2004, COPS awarded $82.6 million in grants to 23 
communities. And in 2005, COPS awarded 26 agencies nearly $93 
million through this program. This year, COPS has appropriated 
$10 million to continue the interoperable communications 
technology grant program. We plan to use these funds to make 
several grants and to support training, technical assistance 
and publications that will assist the field in our ongoing 
efforts to improve interoperability.
    There are general elements of the way we have made these 
grants that I want to bring to your attention today. First is 
the degree with which we coordinated with out other fellow 
entities and the kind of partnerships we engaged in. COPS 
recognized early in 2003 that it would be critical that we have 
strong relationships with other Federal agencies and 
departments, the professional associations that represent State 
and local law enforcement and technical experts and first 
responders like firefighters.
    The COPS office had experience with efficient grant 
management. We had a strong relationship with law enforcement 
and had awarded many grants for purchasing and employing crime 
fighting technology. But we recognize that in the complicated 
and dynamic world of interoperable communications, the COPS 
office needed to form new collaborative partnerships and 
coordinate with other Federal agencies. Within the Department 
of Justice, we coordinated with the Office of Justice Programs, 
the National Chief of Justice, and the Bureau of Justice 
Assistance, with the Department of Justice's high risk 
metropolitan areas interoperability project or the 25 cities 
project, and within the Department of Homeland Security with 
SAFECOM, the Office For Interoperability and Compatibility, the 
Office of Grants and Training, which was formerly the Office of 
Domestic Preparedness and Federal Emergency Management Agency.
    In Commerce, we are coordinating with the National 
Institute of Standards and Training. We have also worked 
closely with the International Associations of Chiefs of 
Police, the National Sheriffs Associations, the National 
Organization of Black Law Enforcement Executives, the Police 
Executive Research Forum Representing Law Enforcement, as well 
as APCO, the Association of Public Safety Communications, and 
the International Association of Fire Chiefs. They helped us 
design and implement this program.
    Second, COPS designed a grant system that allowed us to 
take advantage of many of these partnerships in the form of a 
peer review panel to evaluate grant proposals. Using the 
relationship we have with some of my fellow panelists here 
today, SAFECOM and DHS and representatives of local law 
enforcement to effectively review the proposals and on the 
Federal level, to ensure the highest degree of consistency with 
existing interoperability standards. The panel of peer 
reviewers was comprised of law enforcement, fire and emergency 
medical service personnel as well as technological 
professionals, so each provided an expert evaluation on the 
practical and technical aspects of the proposals.
    Finally, we invested heavily in providing training and 
technical assistance opportunities for the grantees. We 
recognize there is a need to provide ongoing support to 
grantees as they further develop these networks. Therefore, we 
offer a wide array of training and technical assistance 
resources. We have hosted technical assistance kick-off 
conferences, assisting grantees with everything from handling 
the administrative requirements of the grant, to addressing 
interjurisdictional liability issues related to interoperable 
networks, and we have hosted advanced technical assistance 
workshops, a national interoperability summit, and we have 
offered on-site remote technical assistance and worked closely 
with our partners, especially SAFECOM, to produce a ``how to'' 
publication that will provide unified Federal voice to 
jurisdictions looking for interoperability guidance.
    Let me share an example from the program with you. In 
Texas, the city of Austin, which is in Travis County, will use 
COPS funds to expand their existing 800 megahertz regional 
radio system into neighboring Williamston County, and to 
upgrade Williamston County older analogue system so it is 
compatible with Austin's. Once this project is completed, it 
can be used as a Statewide benchmark that will enable State, 
local and Federal agents to communicate on a common platform.
    America has learned that tragedies, natural disasters and 
crimes do not recognize jurisdictional boards. My neighbor's 
problem is my problem. Like we learned from the terrorist 
attacks on 9/11 at the World Trade Center and the Pentagon, the 
D.C. sniper attacks and Hurricane Katrina, when we act 
together, we are stronger than when we attempt to go it alone.
    First responders have accepted the challenge of achieving 
interoperability, and COPS is pleased to have been a partner 
with many Federal agencies in a coordinated Federal response to 
address this need.
    Thanks in part to these grants, police and fire 
communications and information systems will be developed in the 
future with an eye toward interoperability. In closing, Mr. 
Chairman, thank you for the opportunity to speak to you today, 
and I will be happy to answer any questions.
    [The statement of Mr. Peed follows:]

                   Prepared Statement of Carl R. Peed

                             April 25, 2006

    Good Afternoon. I am pleased to appear before you today on behalf 
of the Department of Justice's Office of Community Oriented Policing 
Services (COPS). As a twenty-five year veteran of law enforcement, I am 
proud to lead an organization whose mission is to support local efforts 
to reduce crime through community policing.
    In 1994, Congress passed the Violent Crime Control and Law 
Enforcement Act, which created the Office of Community Oriented 
Policing Services (COPS) and our mission of advancing community 
policing and assisting state, local, and tribal law enforcement 
throughout the country. Since then, more than two-thirds of the 
nation's law enforcement agencies have received assistance from COPS 
programs, including training and technical assistance, grants for 
purchasing and deploying crime fighting technology, and law enforcement 
hiring assistance.
    Community policing calls for law enforcement agencies to develop 
collaborative relationships within the community that support a 
detailed understanding of community needs, community norms, and 
ultimately, community vulnerabilities. Furthermore, community policing 
encourages law enforcement to rely on this understanding of the 
community to implement proactive measures that prevent crime and 
illegal behavior before it evolves into a significant criminal or 
terrorist act, and to effectively respond to emergencies and disasters.
    We have heard repeatedly from local law enforcement that the nexus 
between national efforts to secure our homeland from terrorism and 
disaster and local efforts to secure individual communities from all 
types of threats and emergencies is clear. This is why COPS has worked 
in close cooperation with the Department of Homeland Security in 
administering the Interoperable Communications Technology Grant 
Program, which is the program that I am here to speak with you about 
today.
    One of the major issues currently facing emergency service 
providers is the inability of first responders to share vital 
information during crisis, and our interoperability grant program 
directly addresses this issue. Communications interoperability refers 
to the ability to share information across disciplines and 
jurisdictions via radio and data networks on demand, in real-time, when 
needed, and as authorized.
    Effective emergency response requires operational coordination and 
the sharing of vital information among numerous public safety agencies. 
Unfortunately, many emergency service providers rely on communication 
systems developed solely to meet their own unique needs, and these 
systems are often not compatible with those of neighboring agencies.
    Recognizing this challenge, Congress, through the Omnibus FY 2003 
Appropriation and the Wartime Supplemental Appropriation, allocated $66 
million to COPS to administer a discretionary interoperability program 
for law enforcement agencies.
    During the same fiscal year, the Emergency Preparedness and 
Response Directorate (i.e. FEMA) in the Department of Homeland Security 
(DHS), received almost $80 million for a similar program aimed at 
various public safety agencies. Therefore, we worked together, and with 
the assistance of the Department's National Institute of Justice (NIJ) 
and the Department of Commerce's National Institutes of Standards and 
Technology (NIST), COPS and FEMA developed a coordinated program for FY 
2003.
    Since the Interoperable Communication Technology Program's 
inception, COPS has worked closely with the NIJ and the Justice 
Department's Bureau of Justice Assistance, the our 25 city High Risk 
Metropolitan Areas Interoperability Project, the DHS Office for 
Interoperability and Compatibility--SAFECOM, DHS' Office of Grants and 
Training, FEMA, and the NITJ. We have collaborated with these entities 
on issues such as establishing program guidelines and criteria, 
reviewing applications, developing national interoperable standards, 
and providing interoperable training and technical assistance to first 
responders.
    In fact, these partnerships are a key contributor to the success of 
federal efforts. COPS recognized early on that Government-wide goals 
would best be achieved by collaborating with other federal agencies, 
technical experts, and experienced practitioners. An integral part of 
implementing successful interoperable networks is the willingness and 
capacity of the systems' users to work together effectively. For COPS 
to overlook the very actions that we require of grant recipients would 
be hypocritical.
    Our collaborative efforts were even acknowledged in the FY 2005 
Appropriations Conference Report. In the language of the Report, ``the 
Conferees commend the COPS Office for its coordination with other 
federal agencies that deal with public safety interoperability. The 
Conferees believe coordination of federal efforts is critical to ensure 
our nation's safety and a necessity if we are not to fall victim to the 
pitfalls of the past.''
    With a program of this nature we believed it was imperative to 
leverage the program's funds to ensure the greatest possible impact on 
the largest population centers in the country. This was COPS' goal when 
inviting jurisdictions to apply from the beginning. Initially, in 2003, 
we invited the largest 50 metropolitan statistical areas (MSA) in the 
United States and the largest metropolitan area in each State to apply 
for the program. In 2004, we received additional guidance from Congress 
instructing us to consider both large and small entities. Therefore, we 
used the same process, and invited the two largest MSAs in each State 
to apply. In 2005, the process was the same, but due to increased 
funding we added the three largest MSAs in each State. Ultimately, by 
increasing the number of MSAs in each State that were eligible to 
apply, and as previous grantees were removed from the list of potential 
applicants each year, we steadily increased the number of smaller 
jurisdictions that became eligible to benefit from the program.
    In fiscal year 2003, COPS awarded $66.5 million to 14 communities 
to develop interoperable communication networks. In fiscal year 2004, 
COPS awarded $82.6 million in grants to 23 communities in 17 states, 
and in fiscal year 2005, COPS awarded 26 agencies nearly $93 million 
through this program. In total, this equates to more than $242 million 
to support real-time information sharing and enhanced command and 
control capacity by law enforcement in 63 of the nation's largest 
metropolitan areas.
    The grants provided one year of funding (three years in 2005), and 
population determined the amount of funding available to grantees. The 
maximum federal share for a grant award is $6 million for MSA regions 
with a population of greater than 500,000 persons according to the 2000 
Census, and $3 million for MSAs with a population of 500,000 persons or 
less. The program requires a local cash match of 25% of the total 
project cost.
    Successful applications for the program demonstrate a detailed 
understanding of the first responder interoperability needs within the 
MSA applying for funds. Proposals have also been required to be 
comprehensive and convey a clear and demonstrated plan for achieving 
improved multi-jurisdictional and/or multi-disciplinary 
interoperability.
    Again, COPS recognized the importance of partnerships, and we 
worked closely with SAFECOM and our other partners during the proposal 
evaluation process. We relied on partnerships to effectively review the 
proposals, and on the federal level to ensure the highest degree of 
consistency with existing interoperability standards.
    All applications were peer reviewed to ensure that the best 
proposals were funded. The panel of peer reviewers was comprised of law 
enforcement, fire, and emergency medical service personnel, as well as 
technological professionals who provided expert evaluation on the 
technical aspects of the proposals.
    The major factors considered during the peer review process have 
been: (1) the quality and merit of applications, which represents 40% 
of the application score; (2) projected project outcomes and 
deliverables, which represent 18% of the score; (3) project management 
details, which represent 30% of the score; and (4) budget and 
jurisdictional/disciplinary coordination issues, which represent 12% of 
the score.
    The program funds can be used to support purchasing and deploying 
interoperable communications equipment; providing neighboring 
jurisdictions with the equipment or services they need to participate 
on existing networks; and the purchase or deployment of any other 
technologies that can be demonstrated to significantly increase 
interoperability within the public safety community of a given MSA.
    Ideally, these MSAs are going to become models for successfully 
developing and implementing interoperable networks, and we want to be 
certain that they have any guidance that they may need during the 
development and implementation process.
    Therefore, we have offered a variety of training and technical 
assistance resources to the grant recipients, working in consultation 
with the Department of Homeland Security. We have hosted a technical 
assistance kickoff conference that assists grantees with everything 
from handling the administrative requirements of the grant to 
addressing interjurisdictional liability issues related to 
interoperable networks. Our two agencies have hosted advanced technical 
assistance workshops, a National Interoperability Summit, and we have 
offered consultative services. Whatever form of technical assistance 
best meets the needs of a grantee--conferences, workshops, direct on-
site consultation, or publications--we have sought to provide it.
    Let me share some examples from the program with you. In Washington 
State, the City of Seattle and other cities within the Seattle MSA are 
working to establish a wireless data exchange system that will link 
their police and fire dispatch systems. The project also calls for 
their collective systems to be linked to the King County Sheriff's 
Department, the jail system, Prosecutor's Office, Municipal courts, the 
State Police, and the state's Criminal Justice Information system. 
While there is still much work that must be done to get all of the 
existing systems to the stage that they are capable of linking, this 
system will allow officials throughout the Seattle MSA to share vital 
information and work together toward common public safety goals.
    In Texas, the City of Austin, which is in Travis County, will use 
COPS funds to expand their existing 800 MHz regional radio system into 
neighboring Williamson County, and to upgrade Williamson County's older 
analog system so that it is compatible with Austin's. Once this project 
is completed, it can be used as a statewide benchmark that will enable 
state, local, and federal agencies to communicate on a common platform.
    And, in Orange County Florida, COPS funds are being used to provide 
five shared communications channels across a nine-county region. First 
responders in nine counties will all be able to share and react to 
information in real-time.
    This year, COPS was appropriated $10 million to continue the 
Interoperability Communications Technology Grant Program. Coordinating 
with the Department of Homeland Security, we plan to use these funds to 
make several grants and to support training and technical assistance 
that will assist the field and their ongoing efforts to improve 
interoperability. As in previous Budgets, the President's 2007 Budget 
proposes to focus support for first responder interoperability within 
Department of Homeland Security, which has a broader range of grant and 
technical assistance resources.
    The potential of interoperable communications systems is tremendous 
and the need great. Thanks, in part, to these grants, police and fire 
communications and information systems will be developed in the future 
with an eye toward interoperability.
    America has learned that tragedies, natural disasters, and crimes 
do not recognize jurisdictional borders. My neighbor's problem is my 
problem. When we act together, we are stronger than when we attempt to 
go it alone. First responders have accepted the challenge of achieving 
interoperability, and COPS is pleased to have been a partner with many 
federal agencies in a coordinated federal response to address this 
need.
    Thank you, and I am happy to answer any questions you may have.

    Mr. Reichert. Thank you, and I do have a few questions. I 
will start out with general questions for the panel, anyone on 
the panel that wishes to respond.
    With all the Federal agencies involved in this process in 
touching some piece or part of it, I am interested in who is 
keeping score, and accurate and timely and comprehensive 
Federal scorecard, if you must. Someone who is kind of tracking 
what we have done, what we are doing right now for 
interoperability, what we are going to be doing, what we are 
spending our money on, and what we have spent our money on, 
what has worked, what as not worked, just to ensure that the 
investments are actually matching the Federal plan.
    If there is a Federal plan and I have heard some discussion 
about a Federal plan, but is there a watchdog? Is there one 
person responsible kind of overseeing this effort by the many 
Federal agencies.
    Mr. Boyd. Ultimately, OMB, of course, is the watchdog, but 
what OMB asks us to do at SAFECOM is to look at all the 
departments' budgets that touch on wireless communications, 
that includes the independent agencies. Each year, OMB includes 
a requirement that before they can--before that money can be 
released, they need what amounts to a certification from 
SAFECOM that they are aligned with the national strategy. So we 
do that. We began that last year for the first time. We have 
done it again this year, and I assume we will do it again next 
year.
    Honorable Henke. Sir, if I may, in addition to that, there 
are numerous things that are being undertaken. As Dr. Boyd 
mentioned in his opening statement, there is the baseline 
review that will be coming out later this year. In addition to 
that, at the Office of Grants and Training, we have what we 
call our Biannual Strategy Implementation Report that I know we 
have provided information to your offices on before. That is 
how we track the expenditure of resources, and we can draw it 
down to counties and localities on what they are investing 
those resources on.
    In addition to that, one of the things that we are 
undertaking and we are undertaking in partnership with and in 
cooperation with SAFECOM and other entities is our tactical 
interoperable communication plans, which are due May 1st. We 
are going to do full scale exercises on those. That will allow 
us, from a tactical interoperable communications standpoint, to 
see later in the fall where we are in those jurisdictions. We 
will be able to have those drive those investments for fiscal 
year 2007, and also identify lessons learned and how we take 
what we learn and then expand it to other jurisdictions, 
including the States.
    Mr. Reichert. Anyone else? So last year, Dr. Boyd, was the 
first time there was this kind of oversight to make sure the 
money spent was in line?
    Mr. Boyd. Yes, sir. Last year was the first time that we 
had gone through that. Now, it is also important to understand 
a lot of other coordination activities that go on at the same 
time. In 2007, there will be a mandatory requirement that there 
be a State plan before grant funding can be provided to each of 
these activities. That is included, the Secretary has required 
that that be included in the guidance. The SAFECOM common grant 
guidance, which outlines how investments are made, again at OMB 
direction, has to be included in every grant program. It is 
included in the grants and training grant guidance.
    It is included in the COPS office grant guidance and will 
be included as well in the allocations that come from the sale 
of auctions in the commerce department, and those discussions 
are already underway. So those will include the same kind of 
grant guidance.
    Finally, we have an interagency coordinating commission 
activity, where we try to bring together all the Federal 
players, including the Defense Department, the Guard Bureau, 
all of the activities in DHS, in fact, all together in some 
eight different departments, to try to look at what everybody 
is doing, not all through grants. There are, for example, in 
justice programs that touch on interoperability because of the 
Department of Justice 25 cities project.
    In the Customs Border patrol arena, there are a series of 
border pilots that are underway that also involve 
communications applications. We try very hard, to coordinate 
all of those at the same time, and to make sure they all comply 
with the national guidance.
    Mr. Reichert. What have we not done in this endeavor that 
we need to do immediately? What is the one thing that from this 
panel that strikes you as something we need to do now, that we 
need to commit to doing?
    Mr. Boyd. Actually I think, let me be real clear. There is 
a natural tendency to wonder what is it the Federal Government 
can do to make this happen quickly? I would argue that the most 
fundamental requirement is that communities themselves commit 
to being willing to participate in developing interoperability. 
Now the long haul part is our job. We have to be able to help 
to develop the standards. We have to provide the guidance, but 
at the end of the day, the individual communities are the ones 
who have to decide they are really going to make that happen. 
And every jurisdiction that has gone to work to develop the 
kind of agreements across jurisdictions and across disciplines 
that are required to do it, they have been able to achieve what 
we call emergency command level interoperability.
    It is not the perfect interoperability we would like to 
have once we have a real standards regime in place and all the 
other things have happened, but it is something that can 
address the emergencies now. The public safety community has 
been very, very responsive to that.
    So I think you are seeing a lot more multi jurisdictional 
efforts in a lot more places than has ever been the case 
before. So one of the things I think the national baseline is 
going to demonstrate is that there is a lot more happening in 
the field than is always apparent.
    Mr. Reichert. Mr. Pascrell.
    Mr. Pascrell. Mr. Chairman, in the next panel, Mr. Morgan 
is going to testify that to date, there is no quantitative or 
qualitative assessment of the nation's level of 
interoperability. Do you all agree with that?
    Mr. Boyd. I think that is exactly true now. That is what 
the national baseline is designed to answer.
    Mr. Pascrell. When we say now, this is 5 years after 9/11 
almost.
    Mr. Boyd. When we took over SAFECOM in 2003, the very first 
thing we did was to impose a requirement to establish a 
baseline because we thought we needed to be able to figure out 
where we were measuring from. And so that is now underway to 
create exactly the kind of analysis you are talking about.
    Mr. Pascrell. Director Peed, I read your statement very 
carefully. The high in the COPS interoperability budget was a 
few years ago, $92 million. This year it is $10 million. And 
you spend a lot of time talking about COPS in your 
presentation, as you well know. I am not telling you something 
you do not know. And we are talking about how local communities 
must commit to the systems, Dr. Boyd, in order to have a system 
of emergency command level.
    How do we expect local communities to commit to the system 
that we are trying to develop, and yet we have not developed 
the standards? How do you expect local communities to commit to 
the system without the resources.
    Mr. Peed. Congress appropriated the funds obviously, and in 
their appropriations--
    Mr. Pascrell. I am sorry, Mr. Peed.
    Mr. Peed. When Congress appropriated the funds for our 
agency, they included in our language the first year that we 
address the critical needs of law enforcement, and the second 
year funding required that we address the immediate needs of 
law enforcement. So we went out and partnered with all of our 
Federal partners to develop the program. We required the grants 
to be regional and multi-disciplined and multi-regional in 
effort, and then they were up to, in the first year, were up to 
$6 million per grant. And we think there are some successes 
there in terms of meeting the immediate needs.
    Mr. Pascrell. Mr. Peed, every year you have a lower amount 
of awardees. You have less money. You have just started to 
touch the surface, and yet you are reducing the budget. In 
fact, you are trying to eliminate the budget according to your 
own numbers. I mean, how can you sit there and talk to us about 
the COPS program when the administration has tried to eliminate 
it? How do you do that? Tell me how you do that.
    Mr. Peed. Since we had our funding in 2003, we have 
coordinated with originally the Office of National 
Preparedness, so we knew where our grants were going and that 
responsibility has now shifted to the Department of Homeland 
Security.
    Mr. Pascrell. Do you support the COPS program in your 
position with the Department of Justice?
    Mr. Peed. Yes, sir.
    Mr. Pascrell. Do you think it should be fully funded.
    Mr. Peed. It is funded, I think, given the priorities at 
the level I think the administration--
    Mr. Pascrell. What other priorities exist besides public 
safety, tell me?
    Mr. Peed. Many of those priorities have shifted to the 
Department of Homeland Security.
    Mr. Pascrell. You mean to tell me now that the COPS program 
that the administration has tried to eliminate three times, you 
are telling me that that function, that activity is going to be 
adopted by some other Federal agency so we can look forward to 
the COPS program doing what it did in the 1990s to reduce crime 
in this country, to help reduce crime, you mean to tell me we 
are on track to do the same thing? We are going to be able to 
hire the same amount of police officers, is that what you are 
telling me?
    Mr. Peed. The original goal of the COPS office was to add 
over 100,000 officers to the street. We have added about 
118,000, so the Attorney General has testified before Congress 
on several occasions, both Attorney General Ashcroft and 
Attorney General Gonzalez that we have achieved that goal.
    Mr. Pascrell. We have achieved the goal. Okay. I want to 
come back to this later, Mr. Chairman. I find that incredible. 
Mr. Moran, back in 1996, the public safety community identified 
a need for 100 megahertz spectrum to accomplish their mission 
to communicate. Public safety will finally gain 24 megahertz. 
You brought that out in your testimony I think, in February of 
2009. Is it not about time that the FCC does what it needs to 
do to allocate the necessary spectrum that public safety needs 
in your wisdom.
    Mr. Moran. Well, you are right, the 97 Budget Act, actually 
the 97 Budget Act directed the Commission to allocate 24 
megahertz for public safety use, and it would not be available, 
as you know, until some time in the future when the digital TV 
transition occurred. In some parts of the country, that 
spectrum is available for public safety. In many parts of the 
country, it will not be available until 2009, as you point out.
    Mr. Pascrell. I come here as a friend, Mr. Moran, believe 
it or not. What is stopping us from implementing the urgent 
talk that we all have on all sides of the table here? What is 
the main factor that stands in our way in your estimation?
    Mr. Moran. For, I think you are now referring to adequacy 
of spectrum, not interoperability.
    Mr. Pascrell. Correct.
    Mr. Moran. On the spectrum issue, the Commission, of 
course, is responsible for administering nonfederal spectrum. 
Frankly, the spectrum is being used by many parties. It is 
pretty much congested. The Commission has made a major effort, 
as a matter of fact, a coalition of public safety, Nextel and 
other 800 megahertz licensees came in to us and asked us to do 
some things to eliminate interference problems in the 800 
megahertz public safety area. I believe the chairman talked 
about some of these interference problems last time that I 
testified.
    The Commission, at the behest of this coalition, including 
public safety, we aggressively got into this, found a solution 
to not only eliminating the 800 megahertz interference spectrum 
that there therefore could make the public safety spectrum to 
be used more efficiently and effectively, but we also, through 
this process, there will be another 800 megahertz that will be 
freed up from that. So we are working on that. This was not a 
simple task. There were thousands of licensees in the 800 
megahertz band that we are in the process of clearing out, to 
free this up for public safety, to give them a bigger band that 
is adjacent so their systems would work better.
    Mr. Pascrell. It would seem to me, I don't mean to 
interrupt you and there are other questions, and we would have 
another round, I assume. It would seem to me, Mr. Moran, and I 
thank you for your honesty. You have been very direct. I hope 
folks listen to what you just said. But I conclude, tell me I 
am wrong, tell me I am not perceiving what you said correctly, 
I am perceiving this as, well, public safety public safety will 
have to wait until the other interests decide to give up some 
of their space. Is that rather a cynical interpretation.
    Mr. Moran. Well, the 24 megahertz, in most places, will not 
be available until February of 2009. That is true. We are doing 
what the Congress has asked us to do there and that is the 
situation.
    Mr. Pascrell. But our frustration is, and I realize you can 
deal only as director in the department, but our frustration is 
to us there is nothing more important than the lives of our 
first responders. And to hear you and I know you are not, you 
are a very compassionate individual, I know a little bit about 
your background, do you wonder why we get a bit frustrated and 
a bit anxious and concerned? You do not have to answer the 
question.
    This is unacceptable. We are going to wait for the private 
sector to give room to police and fire. We are not going to do 
that when you are forcing us to make regulations that we should 
not have to make. Do you understand what I am saying, Mr. 
Moran?
    Mr. Moran. I understand what you are saying, yes.
    Mr. Pascrell. Thank you. Thank you, Mr. Chairman for your 
patience.
    Mr. Reichert. Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. Thank you to you and 
the ranking member for holding four very interesting hearings 
on this issue. I think as we assess the gaps in homeland 
security this issue of interoperable communications is the 
number one gap. I do agree that we have made some progress, but 
I don't feel that we are close to where we need to be, and part 
of that is Congress's fault. It would be nice to point fingers 
at these witnesses, several of whom I have worked with in other 
lifetimes, especially Dr. Boyd when he was at the National 
Institute of Justice, but it is not only their fault. It is our 
fault. Our fault, meaning Congress.
    We made a promise to our first responder community and to 
the American people a decade ago that we would turn over 
dedicated spectrum for emergency communications by the end of 
this calendar year and we, we, the Congress of the United 
States, broke our promise. Several of us on this committee have 
been pushing for 4 years to enact H.R. 1646, the HERO Act, 
which would keep Congress's promise. HERO is still alive but it 
is not well. And instead, as Mr. Pascrell was just saying, 
Congress has punted and we will finally turn over spectrum in 
2-1/2 years from now.
    I am the ranking member on the House Intelligence 
Committee, and I receive scary briefings all the time. And I 
doubt that the terrorists who are plotting to attack us are 
waiting for 2-1/2 years until we can have an adequate framework 
for interoperable communications.
    So my question to you is not to blame you for Congress's 
mistakes, but to see whether on an interim or patchwork basis 
we really are developing systems out there in our communities 
that can do most of this job. I hope the answer is yes. I am 
not sure that it is. But I just want to talk about for a minute 
some of the things that are happening in Los Angeles county and 
in some of the cities that I represent. Small cities are 
pooling resources. Los Angeles city and county which is a huge 
metropolitan area, is plugging into an I.T. base system with 
the capability to connect divergent frequencies. There is talk 
about creating a single platform of gateways, and also talk of 
building out a system of repeater networks so that this ability 
of ACU-1000 to integrate spectrum can be expanded and extended.
    My question for the panel is are these strategies 
sufficient bridges to get us to 2009, or are we seriously, in 
my view, and you can respond, are we seriously inadequately 
fielding the interoperable strategies necessary to protect 
Americans in the event of terrorist or natural disasters?
    Mr. Boyd. Well, I would have to say that the work being 
done in Los Angeles is probably some of the best effort in the 
country to try to bring together near-term interoperability. 
That is to achieve interoperable now with what you have. One of 
challenges, and nobody is comfortable with this, but it is the 
reality, is you have to start with what we have. There is a 
huge infrastructure there that cannot be changed that quickly. 
It is typically bought with the bond issue that takes anywhere 
from 20 to 30 years to pay off. So it is a very, very 
complicated thing to try to move it. In the meantime, Los 
Angeles has done a really, really solid job, in my judgement, 
of doing that. In the northern Virginia, southern New York 
area, for example, I was pleased when a few weeks ago, I was 
really pleased to hear from your committee staff that when they 
had gone out to talk to the communications officers and looked 
at the communications centers in each of those places, they saw 
the continuum which we talked to you about before in the front 
of the tool box posted in every one of those communication 
centers with pins showing where they were on that process.
    I would like to remind you what that continuum showed, 
because I think it is crucial, and that is that technology is 
only one of the critical lanes. There has to willingness and an 
agreement among the multiple jurisdictions and a number of 
Members of Congress here have helped to do that. You, Ms. 
Harman, did a lot of that in the early days when we first did a 
field hearing some years ago out in El Segundo, in helping to 
bring the communities together and get them to talk to each 
other and agree. Because once they are willing to make those 
agreements, we are not at a point that it is the cleanest kind 
of solution we want, but they can achieve emergency level 
interoperability now if they are willing to do that.
    Ms. Harman. Does anyone else wish to answer the question. I 
know my time has expired, Mr. Chairman. I would just like to 
have the answers for the record.
    Mr. Moran. Yes, may I. Yes, I think some of the things you 
are mentioned, I.T.-based technologies to interconnect existing 
public safety systems that are operating at different 
frequencies and different modulation techniques and all of 
this, I think that there are real potentials here to have some 
real improvements in interoperability that can be achieved in 
the short term.
    When the 24 megahertz is fully available in a couple of 
years, that is the first step. Systems have to be built. A lot 
of money will have to be spent to put these things in. And with 
the new systems, the FCC, by the way, has rules that the new 
700 megahertz systems, we have set aside some interoperability 
channels and we have made a requirement that all 700s, that all 
the radios associated with them have to be able to access these 
interoperability channels. But there is still going to be the 
question, how about all the embedded base? Will those things be 
able to interoperate with the 700?
    We think there are a number of technologies out there that 
will help us make some substantial progress in interoperability 
in the short term. It appears that the amount of capital needed 
to do it is much less than full scale change out of these 
systems. But I certainly agree with Dr. Boyd that it is not 
just the technology. You have to have the local authorities to 
agree that this is what they want to do. You have to have them 
work out how these systems are going to work, who is going to 
be in charge, how it will work tactically and strategically, 
and you have to train all the people to make this thing work. 
It is a lot more than just buying the technology. There is a 
lot of human element here and it is all essential. But 
nonetheless, I think progress can be made in the short term 
with solutions like this.
    Mr. Reichert. The gentleman's time has expired. Mrs. 
Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. Probably part of 
this have already been answered, but the last, or the most 
recent example of interoperable communications not working was 
Katrina, and have you responded already as to what your 
assessment has been of what went wrong in Katrina and given the 
fact that we are just a month and a half from hurricane season 
and a disaster could happen at any time, based on what went 
wrong then, what has been done to ensure that by June 1st, that 
some of these problems will not recur?
    Mr. Boyd. I think the first thing to understand is that the 
principal problem in Katrina was the failure of operability 
rather than interoperability. The whole basic system went out.
    Mrs. Christensen. But that could happen in any--if I was a 
terrorist, I would take that out first.
    Mr. Boyd. That is correct, but if you do not have that 
communications infrastructure in place, you cannot even get to 
interoperability. In Katrina, you had a combination of things. 
You also lost a power grid. By losing the power grid you lost 
your ability to even charge batteries and handheld units. So 
that is why it took some days to put it back together. You lost 
the powers. You lost the power grid. You lost the ability to 
charge those things over an area about the size of the United 
Kingdom, now that takes some time to recover.
    Mrs. Christensen. I live in the Virgin Islands. We have had 
hurricanes, power outages. It would seem to me that we should 
have learned how to deal with those issues already. No one--
does anyone else have an answer?
    Ms. Henke. If I can tell you some of the things we are 
undertaking, some of the things we are working on to address 
those issues. One, as I mentioned prior to your arrival, is 
tactical interoperable communications, the plans that are due 
on May 1, and the exercises that will occur that will identify 
shortfalls and gaps.
    In addition to that, before hurricane season starts, the 
Department of Homeland Security in coordination with multiple 
agencies within the Department as well as outside the 
Department, with our State and local partners, is conducting 
hurricane exercises along the eastern seaboard and the Gulf 
Coast. Those exercises will look at evacuation as well as 
communications and help us to once again test some of the 
things that have been corrected or fixed since Hurricane 
Katrina and also identify where some of those gaps are and how 
we can potentially quickly address those.
    Mrs. Christensen. Thanks for the answers. I am still not 
very comfortable and I am just always amazed at what we have 
not learned over the years of having gone through hurricanes.
    The integrated wireless network, I am not sure who I should 
direct this one to, but it is to provide a consolidated 
nationwide federal wireless communication service and the 
partnership started in October, 2001. We are now four and a 
half years into this. How many of the 80,000 law enforcement 
users or 2,500 sites have been served? That is SAFECOM. 
Department of Defense I guess it would be.
    Mr. Boyd. There are two elements to that. DHS has a role in 
it and the Department of Justice are partners. That is not the 
program in my office. I can't tell you how many sites have been 
in place. What I can tell you is that there is an extensive 
collaboration involving SAFECOM, the Department of Justice, the 
Office of Grants and Training, and the National Guard Bureau 
and others, in trying to make sure that as that 
interoperability is established in those major cities, that it 
also fits within the larger national construct, but I can't 
give you the details on the program because the manager for 
that is in the Wireless Management Office in the Department of 
Justice.
    Mrs. Christensen. Thank you. Another question to the 
Department of Commerce. Mr. Moran.
    Mr. Moran. I believe the NTIA person is not here.
    Mrs. Christensen. Okay. I guess I came in late. I will let 
that be my last question on this round.
    Mr. Reichert. Mrs. Lowey.
    Mrs. Lowey. Thank you very much. I want to thank the 
chairman and the ranking member for holding this hearing again, 
although we have been looking for answers for a very long time. 
Some of us have been working on this for 4 years. Before I get 
to the immediate question, just following up, I believe Dr. 
Boyd said the problem in Louisiana was communication, not 
interoperability.
    Now I am not an expert in this area, although many of us 
have been working on this for 4 years, but I believe Director 
Moran is Director of the Office of Homeland Security Federal 
Communications Commission. Now it would seem to me that yes, 
the communications got flooded; yes, it all broke down. This is 
the United States of America. What does the military do in 
situations like this? Can't you preposition equipment that can 
be used?
    Four experts here. We are just trying to look for answers 
with great respect for your expertise. Shouldn't you be able to 
say to me, Dr. Boyd, Mr. Moran? Don't worry about it, we know 
how to preposition equipment, whether it is on trucks or on a 
high ground or whether using equipment that you plug into. How 
can you sit there and say we didn't have interoperability but 
now I can't guarantee you they will be able to communicate 
because that is a communications issue, not an interoperability 
issue.
    And then you were saying, I believe it was Dr. Boyd, I am 
not sure, might have been Mr. Moran, again, I apologize, that 
this gets more complicated as we move along because many 
communities who aren't going to wait for you guys, they are fed 
up with the Federal Government, are taking out bond issues to 
buy communication. And in many instances, because there are no 
Federal guidelines, which we were told by Secretary Ridge 2 
years ago they were going to be in place. Okay. They are moving 
ahead, and as you said, it gets more complicated.
    Now I understand this is extremely complex, it is a time 
consuming issue, but, again, we have known about all of this 
for years, and 9/11, where we lost hundreds of lives, many 
could be attributed to the fact that they couldn't communicate.
    The final report of the Federal Public Safety Wireless 
Advisory Committee concluded, quote, unless immediate measures 
are taken to promote interoperability, public safety agencies 
will not be able to adequately discharge their obligation to 
protect life and property in a safe, efficient and cost 
efficient manner. That report was written over 9 years ago. Not 
4 years ago, 9 years ago.
    Okay. You are all in charge here. We are just trying to 
move this along and to understand why you can't get it done. So 
looking at the broader picture, when will we reach a point 
where we understand this is an emergency. We could have a real 
problem with the storms in about a month and a half, or month. 
When will our communications system not be a liability? What 
steps have been taken specifically to bolster communication 
systems in hurricane-prone areas since the Katrina debacle? 
Because you are going to tell me, and I heard this well, we are 
studying it, in 6 months, in a year. No wonder the public says 
what is this whole apparatus. You have hundreds and hundreds, 
thousands of people working on this and yet our citizens are 
not safe because you haven't come up with even a temporary 
answer.
    You can come up with a better answer a year from now, 2 
years from now, but what have we done, how can you tell us and 
the people down there or another hurricane area that this is 
going to work, they are going to be able to communicate, that 
it won't be the days of Paul Revere where someone from a roof 
had to throw down a glass jar with a message in it? Can you 
give us any confidence that you are doing something that is 
worthwhile, that is going to keep people safer, that is moving 
along and making us able to-- don't know if I even want to 
stick to interoperability--being able to communicate in an 
emergency. If I sound frustrated, I apologize, but I am.
    Mr. Boyd. First, I didn't use the term ``communicate,'' I 
said ``operability.'' That means you have a communication 
system able to provide communications among all of the elements 
of that agency. Interoperability refers to the ability of that 
agency to communicate with another agency.
    Mrs. Lowey. Talk about the first because you have told me 
the problem was everything went down. What have you done, what 
technology is out there, what does the military have to address 
operability?
    Mr. Boyd. As a soldier retired after 23 years of combat 
service the first thing the military does is take anywhere from 
5 to 15 days to put in a new infrastructure to bring in the 
things they need to cover that area. They don't do it 
overnight. I know there is a comic book notion that the 
military drops in and communication takes place. That does not 
happen.
    Mrs. Lowey. Can you preposition material?
    Mr. Boyd. You can preposition materials but you are going 
to have to preposition them outside the affected area because 
you don't want them destroyed by the storm, which means you 
always stock with the painful reality that you have to move 
them. That takes time. Not only do you have to move them, you 
have to figure out where you are going to put them when you get 
there.
    So some of the best sites were under water. The towers were 
gone. You can't replace a 300-foot tower with a hundred foot 
tower that you can stick into an airplane and move into place. 
So you are always going to have to do the best you can in that 
kind of environment.
    What I think is most important, and I was involved in the 
PSWAC study back then, is that more for interoperability has 
occurred in the last probably 4 or 5 years than I saw in the 
entire time I have been involved in interoperability. But the 
point I want to make and have been trying to make repeatedly in 
every hearing is whether we like it or not this is going to 
take some time. This is a huge, huge expensive infrastructure 
that greatly exceeds a hundred billion dollars just for the 
infrastructure itself. Of that, most of it is legacy equipment, 
so whatever standards we build now has to figure out how to 
connect to some of these old systems.
    I had a county commission ask me to come down last week and 
help them figure out how to go about moving to a 700 megahertz 
system because they are currently on 4.9 gigahertz. They built 
that--or a 490 megahertz system. They built that in 1985. It is 
21 years later. If they could get the county commission now to 
approve, using a combination of straight grant money and their 
money, a new system, it will take, and this is the normal for 
any communication system, 5 to 10 years, if the money is 
available, the licensing is available, there aren't any 
problems with environmental impact statements, they can get the 
towers built, no not in my backyard problems; it takes 5 to 10 
years under perfect circumstances to build a new communications 
system.
    So none of this will happen overnight. But I will tell you 
that a great deal has happened. What is most refreshing is what 
is happening in the regions themselves that are beginning to 
address this work. The Mississippi Wireless Commission asked me 
to come down so they could talk to me about what they were 
doing. Last month Montana came down to see me, or last week, 
and Montana pointed out that they have built a new plan, 
everybody on board in the State, so that they have been able to 
reduce the number of towers, the most expensive piece of a 
communications infrastructure, from 33 to cover their northern 
border, which is one time zone wide, to 11. One-third the cost 
because they got everybody together. But the important issue is 
they got everybody together. Although we at the Federal 
Government like to think we are driving the whole train, the 
reality is it is that local level and those States that will 
drive that train. We can help by offering the tools, we can 
help by offering them the guidance.
    The public safety community will tell you that they like 
the SAFECOM guidance because that is exactly how they think 
they need to build those communications systems. And we can 
help with grant money to focus things in the direction we need 
to have things go. But we will not at the Federal level force a 
dramatic change in 1 or 2 or 3 years. The communities will make 
that happen, but it will take them within the period of time it 
takes them to replace an existing infrastructure that has a 
lifespan of 15 to 30 years.
    Mr. Reichert. The gentlelady's time has expired.
    Mr. Peed.
    Mr. Peed. I wanted to follow up. As Dr. Boyd said, this was 
a 90,000 square mile area, an area the size of Great Britain. I 
just got back from there, I spent 6 days and I toured through 
Biloxi and New Orleans and the parishes talking to sheriffs and 
chiefs and it was interesting that some little organizations 
like Slidell did not lose communications even though they lost 
half their tower.
    New Orleans in its entirety lost all its communications, 
including the FBI. They couldn't even make cell phone calls. 
What the COPS office has done is we have made a number of 
grants to those gulf regions. We have made grants to 
Birmingham, Shreveport, Baton Rouge, New Orleans and Mobile, 
just to name a few. And New Orleans had partnered with five of 
the parishes there to develop an interoperable communications 
system to protect their ports as well as respond to emergencies 
of this measure.
    Mrs. Lowey. I know I would be out of order but I know we 
would all like to hear, could the gentlemen just follow up, why 
did Slidell not lose power?
    Mr. Peed. I don't know exactly why. It would require a 
technical person to take a look at that, but I sat with the 
chief there and he was showing me pictures of his cruisers 
under water and his towers located there has not been rebuilt 
yet but they still have radio communication. It would take a 
technical person to take a look at that.
    Mrs. Lowey. Mr. Chairman, I know this is out of order 
again, but just following up with the gentleman.
    Mr. Reichert. Do you have one additional question for the 
gentleman?
    Mrs. Lowey. I just don't understand it. I wonder how often 
you have briefed Secretary Chertoff. Could you tell us in 
writing at another time because my time ran out already the 
state of communications in ever locality in the country? And if 
something like that is successful in Louisiana, I would think 
coming before this committee we would be briefed or you would 
be immediately following up on what was successful and 
recommending that.
    I would appreciate it, Mr. Chairman, if we don't have it, 
if we can get a briefing that I am assuming you give to 
Secretary Chertoff at least once every other week, or something 
like that, with the state of communications across the country 
and are there other examples like that that could beSec. 
    Mr. Reichert. What we will do is we will have the staff 
coordinate with the panel of witnesses and see if we might be 
able to arrange that.
    Mrs. Lowey. Thank you so much.
    Mr. Reichert. You are welcome.
    We will have a second round of questions. And I have a 
couple of questions. I would like to go back to the issue of 
reconfiguring 800 megahertz. I just want to make it very clear 
that this has been a lot longer than 4 years that we have been 
struggling with this issue. I know some Members of Congress 
have been involved in this process for that long.
    But back in 1997 when I first became the sheriff of Kane 
County we were still on a VHF system and transitioning to 800 
megahertz, and since 1997 as we transitioned to 800 megahertz, 
and maybe you are familiar, I know Carl has visited Seattle, 
and Dr. Boyd, familiar with the King County area and the 
inability of 800 megahertz to serve the needs there, especially 
the foothills of the Cascades and sometimes downtown within the 
inner city area with the tall buildings, especially with the 
firefighters and police officers together, their inability to 
communicate on 800 megahertz.
    So we have been hearing about the reconfiguration of 800 
megahertz for almost 10 years. That has been a frustrating 
thing for first responders to be patient because now we are 
told to be even more patient. And we are tired of waiting, I 
guess is the message that I want to deliver. I understand the 
complexities of the problem but it seems to me nothing can be 
more important than the safety of our first responders, and to 
put some business ahead of that doesn't seem to be--doesn't 
seem to be--is not the right thing.
    I would like to ask Assistant Secretary Henke, NTIA has a 
$1 billion grant program for interoperability; do you think 
they should have that within their jurisdiction to manage and 
disseminate, or should that better be placed in your shop?
    Ms. Henke. I can tell you that Congress provided the money 
to NTIA. I can tell you NTIA and the leadership of NTIA as well 
as myself and members of my staff have met and have discussed 
those resources. The goal of both NTIA as well as the Office of 
Grants and Training at DHS is the most effective and efficient 
use of those dollars to have a measurable result on 
interoperability.
    So whether it is housed and transferred to Grants and 
Training or whether it stays within NTIA, I can assure the 
Committee that we are already talking and coordinating to make 
certain that we have--that those resources accomplish a 
measurable result.
    Mr. Reichert. Wouldn't it make sense though to have that 
money in your shop rather than have another entity to 
communicate with, coordinate with and make sure that we are 
spending the money on the strategic plan that has been 
described?
    Ms. Henke. That is a possibility. Congress provided the 
resources to NTIA. We have had those communications and I can 
assure you that once again in the language it says that NTIA 
should coordinate with the Department of Homeland Security and 
with the SAFECOM guidance. Our goal once again is to make 
certain that it is the most efficient way for our first 
responders. And so if that means transferring it to the Office 
of Grants and Training in the end for us to administer those 
funds, if that is the most efficient way, we will do so.
    Mr. Reichert. There is discussions taking place, I know. 
Thank you.
    Dr. Boyd, you mentioned an interoperability baseline 
survey. Did it include, the survey include questions around 
standards?
    Mr. Boyd. Not so much--what we did was to build the 
baseline survey around the interoperability continuum. We 
didn't build it specifically around standards. And the reason 
we didn't is that there is no standard now that can cover the 
range of equipment used in the field and the survey does look 
at what are some of the kinds of different technologies you 
use.
    We think standards are a forward-looking activity where we 
have to build in hooks and ability to get to those legacy 
systems, but it is not so much a backward-looking activity.
    Mr. Reichert. Wasn't this a voluntary survey?
    Mr. Boyd. It is a voluntary survey. It will go out very 
shortly. It will go out to 23,000 different police, medical, 
fire service.
    Mr. Reichert. So it hasn't gone out yet? We have already 
spent $2.2 billion on interoperability and we are just now 
doing a survey?
    Mr. Boyd. When SAFECOM came to DHS, one of the first things 
we decided we needed to do was a baseline survey. So when 
Congress appropriated funding in 2005 we immediately started 
the contract to get into place the survey and design that 
survey.
    Mr. Reichert. I will yield my time.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Moran, the FCC's strategic plan recognizes that over 
90Sec. rcent of the Nation's communications system is privately 
owned. The Department of Homeland Security has stated that 
85Sec. rcent of the Nation's critical infrastructure is owned 
by the private sector.
    I have a couple of questions for you. What tools does the 
FCC have to mandate that the products marketed for 
interoperability live up to their claim? What tools do you 
have, what power do you have, what authority do you have? That 
is my first question.
    Mr. Moran. Well, what tools do we have that can assure that 
products manufactured to promote interoperability do in fact 
provide interoperability? To the extent it is a radio product, 
the product has to be certified by the FCC. So perhaps there is 
something there if it is a radio-based product. If it is an IP-
based product, I don't think that is the issue there.
    I don't know that the FCC requiring the products--that 
products meet the criteria that they are designed for, that is 
not a normal process that the FCC is involved with.
    Mr. Pascrell. Is that your answer? Do you wish to make a 
phone call?
    Mr. Moran. I better check back with the people back home.
    Mr. Pascrell. The second question--am only being serious. 
How does the strategic plan, Mr. Moran, fit within the 
Department's plans for proposed Public Safety and Homeland 
Security Bureau? How does that strategic plan fit into the 
Department's plans, Homeland Security department's plans?
    Mr. Moran. How does the FCC's plan to reorganize fit into 
the Department of homeland security's plans? I don't really 
know the answer to that but I will say this; the FCC, myself 
included, deal routinely with a number of segments of the 
Department of Homeland Security, most notably the national 
communications system. But other parts with FEMA and other 
parts, and we work closely with them on joint issues, including 
the national response plan in which the FCC is a support agency 
to ESF2 function, emergency support function number 2 
communications, for communications response when a major 
disaster takes place. We work closely with them. We do that 
now.
    When the commission reorganizes, which we believe it will 
here if this is all approved, we intend to work just as closely 
with the Department of Homeland Security on the same kinds of 
things after the reorganization. We hope we will be able to 
actually do a better job in that coordination because we 
believe by bringing all the focus of all the national security, 
homeland security, emergency things in one part at the FCC, we 
will have a more comprehensive, effective unity process there 
so that we can work better with Department of Homeland Security 
and Justice and others that we need to work with.
    Mr. Pascrell. Because, Mr. Moran, if the figures are right, 
and I think you would agree with them, 85 or 90Sec. rcent of 
the Nation's communications systems, it would appear to me that 
the enforcement power of FCC is going to have to be very 
definitive, and how far are you willing to go in terms of what 
was said previously. I am very concerned about this because you 
are an independent agency, and you should be. Or should you be? 
Do you have the power to enforce what you have talked about 
today, which I think is going to be another question.
    Mr. Chairman, I have a lot of questions, I am going to 
submit them for the record, and I want to thank the panelists 
for their cooperation today.
    Mr. Reichert. Thank you, Mr. Pascrell. No further 
questions?
    Mrs. Lowey. I will save it until after we get that report. 
Thank you.
    Mr. Reichert. Thank you, Mrs. Lowey. I would like to thank 
the witnesses again for their valuable testimony. This panel is 
excused, with the exception of Dr. Boyd, whom I hope will also 
sit on the second panel for purposes of responding to our 
questions related to standards and technology.
    The Chair now calls the second panel. Thank you all so much 
for being here.
    Good afternoon. With us on the second panel today, Dr. 
Boyd, welcome again. Dr. John Morgan, Assistant Director for 
Science and Technology, U.S. Department of Defense; Mr. Dereck 
Orr, Program Manager, Public Safety Communications System, 
National Institute of Standard and Technology; Mr. Jim Gass, 
Deputy Director, National Memorial Institute for the Prevention 
of Terrorism; and Mr. Bruce Walker, Chairman, Subcommittee on 
Government Affairs Committee, Homeland Security and Defense 
Business Council.
    Mr. Reichert. The Chair now recognizes Dr. Morgan to 
testify.

                    STATEMENT OF JOHN MORGAN

    Mr. Morgan. Thank you very much. Good afternoon, Chairman 
Reichert, members of the subcommittee. I am pleased to appear 
before you today on behalf of the Department of Justice to 
speak to you on the issue of public safety communications. I 
will address the need for a complete set of standards and a 
compliance testing program, new technology development and the 
role of independent evaluation of interoperability programs.
    NIJ, the National Institute of Justice, is a component of 
the Office of Justice Programs. Its mission is to advance 
scientific research, development and evaluation to enhance the 
administration of justice and public safety. Our primary focus 
is on State and local criminal justice agencies, which are 
responsible for over 95Sec. rcent of the investigation and 
adjudication of crime in the United States. NIJ is the only 
Federal agency dedicated to improving the effectiveness of 
criminal justice through scientific research.
    NIJ has a great deal of experience with regard to 
assistance programs related to technology and other criminal 
justice needs. For example, Mr. Chairman, NIJ administers the 
President's DNA initiative, and I know you are very familiar 
with the power of DNA to solve violent crime.
    NIJ has been involved in addressing public safety 
communications issues for over a decade. Through its 
communications technology portfolio, also know as CommTech, NIJ 
pursues short and long-term interoperability solutions 
involving wireless radio systems and information technology. 
CommTech, like all of NIJ's portfolios, relies on a Technology 
Working Group of frontline practitioners to identify the most 
critical technology problems that will receive investment from 
our agency. These law enforcement and public safety 
practitioners have identified standards development and 
compliance assurances among their highest priorities.
    Mr. Chairman, NIJ strongly recommends the adoption of a 
full suite of standards and a compliance testing program to 
ensure compliance of federally funded systems with those 
standards. To achieve this will require a very close 
coordination among all of the Federal entities here today and 
NIJ welcomes even closer coordination among our Federal 
partners.
    NIJ suggests that any Federal assistance funding program 
targeted to public safety communications include independent 
evaluations of program outcomes. These evaluations should focus 
on compliance with standards, assessment of the fielded systems 
against the SAFECOM Statement of Requirements, the improvements 
in interoperability and operability that those systems produce. 
Such evaluations should also include fundamental examination of 
public safety benefits such as improvements in response to 
critical incidents.
    Federal assistance programs in interoperability have thus 
far lacked such independent evaluation. Because of this there 
is no objective data on their impact, whether positive or 
negative.
    NIJ also recommends that continuing technology research and 
development be a central part of the Federal Government's role 
in public safety communications. While a comprehensive suite of 
standard and effective policy coordination are essential to 
addressing the issues of public safety communications, new 
technology development is also critical for success in this 
area.
    NIJ has focused its research and development investment on 
Cognitive Radio and Software-Defined Radio technologies because 
we believe these emerging tools may enable first responders to 
communicate seamlessly at critical incidents in the future. 
These and other technologies will improve interoperability and 
operability; that is, the ability to communicate reliably under 
normal circumstances.
    Mr. Chair, spectrum allocation is a major problem for the 
effective deployment of interoperable and operable 
communications systems. One approach has been to increase the 
spectrum available to public safety agencies. Another approach, 
which NIJ is pursuing, is to develop technology that will 
enable public safety agencies to better use the spectrum 
allocated to them. Through current and future grants, focusing 
on cognitive radio technologies, frequency allocation 
coordination databases and other approaches, we believe greater 
access can be attained by public safety in the existing 
spectrum on a day-to-day basis and during emergency or disaster 
situations.
    NIJ has devoted an average of $13 million per year to its 
CommTech portfolio. A remarkable amount of work has been done 
through this focused investment. In addition to technology 
assistance, standards development and testing, NIJ funds 
approximately 20 research and development and demonstration 
projects each year. Among our accomplishments, NIJ funded 
development of the Virginia Statewide Communications 
Interoperability Plan, a national model for State level 
planning and cooperation. With the support of the FCC, NIJ also 
funded the development of the Computer-Assisted Precoordination 
Resource and Database System which is used to plan and use 
regional frequency spectrum more efficiently.
    NIJ convened the National Task Force on Interoperability 
and published the Why Can't We Talk guidebook as well as a wide 
range of other technical documents for practitioners, such as 
our Understanding Wireless Guide.
    Every day, through our center system, NIJ provides 
technology assistance around the country. In particular, the 
NIJ's Western Center has supported CommTech efforts in 
software, radio as well as responding to calls for technology 
assistance defined.
    Mr. Chairman, a single entity or even the entire Federal 
Government will not solve the interoperability challenge alone. 
Clear delineation and better coordination among Federal 
entities is certainty beneficial. Although the challenges in 
public safety communications will take many years to solve, the 
Federal Government can play a very positive role through a 
comprehensive, coordinated and standards-based approach.
    My full statement has been submitted in writing for the 
record.
    [The statement of Mr. Morgan follows:]

                  Prepared Statement of John S. Morgan

                             April 25, 2006

    Good afternoon Chairman Reichert, Mr. Pascrell, members of the 
Subcommittee. I am pleased to appear before you today on behalf of the 
Office of Justice Programs' National Institute of Justice (NIJ) to 
speak to you on the issue of public safety communications 
interoperability. I will address communications interoperability needs 
of state and local law enforcement and public safety, especially with 
respect to emerging technology and the need for standards.
    Congress created NIJ in 1968 as the research, development and 
evaluation arm of the U.S. Department of Justice (DOJ). Its mission is 
to advance scientific research, development, and evaluation to enhance 
the administration of justice and public safety.
    NIJ's primary focus is on state and local criminal justice 
agencies, which are responsible for over 95 percent of the adjudication 
of crime in the United States. NIJ is the only federal agency dedicated 
to improving the effectiveness of criminal justice through scientific 
research. NIJ is committed to the scientific process of open 
competition, peer-review, published reports and archived data. NIJ's 
Office of Science & Technology (OS&T) was established in 1992 to 
execute the agency's technology research and development program. This 
program includes: technology research and development; establishment 
and maintenance of performance standards for test and evaluation of 
technologies and equipment; and establishment and maintenance of the 
National Law Enforcement and Corrections Technology Center (NLECTC) 
system. The NLECTC system supports NIJ through development of 
technology requirements, test and evaluation, and providing technology 
assistance to state and local agencies through 10 technology assistance 
and specialty centers across the United States.
    Although OS&T has been in operation for more than a decade, 
Congress officially recognized the office in Title II of the Homeland 
Security Act of 2002 (HSA). Through that legislation, Congress assigned 
several critical responsibilities to NIJ, including:
        <bullet> To establish and maintain advisory groups to assess 
        the technology needs of federal, state and local criminal 
        justice agencies;
        <bullet> To establish and maintain performance standards, test 
        and evaluate law enforcement technology and equipment, and 
        establish programs to certify, validate and mark technologies 
        and equipment conforming to these standards;
        <bullet> To take the lead in establishing a coordinated federal 
        approach to issues relating to criminal justice technology; and
        <bullet> To administer a program of research, development, 
        testing, and demonstration to improve the interoperability of 
        voice and data public safety communications.
    NIJ has extensive experience in addressing public safety 
communications issues. Through its Communications Technology portfolio 
(CommTech), NIJ pursues both short- and long-term interoperability 
solutions involving wireless telecommunications and information 
technology. NIJ's work in this area includes:
        <bullet> Research and development of technology for wireless 
        interoperability;
        <bullet> Test and evaluation of current products;
        <bullet> Standards development for wireless interoperability;
        <bullet> Pilot demonstrations on cutting edge technology; and
        <bullet> Technology assistance to state and local agencies.
    The CommTech research and development efforts are concentrated on 
Software Defined Radio (SDR), cognitive radio, Voice-over-Internet 
Protocol (VOIP), Advanced Wireless Voice and Data, and in-building 
location and communication technologies. As in all of its technology 
portfolios, NIJ maintains a practitioner-based Technology Working Group 
(TWG) for the CommTech portfolio comprised of state and local 
practitioners who offer advice on technology requirements and program 
direction. NIJ's CommTech investments are based on the specific needs 
identified to us by this TWG. NIJ also coordinates its program with all 
the federal agencies involved in public safety communications 
interoperability, including SAFECOM and the Office of Grants and 
Training in the Department of Homeland Security, the National Institute 
of Standards and Technology within the Department of Commerce, and the 
Office of Community-Oriented Policing Services within the Department of 
Justice.
    These front line practitioners have identified standards 
development and compliance assurance as among the priorities in this 
area. Only a very small number of standards exist to ensure that radio 
systems are interoperable across jurisdictional and agency boundaries. 
In addition, there is no compliance testing program to ensure that 
systems conform to the few standards that do exist. Compliance testing 
is an integral component of any standards development effort to ensure 
that fielded systems meet the requirements of standards.
    While federal assistance programs for interoperability already 
include technical assistance for state and local agencies, more 
independent evaluations of the outcomes would be advisable. Evaluations 
should focus on actual compliance with standards, assessment of the 
fielded systems against the SAFECOM Statement of Requirements (SoR) for 
Public Safety Wireless Communications and Interoperability, and the 
improvements in operability and interoperability those systems produce. 
Such evaluations would also include fundamental examination of public 
safety benefits, such as improvements in response to critical 
incidents. Federal assistance programs in interoperability thus far 
have lacked such independent evaluation, therefore there is 
insufficient data on the impact, whether positive or negative. NIJ has 
a close working relationship with SAFECOM and has played a primary role 
in the initial development of the SoR and in its ongoing review.

The Role of Technology Development
Developing a comprehensive suite of standards and effective policy 
coordination are critical to addressing the issues of public safety 
communications interoperability and operability; but developing new 
technology is also vital. NIJ believes the issues of operability and 
interoperability are inextricably linked. Operability means that two 
individuals from the same agency can talk with each other. Operability 
deals with issues such as equipment availability, bandwidth and 
spectrum allocation issues for voice and data, interoperability between 
vendors and technology, standards, command and control, and federal, 
state, and local coordination. Interoperability occurs when two (or 
more) individuals from different public safety agencies communicate 
with each other. Without operability, interoperability is irrelevant. 
Focusing solely on interoperability will not allow the practitioner to 
communicate or access information effectively.
    Although technology development alone will not solve all 
communications problems, it can provide important solutions that enable 
public safety to access the revolution in wireless communications 
underway in the commercial market. For this reason, NIJ has made 
significant investments in new technologies such as SDR, cognitive 
radio, and satellite communications for rural agencies. Such 
technologies should enable public safety practitioners to ``roam'' 
freely just as cell phone users do and maximize the potential of the 
limited radio frequency spectrum made available to the public safety 
community. Of course, this can take place only when standards are in 
place to ensure that systems will be compatible with each other through 
advanced technology. Any federal investment in communications should 
recognize the need to develop technology solutions that enable improved 
operability and interoperability. Cognitive radio and SDR may enable 
first responders to communicate seamlessly at critical incidents in the 
future.
    A SDR radio is one where frequency range, modulation or maximum 
output power can be altered by making a change in software without 
making any changes to hardware components that affect the radio 
frequency emissions. SDR may provide an efficient and comparatively 
inexpensive solution to the problem of building multi-mode, multi-band, 
multi-functional wireless devices that can be easily enhanced. As such, 
SDR can be considered an enabling technology that is applicable across 
a wide range of areas within the wireless industry, not just public 
safety.
    Through CommTech, NIJ is funding the Public Safety Special Interest 
Group (PS SIG) within the SDR Forum. The goals of the PS SIG are to 
raise awareness of SDR, to publicize the activities of the Forum in 
addressing issues confronting public safety, and to increase 
participation of the public safety community in the SDR Forum. One of 
the Forum's more important undertakings is a study to assess the 
potential of, and issues associated with, SDR technology for the public 
safety community, with emphasis on disaster response. The report was 
approved by the SDR Forum membership this month (April 2006).
    One specific SDR development example is the Dynamic Open 
Architecture Radio System (DOARS). DOARS is a collaboration with the 
U.S. Navy's Space and Naval Warfare System Center-Charleston. The 
project heavily leverages work in SDR projects within the Department of 
Defense, and seeks to create an affordable, user-friendly PC-based 
``universal radio'' for public safety agencies.
    A cognitive radio is a step beyond SDR. Whereas an SDR requires 
human programming, a cognitive radio will have the ability to adapt its 
behavior based on external factors without human intervention. A 
cognitive radio can alter its transmitter parameters based on 
interaction with the environment in which it operates, i.e., it senses 
what systems a radio can connect to and connects to them. This 
interaction may involve active negotiation or communications by the 
device with other devices or passive sensing and decision-making within 
the radios. A cognitive radio may be able to change its operating 
frequency to optimize use, sense signals from other nearby transmitters 
in an effort to choose an optimum operating environment, modify 
transmission characteristics, waveforms, and transmitter power to allow 
greater sharing of spectrum, select operating parameters based on what 
power and frequency are allowed at its current location, and implement 
``device-negotiated'' sharing of spectrum under the terms of a 
prearranged agreement between a licensee and a third party. Cognitive 
radios may eventually enable parties to negotiate for spectrum use on a 
real-time basis, without the need for prior agreements between all 
parties. Of course, this will be important to both commercial and 
public safety customers who have limited amounts of radio spectrum 
available.
    NIJ is funding Virginia Polytechnic Institute and State University 
to build a prototype cognitive radio that can recognize and 
interoperate with commonly used public safety waveform standards. This 
work leverages National Science Foundation investments to develop and 
test cognitive radio techniques for commercial applications.

Spectrum Allocation
    Spectrum allocation is a major requirement for the effective 
deployment of interoperable and operable communications systems. One 
approach to dealing with this difficulty has been to increase the 
spectrum available to public safety agencies. Recent legislation that 
sets a date certain for the digital television transition will 
facilitate the reclamation of valuable spectrum resources for public 
safety use. This spectrum is anticipated to enable greater 
interoperability among public safety agencies. Another approach, which 
is being pursued by NIJ, is to develop technology that will enable 
public safety agencies to better use the limited spectrum allocated to 
them. NIJ is funding multiple efforts to develop such technologies that 
would be of use to state and local agencies receiving Federal grant 
funds.
    In the current fiscal year 2006 solicitation cycle, NIJ is looking 
to fund technologies that will utilize the newly allocated public 
safety bands more efficiently. This includes technologies that involve 
mesh, or ad-hoc, networking that operate in the 4.9 GHz band and, in 
the future, the 700 MHz band. We believe these efforts will allow more 
effective and productive use of existing bands and quicker 
identification of additional bands if needed to meet national 
objectives for our first responders.

    The Current Status of Standards
    It cannot be over emphasized that developing standards is vital to 
dealing with the issue of public safety interoperability. Long before 
September 11, 2001, NIJ recognized the importance of interoperability 
standards for the public safety community. NIJ, through CommTech, is 
deeply involved in development of the APCO (Association of Public-
Safety Communications Officials--International, Inc.)--25, or Project-
25 (P-25) standard. This initiative is an industry-wide effort to set 
voluntary standards for digital two-way radio technology for public 
safety organizations. In the early 1990s, the P-25 Steering Committee 
approved the very first public safety, user-driven Statement of 
Requirements (SoR) with the support of NIJ's CommTech Program.
    NIJ funds the chairmanship of the P-25 standard steering committee, 
a public standards committee under the Telecommunications Industry 
Association, and the travel costs of some of the public safety agency 
representatives who participate in the process, thus helping to ensure 
objectivity and representativeness in the standards process. While 
these costs are small, less than $250,000 per year, they have provided 
both the impetus and the core element of a truly user-driven standards 
process. Within P-25, the steering committee and its user groups 
determine the user requirements, the standards that are acceptable, and 
the priority of developing those standards. Through that funding, we 
have leveraged the extensive economic resource of the major public 
safety telecommunications industry in a cooperative and consolidated 
effort to improve competition, provide interoperability, and ensure a 
transparent and achievable migration path.
    Since P-25's inception, the P-25 steering committee and its 
partners in the Telecommunications Industry Association (TIA) have 
completed over 34 technology standards that will provide one of the 
three primary legs in our long-term efforts to create public safety 
interoperability. Long-term planning and interagency cooperation will 
also be necessary to implement interoperable communications systems 
across the nation.
    Although significant progress has been made, there are a number of 
standards that need to be developed. These include:
        <bullet> Inter-Sub-System Interface (ISSI) which allows a 
        mobile from one system to transparently roam into another 
        compatible system and have complete communication.
        <bullet> Enhancement to the Fixed Station Interface to ensure 
        easier and more complete console access.
        <bullet> Enhancement of the Consol Interface Standard to ensure 
        greater transparency.
        <bullet> Completion of the Network Management standard 
        interface.
        <bullet> Enhancement of data interface to ensure transparent 
        system-to-system data transport on a more ubiquitous bases.
        <bullet> Enhancement of mobility to improve upon ease of access 
        during roaming.
        <bullet> Telephone Interconnect--ISSI compatible
    A multitude of other conformance and performance standards are also 
needed, including interface standards for such things as global 
position systems or other user requirements as they arise. A total of 
as many as 90 standards are anticipated. The new standards that are 
required will be much more abbreviated than the current 34 since they 
will be based on many of the original standards and modified to fit the 
need of the next technology platform. Of course, all these new 
technologies and associated standards must be compatible with existing 
systems and standards. Public safety agencies do not have the resources 
to replace entire systems every few years. Even beyond these standards, 
there is a complete suite of needed standards that relate to spectrum 
efficiency. Finally, there is work continuing on broad-band data and 
4.9 GHz data standards to allow the transport of high-speed wireless 
data among field radios and to and from major Public Safety Answering 
Points or Incident Management Centers. In short, there is a great deal 
of work that needs to be done to address standards for public safety 
communications.
    Testing and validation of P-25 compliant technology is necessary to 
ensure the equipment being sold is interoperable at all levels. While 
there is significant compliance at the level of common-air-interface, 
there have been problems with the interoperability of features and 
functions. The P-25 steering committee, its user groups, TIA and its 
members, with the support of NIJ, have been aggressively working with 
the Department of Commerce's National Institute of Standards and 
Technology's Office of Law Enforcement Standards, the Institute for 
Telecommunications Sciences, and SAFECOM, to develop a coordinated 
solution. In particular, the National Institute of Standards and 
Technology has made significant progress in the development of 
critically important compliance testing programs to implement standards 
in practice and provide public safety practitioners with performance 
assurance independent of manufacturer claims.
    The long term goal of P-25 is seamless public safety communications 
interoperability and telecommunications transparency. Achieving that 
goal is dependent upon leadership, adequate funding and sound planning 
at all levels of government.
    While the P-25 Steering Committee continues to meet and the 
standards continue to evolve, public safety practitioners continue to 
purchase communications systems. Because the completion of the P-25 
suite of standards continues to be delayed, at the same time 
advancements in wireless technology continue, NIJ's CommTech TWG has 
recommended that NIJ follow a dual path approach: both supporting 
development of standards in technology beyond P-25 (such as WiFi/
802.11x, WiMax/806.16x and VoIP) and continuing to support P-25. We 
concur with them that the completion of P-25 standards, by itself, will 
not solve the standards problem.

NIJ's Efforts
    Within existing budget constraints, and the myriad of competing 
technology needs of the criminal justice community, NIJ has been 
devoting on average $13 million per year to its CommTech portfolio. We 
are pleased to report that a remarkable amount of work has been done 
through focusing our investment. In addition to technology assistance, 
standards development and testing, NIJ has funded approximately 20 
research, development and demonstration projects per year.
    Among our accomplishments, NIJ funded the development of the 
Virginia Statewide Communications Interoperability Plan (SCIP), a 
national model for state-level planning and cooperation. NIJ worked 
closely with SAFECOM to develop the Virginia SCIP and continues to 
encourage the use of the SCIP methodology elsewhere in the nation.
    One of our most notable accomplishments in the public safety 
communications technology arena has been funding the development of the 
Computer Assisted Pre-Coordination Resource and Database System 
(CAPRAD). This tool aids more than 50 regional planning committees to 
plan and use regional frequency spectrum efficiently and to better 
manage potential interference near jurisdictional borders. NIJ also 
convened a National Task Force on Interoperability and published a 
guidebook and pamphlet: Why Can't We Talk that discussed the need for 
federal, state and local leadership on interoperability. This 
publication was developed to facilitate education and discussion among 
and between elected and appointed officials, their representative 
associations, and public safety representatives on public safety 
wireless communications interoperability.
    NIJ publishes a wide range of communications-related information 
for public safety professionals, such as the Understanding Wireless 
Guide, which provides a comprehensive discussion and explanation of 
communication systems for public safety. NIJ sponsored the development 
of a satellite link for the Alaska LMR system. This technology will be 
tested in other rural environments in the coming year under NIJ 
funding. The benefit of this technology in situations where the local 
communications infrastructure has been significantly degraded by a 
manmade or natural disaster is clear. However, its potential to address 
the more common needs of policing in rural environments with minimal 
communications infrastructure needs to be explored.
    Through CommTech, NIJ was responsible for development of the 
Metropolitan Interoperability Regional System (MIRS). MIRS is designed 
to meet the voice communication interoperability needs of the public 
safety agencies in the Metropolitan Washington, DC region. It is being 
used extensively by federal, state, and local law enforcement agencies 
to aid in communication for multiple agencies in high-profile events 
such as the Presidential Inauguration. The MIRS testbed has produced 
important national benefits to public safety by improving the 
understanding of the benefits of communications switching technology 
and the pitfalls involving effective implementation of such systems.
    CommTech pilot programs are unique in leveraging the participation 
of the vendor community by pairing a vendor with a public safety 
agency. NIJ partners with local law enforcement agencies and brings a 
specific technology to evaluate. This maximizes outcomes while 
simultaneously minimizing costs to the federal government. For example, 
NIJ is conducting a pilot program in VOIP in Danville, VA. NIJ is also 
exploring opportunities to initiate new pilots with SDR and wireless 
broadband technologies.
    A major part of the CommTech program is technology test and 
evaluation to provide unbiased information to the public safety 
community. NIJ serves as an independent evaluator, trusted partner, and 
honest broker. These evaluations also serve to point out technology 
gaps that need to be filled through further research and development. 
NIJ has administered standards-based testing programs for criminal 
justice practitioners for nearly 30 years, such as its body armor 
testing program. Because of NIJ's body armor standard, officers have 
confidence in the protection afforded by their personal protective 
equipment. Over 3,000 officers' lives have been saved by NIJ-compliant 
body armor.
    Public safety officials are making communications purchase 
decisions every day and assistance to evaluate the rapidly changing 
communications landscape. NIJ provides this in many ways including 
through our web site and publications such as the Why Can't We Talk 
guidebook and pamphlet, and our Technology In-Shorts documents.
    NIJ also actively responds to technology assistance requests that 
we receive from public safety officials across the country. In just the 
last two weeks, we have responded to a request to assist with 
development of a communications system in Katrina-affected Mississippi 
and Louisiana; a technology assistance request in Haverhill, MA; and 
participated in a meeting with San Joaquin, CA officials concerning 
communications needs. Last week, a captain of the Alexandria Police 
Department and a member of the CommTech team, along with staff from the 
National Law Enforcement and Corrections Technology Center- Southeast 
started to work with the Fredericksburg, VA Police and Fire Chiefs to 
establish interoperable communications via an interconnect switch and 
are addressing ways in which to optimize coverage without significant 
financial investment. Through the Sheriff's Association of Texas (SAT), 
NIJ has active and ongoing technology assistance requests with 26 
Brazoria County fire departments; Frio County, Webb County, Medina 
County, Caldwell County, and El Paso County Sheriff's offices; and the 
Middle Rio Grande Development Council of Governments. NIJ is also 
working with SAT to further develop communications operability and 
interoperability for state and local agencies along the entire 26 
county US-Mexico border.
    CommTech provides technical support to tactical operations. 
CommTech provided interoperability assistance in both the 2001 and 2005 
Presidential Inaugurations, Hurricane Rita response, the dedication of 
the World War II Memorial, and the Moussaoui trial. In May 2006, the 
CommTech Program will provide interoperability support for the opening 
ceremonies for the Woodrow Wilson Bridge via the development of an 
interoperability plan.
    NIJ provides a critical resource to other components of DOJ related 
to interoperability. NIJ works very closely with the COPS Office to 
support their grants review process. NIJ helped to fund the DOJ 
Interoperability Summit in Seattle in May, 2005 and will do so again in 
Austin next month (May 2006). NIJ has arranged for active sworn state 
and local law enforcement personnel, as well as interoperability 
technical experts, to support all of our federal partners in 
interoperability efforts.

Assistance to State and Local Practitioners
    NIJ's National Law Enforcement and Corrections Technology Center 
(NLECTC) system offers public safety agencies, both large and small, 
no-cost assistance in the implementation of current and emerging 
technologies. With a network of ten regional centers and specialty 
offices located across the country, the NLECTC system delivers 
expertise in a number of technologies including communication 
interoperability and information sharing. The NLECTC system plays a 
vital role in NIJ's CommTech efforts.
    The staff of the NLECTC system's Western Center (NLECTC-West) has 
supported CommTech by providing subject matter experts in the field of 
SDR. Also, Pima County Arizona asked NLECTC-West for technology 
assistance in developing a communication network. The various agencies 
in the county use different radio systems making mutual aide 
interoperability difficult or impossible. Additionally, radio coverage 
is poor due to the mountainous terrain. NLECTC-West drafted a technical 
requirements document for that communication system.
    The NLECTC system's Rocky Mountain Center houses the previously 
discussed CAPRAD database, which allows all 55 regional planning 
committees (RPC) to have access to tools to coordinate their frequency 
planning. The RPCs also provide feedback on the CAPRAD system for 
continuing improvement.

Conclusion
    The goal of improving public safety communications interoperability 
can only be achieved by dealing with the overall problem of 
operability. Focusing on interoperability as the only issue in first 
responder communications will not yield a result that will allow the 
responder to communicate or access information effectively.
    NIJ has, at the recommendation of its practitioner-driven TWG, 
focused on many aspects of first responder communication operability, 
including interoperability. With the support of the FCC, NIJ has funded 
Regional Planning Councils to address local spectrum issues. It has 
supported the development of CAPRAD to monitor and track first 
responder spectrum requirements and usage across the U.S. We have 
supported fundamental R&D in SDR and cognitive radios in order to 
address issues of operability as much as interoperability. We have 
worked closely with the vendor community to test and evaluate the 
products in a real world environment and NIJ provides ongoing 
technology assistance through our NLECTC system.
    Today, there are fundamental challenges to operability. SDR and 
cognitive radio technologies offer the promise to enhance 
communications capabilities within the current available spectrum 
allocations. Although new spectrum from the digital television 
transition will help, new technologies can help public safety to 
improve operability and interoperability for years to come. A single 
entity, or even the entire federal government, will not solve the 
interoperability challenge alone. There is overlap between the 
activities of the various federal partners for interoperability. Each 
represents a constituency with common as well as unique needs. Clearer 
delineation and better coordination among federal entities with respect 
to interoperability is what all of the agencies are striving to 
achieve. Although the challenges in public safety communications will 
take many years to solve, the federal government can best play a role 
by working towards the establishment of a comprehensive, coordinated, 
standards-based strategy.

    Mr. Reichert. Thank you. The Chair recognizes Mr. Orr.

    STATEMENT OF DERECK ORR, PROGRAM MANAGER, PUBLIC SAFETY 
  COMMUNICATIONS SYSTEMS, NATIONAL INSTITUTE OF STANDARDS AND 
                           TECHNOLOGY

    Mr. Orr. Thank you, Mr. Chairman. I am sincerely honored to 
be here this morning with you and the esteemed members of the 
subcommittee. This public safety communication program serves 
as the technical lead for several of the administration's 
initiatives focusing on communications, including SAFECOM and 
the COPS office, and although NIST is helping to improve public 
safety communications through a number of efforts, many of 
which other panelists have spoken of, I will focus the 
remainder of my remarks on the state of standards for public 
safety communications systems.
    Interoperability for public safety communications is 
defined as the ability to share information via voice and data 
on demand, in real time, when needed and as authorized. The 
public safety community expects this level of interoperability 
will be available using equipment from multiple manufacturers, 
be transparent to the user, require little or no special 
knowledge of the system and not be dependent on common 
frequency assignments. Obviously this is not what we have 
today.
    Achieving this definition of interoperability in the future 
will not be possible without the existence of standards. Of 
course, public safety radio users have recognized this for some 
time. Approximately 15 years ago representatives from local, 
state and federal agencies joined together to address the 
absence of available standards. They did this for two primary 
purposes. First was to ensure the interoperability could be 
achieved assuming the use of equipment from multiple 
manufacturers. Second, through standards, the public safety 
community wanted to be able to take advantage of cost 
reductions associated with the more competitive land mobile 
environment.
    The public safety community in the form of a P25 steering 
committee partnered with the Telecommunications Industry 
Association, TIA, to serve as the standards development 
organization for this effort. Thus, Project 25 or P25 as we 
know it today, was launched. A commonly misunderstood aspect is 
that it is comprised of a single standard. Instead, it is a 
suite of standards that specify the eight interfaces between 
the various components of a land mobile radio system. Handheld 
to handheld, handheld to mobile unit, mobile unit to tower.
    Until this past January, the last years had resulted in 
only one of the P25 interfaces, the common air interface that 
deals with the functions of the handheld units; i.e., the 
walkie-talkies, being advanced to a level where it would help 
satisfy one or both of the goals of P25. However, over the last 
year through the concerted efforts of industry, public safety 
practitioners and NIST and its federal partners, with the 
support of SAFECOM, the technical development of standards for 
the critical P25 interfaces has been greatly accelerated.
    Industry representatives with key involvement, like public 
safety practitioners, have dramatically increased the pace and 
scope of their standards development activities consistent with 
the priorities set by Congress. As a result, significant 
progress has been made through the formal standards development 
framework established by the P25 TIA partnership in 1993.
    Specifically, the most critical P25 radio system interfaces 
have all been addressed. Basic protocol standards that specify 
the functionality and capability of those interfaces have been 
completed and have been or are on the verge of being published. 
Adoption of P25 standards is now occurring within a timeframe 
acceptable to public users, NIST, and manufacturers.
    As of the March 2006 P25 meetings, the following has 
occurred: The Fixed Station Interface standard has been 
approved for publication as a TIA standard. The Fixed Station 
Interface standard also serves as a Basic Console Interface 
standard. The Inter-RF Subsystem Interface, ISSI, a key 
standard for interoperability, is in final stages of balloting 
and is expected to be approved by TIA during a May 1st P25 
meeting.
    I can report that state and local public safety agencies 
are already referencing the above standards in formal requests 
for proposals to industry and that manufacturers are in the 
process of building these standards into future land mobile 
radio product lines. In addition, Mr. Chairman, over the last 2 
years NIST, with funds from the Department of Homeland Security 
and Justice, has tested a number of the handheld P25 radios 
that claim to meet the widely available Common Air Interface 
standard. Using the test procedures called for in the 
standards, NIST found none of the available radios met all 
aspects of the standard.
    Therefore, NIST, with the support of SAFECOM and the P25 
steering committee, is developing a P25 Compliance Assessment 
Program. NIST is preparing and documenting standardized test 
protocols for the most important aspects of the Common Air 
Interface standard. The standardized test protocols will be 
provided to NIST's National Voluntary Laboratory Accreditation 
Program, which can accredit laboratories across the country 
interested in offering these testing capabilities. These will 
go a long way in assuring the community that the equipment 
being purchased meets the P25 standard.
    In summation, Mr. Chairman, there are positive steps being 
taken by leaders in the community, key Federal programs, the 
Congress and industry to significantly change the current 
environment and move the state of standards for public safety 
forward. By the end of May, there will be newly adopted P25 
standards covering three additional key interfaces which can be 
tied to grants and procurements. By the end of this calendar 
year, radio users will have a mechanism in place to ensure the 
products they are purchasing do what is called for in the 
applicable standards.
    Again, I am honored to be here before this committee today 
and I am happy answer any questions you may have.
    [The statement of Mr. Orr follows:]

                    Prepared Statement of Dereck Orr

                             April 25, 2006

    Thank you Chairman Reichert and Members of the Committee, I serve 
as the Program Manager for Public Safety Communications Systems in the 
Office of Law Enforcement Standards at the National Institute of 
Standards and Technology (NIST). NIST a non-regulatory agency within 
the U.S. Commerce Department's Technology Administration serves 
industry, academia, and other parts of the government by promoting U.S. 
innovation and industrial competitiveness by advancing measurement 
science, standards, and technology in ways that enhance economic 
security and improve our quality of life.
    NIST's public safety communications program serves as the technical 
lead for several Administration initiatives focusing on communications, 
most importantly the SAFECOM Program. NIST is involved in many of the 
key SAFECOM initiatives, including the Statement of Requirements, 
Public Safety Architecture Framework, testing and evaluation, and 
standards development. The strong partnership between SAFECOM and NIST 
is an excellent example within the Administration of multi-agency 
coordination and collaboration, and is something for which we at NIST 
are very proud. In addition, NIST relies heavily on the world-class 
engineering expertise of the Institute of Telecommunications Sciences 
within NTIA.
    I will focus the remainder of my remarks this morning on the state 
of standards for public safety communications systems.
    Interoperability for public safety communications is defined as 
``the ability to share information via voice and data signals on 
demand, in real time, when needed, and as authorized.'' The public 
safety community expects that this level of interoperability will be 
available using equipment from multiple manufacturers, that they are 
transparent to the user, requiring little or no special knowledge of 
the system, and that they are not dependent on common frequency 
assignments.
    Achieving this definition of interoperability is not possible 
without the existence of standards that will define how the various 
components of a public safety communications system will interoperate, 
regardless of manufacturer. In fact, I would venture to say that in the 
absence of standards, achieving this level of interoperability would 
not be possible.
    Public safety users have recognized this for some time. 
Approximately fifteen years ago, representatives from local, state, and 
federal public safety associations and agencies joined together to 
address the absence of available standards. They did this for two 
primary purposes. First was to ensure that interoperability could be 
achieved, assuming the use of equipment from multiple manufacturers. 
Second, through standards, the public safety community wanted to be 
able to take advantage of cost reductions associated with a more 
competitive land mobile radio market.
    Understanding the difficulty in specifying the complex operations 
of the various components of a land mobile radio system, the public 
safety community partnered with the Telecommunications Industry 
Association (TIA) to serve as the standards development organization 
(SDO) for this effort. Thus Project 25, or P25 as we know it today, was 
launched. A Memorandum of Understanding formalizing this relationship 
created a Steering Committee comprised only of public safety and 
government representatives and invested the committee with the sole 
authority to designate a P25 standard.
    A commonly misunderstood aspect of P25 is that it is comprised of a 
single standard. Instead, it is a suite of standards that specify the 
eight interfaces between the various components of a land mobile radio 
system (hand held to hand held, hand held to mobile unit, mobile unit 
to repeater, etc.):

        <bullet> Common air interface: this interface defines the 
        wireless access between mobile and portable radios and between 
        the subscriber (portable and mobile) radios and the fixed or 
        base station radios;
        <bullet> Subscriber data peripheral interface: this interface 
        characterizes the signaling for data transfer that must take 
        place between the subscriber radios and the data devices that 
        may be connected to the subscriber radio;
        <bullet> Fixed station interface: this interface describes the 
        signaling and messages between the RFSS and the fixed station 
        by defining the voice and data packets (that are sent from/to 
        the subscriber(s) over the common air interface) and all of the 
        command and control messages used to administer the fixed 
        station as well as the subscribers that are communicating 
        through the fixed station;
        <bullet> Console interface: this interface is similar to the 
        fixed station interface but it defines all the signaling and 
        messages between the RFSS and the console, the position that a 
        dispatcher or a supervisor would occupy to provide commands and 
        support to the personnel in the field;
        <bullet> Network management interface: this interface to the 
        RFSS allows administrators to control and monitor network fault 
        management and network performance management.
        <bullet> Data network interface: this interface describes the 
        RF subsystem's connections to computers, data networks, 
        external data sources, etc.;
        <bullet> Telephone interconnect interface: this interface 
        between the RFSS and the Public Switched Telephone Network 
        (PSTN) allows field personnel to make connections through the 
        public switched telephone network by using their radios rather 
        than using cellular telephones;
        <bullet> Inter RF subsystem interface: this interface permits 
        users in one system to communicate with users in a different 
        system, from one jurisdiction to another, from one agency to 
        another, from one city to another, etc.
    Until this past January, the last fifteen years had resulted in 
only one of the above P25 interfaces, the Common Air Interface that 
deals with the functions of the hand held units (i.e., walky-talky), 
being advanced to a level where it would help satisfy one or both of 
the goals of P25. The remainder of the interfaces had either remained 
undefined, or lacked enough specificity to allow for a common 
implementation of the interface; in other words each manufacturers 
implementation of the interface would be different and proprietary thus 
resulting in systems that would not meet the ``interoperability'' 
requirements as defined by the steering committee.
    I would like to emphasize that the Common Air Interface was a major 
step forward and extremely important. It provides a level of 
interoperability and competition in the hand-held market that was not 
available before. But, it alone cannot satisfy the definition of 
interoperability that the public safety community is calling for.
    However, over the last year, through the concerted efforts of 
industry, public safety practitioners, and NIST, with the support of 
SAFECOM, the technical development of standards for the critical P25 
interfaces has been greatly accelerated. Industry representatives, with 
key involvement by public safety practitioners, have dramatically 
increased the pace and scope of their standards development activities 
consistent with priorities set by Congress. As a result, significant 
progress has been made through the formal P25/Telecommunications 
Industry Association (TIA) standards development framework established 
by the P25/TIA partnership in 1993. Specifically, the most critical P25 
radio system interfaces have all been addressed. Basic protocol 
standards that specify the functionality and capability of these 
interfaces have now been completed and have been, or are on the verge 
of being published. The adoption of P25 standards is now occurring 
within a time frame acceptable to public safety users, NIST and its 
Federal partners, and the manufacturers.
    As of the March 2006 P25 meetings the following has been achieved 
to add to the existing P25 Common Air Interface:
        <bullet> Inter-RF Subsystem Interface (ISSI): A draft ISSI 
        standard was approved on January 11, 2006 for letter balloting 
        as a TIA standard. TIA anticipates that the vote for 
        publication will occur during a formal meeting on May 31, 2006. 
        The public safety community can expect ISSI products to be 
        available in 2007 (within approximately six months after 
        publication of relevant standards in 2006 consistent with 
        deadlines established by the P25 Steering Committee
        <bullet> Fixed/Base Station Subsystem Interface (FSSI): A 
        completed FSSI standard was approved on January 11, 2006 for 
        publication as a TIA standard. The realization of a TIA 
        standard for the FSSI is extremely important because this 
        standard will result in the offering and procurement of 
        interoperable multi-vendor equipment enabling direct control by 
        the console and Radio Frequency Subsystem (RFSS) of fixed/base 
        station equipment. The console functionality provided by the 
        FSSI substantially mitigates the urgency for completion of the 
        CSSI. The public safety community can expect FSSI products to 
        be available in late 2006 (within approximately six months 
        after publication of relevant standards in 2006 consistent with 
        deadlines established by the P25 Steering Committee).
        <bullet> Console Subsystem Interface (CSSI): Completion in 
        January 2006 of a new TIA standard for the FSSI that enables 
        direct basic console control of fixed/base station equipment 
        now serves as the foundation for more comprehensive CSSI 
        standards to be developed in the future. Further development of 
        the CSSI will follow upon continued development of the ISSI and 
        FSSI throughout calendar year 2006. The public safety community 
        can expect CSSI products to be available in 2007 (within 
        approximately six months after publication of relevant 
        standards in 2006 consistent with deadlines established by the 
        P25 Steering Committee).
    I can report that State and local public safety agencies are 
already referencing the above standards in formal requests for 
proposals (RFPs) to Industry and that manufacturers are in the process 
of adding these standards to future land mobile radio product lines.
    Of course, it is not only important that the various P25 interfaces 
are completed in a timely manner, but that a mechanism exist to ensure 
that products built to the standard, meet all of the requirements of 
the standard. Over the last two years, NIST, with funds from the 
Department of Homeland Security and the Department of Justice, has 
tested a number of the hand held P25 radios that claim to meet the 
available Common Air Interface Standard. Using the test procedures 
called for in the standard, NIST found that none of the available 
radios met all aspects of the standard.
    As with many other standards developed through the private sector 
consensus process, the key to correct adoption and implementation by 
different manufacturers is a strong conformity assessment program. A 
conformity assessment program will validate P25 standardized systems 
through a set of agreed upon tests which will validate that the systems 
can interoperate among themselves, thus ensuring Federal grant dollars 
are being used appropriately. NIST, with the support of SAFECOM and the 
P25 Steering Committee, is developing a P25 Conformity Assessment 
Program. NIST is preparing and documenting standardized test protocols 
for the most important aspects of the Common Air Interface Standard. 
The standardized test protocols will then be provided to NIST's 
National Voluntary Laboratory Accreditation Program (NVLAP), which can 
accredit laboratories interested in offering these testing 
capabilities. These test protocols would go a long way in assuring the 
public safety community that the equipment being purchased meets the 
P25 standard.
    NIST is working closely with the P25 Steering Committee and 
manufacturers to ensure that the test procedures are correct and that 
the results are accurate. In addition, not all aspects of the P25 
common air interface will be immediately available for testing through 
this program. To begin with, NIST is focusing on some basic functional 
tests of the radios, which will allow us to get the Compliance 
Assessment Program up and running. We will then begin to add 
interoperability tests, as well as tests for more complex radio 
functions.
    In summation Mr. Chairman, there are positive steps being taken by 
leaders within the public safety community, key federal programs, the 
Congress and industry to significantly change the current environment 
and move the state of standards for public safety forward. The last 
twelve months have seen significant progress in the development of 
critical P25 standards and the next twelve months will see even more 
progress made., In addition, by the end of this year, local, state, and 
federal agencies procuring P25 equipment will have a mechanism in place 
to ensure that the products they are purchasing truly do what is called 
for in the applicable standard. In conjunction with the other efforts 
mentioned by the other witnesses, I am confident that we are making 
significant headway in the pursuit of communications interoperability.
    NIST looks forward to working with this Committee, Congress, our 
federal partners, state and local public safety officials, and leaders 
in industry to make this happen. Again, I am honored to be here before 
this Committee today, and I will happy to answer any questions that you 
may have.

    Mr. Reichert. Thank you. Mr. Gass is recognized.

  STATEMENT OF JAMES GASS, DEPUTY DIRECTOR, NATIONAL MEMORIAL 
           INSTITUTE FOR THE PREVENTION OF TERRORISM

    Mr. Gass. Mr. Chairman, distinguished members of the 
committee, my name is Jim Gass and I am the Deputy Director of 
the National Memorial Institute for Prevention of Terrorism, 
MIPT for short. I have been there about 5 years, and I am also 
a member of the Interagency Board for Equipment Standardization 
and Interoperability and also have been for 5 years.
    Just a quick note on MIPT by way of background. We are the 
third component of the memorialization process that grew out of 
the Oklahoma City bombing, and it was the desire of the 
citizens that there be some institute that would be in the 
proactive business of developing technologies, and so forth, 
that would assist the responders either to prevent or better 
mitigate against terrorism, and we are grateful to Congress for 
our earlier appropriations. Those appropriations flowed 
through, interestingly, the Office of Science and Technology, 
NIJ, DOJ, and Dr. Boyd was our original Federal monitor.
    In that original appropriations language we were instructed 
among other things to conduct counterterrorism research and 
development, build Internet accessible best practices and 
lessons learned systems and institute a pilot project to 
develop a research development test and evaluation program 
similar to the Department of Defense systems. That guidance and 
our focus on emergency responders led us to create something 
called Project Responder, which given the threat from CBRNE we 
asked the full spectrum of responder disciplines what kinds of 
capabilities they needed, compared those needs to existing and 
emerging technologies, trying to discover where there were gaps 
in the research and development agenda.
    That project produced a national technology plan for 
emergency response to catastrophic terrorism. There was a 
complete section of that report devoted to, quote, unified 
incident command support and interoperable communications. I 
will draw some of my remarks from that study.
    A key finding of Project Responder was that technology 
already existed to achieve interoperable communications and 
concluded, quote, organizational changes, equipment/interface 
standards and practice/training may be more relevant than 
technology in solving some of the problems.
    Two years ago MIPT launched the Lessons Learned Information 
and Sharing System, LLIS.gov. In a quick review through that 
database, it is obvious that we have had problems with 
interoperable communications in just about every major 
terrorist incident and national disaster. There were 
communication problems in Oklahoma City, the World Trade 
Center, the Pentagon and of course Hurricane Katrina.
    Because of the Air Florida crash some years earlier, the 
Washington Metro area diligently worked to buy interoperable 
communications and had jointly practiced using them. So in some 
degree they were well ahead of a lot of the communities. And to 
the degree that the responders to the Pentagon were from that 
mutual aid area, it worked pretty well. The problem was more 
with the myriad of other responders that were not part of that 
habitual group. Of course Katrina was a different animal. It 
actually decapitated the local infrastructure, with much of it 
under water.
    So with all that background, why haven't we fixed the 
problem? I am speaking now as someone non-federal and outside 
the Beltway and with the perspective of having talked to 
responders and having absorbed with their concerns are. I 
believe the components to fixing the problem falls into five 
categories: National policies and strategies; frequency 
spectrum; national standards; a common operating picture; and 
resources for replacing/augmenting legacy systems.
    First, we need a national vision and strategy to achieve 
it. Jurisdictions buy equipment based on their own needs and 
resources. Without an overarching strategy we will keep doing 
what we are doing, and that may not contribute to a national 
interoperable plan.
    Second, there is the issue of frequency spectrum. Although 
Congress recently passed legislation that will allow access to 
the 700 megahertz spectrum, there will still be competition 
over how much and what parts to dedicate to the emergency 
response community. Access to that part of the spectrum is 
still 3 years away.
    Third, there is a lack of standards for interoperable 
communications. Progress is being made but it is painfully 
slow. By the way, I believe that standards must include not 
only technical elements but must also ensure that we have the 
necessary test procedures and protocols in place to allow for 
third party testing and certification. NIST is also working on 
that.
    We insist on certification testing for our responder 
personal protective equipment. We should do no less for the 
communications equipment. I think SAFECOM also advocates that 
and is pushing that as well.
    Fourth, we need to think about how to establish a common 
operating picture. I mentioned I was in the Army for 30 years. 
We always had--we had a set of what we called signal operating 
instructions, SOIs, which enabled everybody who came into an 
area of operations to know who to call and on what frequency 
based on their level of command and function. While it may be 
desirable to have the capability for everybody to be able to 
talk to everyone else, that would be chaotic and not how we 
would want to operate. We should predetermine who should talk 
to whom and provide the information about how to do that in 
advance of an incident.
    Fifth, and after we have all of the above we will have to 
deal with the issue of phasing out all of the legacy systems. 
With the millions of communications systems in existence today, 
we will have to go about that smartly or we may spend enormous 
amounts of resources. There already exists several bridging/
gateway technologies that can help us through that phase into 
standards-compliant communications systems.
    In summary, we believe that the real challenge here is not 
about new technology, it is about Federal leadership and 
providing interference-free spectrum, clear standards with real 
certification for equipment, and assistance in developing 
effective communications plans and incident management 
processes.
    Mr. Chairman, this concludes my remarks. I am happy to 
answer any questions.
    [The statement of Mr. Gass follows:]

                  Prepared Statement of James M. Gass

    Mr. Chairman, and distinguished members of the committee, my name 
is Jim Gass and I thank you for this opportunity to appear before you. 
I am the Deputy Director of the National Memorial Institute for the 
Prevention of Terrorism (MIPT) in Oklahoma City and have been with MIPT 
for more than five years. Prior to joining MIPT, I served 30 years in 
the United States Army.
    MIPT is the third component of the Memorial of the bombing of the 
Alfred P. Murrah Federal Building, April19, 1995. It was created in 
response to the victims', family members', responders' and citizens' 
desires to have an Institute dedicated to proactive efforts to prevent 
terrorism or better mitigate its effects.
    Since our inception, our primary focus has been on projects to 
improve the preparedness of emergency responders. We are grateful to 
Congress for originally supporting us with appropriations in our early 
years. Initially, our awards were made through the National Institute 
of Justice, Department of Justice, but with the formation of the 
Department of Homeland Security, we have received additional 
discretionary awards to continue our programs.
    Language in some of our earlier Congressional Appropriations Bills 
charged us with doing a number of things. I would like to restate a few 
of those because they provide some underpinning to my remarks about the 
critically important subject this committee is hearing today. These 
bills instructed us to conduct counterterrorism research and 
development; create an Internet repository where emergency responders 
can share best practices, observations, and lessons learned; and to 
institute a pilot project to develop an RDT&E system similar to the 
Department of Defense System.
    This guidance and our desire to focus our own research agenda on 
emergency responders, led us to conduct an effort we called Project 
Responder which produced a report titled ``National Technology Plan for 
Emergency Response to Catastrophic Terrorism. Project Responder 
evaluated needed capabilities as stated by the responders themselves, 
studied the state of current technology and provided information that 
could help inform federal and private sector research and development 
agendas. Unified Incident Command Decision Support and Interoperable 
Communications was a significant part of the capabilities needed by 
responders. In addition to the clear increases in capability that 
interoperable communications would provide, many other highly desired 
and needed functional capabilities could be enabled by interoperable 
communications. These functional capabilities are currently not 
available, but could be achievable at low technological risk. These 
include 1) point location and identification to help incident 
commanders know where their personnel and equipment are at any given 
time, 2) seamless connectivity to aid when multiple agencies and 
jurisdictions work together at a site, and 3) information assurance to 
ensure the availability of information, as well as what is 
communicated, not be compromised by adversaries during a crisis. 
Providing command information and dissemination tools and multimedia 
functional capabilities were also identified by Project Responder, but 
were not as highly prioritized as the previous three. One of our key 
findings was that technology already exists to achieve interoperable 
communications. New research and development into communications 
technologies is not needed to solve interoperability. Instead Project 
Responder concluded that ``organizational changes, equipment/interface 
standards, and practice/training may be more relevant than technology 
in solving some of the problems.'' I will return to these points later 
in my testimony.
    I welcome the opportunity to talk to you today about the issue of 
communications interoperability and its importance to the response 
community. The ability to communicate is essential for local emergency 
responders and the State and Federal officials who assist them. But too 
often in major disasters our ability to communicate with one another 
has been impaired. At Oklahoma City in 1995, at the World Trade Center 
and the Pentagon on September 11, 2001, and in the countless other 
emergencies that our emergency responders face everyday, communications 
interoperability problems not only make their jobs more difficult, but 
risk the lives of the both victims and responders.
    Unfortunately, these are not new problems. One of MIPT's most 
important goals is to promote the sharing of lessons learned and best 
practices within the emergency response community. Two years ago MIPT 
launched the Lessons Learned Information Sharing (LLIS.gov) system, the 
national network for lessons learned and best practices. A quick glance 
on LLIS.gov shows several lessons learned related to communications 
interoperability. For example, during the response to the attack on the 
Pentagon in 2001, mutual aid personnel arrived at the scene with radios 
that could not communicate--or easily be reprogrammed--with either the 
Arlington County Fire or Police Departments. And the DC Metro area was 
probably years ahead of most jurisdictions in moving toward 
interoperability. With the communications system, technical personnel, 
and cellular phone networks quickly overloaded during the initial 
response to the World Trade Center attacks, emergency responders were 
forced to rely on foot messengers to communicate during the first few 
hours of operations.
    The response to Hurricane Katrina further highlighted 
communications interoperability as a significant problem in the 
response--at the Federal, State, and local level. The after-action 
report The Federal Response to Hurricane Katrina--Lessons Learned 
concludes that communication plans and assets were neither sufficient 
nor adequately integrated to respond effectively to the disaster. Many 
available communications assets were not utilized fully because there 
was no National, State-wide, or regional communications plan to 
incorporate them. Officials from national leaders to emergency 
responders on the ground lacked a common interoperable communications 
infrastructure to provide the necessary situational awareness so 
critical to a prompt and effective response. The Select Bipartisan 
Committee to Investigate the Preparation for and Response to Hurricane 
Katrina found that ``issues with interoperability among Federal, state, 
and local communications systems complicated the efforts of first 
responders and government officials to work together in managing the 
response to Katrina.''
    Because communications problems have appeared as a ``lessons 
learned'' in almost every major terrorism event or major natural 
disaster, why haven't we fixed it? It's because some of the components 
of fixing it are incredibly complex and incredibly expensive. I believe 
the components of the fix falls into five categories: (1) National 
Policies and Strategies; (2) National Standards; (3) Frequency 
spectrum; (4) Resources for replacing legacy systems; and (5) a common 
operating picture.
    Let me give a brief discussion of each:
    First, I believe that we must, as a nation, develop a set of 
comprehensive policies or strategies that lay out a national 
interoperable communications vision. Jurisdictions across the country 
follow their own guidelines regarding communications systems and 
equipment based upon their own resources and needs. Some areas of the 
country have established regional or state communications systems that 
link State and local agencies. But Federal policies and strategies are 
needed to guide decision makers at all levels of to strive for a 
national solution to the interoperability problem.
    Second, there is also a lack of national standards for 
interoperable communications. A recent report released by Inspector 
General of the Department of Homeland Security found that no new 
standards have been issued since February 2004. National interoperable 
communications standards must be developed in order to provide guidance 
to state and local jurisdictions on acceptable and required equipment 
and systems. The Responder Knowledge Base, another key MIPT program, 
provides information on adopted equipment standards and certifications 
to the emergency response community and will quickly disseminate 
information on new interoperable communications standards as it becomes 
available. There is work underway to develop these standards called 
P25, but there are complex issues associated with that effort. The 
constant advances in technology make this a moving target. Just imagine 
that if ten years ago, we had decided to assign national standard to 
computers. We might well have been stuck in the 286 mode instead of 
Pentium 2 or 3. Having said that, it still is not an excuse for not 
setting a minimum standard to meet emergency response interoperability 
needs based on currently available technology knowing that in a few 
years (or months) you may have adjust them based on the advances. And, 
I believe that we must insist on independent third party testing to 
assure compliance with the standards.
    Third, we must, as a nation, decide how much and in which frequency 
spectrums we need to give exclusive domain to the emergency response 
community. It is my understanding that we have a good idea about that, 
but those spectrums are currently occupied and buying out the spectrum 
to dedicate to emergency response is both a legal and expensive 
problem. I'm not an expert on that but I have read that the figure to 
buy out spectrum short of current agreements is in the billions.
    Forth, and only after we have national standards, we must consider 
the amount of resources that would be required to replace all of the 
non-compliant communications in the nation and who should pay. Most 
communications capability resident in the local jurisdictions have been 
purchased with local dollars and designed to meet local needs as best 
envisioned by local leaders. Once we have national standards, how do we 
phase out the old and phase in the new. I don't know the exact number 
of communications devices there are in the nation, but if we have 
upwards of 8,000,000 responders and even half of them are equipped with 
communication equipment, replacing them all would be a staggering 
amount and doesn't answer the question about who would have the primary 
responsibility for the cost burden--Federal, state or local? 
Jurisdictions across the country do not have the resources available to 
do an immediate upgrade to existing systems and equipment. Project 
Responder found that ``jurisdictions have existing radios and support 
tower infrastructure and do not have the money to upgrade them''. Once 
we have national standards and certification testing, I have to believe 
that when new equipment is purchased, even with local money, 
jurisdictions would go in the direction of standards compliant 
equipment.
    Fifth, I believe we must procedurally standardize how and with whom 
we must communicate. This is definitely not a technology issue--it is a 
procedures issue. Even if we had perfect ability for everybody to 
communicate with everybody else, it doesn?t mean that is how we would 
want to operate. We must determine in advance who needs to talk to whom 
and provide them with the information about how to link their 
communications based on the function(s) being performed. I mentioned 
that I came from an Army background. We used to have Signal Operating 
Instructions (SOIs) which provided all the players in the area of 
operations predetermined information about how to contact other people 
based on the levels of command and functions being performed. These 
SOIs contained the frequencies and call signs of all of the 
participants who might enter the area of operations. No one had to 
search for information about how to contact the appropriate people to 
engage their capabilities. As the National Response Plan, the National 
Incident Management System and mutual aid agreements mature and are 
practiced, this process will become clearer. But it is one of the 
reasons Project Responder suggested that ``organizational changes, 
equipment/interface standard and practice/training may be more relevant 
than technology in solving some of the problems.''
    Mr. Chairman, this concludes my written statement. I am happy to 
answer any questions that you or the members of the subcommittee may 
have.

    Mr. Reichert. Thank you very much. Mr. Walker is 
recognized.

STATEMENT OF BRUCE WALKER, CHAIRMAN, SUBCOMMITTEE ON GOVERNMENT 
    AFFAIRS, HOMELAND SECURITY AND DEFENSE BUSINESS COUNCIL

    Mr. Walker. Good afternoon, Chairman Reichert, Ranking 
Member Pascrell, and distinguished members of this 
subcommittee. My name is Bruce Walker and I work for Northrop 
Grumman Corporation. Today I am testifying on behalf of the 
Homeland Security Defense Business Council and our 30-plus 
member companies. I serve as the Chair of the Government 
Relations Committee and have had the privilege of delivering 
and developing a number of Homeland Security topical briefings 
to the committee staff over the last year.
    The Homeland Security Defense Business Council is a 
nonprofit, nonpartisan organization that represents good 
governance and successful program outcomes in the Homeland 
Security marketplace. The Council offers straight talk and 
honest assessments of programs, technologies and processes 
integral to the mission of the Department of Homeland Security. 
The Council's goal is to be a world class private sector 
component and partner to the public sector in all significant 
areas of homeland security, to include risk mitigation, mission 
effectiveness and management efficiency.
    The Council appreciates the opportunity to present our 
industry perspective on the state of interoperable 
communications today. I would like to begin with a brief 
summary of the Council's recommendations to Congress.
    First, in order to get it right, interoperability is more 
than just technology. It is standards and money. Federal, 
State, local, tribal and even private sector participants also 
need to deal with business process changes and user training 
issues and the long-term investment model changes required to 
successfully leverage interoperability.
    While we are talking about leverage, interoperability is 
really about leverage. Applying interoperable communications to 
today's safety and first responder communities opens the 
aperture to new applications in technologies and voice, data 
and video. These need to be designed to deliver higher value, 
tactically significant information at the point where it is 
going to do the most good.
    Third, we believe that more emphasis needs to be placed on 
the governance layer of the SAFECOM interoperability continuum. 
The focus has been centered around technical and spectrum 
issues. More engagement of the practitioner community for 
developing practical models is something we need to do to 
address the real issues of multiplayer interoperability.
    Finally, we believe there needs to be more complete 
engagement of industry, especially national players in DOD 
systems, where RDT&E programs eligible for inclusion in the DOD 
1401 Technology Transfer Program can be used to address SAFECOM 
initiatives.
    For many public safety organizations interoperability is 
best seen from a cost and timeline perspective. The more 
affluent organizations have access to current generation 
capabilities at a faster pace and are able to deploy and 
sustain systems that leverage flexible spectrum use and more 
efficient use for weight and power usage. Those with more 
modest budgets extend existing systems as far as possible in 
order to delay the need to reinvest. Yet, the costs of 
sustaining the legacy environment increase every year and 
reinvestment becomes more and more difficult to achieve.
    One of the core difficulties occurs when communities need 
coordinated responses from organizations on either end of this 
budget reality. The 2004 release of the SAFECOM statement of 
requirements for wireless public safety communications 
interoperability established the structure, explained the need, 
and describes the future operational model for everyone to 
shoot for. Certainly all good things, but the practical funding 
reality makes this a very challenging objective.
    What is missing is guidance and governance on how to get 
there. Budget formulation options, grant applications support, 
business process, training and operation overhauls are all 
needed services in order to make SAFECOM's vision a reality at 
the national level. Private industry also needs to be included 
in the picture.
    Clearly it makes sense to apply resources and funding in 
urban areas where the threat is the highest. But ignoring the 
need to upgrade, integrate and train rural and remote 
communities moves the SAFECOM vision to the right. Small border 
state communities and internal communities alike need to 
interoperate with their urban counterparts, particularly in 
situations where regional response capabilities are stretched 
beyond the breaking point.
    The SAFECOM SoR provides need direction to the challenge. 
It gives both government and industry access to the leverage 
mentioned in the second of our recommendations. Industry 
directly benefits from the SoR because it allows us to design 
critical research and development efforts with interoperable 
demand.
    Public safety and other first responder organizations 
benefit from the establishment of a standards baseline upon 
which they can base sourcing and selection decisions. Clearly 
these are again all good things but the real measure of success 
will be in the integration and the deployment of new 
capabilities directly addressing new threats of terrorism and 
old threats, like national disasters.
    The new application horizons that interoperability offers 
are critical components in ensuring the safety and security of 
our country. The ability to provide integrated command and 
control across multiple responders with different technology 
baselines or the ability to locate first and then dispatch 
critical resources and material to specific locations will make 
huge differences in our ability to respond to potentially 
disastrous events. These applications come from many sources, 
not the least of which is DOD, and aggressive reuse of 
technologies developed to support our troops in foreign 
operational theaters. They need to be accelerated wherever 
appropriate because the investment in R&D has already been 
made. Public safety and first responder environments are not 
the same as foreign operational theaters and solutions need to 
be carefully vetted to make sure they are used as well as any 
unintended consequences of their use meet our laws and fit 
business and operational needs of the user community.
    That concludes the remarks I have today, sir. Glad to 
answer any questions.
    [The statement of Mr. Walker follows:]

                 Prepared Statement of Bruce V. Walker

                             April 25, 2006

    Good afternoon, Chairman Reichert, Ranking Member Pascrell, and 
distinguished members of the subcommittee. My name is Bruce Walker and 
I am with Northrop Grumman Corporation. Today I am testifying on behalf 
of the Homeland Security and Business Council and our 30+ member 
companies. I serve as the Chair of our Government Relations Committee 
and have had the privilege of developing and delivering a number of 
topical briefings to the Committee? staff over the last year.
    The Homeland Security & Defense Business Council is a non-profit, 
non-partisan organization that represents good governance and 
successful program outcomes. The Council offers ``straight talk'' and 
honest assessments of programs, technology, and processes that are 
integral to the mission of the Department of Homeland Security. The 
Council's goal is to be a world class private sector component and 
partner to the public sector in all significant areas of homeland 
security to include risk mitigation, mission effectiveness, and 
management efficiency.
    The Council appreciates the opportunity to present our industry 
perspective on the state of interoperable communications.
    Let me begin with a brief summary of the Council's recommendations 
to Congress:
        (1) In order to ``get it right'', interoperability is more than 
        technology, standards and money. Federal, state, local and 
        tribal governments as well as the private sector also need to 
        deal with the business process changes, end-user training 
        issues, and the long term investment model changes required to 
        successfully leverage interoperability.
        (2) Interoperability is also about leverage. Applying 
        interoperable communications to today's public safety and first 
        responder communities opens the aperture for new technologies--
        voice, data, video--and new applications designed to deliver 
        higher value, tactically significant information at the point 
        where it will do the most good.
        (3) We believe that more emphasis needs to be placed on the 
        ``governance'' layer of the SAFECOM Interoperability Continuum. 
        Although the focus on the various interoperability initiatives 
        has been centered around technical and spectrum issues, more 
        engagement of the practitioner community for developing 
        practical and effective governance models is something that we 
        need to do to address that real issues of multi-player 
        interoperability.
        (4) Finally, we believe there needs to be more complete 
        engagement of industry, especially national players in DoD 
        systems, where RDT&E programs eligible for inclusion in the DoD 
        1401 Technology Transfer program can be used to address SAFECOM 
        initiatives.
    For many public safety organizations, interoperability is best seen 
from a cost and timeline perspective. The more affluent organizations 
have access to current generation capabilities at a faster pace and are 
able to deploy and sustain systems that leverage flexible spectrum use 
and more efficient designs for weight and power usage. Those with more 
modest budgets extend existing systems as far as possible in order to 
delay the need to reinvest--yet the costs of sustaining the legacy 
environment increase every year and reinvestment becomes more and more 
difficult to achieve.
    One of the core difficulties with this model occurs when 
communities need coordinated responses from organizations on either end 
of this budget reality. The 2004 release of the SAFECOM Statement of 
Requirements (SoR) for Wireless Public Safety Communications and 
Interoperability, established the structure, explained the need, and 
describes a future operational model for everyone to shoot for--
certainly, all good things--but the practical funding reality makes 
this a very challenging objective. What is missing is guidance and 
governance on how to get there. Budget formulation options, grant 
application support, business process reengineering support, training 
and operations overhauls--are all needed services in order to make the 
SAFECOM vision a reality at a national level. Private industry also 
needs to be included in the picture--particularly in relation to the 
critical infrastructure under their control and management.
    Clearly it make sense to apply resources and funding in urban areas 
where the threat is the highest, but ignoring the need to upgrade, 
integrate and train rural and remote communities just moves the SAFECOM 
vision to right. Small border state communities and internal 
communities, alike, need to interoperate with their urban 
counterparts--particularly in situations where regional response 
capabilities (i.e., Katrina) are stretched beyond the breaking point.
    The SAFECOM SoR provides needed direction and dimension to the 
interoperability challenge. It also gives both government and industry 
access to the leverage mentioned in the second of our recommendations. 
Industry directly benefits from the SoR architectural perspective 
because it allows us to align critical research and development efforts 
with interoperability demand. Public safety and other first responder 
organizations benefit from the establishment of a standards baseline 
upon which they can base their sourcing and selection decisions. 
Certainly, these are again, all good things--but the real measure of 
success will be in the integration and deployment of new capabilities 
directly addressing both new threats of terrorism and old threats like 
natural disasters.
    The new application horizons that interoperability offers are 
critical components in ensuring the safety and security of our country. 
The ability to provide integrated command and control across multiple 
responders with different technology baselines, or the ability to first 
locate and then dispatch critical materials and resources to specific 
locations, will make huge differences in our ability to respond to 
potentially disastrous events. These applications come from many 
sources, not the least of which, is the DoD and aggressive reuse of 
technologies developed to support our troops in foreign operational 
theatres should be accelerated, wherever appropriate, because the 
investment is R&D has already been made. This is not suggest, however, 
that DoD technologies are immediately applicable. Public safety and 
first responder environments are not the same as a foreign operational 
theatre and solutions need to be carefully vetted to ensure that their 
use (as well as any unintended consequences of their use) meet our laws 
and fit the business and operational needs of the user community. For 
example, systems requiring fixed infrastructures that incur high 
sustainment costs are not likely to be economically viable for internal 
US deployment.

    Mr. Reichert. Thank you, sir. Thank the witnesses for their 
testimony and I have a couple of questions and we will move to 
the other members.
    We heard on both panels some common themes, and I think 
that Mr. Gass, is that how I would pronounce it correctly, kind 
of summed it up for me in the five points that he made with 
national security frequency spectrum, lack of standards, common 
operating structure would be, if I understood that correctly, 
would be incident command sort of a structure, and then the 
phaseout of the legacy systems, which some of the other 
witnesses have testified to.
    I understand there is no silver bullet and all of these 
five are in process and have been for years, but I asked the 
last panel, the first panel this question, and I want to pose 
it to the members of this panel. Is there any one thing that we 
can commit to right now today that needs to be done that is 
foremost in your minds, or all five of these equally have to be 
pursued right now? Is there something today you would jump on 
if you were given direction?
    Mr. Morgan. If I may, Mr. Chairman, I think that the number 
one recommendation that I would make to you is to recognize, 
and certainly NIJ recognizes, in the U.S. we have 19,000 law 
enforcement agencies, 4,500 correctional agencies, several 
hundred crime labs, innumerable social agencies which are part 
of this picture, and that doesn't include public safety and the 
commercial sector that would be involved. So you have an 
enormously complex policy environment in which to solve the 
interoperability problem. And so, the first thing to do is take 
a deep breath and realize it is going to be a long-term problem 
to put in the basic foundations in terms of standards and 
policies necessary to provide for interoperability to be in 
public safety, not next year, not in 5 years, but over the long 
haul. And if you take a long-term view and you execute policies 
that reflect that, I think you will be very successful in the 
long-term.
    Mr. Reichert. Anyone else?
    Mr. Boyd. I would like to suggest that probably the most 
important thing you can do is exactly what this committee has 
been doing now I think for the last 2 or 3 years. I first got 
involved in interoperability when we were supporting PSWAC back 
in 1993. At that time there was an occasional member, might be 
occasional article, staffer who would ask questions about 
interoperability.
    The intensity of interest on the part of this committee 
isn't just remarkable, I think it is incredibly important to 
the public safety community. I frankly think that is the most 
important first step, and I would ask you not to stop.
    Mr. Reichert. Well, I might just take a moment to comment 
on that. We aren't going to stop. When we started this process 
several months ago we made a commitment to the people in our 
first hearing that we were going to help to solve this problem, 
and a lot of it I think stems from all the hard work that was 
done before I got here and certainly my personal interest in 
those who wear the badge. Firefighters and first responders and 
police officers across this Nation I have a close relationship 
with, as you well know. So we will continue our fight and help 
you in any way that we can.
    I have just noticed now, out of law enforcement and a 
Member of Congress, that sometimes things move quite a bit 
slower and need to be nudged quite a bit. So if you hear a 
little bit of urgency in our questions and a tone of 
impatience, I know that you will understand that because it 
does, as Ranking Member Pascrell has mentioned earlier, we are 
talking about lives here. Just think about that for a moment. 
It has been going on for years. That is how important this is.
    I think that, Mr. Gass, you really have captured in your 
testimony some very important thoughts. And I am interested, as 
you said, you are outside the Beltway and have a different 
perspective. Having listened to the two panels and their 
testimony, do you have a better sense really that there is a 
promising federally coordinated effort in putting together all 
the five critical aspects that you have described for us in 
your testimony?
    Mr. Gass. Yes, sir. I believe they are going in the right 
direction. I wish some of it had started sooner and was further 
along. All indications are that the brethren have gotten 
together and they have come to these conclusions and most of 
the Federal agencies are acting in accordance, having heard 
those issues from the responders, and trying to go in the right 
direction.
    I was familiar with--was on the Standards Coordinating 
Committee of the IAB and my interest was on personal protective 
clothing and equipment standards, specifically respirators. It 
became painfully obvious to me just coming into this business 
just how cumbersome is the standards development process, 
especially if you have to go through the formal rule making 
process. Thankfully, NIOSH short cutted that and did it by 
policy and we got there in a couple of years instead of 5 or 6 
years.
    But this whole standards development process maybe takes 
longer than it should. That is just perhaps my observation. I 
think we are well along that way but I do also think the 
important thing is that at the end of it, whatever standards we 
have also calls for testing and certification. I think we do a 
disservice if we allow the manufacturers to self-test and say 
we are good. We need to assure the response to the community 
that what they are bringing to the table is what they say it 
is.
    Mr. Reichert. I agree.
    Mr. Pascrell.
    Mr. Pascrell. Mr. Chairman.
    Mr. Morgan, to what extent does the NIJ comply with the 
Homeland Security Act mandating use of voluntary consensus 
standards?
    Mr. Morgan. As you may know, Mr. Pascrell, NIJ actually has 
authority under the Homeland Security Act to promulgate 
standards for law enforcement and other criminal justice 
agencies, and our most notable standard in that case is the 
body armor standard, and we are very proud of it. We have had 
our 3,000th save of a law enforcement officer from body armor. 
So NIJ is very, very committed to standards development across 
the law enforcement arena and has for many years contributed to 
the support of the P25 effort and other standards development 
efforts within the communications area.
    We also coordinate very, very closely with both SAFECOM and 
NIST in all of our technology and research development efforts, 
and I can say that we are very, very impressed and would like 
to congratulate the work that NIST is doing not only in the 
standard development process but also the critical component, 
which is the compliance assurance process which is necessary, 
we have found, in other law enforcement equipment areas to 
ensure that the standards aren't a hollow shell.
    Without compliance testing you don't know whether those 
manufacturer claims of compliance are true or not. So NIJ very 
much supports those kinds of activities and incorporates it in 
all of our 17 different investment areas for technology, 
research and development for criminal justice.
    Mr. Pascrell. How does, for instance, the National 
Institute of Justice hold vendors accountable?
    Mr. Morgan. The primary way that we have to hold them 
accountable is through the standards and compliance assurance 
process. We are obviously, even within the Federal picture for 
criminal justice, a fairly small player. We don't even 
necessarily have nearly the money of a Bureau of Justice 
Assistance to purchase equipment and things of that nature. We 
do have that hook of whether a particular piece of equipment 
meets the particular NIJ standard in an area. So, for example, 
going back to body armor, the Bullet Proof Vest Partnership 
program requires NIJ compliance for all body armor that is 
purchased with Federal funds. The NIJ standard has been 
successful in that area because the vast majority of State and 
local governments will call that out in their procurements.
    They have learned through hard experience over many, many 
years that not having NIJ compliance for their body armor is a 
real problem from a quality assurance perspective in keeping 
the officers safe. I think that the public safety community is 
going to see over the next few years the importance of that 
same philosophy with respect to purchasing communications 
equipment, they see the compliance assurance programs and 
standards development programs of NIST under P25 and other 
standards mature.
    Mr. Pascrell. Thank you very much.
    Mr. Orr, the National Institute of Standards and 
Technology, do you think that the labs that you have to work in 
order to assess the technology are adequate, are they updated 
constantly, are they outdated?
    Mr. Orr. I think the labs that we have are certainly 
adequate. I think we have a world class laboratory environment 
in NIST both in Gaithersburg, Maryland, and out in Boulder, 
Colorado. The work that was originally done over the last, say, 
3 years to determine the issues regarding the P25 standards and 
its implementation and the P25 subscriber units, what that 
taught us is that, one, obviously there needs to be some kind 
of objective testing of the products.
    The second thing it taught us is, we do not have enough 
money to do that testing nor do we have enough staff to test 
all the various products that are available. So the compliance 
assessment program that we are currently working on in 
partnership with the public safety community's association 
leadership that is involved in P25, as well as industry, is 
going to have industry and the manufacturers pay for testing of 
that equipment in certified accredited laboratories.
    So in the future the tests will not be done at NIST. The 
tests will be done at accredited laboratories paid for by the 
manufacturers themselves.
    Mr. Pascrell. Thank you. I am glad you pointed that out. It 
is very important, I think.
    Mr. Gass, according to your testimony there is a lack of 
leadership, and that is the main reason why the Nation has not 
progressed in using the technology available to improve 
interoperable communication.
    What Federal incentives would you propose to move State and 
local jurisdictions in the direction of standard compliance, 
standards compliance?
    Mr. Gass. I believe that once we have those standards out 
there and a means to test and certify them, when the local 
jurisdictions make their decisions on equipment to purchase, 
they will go in that direction whether we are talking Federal 
dollars or their local dollars. We do not have that now, so 
they will buy their communications equipment based on their 
local jurisdictional needs and resources and budgets. But once 
we begin to shape in this vision and have a set of standards, I 
think they will fall in line and want to go that way. And then 
all we have to worry about is, Okay, how do we transition from 
here and now to the objective state?
    Mr. Pascrell. Thank you.
    I have one final question if I may, Mr. Chair.
    Mr. Walker, your testimony calls for an increased private-
sector role; you want to improve that role, you want to 
increase that role with regard to securing critical 
communication infrastructure.
    There have been many instances when private industry has 
been hesitant to detail their plans because of propriety 
issues. How are we going to adjust that?
    Mr. Walker. I think it is a critical issue, but at the same 
point in time, the infrastructure that we are responsible for 
operating as a part of our businesses is managed and provides a 
security cordon of our own that is necessary for the insurance 
that we can continue that business. They are the first line of 
defense if there is an attack on those facilities.
    Public safety responds primarily to the people that are 
there who are already in a security mode, and not having those 
people connected to those same kinds of public safety systems 
means that the response coordination is delayed until public 
safety actually arrives at the location.
    When you look at port facilities or some of the other truck 
transfer facilities that we as an industry are responsible for 
managing and maintaining, the availability and the 
responsiveness of those private security forces is a key 
component of the way we can defend and detect.
    So, yes, there is a propriety issue and, yes, there is 
probably an issue with respect to the way the law is actually 
applied to those private security forces in the commission of 
their own responsibilities; but having access from an 
interoperability perspective is something we think is an 
important goal.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Reichert. Again, just a follow-up question or two just 
to come at this issue just a little bit differently. This panel 
is saying clearly that technology is not the problem; 
technology exists to solve the interoperability problem. Is 
that a correct statement? Yes.
    So what is the problem? I came at you before. What do we 
need to do? What is the problem? We have technology out there.
    I know we have already rehashed some of this. Is it 
leadership within the Federal Government that you are looking 
for?
    Mr. Boyd. I think clearly that is part of it. Part of what 
we are trying to do is work with States to help them understand 
how to do this so that they can build statewide plans that are 
really supported from the ground up.
    One of challenges, I think, at the Federal level is that we 
sometimes think that we can push a solution down. What we need 
to do is pull a solution up. We need to have them design it at 
the bottom level.
    Your department, your sheriffs department, for example, had 
its own mission and its own citizens and its own requirements 
to meet. We need to figure out how we protect that mission and 
at the same time provide both incentives--and sometimes those 
incentives just amount to helping people understand why they 
are useful to them to begin to cooperate with adjacent 
jurisdictions. In fact, some places have done that really well 
already; some have not.
    Mr. Walker, I think, really hit the nail on the head. The 
toughest of all the nuts to crack, but the most important, is 
governance because that requires leadership at the local agency 
and political level; and it requires commitment to agree, a 
commitment to work together.
    Mr. Reichert. I can identify with that problem very 
personally. To get people to work together, 38 police 
departments within King County and the turf wars that might 
cause is a huge problem to overcome. I understand that.
    Dr. Morgan.
    Mr. Morgan. It is absolutely true that technology is not 
the problem. Technology does exist today that if the United 
States were a unitary place without thousands and thousands of 
jurisdictions you could deploy systems that were interoperable, 
there is no question.
    However, I just want to add one thing about that, and that 
is, technology development, research and development, can play 
a contributing role to solutions in certain locations and 
certain ways that can be helpful. It is a multifaceted problem; 
you will have multifaceted solutions. And every solution, 
because all the problems have grown up from unique situations 
in the State and local arenas where they exist today, you are 
going to need a variety of different kinds of technology 
solutions to be able to make interoperability happen over the 
long haul.
    Mr. Reichert. Thank you.
    Just one quick question. So working with the State 
government officials and local police departments and counties 
and sheriffs departments, sheriffs offices, you also have to 
work with yourself, so you have NIST and the Federal Government 
and NIJ and SAFECOM.
    Do NIST and NIJ and SAFECOM meet? Do you all meet? How 
often do you all meet? You have a meeting right after this 
hearing, right?
    Mr. Orr. At a bar. I meet up with the members of SAFECOM, 
NIJ. We attend each others' program meetings that occur usually 
quarterly. We see each other at various open standards meetings 
that we go to. I show up downtown and meet with the staff of 
these offices probably once a week.
    But NIJ and SAFECOM come to our program reviews. I go to 
SAFECOM's and NIJ's, and SAFECOM goes to NIJ's and ours. So we 
are very coordinated and, in fact, share a lot of resources.
    My staff helps peer review of NIJ's programs and SAFECOM's. 
We get funding from SAFECOM; we get funding from NIJ. There is 
a lot of coordination and a lot of cooperation from them.
    Mr. Reichert. Mr. Pascrell, any additional questions?
    I thank the witnesses for their valuable testimony and the 
members for their questions. The members of the committee may 
have some additional questions for the witnesses and we will 
ask that you respond to these in writing. The hearing record 
will be open for 10 days.
    Mr. Reichert. Without objection, the committee stands 
adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
